<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009 

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________

                         SUBCOMMITTEE ON DEFENSE

                 JOHN P. MURTHA, Pennsylvania, Chairman
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 PETER J. VISCLOSKY, Indiana        DAVID L. HOBSON, Ohio
 JAMES P. MORAN, Virginia           RODNEY P. FRELINGHUYSEN, New Jersey
 MARCY KAPTUR, Ohio                 TODD TIAHRT, Kansas
 ROBERT E. ``BUD'' CRAMER, Jr.,     JACK KINGSTON, Georgia
   Alabama                          KAY GRANGER, Texas
 ALLEN BOYD, Florida
 STEVEN R. ROTHMAN, New Jersey
 SANFORD D. BISHOP, Jr., Georgia    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Linda 
   Pagelsen, Adam Harris, Ann Reese, Tim Prince, Brooke Boyer, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 2
                                                                   Page
 Fiscal Year 2009 Department of Defense Budget Overview...........    1
 U.S. Marine Corps Readiness......................................   83
 Army Readiness...................................................  139
 Missile Defense Agency...........................................  189
 Shipbuilding.....................................................  291
                                ________

         Printed for the use of the Committee on Appropriations
















         PART 2--DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009


                                                                      
















             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________

                         SUBCOMMITTEE ON DEFENSE

                 JOHN P. MURTHA, Pennsylvania, Chairman
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 PETER J. VISCLOSKY, Indiana        DAVID L. HOBSON, Ohio
 JAMES P. MORAN, Virginia           RODNEY P. FRELINGHUYSEN, New Jersey
 MARCY KAPTUR, Ohio                 TODD TIAHRT, Kansas
 ROBERT E. ``BUD'' CRAMER, Jr.,     JACK KINGSTON, Georgia
   Alabama                          KAY GRANGER, Texas
 ALLEN BOYD, Florida
 STEVEN R. ROTHMAN, New Jersey
 SANFORD D. BISHOP, Jr., Georgia    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Linda 
   Pagelsen, Adam Harris, Ann Reese, Tim Prince, Brooke Boyer, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 2
                                                                   Page
 Fiscal Year 2009 Department of Defense Budget Overview...........    1
 U.S. Marine Corps Readiness......................................   83
 Army Readiness...................................................  139
 Missile Defense Agency...........................................  189
 Shipbuilding.....................................................  291
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 46-474                     WASHINGTON : 2009

                      COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       C. W. BILL YOUNG, Florida
 CIRO RODRIGUEZ, Texas              JERRY LEWIS, California
 NORMAN D. DICKS, Washington        RALPH REGULA, Ohio
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JAMES T. WALSH, New York
 NITA M. LOWEY, New York            DAVID L. HOBSON, Ohio
 JOSE E. SERRANO, New York          JOE KNOLLENBERG, Michigan
 ROSA L. DeLAURO, Connecticut       JACK KINGSTON, Georgia
 JAMES P. MORAN, Virginia           RODNEY P. FRELINGHUYSEN, New Jersey
 JOHN W. OLVER, Massachusetts       TODD TIAHRT, Kansas
 ED PASTOR, Arizona                 ZACH WAMP, Tennessee
 DAVID E. PRICE, North Carolina     TOM LATHAM, Iowa
 CHET EDWARDS, Texas                ROBERT B. ADERHOLT, Alabama
 ROBERT E. ``BUD'' CRAMER, Jr.,     JO ANN EMERSON, Missouri
   Alabama                          KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island   JOHN E. PETERSON, Pennsylvania
 MAURICE D. HINCHEY, New York       VIRGIL H. GOODE, Jr., Virginia
 LUCILLE ROYBAL-ALLARD, California  RAY LaHOOD, Illinois
 SAM FARR, California               DAVE WELDON, Florida
 JESSE L. JACKSON, Jr., Illinois    MICHAEL K. SIMPSON, Idaho
 CAROLYN C. KILPATRICK, Michigan    JOHN ABNEY CULBERSON, Texas
 ALLEN BOYD, Florida                MARK STEVEN KIRK, Illinois
 CHAKA FATTAH, Pennsylvania         ANDER CRENSHAW, Florida
 STEVEN R. ROTHMAN, New Jersey      DENNIS R. REHBERG, Montana
 SANFORD D. BISHOP, Jr., Georgia    JOHN R. CARTER, Texas
 MARION BERRY, Arkansas             RODNEY ALEXANDER, Louisiana
 BARBARA LEE, California            KEN CALVERT, California
 TOM UDALL, New Mexico              JO BONNER, Alabama
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida

                  Rob Nabors, Clerk and Staff Director

                                  (ii)


 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009 
                              ----------                   
                                     Wednesday, February 13, 2008.

         FISCAL YEAR 2009 DEPARTMENT OF DEFENSE BUDGET OVERVIEW

                               WITNESSES

HON. GORDON ENGLAND, DEPUTY SECRETARY OF DEFENSE
ADMIRAL MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT CHIEFS OF STAFF
HON. TINA W. JONAS, UNDER SECRETARY OF DEFENSE (COMPTROLLER)

                     Opening Remarks of Mr. Murtha

    Mr. Murtha. We want to welcome my good friend Gordon 
England to the Committee; also Ms. Jonas and the Chairman of 
the Joint Chiefs welcome to the Committee. I want to say, Mr. 
Secretary, that I am sure that Secretary Gates got good care at 
Walter Reed. And one of the reasons is because when Bill Young 
was Chairman we poured good money into Walter Reed. I remember 
going to Walter Reed years ago, not years ago, I guess a year 
and a half ago, and visited a friend of mine who had cancer. 
And he was in an un-air-conditioned room and they had a 
temporary air-conditioner. And the maintenance was not up to 
par. And we kept asking--Bill Young would ask, and I would ask, 
Jerry Lewis would ask when he was Chairman, What do you need? 
And they were hesitant under the former Secretary in order to 
answer those questions, because they felt like they would be 
restricted or constricted by the policy. We put the money in 
anyway. And I think the care is much better. I know the 
facilities--when I visit it now, I see a much better facility.
    The amputee center is another example. We put money in, and 
it was a couple of years before we could get the money released 
in order to go forward. And yet they have done as good a job in 
that amputee center as they did in Texas where they spent a lot 
more money. This young major that handled that did a marvelous 
job in handling the overall work of the construction and making 
sure they had it. And, of course, most of the amputees come 
through Walter Reed.
    The concerns that I have is the readiness is slipping and 
we are having to violate our own guidelines. And you have heard 
me say this over and over again. We have had to waive more 
troops than we have ever waived before. We got less high school 
graduates in the system than we ever have before.
    And I heard under the volunteer Army that we needed high 
school graduates. And I know this: that when I left the Marine 
Corps in 1955, and I went back in 1966, there was very little 
change. Today the change is so different. I mean, the 
technology is so great, you have to really be well prepared. I 
haven't yet heard the same complaints I heard after the Vietnam 
War where people were inadequately prepared. I worry that that 
is going to happen if we continue to reduce the standards.
    At one time we wouldn't even take tattoos, only high school 
graduates. Now it went from 94 to 79 percent high school 
graduates. And, of course, we waive twice as many people today 
with criminal records, with drug problems, than we did before. 
And I hope we are not going to get to the point where we were 
in the Vietnam--or after the Vietnam era, where we had to get 
rid of thousands and thousands of people who were inadequately 
prepared. Admiral Mullen remembers this, because I am sure he 
was part of the establishment that got rid of people during 
that period of time.
    Now, I received a letter. When Secretary Gates was before 
the committee last year he said, I want to get rid of stop 
loss. And we got rid of stop loss. I am not going to ask you a 
question now, but I know we haven't gotten rid of stop loss.
    A young fellow wrote to me and he said, I am on my fourth 
deployment. Yet I asked the staff to check with the Department 
to see how many people hadn't been deployed and they said 37 
percent have not been deployed in the Army. And so he is on his 
fourth deployment. He said he knows somebody else on his fifth 
deployment.
    One deployment in Vietnam, having been there, I know how 
tough it was on the family, on me. Two deployments, three 
deployments, we have to get this down so that these folks have 
some family time. And yet we added money unanimously in this 
committee to take care of the families, and you cut it by 39 
percent.
    Now, I know you were under constraints, and you have to 
make a decision based on the amount of money you get. But I see 
the families and I see the kids, I see the children in the 
schools that are suffering from those extended deployments. It 
is frustrating for us who have been in the forefront of trying 
to make sure you have what you need.
    For instance, we put $70 billion in a couple of years ago 
when Mr. Young was the Chairman. We couldn't even get the 
Department to tell us how to spend the money. You remember 
this. We had a heck of a fight trying to figure out exactly how 
to spend the money.
    It has gotten better. Secretary Gates is a breath of fresh 
air. We welcome him in. And every time I say that, I get claps 
from all over the place when I am talking to a group because 
they are so happy to see a new face in the Department.
    But our troops deserve better, and I would hope that we can 
work together. We have got two supplementals this year. I am 
sure one is going to be $200 billion and one is going to be 
$100 billion. I am sure we can work together with your advice, 
with the Chairman of Joint Chiefs' advice, in coming up with 
a--not only Iraq, but looking beyond Iraq.
    The one thing I am disappointed in is to see the Secretary 
say, well, we haven't used the F-22 in Iraq and Afghanistan. 
Well, I understand that, but we have got to look beyond that, 
and we have to decide is there a threat big enough that we need 
to keep the F-22 line going. And I have seen what you have 
said, but I think we have to look at the threat down the road, 
because some of it is going to still be here next year and the 
year after that.
    I am not predicting that anybody is going to attack us, but 
our committee has tried its best to make sure that it is always 
bipartisan. The $550 billion we passed for the war, I voted for 
every penny. Even though I disagree with the policy, I still 
voted for every penny. And most of the Members on the Committee 
have voted for every penny of that war. So we may disagree 
about policy, but we certainly want to try to work in a 
bipartisan manner to solve some of these problems.
    With that I recognize Mr. Young for any statement he may 
have.

                      Opening Remarks of Mr. Young

    Mr. Young. Well, Mr. Chairman, thank you very much. And I 
want to welcome Secretary England and Admiral Mullen and Ms. 
Jonas for what could prove to be an interesting day. And the 
reason I say that is because I read your statements last night, 
statements prepared by Secretary Gates, and also Admiral 
Mullen. And you have touched on not only immediate issues of 
today, but you have talked about requirements, problems, 
possible solutions into the future. And I think that is good 
because we have a lot of--we do have a lot of work to do.
    Once we are not involved with Iraq, or in Afghanistan, we 
have an awful lot of rebuilding to do. And it is essential that 
we do that quickly and it is essential that we do that 
properly. But we also have to do a lot of rebuilding with the 
most important part of our military capability, and that is the 
men and women who wear the uniform and who use the equipment 
that we are talking about. And so we will get into some of the 
questions on those issues after your testimony.
    But I must say that I was just tremendously impressed with 
the depth and the detail that both statements went into as I 
read them last night and earmarked--maybe I shouldn't say 
earmarked--but I earmarked a couple of the pages that I wanted 
to come back to, and I reread this morning. So I will have some 
interesting questions about those issues.
    And, Mr. Secretary, if you would please express our 
condolences to Secretary Gates about his accident and his 
injury, and we hope that he recovers quickly.
    We are happy you are here. We appreciate the job that you 
do and your commitment to our young men and women who serve our 
country. Thank you, Mr. Chairman. 
    Mr. Murtha. Mr. Secretary, if you will, we will put your 
full statement in the record, Admiral Mullen's full statement 
in the record, without objection. And, Ms. Jonas, summarize 
your comments for us.

                 Summary Statement of Secretary England

    Mr. England. Mr. Chairman, thank you very much, and Mr. 
Young and members of the committee. Mr. Chairman, if I could 
just make a comment, I do have the statement, the verbal 
statement by Secretary Gates, and I would like to just give 
that verbatim for him, if you don't mind.
    I also want to comment on your comments regarding Walter 
Reed. You are right, we did not have that right. I believe we 
do have it right, or close to right, now. And a lot of great 
work has been accomplished this year. But I do thank the 
committee.
    In a number of areas, by the way, you had it right and we 
didn't, and I thank you for that. Regarding the Army recruiting 
and readiness in terms of graduates and waivers, I can tell you 
this is at the very highest level of attention by Secretary 
Gates. I mean, obviously, we need a high-quality force. Quality 
is much more important than quantity in this military. And so 
it has his attention. I can tell you he tracks it, monitors, 
has this discussion regularly, so he is exactly where you are 
on these issues.
    So, if you would allow me. By the way, Mr. Young, you are 
right. I will tell you, more than anyone else in Washington, I 
am anxious for the Secretary to be back on the job. So he 
definitely has my best wishes to get well quickly.
    So with your permission, I would like to read his opening 
statement, please.
    Mr. Chairman, members of the subcommittee, first let me 
thank you for your continued support of our military for these 
many years. I appreciate the opportunity to discuss the 
President's defense budget request for fiscal year 2009.
    Before getting into the components of the budget, I thought 
it useful to consider this request in light of the current 
strategic landscape, a landscape still being shaped by forces 
unleashed by the end of the Cold War nearly two decades ago.
    In recent years, old hatreds and conflicts have combined 
with new threats and forces of instability, challenges made 
more dangerous and prolific by modern technology. Among them, 
terrorism, extremism and violent jihadism; ethnic, tribal and 
sectarian conflict; proliferation of dangerous weapons and 
materials; failed and failing states; nations discontented with 
their role in the international order; and rising and resurgent 
powers whose future paths are still uncertain.
    In light of this strategic environment, we must make the 
choices and investments necessary to protect the security, 
prosperity and freedom of Americans for today and for future 
generations. The investment in our military being presented to 
this committee is $491 billion out of a total Department of 
Defense request of $515.4 billion. That is because there are 
some of the moneys under other jurisdictions. When combined 
with war costs, the total defense budget request is about 4 
percent of our gross domestic product. And this compares to 
spending, as you have heard, levels of spending of GDP during 
the Korean War of about 14 percent, and about 9 percent during 
Vietnam. So these are large amounts of money, but fortunately 
our economy has grown. So hopefully we are still at an 
affordable level.
    Our fiscal year 2009 request is a 7\1/2\ percent increase 
or $35.9 billion over last year's enacted level. When 
accounting for inflation, this translates into a real increase 
of about 5\1/2\ percent. The difference consists of four main 
categories, which are outlined in more detail in the 
Secretary's submitted statement.
    Overall, the budget includes $183.8 billion for overall 
strategic modernization, including $104 billion for procurement 
to sustain our Nation's technological advantage of recurrent 
and future adversaries; about $158 billion for operations, 
readiness and support to maintain a skilled and national 
fighting force; about $150 billion to enhance quality of life, 
and that is for paid benefits, health care and other services 
earned by our all volunteer force; and approximately $20 
billion to increase ground capabilities, and that includes 
growing the Army and the Marine Corps and that alleviates some 
of the issues that you discussed, Mr. Chairman, in terms of 
growing our forces. It also includes almost $6 billion for 
military construction. And the budget includes new funding for 
critical ongoing initiatives, such as global training equipped 
to build the security capacity of our partner nations and 
security and stabilization assistance, foreign language 
capabilities and our new AFRICOM Command.
    In summary, this request provides the resources needed to 
respond to current threats while preparing for range of 
conventional and irregular challenges that our Nation may face 
in the years ahead. In addition to the base budget, our request 
includes $70 billion in emergency bridge funding that would 
cover war costs into the next calendar year. And a more 
detailed request will be submitted later this year when the 
Department has a better picture of what level of funding will 
be needed.
    Now, the 2007 National Defense Authorization Act requires 
the Department of Defense to provide an estimate of cost for 
the global war on terror, and we would like to be fully 
responsive to this request. And in fact, last year I was--the 
Secretary was voluntarily responsive to a similar request.
    Now, some have alleged that the administration has taken 
this position in order to somehow hide the true cost of the 
war, and nothing could be further from the truth. The 
Department has been very open about what we know about our 
costs, as well as what we don't know. So the challenge we face 
is that a realistic or meaningful estimate requires answers to 
questions that we don't know, such as when and if the 
Department will receive the request of $102.5 billion balance 
of the fiscal year 2008 supplemental war request, and for how 
much. And what, if any, adjustments at troop levels in Iraq 
will result from the upcoming recommendations of General 
Petraeus, Central Command, and the Joint Chiefs of Staff.
    We should also keep in mind that nearly three-quarters of 
the fiscal year 2009 supplemental request will likely be spent 
in the next administration, thus making it even more difficult 
to make an accurate projection.
    I have worked hard during my time in this job to be 
responsive and transparent to the Congress. Nothing has 
changed. But while I would like to be in a position to give you 
a realistic estimate of what the Department will need for the 
fiscal year 2009 supplemental funds, I simply cannot at this 
point.
    As I just mentioned, Congress has yet to appropriate the 
remaining balance of last year's war funding request. This 
delay is degrading our ability to operate and sustain the force 
at home and in theater, and it is making it difficult to manage 
this Department in a way that is fiscally sound. The Department 
of Defense is like the world's biggest supertanker; it cannot 
turn on a dime and cannot be steered like a skiff. So I urge 
approval of the fiscal year 2008 GWOT request as quickly as 
possible.
    Mr. Chairman, with your indulgence, and in closing, I do 
want to take a moment to thank you and the subcommittee. Last 
year and this year, it became clear to me that you had serious 
concerns over how well the Department was dealing with the 
large presence of contractors on the battlefield. A year later, 
I must tell you that most of your concerns were well-founded. 
We have discovered a number of problems, from alleged criminal 
activity to lax management to inadequate legal and contractual 
controls. As a result of investigations by the IG and the Army, 
we will increase the number of contracting officers in Iraq 
from 63 this past fall to over 300 by this April. Thirteen 
individuals have been convicted of wrongdoing and 91 additional 
investigations are ongoing. We are holding people in positions 
of responsibility accountable. I know we have been keeping you 
apprised of our efforts to better manage contractors on the 
battlefield, and I welcome the opportunity to discuss this 
topic further.
    We have made significant progress in bounding the problem 
and taking concrete action to address resource management and 
procedural shortfalls. However, credit is due to the many 
Members who raised this issue last year. You properly 
identified this as an area needing my attention, and I thank 
you.
    And Mr. Chairman, if I can add also, I recall a 
conversation with you where you recommended we add 1,000 
contracting personnel, and my view was we needed 1,000 
acquisition personnel. Well, it turned out we were both right. 
But you are absolutely right; we did need more contracting 
personnel. I just wasn't aware of it at the time. So I thank 
you for that because we have also addressed that issue.
    So I thank you for the opportunity to provide the comments 
for Secretary Gates. Thank you, sir.
    [The statement of Secretary Gates follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murtha. Admiral Mullen.

                  Summary Statement of Admiral Mullen

    Admiral Mullen. Good morning, Chairman, Representative 
Young, distinguished members of this Committee. Thank you for 
the opportunity to appear before you today. And I, like 
Secretary England, want to just express my great appreciation 
for all you have done and the constancy of your oversight, 
passion, concern and support. It means an awful lot and it has 
made a big difference.
    I am honored to join--and actually my prepared script here 
says Secretary Gates, who couldn't be here--but Secretary 
England and two individuals whom I greatly admire and 
appreciate more than words can capture, serving with them in 
these very, very challenging times and discussing with you the 
President's fiscal year 2009 budget submission, and more 
broadly, the state of our Armed Forces.
    Let me speak for just a moment about the latter. The United 
States military remains the most powerful and most capable 
military on the face of the Earth. No other nation has or can 
field or put to sea the superb combat capabilities resonant in 
our Army, Navy, Air Force, Marine Corps, and, I would add, our 
Coast Guard. This stands as a testament, of course, to the 
brave and talented women and men who serve--Active, Reserve, 
Guard and civilian, as well as their families.
    I have been on record as saying they are the finest I have 
ever seen. I meant it then and I mean it now. Each trip to the 
field, each visit to a base and each hospital bed I stand 
beside only reaffirms that for me. I know many of you have also 
made such visits and can attest to the same. And so I also 
believe our enormous strength speaks well of the hard work of 
this committee and the Congress as a whole, as it does of the 
American people who through you, their elected Representatives, 
have invested heavily and wisely in our national defense.
    We are grateful. We will continue to need that support. For 
however powerful our Armed Forces may be today, that power is 
not assured for tomorrow. That is why the budget we submitted 
last week contains more than $180 billion for strategic 
modernization, including $3.6 billion for the Army to continue 
developing the future combat system and $3.4 billion to procure 
20 more F-22 fighters and $6.5 billion to fully fund continued 
development and testing, as well as production of the 16 F-35 
joint strike fighters.
    That is why it calls for money to continue building the 
next generation aircraft carrier and guided missile destroyer, 
increased spending on missile defense as well as the funding to 
complete the stand up of AFRICOM. And it is why we asked for 
more than $20 billion to increase the size of the Army and the 
Marine Corps.
    There are those who say that there isn't much new in this 
budget, no big surprises. Maybe so. Quite frankly, we ought to 
take a little bit of pride in that, because it says to me that 
we looked pragmatically at all of our requirements, we did our 
homework and that from a fiscal prospective we have a good 
handle on where we want to go.
    You know, a reporter recently reminded me, as investments, 
budgets are really a type of strategy. If that is so--and I 
believe it is--this budget reveals great balance in our 
strategy for the future; a realization that as we continue 
fighting in this long war and developing our counterinsurgency 
warfare capabilities, we must also prepare for, build for, and 
train for a broad spectrum of traditional warfighting missions.
    A few weeks ago I was called to testify before the House 
Armed Services Committee about our progress in Afghanistan. I 
told them then that we were seeing only mixed progress and that 
Afghanistan was, by design, an economy of force operation. I 
told them we do what we can there.
    I stand by those comments, even as more than 3,000 Marines 
prepare to deploy there and even as Secretary Gates continues 
to press our NATO allies for more support.
    In Iraq things are going well, no question. Violence is 
down, business is up. Al-Qaeda is clearly on the run, and the 
political progress is beginning to move forward. Ambassador 
Crocker and General Petraeus deserve a lot of credit for their 
leadership and their results. So do all those men and women who 
have made a difference. The surge of forces we sent them and 
their innovative applications of counterinsurgency tactics have 
markedly improved the security on the ground and created the 
opportunity for progress in the economy and on the political 
front. As both men have made clear, this progress is tenuous 
and must be very carefully watched.
    And I am sensitive to their concerns as we continue 
bringing the surge brigades home. Conditions on the ground 
count. But tenuous too, sir, are the long-term risks we take 
with our security commitments elsewhere in the world if we do 
not address the toll ongoing combat operations is taking on our 
forces, our gear, our people and their families. The well is 
deep, but not infinitely so. We must get Army deployments down 
to 12 months as soon as possible. People are tired. We must 
restore our Marine Corps expeditionary capabilities. They are 
dangerously on the wing. We must stay dominant at sea, in 
space, as well as cyberspace.
    Others are beginning to pace us in the speed of war; 
likewise, they are beginning to pace us in the technology that 
is being fielded. We must do a better job identifying and 
treating not only the wounds we see, but also the wounds we do 
not see. Too many of our returning warriors suffer in silence. 
This budget, by the way, allocates $41.6 billion to enhance 
quality of life and provide world-class health care for the 
entire force.
    We must honor military families by enhancing GI bill 
benefits' transferability, broadening Federal hiring 
preferences for military spouses, and expanding child care 
benefits in appreciation for their many sacrifices. And we must 
remain persistently engaged around the globe, building 
partnership capacity, improving international and interagency 
cooperation and fostering both security and stability.
    That is why I urge Congress to enact the authorities in the 
Joint State Department/Defense Department Building Global 
Partnerships Act. And that is why I urge this committee to 
appropriate the remaining $102.5 billion of the 2008 GWOT 
supplemental as soon as possible.
    The art of war, not unlike the business of governing, is 
about choices. Military leaders must make hard choices every 
single day. Choices that affect the outcome of major battles, 
the well-being of whole nations, and the lives of potentially 
millions of people.
    As we head into this new year with fresh assessments of our 
progress in Iraq, a new push in Afghanistan, and our continued 
fight in the long war against violent extremists, as we 
consider the depth and the breadth of traditional capabilities 
we must improve, please know that I and the Joint Chiefs remain 
committed to making informed decisions, careful choices, and 
choices which will preserve at all times and in all ways our 
ability to defend the American people.
    Thank you Mr. Chairman, and I look forward to your 
questions.
    [The statement of Admiral Mullen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jonas. No statement.


                          supplemental funding


    Mr. Murtha. Well, I appreciate the comments by the 
Secretary and the Chief. We hope we will have the supplemental 
ready for leadership's consideration by the end of March at the 
very latest. Well, by the end of February actually. So we hope 
that--we don't know what consideration it will be because that 
is a leadership decision, but it will be ready. We are looking 
at it now. We are working with the Department, trying to come 
up with what we feel is a balanced program for next year. It 
used to be it was only O&M, but now we have gotten into 
procurement. So it is a little bit different today and it will 
be a little bit different than you requested.
    Mr. England. That would be most helpful, Mr. Chairman. I 
appreciate your speedy action here because this would be most, 
most helpful to the Department.
    Mr. Murtha. Well, we know how important it is because we 
know from a planning perspective you need the money in place so 
you can fulfill contracts and so forth.
    Mr. England. Yes, sir.
    Mr. Murtha. But you mentioned taking care of the troops; 39 
percent less for the programs which we added last year; taking 
care of counseling, taking care of children in the schools and 
so forth. What do we call that program? Family advocacy.
    These troops not only suffer themselves, but the thing they 
talk about--and when I was in Afghanistan just last weekend, 
the commander said, We worry about the families. And, as you 
know, that is the major concern of these troops: Are their 
families being taken care of?
    I go down to Bragg, Stewart and some of those places, and 
they tell me the kids are suffering, the hospitals weren't 
paying as much attention to the families as they should have 
been. The administrator says they were. Then I went to the 
wives club, who happened to be meeting, and they said, no, we 
can't get in as quickly as we would like. So we worked it out 
with the president of the club to call us periodically to make 
sure we got that worked out.
    So we keep putting money in, trying to make sure they have 
what they need. And we hope the Department will understand that 
those are a priority with us. Not only the troops in the field, 
but the families themselves. And we will add that money back, 
or at least I will make that recommendation to the 
subcommittee.
    With that I will ask, Mr. Young, any questions?

                            WOUNDED WARRIORS

    Mr. Young. Mr. Chairman, thank you very much. The last 20 
years Mr. Murtha was Chairman of this subcommittee, then I was 
Chairman of the subcommittee, then Mr. Lewis was Chairman of 
the subcommittee, and then I was Chairman of the subcommittee 
again. And now Mr. Murtha is Chairman again. But in that time, 
I don't believe that the Defense Department could tell the 
difference, because we all worked together to provide what our 
Nation needed and what the members of our military needed, 
without any regard to politics, partisanship or anything like 
that.
    And I am satisfied that we will do the same thing again 
this year, working with you, Mr. Secretary, and Mr. Chairman, 
working with you to determine what the needs really are and to 
provide them.
    Last year we did have, as Mr. Murtha pointed out, we had 
some policy differences. We may have those policy differences 
again this year. I am not sure of that. But we did have policy 
disagreements. But it did not affect the ability of this 
Committee to provide what, working with you, we determined was 
needed for the security of the country. And we will do that 
again. The hardware that you need, the equipment that you need, 
training and training facilities that you need, we are going to 
do that.
    But one thing that continues to weigh on my mind, and 
Admiral Mullen made the statement, that our people are tired. A 
lot of our folks have been hurt in Iraq and Afghanistan. And 
military medicine is really good. We have taken some hits, we 
have taken some complaints about the fact that maybe we didn't 
do enough, maybe we didn't do it right. But military medicine 
is pretty good. And Mr. Murtha and I and most of the members of 
this Committee have visited our wounded warriors at the 
military hospitals, especially here at Walter Reed-Bethesda. My 
wife, I know she bothers you all the time about problems that 
she finds at the hospitals, but she spent a lot of time there 
and she is really committed to these young kids and their 
families.
    And I wanted to just mention, last week Beverly and I both 
went to Camp Pendleton and we visited the Wounded Warrior 
Battalion at Camp Pendleton. And it was quite an emotional time 
because we found Marines there who were in that battalion that 
we had worked with them and their families when they were in 
the hospitals here in Washington. And I will tell you, that was 
quite an emotional time.
    But at Walter Reed-Bethesda, the Wounded Warrior Battalions 
and all of this is just really the first step, because when 
they go into the follow-on system, VA system, I am not so sure 
that the VA system was prepared, frankly, to handle the 
tremendous seriousness of some of these cases. So what I would 
ask you to do, Mr. Secretary, or Mr. Chairman, what about the 
wounded warriors? Tell us--the equipment is worn out, it is 
going to be fixed, it is going to be replaced or reconstituted 
or reset, as the admiral's statement says. What about resetting 
and reconstituting the human beings who wore the uniform, who 
made the sacrifices and who got hurt? And I know in your heart 
your commitment. But tell us something about what we should 
expect to hear from you to work with you to take care of these 
wounded warriors.
    Mr. Murtha. Will the gentleman yield? We have a vote on 
right now. If some of the members will go and vote, we will try 
to continue the hearing without a pause. But you folks go vote, 
and then I will go over later on. Mr. Young.
    Mr. England. Mr. Young, if I could just try first, then I 
will turn it over to the Chairman. Last year we put together, 
myself and Gordon Mansfield put together a group called the 
Senior Oversight Council. We brought in all the senior military 
people, civilians from DoD and also VA. We met literally every 
week. At that time last year, there were eight studies, 
including Dole-Shalala, which was in the process of coming out. 
We examined every single recommendation of every single study. 
And, for example, in the area of PTSD and TBI, there were over 
300 composite recommendations which we went through every 
single one in detail and used that to craft the way forward for 
both DoD and for VA, so that we would have seamless care 
between the two departments and to make sure that we had the 
right level of care for the departments.
    And this Committee was extraordinarily generous, as I 
recall, had $900 million they put forward for PTSD and TBI. And 
Dr. Casscells, I know, came up and personally met a number of 
times with Members, et cetera. So I will tell you that this is 
at the highest level of attention of the Department of Defense 
and also the VA.
    And we have put together programs, care coordinators, for 
example. Everything recommended by Dole-Shalala, everything 
that we could do ourselves we have implemented or are in the 
process of implementing. So we have worked to have individual 
care people. Of course, we have improved a number of case 
managers, a number of people who take care of everyone.
    We have already started the Center of Excellence for PTSD 
and TBI. And as you know, that will eventually move to the new 
campus facility. It will be at the Walter Reed-Bethesda new 
facility.
    Ninety million dollars is being spent by the Fisher 
Foundation because, frankly, we want other investment, we want 
the American people involved. And that will be a center to 
literally link all the VA and all the DoD centers of research 
and universities and hospitals across the country so that we 
get the absolute best care the Nation can deliver. Not just 
within DoD, not just within VA, but literally across the 
Nation.
    So we are reaching out to everyone who has worked in this 
area so that we can do the very best the Nation can do for our 
men and women in uniform. Whatever their problem, whether it is 
physical, mental, whatever, I mean we are trying to bring all 
those resources together.
    So I mean, a lot of this started with this Committee a 
year, 2 years ago. And I believe that we have responded very 
positively in this regard. And this will be a long-term effort, 
literally, between the Congress, between the best America can 
provide in terms of medical and psychological help, and the VA 
and DoD. So I believe this has the senior attention and we are 
making significant progress for our people. And I will have the 
Chairman make a comment.
    Admiral Mullen. Thank you, sir.
    Mr. Young, Secretary Gates has pretty clear guidance. The 
first priority is get the best people, the right people, to the 
fight. The second priority is take care of everybody that is 
wounded and the families. And it has been both within that 
guidance that an awful lot has been--and quite frankly, a view 
that was expressed by this Committee many years ago. I can 
remember when this war first started, actually. And so we have 
done an extraordinary amount.
    But to me that is a beginning. And this is a long-term, 
very difficult challenge. And if I were going to lay it out, my 
view is that we need to figure out as a country how to take 
care of these young people whose lives have changed forever in 
a way that takes care of them for the rest of their lives. 
These are people who have sacrificed enormously and are looking 
at decades of challenges in many cases. And while it isn't 
inexpensive to do this, it is within the resources of this 
great Nation to take care of these people who sacrificed so 
much.
    My concern is as an Active Duty officer, I both know and 
have learned a great deal about our medicine and what happens 
internal to the medical side. But these people I cherish, when 
they get discharged I pass to another institution, and that is 
the VA. And I am not very knowledgeable about the VA. And then 
when they pass through the VA, they pass back out into our 
society. And to me the connection between when they are 
fighting and injured and what changes they go through when that 
happens--and again it is certainly those who are injured, but 
also the families, through the military care system into the VA 
care system and back into our society.
    We won't have this right until the people of America reach 
all these young people in their community that they care about 
a lot and make sure that their future is as good as it can 
possibly be. When I interact with the injured and their family, 
they want to be the best they can be, they want to be as normal 
as they can be, they want to contribute to society, those that 
are physically injured and those that are challenged because of 
the psychological trauma that they go through.
    So how do we connect from their sacrifice to put them in 
place, in a good place for the rest of their lives? And we have 
got a long way to go in that regard. I as Chairman am very 
committed to that, could care not one wit that they are no 
longer attached to the Active Duty side. And I worry a great 
deal about the system that is to take care of them well beyond 
my reach. So anything you can do to support that, I would 
greatly appreciate.

                             FOLLOW-ON CARE

    Mr. Young. Mr. Chairman, if I can, just one further. 
Admiral, you and I have discussed this particular case numerous 
times, and I am going to mention the Marine's name, with his 
approval and with approval of the family. But it was a Marine 
that my wife and I met. He is from our area in Florida. And we 
met him when he first came into the hospital at Bethesda as a 
result of gunshot wounds. And he was pretty much in a 
vegetative state. He really had no comprehension at all. And 
there was a real question whether he was going to survive. But 
the medical folks made him survive. He lived.
    He went to the end of the VA system and they took good care 
of him, but they decided that he would never get any better and 
they were just going to take care of him for the rest of his 
life. The family wasn't satisfied with that and they moved him 
to a private facility that you know of in California. And this 
young Marine now is walking, he is talking, he has appeared in 
court on several important issues to himself and his family, he 
has made decisions, and he is, frankly, living a life.
    He is injured. He will never be as well as he was before he 
was shot. But this is a case--I am not sure that we can do this 
with every similar injury--but this is a case where he was 
given up, but his family wouldn't allow him to be given up and 
he is back among the living again. And it is a real miracle.
    What do we have to do to get these kids that kind of care 
when it appears they are at the end of the road?
    Admiral Mullen. Actually, this is Sergeant Cooley.
    Mr. Young. Yes.
    Admiral Mullen. And he is one of five Marines that were at 
this facility and who had been in the same kind of state. And 
it is a facility in Pomona, California. And I was told about 
this from a mother who had been living with her very badly 
injured son for a year and a half. And her name is Nalita 
Bagley, and she is a mother of Jose Pacino, who is a Guard and 
Marine, former Marine, who is a Guard out of--National Guard 
soldier out of Massachusetts. And first of all, we need to talk 
to the mothers and the spouses. They know a lot about our 
system. And we need to be connected to them. Because they--and 
they don't mince words either. And so we work hard to try get 
that feedback. And Deborah travels with me a lot to talk with 
spouses.
    I believe the vision is we need to be able to--we need to 
reach to the incredible capabilities that this country has and 
connect again with the local communities who, I think if they 
know, they will reach out. How do we do that becomes a 
question. I spoke a month and a half ago with a group of 
orthopedic surgeons from all over the country here, who were 
working the physical aspects of the injuries, because it is 
leading-edge stuff with these injuries right now. And I asked 
them to go back and figure out how to reach those who are 
injured in their communities and figure out how they can push 
in as we push out.
    I think it is in that connection that some of this can be 
solved. But mothers and spouses know a great deal about our 
system. Mrs. Pacino knows as much about our system Active, 
Army, Guard, Marine Corps, VA, as any person that I have met.

                   HEALTH CARE CENTERS OF EXCELLENCE

    Mr. Murtha. Let me say that I met yesterday with your top 
medical people. And in line with what Bill Young is asking, I 
said to them, in the psychological side and emotional side we 
just can't hire enough people to take care of them. And we have 
so many people that are from the countryside in the individual 
areas. What we need, as much as I dislike contractors, we need 
to look at what we do with TRICARE and have a separate thing 
for people who are in this situation. And they are looking at 
it. In other words, a case worker who knows the same as the 
mothers and wives know, and can direct them to the right place.
    And when you look at the two correspondents that came back 
so well and then you look at the case that he is talking about 
and the cases I know about--well, all of us know about--if 
somebody pays attention they can get the right care. If we 
don't, sometimes they get lost in the system. That is what we 
don't want to happen.
    So I think this new idea that we are promoting with the 
Center of Excellence and spreading it out throughout the 
country and then having case workers take care of the person 
not only through the fact they have been in the military 
hospital, but through the VA system. If they got a problem they 
can call that person. And they only have maybe 14 or 15 cases, 
or whatever it is, but they have a network of physicians all 
over the country that they can call on to take care of them.
    So I think we are moving in the right direction and I 
appreciate what you are saying and I can see great progress 
that will be made. We are not there yet, but we are making it.
    Mr. England. Mr. Chairman, that is the approach that you 
describe. We now have case workers. They come into our system 
while they are with us in DoD. They are literally assigned for 
life. They know about private institutions, they know about 
care facilities, they know about VA specialized care, they know 
about DoD. And their role is to work with the families, the 
person, within the system.
    They know about educational opportunities, all the benefit 
programs in the Federal Government, Labor Department, 
everything. And their role in life is to be one on one and to 
stay with that person and always be able to provide expert 
counsel and advice to both the wounded warrior and the families 
so they can provide the best care wherever that may be.
    And it transcends DoD. I mean it goes across VA into their 
community. So they stay with them, I mean, literally, quote, 
lifetime commitment, hopefully the same person, at least for a 
long time, until people change out. So that is it, but we have 
a test case now. I believe we have like 20-some care managers 
assigned as we expand that this year.
    But that is the approach that we are doing. And by the way, 
that was a Dole-Shalala recommendation, by the way, was to have 
this sort of top-level care case manager for every single 
person.
    Mr. Murtha. Well, we appreciate that. Mr. Lewis.

                                EARMARKS

    Mr. Lewis. Thank you very much, Mr. Chairman. We have an 
adjournment motion on the floor. There is about a minute and a 
half left. Members are beginning to come back. Frankly, I have 
missed an adjournment resolution before. What that has to do 
with I will mention in a moment.
    But as I look at--first off, I miss the Secretary, but I 
would like to have you share with him our concern about his arm 
and also share with him the fact that I came within a fraction, 
on my patio last night, of slipping on the ice as well, and 
these are dangerous times, you know.
    But Secretary England and Admiral Mullen, I can't help but 
notice that the Defense Department is very clever in the way 
they get their work done. You have, over time, stolen two of 
our very, very fine women to help care for your work. Tina 
Jonas is sitting with you. Valerie Baldwin was with the Army 
for a while and has now come back to the private sector.
    But it does take talent, and ofttimes these ladies are 
among our best. We don't like you stealing our good people, 
however. And so I put you on notice, we are going to watch with 
great care as we go forward.
    Having said that, the adjournment resolution involves some 
of the games that sometimes take place in the House when there 
is confrontation between the two sides. But the issue at hand 
involves the vote, up or down, on FISA, whether we can continue 
the opportunities we have to protect America by way of 
intelligence channels. And it is being suggested that the next 
step will be a motion to extend the current law by 21 days. The 
President has indicated that he will veto that. And our people 
are trying to send a signal that we are going to support that 
veto.
    Frankly, it is really unnecessary in my judgment, but a 
very, very important item. Making sure that you all have the 
information, in a timely fashion, that comes by way of 
telephone activity in a foreign country, some of it coming 
through our country, is a critical issue. And it is a shame to 
me that we are wasting our time doing this today, but I think 
it will be settled very shortly.
    Having said that, the work that our men and women are doing 
in the Middle East and around the world is fantastically 
accelerated by the expansion of the values of two facilities 
that are very near and dear to my heart. The National Training 
Center for the Army, NTC has been in my district up until this 
last election from the time it was organized. The Marine Corps 
facility, 29 Palms, is one of the most important training 
facilities of the entire country, but especially of the Marine 
Corps. Fabulous advancement has taken place there. Much of that 
advancement has taken place by way of a controversial item that 
is around these days that I would hope the Secretary, as well 
as you gentlemen, would pay attention to.
    We have improved money flows available for activity that 
the Department wasn't quite ready for by way of a thing called 
earmarks, that dramatically impacted the activities at both the 
29 Palms Marine Corps Base and also at NTC. But speaking to 
what the Chairman had to say earlier, sometimes those kinds of 
deposits of funds do other things that are important to 
families on those bases.
    For example, for the longest time the first two-thirds of 
the existence of NTC elementary school children had to be 
bussed 35 miles one way to go to school, and then later in the 
day come back, obviously putting pressure on those families. It 
was absolutely beyond what should have been reasonably 
considered okay. It was an earmark that built an elementary 
school facility at the NTC. And the Congress responded by 
saying this is a family matter that helps us attract and keep 
these families in our service.
    So I just wanted to mention to you, as I run off to try to 
make this vote, that sometimes within your budget priorities 
you can't do everything that maybe even you would like to do. 
And sometimes people on this committee recognize that even 
special funding--namely, something that the President didn't 
ask for or even the DoD budget didn't ask for--can make a big 
difference in the lives of our people.
    So, remember, earmarks have a role to play. It is not just 
the earmark that caused the Predator to be available in Bosnia, 
not just the earmark that affected up-armored Humvees, et 
cetera, but, rather, sometimes for families as well. So maybe 
you ought to whisper in the ear of some of those people at the 
highest level that, from time to time, the committee actually 
tries to help in special ways.
    So I am going to wander off, Mr. Chairman, and try to make 
that vote and I appreciate you letting me take the time.

                            MISSILE DEFENSE

    Mr. Cramer [presiding]. Thank you. Thank you for your 
comments. Welcome, all three of you, before the subcommittee. 
You know we take our business, our relationship, with you very 
seriously. And please pass on to the Secretary our concern 
about him and our regrets that he couldn't be here with us this 
morning.
    I am going to ask a few questions and then we will go back 
to the regular order of events here. Also, tell the Secretary 
that I personally appreciate his comments, I believe in Munich, 
in the last few days about NATO particularly. And a number of 
us have made trips to Europe and are trying to interface with 
the European Parliamentarians, the governments there, to let 
them know that our concern about Afghanistan and NATO's 
participation in Afghanistan is so ``harem scarem''--those are 
my words--and so unstructured, and it needs to be looked at in 
light of the current threat and the current problem there in 
Afghanistan.
    But Secretary England, I would like to bring you back to 
missile defense, ground-based missile defense, and ask you a 
series of questions. Would you say that the threat to the 
United States from missile attack has increased or decreased in 
the last 10 years?
    Mr. England. I would say it has dramatically increased, Mr. 
Chairman.
    Mr. Cramer. And I want you now to address the issue of the 
third site.
    Mr. England. I am sorry; address what, please?
    Mr. Cramer. The third site in Europe that can enhance our 
capability to defend our Nation. There are doubters in the 
United States Congress about that third site. Could you offer 
information to us about that?
    Mr. England. Well, I can just comment that it is an 
important site, it is a defensive site, so it is important for 
Europe in terms of defense capability, also important for the 
United States. So there has been continuous dialog with 
European countries about installing a third site and radar to 
support that site, because it is important from the total 
context of missile defense, particularly for threats that might 
originate in that arena.
    So the Department continues to pursue that. It is important 
as part of the total, quote, laydown of the whole missile 
defense. And so it is important, and we do continue to pursue 
it. It is important to America, it is important to our friends 
and allies.
    Mr. Cramer. Speaking of MDA, they recently issued an RFI on 
the GMD system. And an MDA spokesman told Jane's Defence Weekly 
on January 16th of this year, that the Agency was considering 
breaking the GMD system into as many as eight different parts. 
Why would the Agency try to break apart a system that is not 
broken? If you, Secretary England, can't answer that, I would 
like information back about that.
    Mr. England. Unless the Chairman has some information, that 
is one I would have to get back with you, but I would be 
delighted to do so and will make an appointment to do it with 
you, Mr. Chairman.
    [The information follows:]

    The Missile Defense Agency (MDA) sent out a Request for 
Information (RFI) to industry on November 19, 2007, in which 
they identify eight potential acquisition risk areas associated 
wtih potential competition as well as potential breakout of 
various system components. However, the intent of the RFI is 
not to break the Ground-based Midcourse Defense (GMD) system 
into eight different parts, rather to gauge what, if any, 
strategies might be available to mitigate those known risks. 
Further, MDA intends to gather sufficient information to 
determine what, if any, impacts, such as unacceptable schedule 
delays, may result by breaking out activities or components 
into competitive acquisitions.
    MDA's current acquisition alternatives include segregating 
the program into distinct contracts with periods of performance 
starting in January 2009: (1) Continued Spiral Development, 
System Evolution, and Integration within GMD and into the 
Ballistic Missile Defense System (BMDS); and (2) Performance 
Based Logistics (PBL) in support of the fielded GMD system. 
[Note: Each of these contracts will serve as follow-ons to the 
current Boeing GMD contract.] RFI respondents were asked to 
assume these activities are performed as separate contract 
vehicles. The information gained from this exchange of 
information with industry will better inform the government on 
the best way forward on spiral development, test, fielding, 
sustainment of the GMD element, and the integration of GMD into 
the BMDS. The government may even consider other acquisition 
alternatives and suggestions offered by industry.
    No decisions have been made at this time, including the 
number and types of contract vehicles. Anticipated decision for 
the agency will occur prior to the contract end, December 31, 
2008.

    Mr. Cramer. And then, continuing on to missile defense. 
Does the SECDEF believe the existing inventory of tactical 
missiles that we have are sufficient to address an emerging 
threat, or emerging threats, around the world, such as in North 
Korea, that continues to get a little more sophisticated and 
antagonistic, and in China and Russia as well?
    Mr. England. So, again, I will get back to you. We do have 
24 ground-based intercepters. We also have sea-based 
intercepters in terms of what his ultimate number is. And, 
again, Mr. Chairman, I will get back with you on that subject.
    [The information follows:]

    The Department of Defense does not believe the existing 
inventory of ballistic missile defense interceptors is 
sufficient to counter the future ballistic missile threat. To 
date, MDA will have fielded 24 Ground-Based Interceptors in 
Alaska and California; 25 Standard Missiles-3 (SM-3) 
interceptors on 12 Aegis engagement cruisers and destroyers; 
and 21 SM-2 Block IV sea-based terminal interceptors. This 
interceptor inventory provides an initial defensive capability 
to defend the U.S. homeland and provides very limited 
protection for deployed forces and friends and allies.
    MDA has programmed funding to increase the size and 
capability of its ballistic defense interceptor inventory. By 
2013, MDA will have fielded 54 Ground-Based Interceptors in 
Alaska, California and Europe; 133 SM-3 interceptors on 18 
Aegis engagement cruisers and destroyers; 96 Terminal High 
Altitude Area Defense interceptors in 4 fire units; and 100 SM-
2 Block IV sea-based terminal interceptors. This interceptor 
inventory will complete the defense of the U.S. homeland but 
will be insufficient to fully protect deployed forces and 
friends and allies from emerging short-to-intermediate range 
ballistic missile threats.
    The Joint Staff recently completed a comprehensive analysis 
on the projected ballistic missile threat to determine whether 
the current planned inventory was sufficient. This analysis 
called the Joint Capability Mix II (JCM II) found that the 
Department's planned ballistic missile inventory was inadequate 
to meet the future threat and recommended the acquisition of 
additional ballistic missile defense interceptors in the near 
future. The Department of Defense plans, during the POM 10 
budgetary process, to address the future shortfalls in the 
ballistic missile defense interceptor inventory.

    Mr. Cramer. Those are my issues, and I thank you for your 
participation here today.
    Mr. England. So, Mr. Chairman, we will make an appointment 
with your office and we will follow up in detail on this topic 
with you.
    Mr. Cramer. Thank you. Mr. Hobson.

                         NUCLEAR WEAPONS POLICY

    Mr. Hobson. If my Chairman, Mr. Visclosky, is ready, he has 
a series of questions. You are not? Apparently not. Okay.
    I am going to go ahead and ask a question that I had hoped 
to follow in tandem to him, but I am going to ask it now, and 
then I will follow up with Afghanistan later. Mr. Visclosky is 
Chairman now of the Energy and Water Appropriations 
Subcommittee, I am the Ranking Member on Energy and Water. And 
I think it is incumbent upon the administration to develop an 
overall strategy for nuclear weapons. It must be formed 
cooperatively with this Congress. And the sooner you do that, 
the sooner we will be able to make the hard decisions about 
what steps we must take to ensure a safe, reliable 
appropriately sized stockpile of weapons.
    U.S. military strategists and financial people, Tina, have 
to know that our nuclear weapons are going to work. If we 
accept that confidence drops as our weapons get older, we have 
to pick a path. And I see only three realistic options: 
maintain a larger stockpile. You all know I think we should be 
able to reduce our current stockpile weapons, and I really 
don't like this option, but it is there.
    Secondly, pursue a technological option that improves the 
reliability of the weapons. And that is what RRW was intended 
to do, as I understand it, but we all have problems with the 
way the administration has pursued this option. And three, 
restart nuclear testing.
    Right now, our confidence in the current stockpile is based 
on years of test data. But as our weapons get older and older, 
the test data becomes less relevant. Now, I don't like that 
option, and we have some machines that may be able to do that. 
Unattractive as these choices are, they may be the only ones we 
can think of.
    Mr. Secretary, are there options that you are considering? 
Do you see a trade-off between stockpile size, nuclear testing, 
and pursuing the technological option? And, third, will you see 
any need to both maintain the current stockpile and build a 
stockpile of RRWs?
    Mr. England. We have pursued the RRW. I am not familiar 
with your comment about all the problems with RRW. I know we 
have not received all the funding we have requested. But 
obviously, going forward, our desires are to develop an RRW, 
much more reliable warhead. With that, then, I think there are 
some options about potentially reducing the stockpile. But 
first we need to move forward with the RRW.
    So, Mr. Hobson, at least my understanding of this is around 
the RRW as the way forward.
    Mr. Hobson. You will find a lot of differences within 
Congress in the manner in which both NNSA and the Defense 
Department approached RRW and that is why there is pushback on 
RRW as you see it today.
    But let me ask another question too, because the RRW is 
really not probably something you have worked on, but it is 
something that really needs to be looked at. What we do with 
the stockpile in the future and how we handle it?
    Over a quarter of the Department of Energy's budget is 
focused on nuclear weapons activities or dismantling them, 
monitoring them, and extending their lives. I have often 
wondered if this arrangement made sense. What I mean by that is 
your Department develops the strategy for using these weapons 
for what their operational requirements are, how many are 
needed and that sort of thing. The Energy and Water 
Subcommittee is left in the position of having to come up with 
the money to pay for them, often taking funding away from 
energy programs or funding for levees. I have heard some 
complaints that Defense asked for the pie in the sky sometimes 
because they don't have to pay for them; it doesn't come out of 
your budget, so ask for everything.
    Do you think this current arrangement makes sense or what, 
if anything, would be lost by requiring the Defense Department 
actually to pay for what they are requiring? Will we get more 
bang--a kind of bad word--more bang for our buck if we looked 
at it that way rather than having Energy--you guys just say, 
``Oh, we want this'' and the guys over at NNSA just kind of bow 
and scrape and say, ``Yeah, because it doesn't come out of your 
budget, it comes out of their budget,'' which comes to Energy 
and Water.
    Mr. England. Mr. Hobson, I was not aware that we were not 
paying for these programs with Department of Energy because--
Okay. I guess that is a surprise to me. I always thought we 
were funding those development programs and funding the DOE 
labs to do work for us. So I thought there was a money transfer 
to DOE to do this. I guess I am surprised.
    Mr. Hobson. There may be some minor moneys, but the 
majority of money comes out of Energy and Water accounts. You 
build the delivery systems, the weapons. And the weapons 
development is funded by Energy and Water. And those labs are 
basically funded out of Energy and Water.
    Mr. Visclosky. If the gentleman will yield. It is a Defense 
function, but Energy picks up the tab.
    Mr. England. So, Mr. Hobson, we will look into that, sir. I 
wasn't aware of that.
    [The information follows:]

    The question of whether or not the funding responsibility 
for the Department of Energy (DOE) nuclear weapons activities 
should be transferred to the Department of Defense (DoD) has 
arisen in the past. The National Defense Authorization Act for 
Fiscal Year 1985 (Public Law 98-525) directed the President 
establish a Blue Ribbon Task Group to examine this very 
subject. The 1985 President's Blue Ribbon Task Group on Nuclear 
Weapons Program Management concluded that ``the advantages of 
the current arrangement include checks and balances for nuclear 
weapon safety, security, and control; excellence and vitality 
of the national laboratories; . . .'' and ``the present 
relationship between DoD and DOE for managing the nuclear 
weapon program is sound.'' Congress subsequently created the 
Nuclear Weapons Council (NWC) in 1986 to strengthen the 
management oversight between DoD and DOE on nuclear weapons 
matters.
    The NWC is a senior-level, interagency body responsible for 
the oversight and management of all matters relating to nuclear 
weapons. This is the forum where requirements from both 
Departments are discussed, reviewed and endorsed. It is also 
the forum for resolving differences in priorities and reaching 
consensus on nuclear weapons issues, including questions of 
budget and program priorities. The NWC is also responsible for 
developing reports associated with management of the nuclear 
weapons stockpile, including the Nuclear Weapons Stockpile 
Memorandum (NWSM) that specifies the size and composition of 
the stockpile. This annual plan specifies out-year requirements 
and is coordinated and agreed to by both DoD and DOE and 
provided to the President. Through the NWC, DOE plays an active 
role in nuclear stockpile decisions.

    Mr. Hobson. Okay. If I have any time left--do I have any 
time left?
    Mr. Cramer. One more question.

                           AFGHANISTAN POLICY

    Mr. Hobson. Okay. Mr. Murtha and I went to Afghanistan. We 
went about a week or so ago. And we may differ on some things 
about Afghanistan, but I think we are pretty close on most 
things.
    But I came away very disturbed about Afghanistan. I think 
Afghanistan is winnable, but the Europeans, in my opinion, are 
not doing their part. Some of them are not. But a number are. 
The Dutch, the Poles, our continent. There are a number of 
people fighting. There are other people with caveats that 
aren't fighting. And we are spread thin. And we need about 
3,000 more people over there to make sure that we can get in 
the humanitarian aid which is needed. Because everybody I 
talked to, including your commander, sir, tell me that beyond 
the military side, we need more people in there doing 
agriculture types of things.
    For example, they grow vegetables there. Fruits like 
pomegranates have to be sent to Pakistan to be processed 
because they don't have the warehouses and the facilities 
there. We could help them.
    We have a great program going to train the police. The Army 
is about 80,000. And every person I talk to says they will 
fight, especially if we are around. But the police, they have 
had some problems with. They have got a new program that is 
working with the police.
    The problem is that the European members of NATO, many of 
them will have such caveats on their troops, or have a 
different mission in their mind, that we can't seem to get it 
coordinated.
    Now, the Afghan Government turned down Lord somebody, to 
come in and try to be the czar to get this working together. 
What are we going to do? This is a basic managerial problem. 
General McNeal, I think, did a good job. He is frustrated 
because he couldn't get it all done that he wanted to get done.
    Then the second thing we ran into was the procurement of 
equipment. We are out there watching some contractors working 
with the police force, and they have got a pistol that 
everybody says doesn't work. It has got a firing-pin problem, 
was just one of the problems. But we bought it. It is U.S.-
made. It was supposed to be a copy of something but it doesn't 
work right. And we asked, How did we buy this? And nobody knows 
how we bought it, but we have thousands of them.
    And if Mr. Murtha comes back, he may get into that 
question, because we were very upset to find out that we are 
procuring weapons that don't work and giving them to the Afghan 
police, who are trying to change.
    So I would like you to tell me, one, how are we going to 
solve this problem to get more troops in there? How are we 
going to get more people to do the kind of work that they need 
to build their economy back up, which they seem to be willing 
to do, with help? And thirdly, what are we going to do about 
procurements on weapons?
    Mr. Cramer. Before you proceed to answer, we are in the 
middle of a vote now on the floor, 15-minute vote, motion to 
adjourn, another motion to adjourn. We will keep the hearing 
going. After the answer to this question, Mr. Moran, you will 
be the next questioner. So if the members could rotate, we will 
just keep the hearing going.
    Mr. England. Sir, nobody has worked harder to try to press 
the NATO allies to provide more capability against what we 
believe the requirements are. We are at least 3,000 short. As 
you indicated, we are going to send 3,200 Marines there. That 
is a temporary deployment.
    Mr. Hobson. Seven months.
    Mr. England. Yes, sir. It is a combination of both fighting 
capability as well as training capability. We have got 25 
provincial reconstruction teams that do the kind of development 
work that I think we need to do more of. If I were going to 
pick the center of gravity, it would be to train the police and 
this--I think you are talking about this focus district 
development program.
    Mr. Hobson. They take the guys out, the whole group out, 
put a new group in. And some of the mayors are saying, Leave me 
the new group. They don't want their guys back.
    Admiral Mullen. And we have big challenges there, but we 
are early. This program is fairly new. We are cautiously 
optimistic, although that program comes by way of a shortfall 
of not being able to get police trainers. So it is a creative, 
innovative program that, quite frankly, Major General Bob Cone 
put together, who is responsible for that.
    I think the center of gravity is the police. It is two 
things. It is the development piece, as well as the 
development--the police, right--the maturity of the police. As 
you indicated, this is a country that--this is a country that 
has been at war for 30-plus years. The Afghan Army is a good 
fighting army. And so the training that we are doing with them, 
we are seeing them produce more and more capable both leaders 
and units, companies, battalions, to fight. And I think that is 
a very positive indicator.
    At the same time, overall, I have called the results mixed 
because we have got to have more capability across the board. I 
was a NATO commander in 2004-2005. So I understand the 
frustration. Generating forces is a big challenge. And as 
Secretary Gates has pointed out, many times these countries are 
coalition governments.
    The comment earlier that was made about dealing with their 
Parliamentarians, I think, is a very positive one. And I don't 
know how NATO is going to produce more until that connection is 
made. And what I worry about, quite frankly, is more and more 
of that burden just coming our way.
    Mr. Hobson. But do we have the capability of handling that 
burden in a timely fashion? Because many people will say that 
in the next 6 months to a year, this is either won or lost. 
These people are going to decide whether it is worth sticking 
with the new way, which is our way--I am talking about the 
Afghanis--or are they going to slide back to the people they 
think are going to be there later on? Especially if the 
Europeans don't step up.
    Admiral Mullen. First of all, I think to Lord Ashton's 
position, I think that needs to be filled as rapidly as 
possible. We need somebody to coordinate all the other aspects 
of the requirements over there. I am not one who believes that 
in 6 to 12 months this is going to be either won or lost. The 
challenges that are there are obviously longstanding. I don't 
think we are on a critical edge where it goes one way or 
another.
    That said, as I indicated in my opening comments, this is 
an economy of force. It has been an economy of force. That, by 
definition, says we need more forces. We don't need several 
hundred thousand there, but we need more than we have in order 
to make a difference. And we need to have a unity of command 
that gives--I mean, General McNeal is the ISAF commander--a 
unity of both vision and sort of a strategic end state that we 
are all reaching for. And there are disagreements on that right 
now across NATO and all the countries--many countries view it 
differently. And I think bringing that together from the 
leadership standpoint is equally important.
    Mr. Hobson. The British general told us--who was McNeal's 
predecessor--that one country sent him tree huggers. He didn't 
need tree huggers. He needed people who were willing to go out 
at night and do the job. And that was a British general saying 
that. That wasn't our general.
    Admiral Mullen. Yes, sir, I understand. I think many of the 
NATO countries went into this looking at this from a 
stabilization aspect as opposed to a security aspect from the 
standpoint of counterinsurgency. We have got a 
counterinsurgency there. We have got to basically eliminate 
their effects in order to provide the kind of environment that 
will allow economic and political development and maturity to 
occur.

                 PROCUREMENT OF PISTOLS FOR AFGHANISTAN

    Mr. Hobson. Does anybody know anything about the pistols?
    Admiral Mullen. The only thing I would say, I don't know 
anything about the pistols, sir, except we are focusing 
actually much more--and Secretary England specifically leads 
this--we are focusing much more on the FMS program through 
which all of--a significant amount of equipment, certainly, 
that we buy passes. And this would be an example of one of the 
reasons we need the focus.
    But I specifically don't know how--I can get back to you--
how we got these pistols, how many we bought or what the 
problem is.
    Mr. Hobson. Thousands.
    Admiral Mullen. Yes, sir. But I don't know how we got there 
and we obviously need to fix that.
    Mr. Hobson. But nobody else there in country knew either 
and that was a problem. But anyway, I share your optimism about 
Afghanistan. But I don't think the Europeans really understand 
at all this dope that comes out over there winds up in their 
countries, not our countries, and more people die in Europe 
from that dope than that they are having killed in Afghanistan 
where we could do something about it. And I think that is 
something that the administration needs to work on more in 
getting that done.
    But Jack and I were both there and it is actually different 
than--I have been there a couple of times, and it is actually 
different in different ways. But the one thing that is there 
that you do sense, there is a willingness to want to do--which 
is refreshing to see, because I have talked to people who have 
both been in Iraq and are there. And the guys that are here 
have a different perspective about this country than they had 
about Iraq when they were in Iraq. And they think they can get 
it done.
    So, you know, that is a positive. Thank you very much.
    Mr. Cramer. Mr. Moran.

                          TROOP SURGE IN IRAQ

    Mr. Moran. Thanks, Mr. Chairman, and Mr. Under Secretary 
and Madam Controller. I am sorry for all the disruption, but 
those things happen. It is too bad because you have got a lot 
to share with us.
    I want to get back to Iraq for a moment--because I share 
Mr. Hobson's view that Afghanistan might be winnable, although 
I think it is becoming less so, and largely because of the 
political considerations in Europe. We have lost, really, the 
support for military commitment on the part of NATO in Europe, 
and I understand Secretary Gates trying to renew that. But I 
don't think it is working with the European people. And we are 
going to have to--what I would expect that the subcommittee 
would be prepared to send more troops over to Afghanistan.
    But that raises the issue of Iraq again. We have now 
provided $525 billion. The Secretary says there is going to be 
another $170 billion necessary. And that brings us up to $700 
billion. A lot of money, when we were told originally that this 
was going to be--what did they say, $25, $50 billion or 
something, and that oil would pay for it all. I know the 
Chairman remembers those original numbers. They seem quaint 
today.
    But this is really serious stuff. Now, Chairman, do you 
agree with what General Petraeus has told us, that a military 
victory is not what we are necessarily seeking nor is it 
possible in Iraq?
    Admiral Mullen. Completely.
    Mr. Moran. So we are not looking for a military victory.
    Admiral Mullen. No, sir.
    Mr. Moran. So, given that, the surge has quelled the 
violence. But the real question is, has it achieved the 
political reconciliation that does constitute the victory that 
we are looking for? I don't see it. I don't see this Shiite 
government making the real substantive, genuine efforts that 
are necessary to create an inclusive, stable government in 
Iraq, bringing in the Kurds who are now doing their only thing 
in the north and all they care--they still can't fly the flag 
up in Kurdistan. And this government doesn't seem to be 
reaching out to the Sunnis in any truly meaningful way, or even 
releasing the Sunnis that are kept in jail, thousands of them, 
for largely political purposes. So do you see us making real, 
substantive, political progress, Chairman?
    Admiral Mullen. Sir, actually over the last year--and I 
went to Iraq--I mean, I have been a number of times, and I went 
to Iraq right after I took over the job in October. And I was 
back over over the holidays, and I go back soon. And what I 
have seen--and I think this was largely well known--is a fair 
amount of progress in the provinces; in other words, what I 
would call provincial reconciliation. And that is not going to 
solve the whole problem, but we have been very encouraged by 
that. And with the space that the surge security--the 
additional security that the surge has provided, the 
development of this concerned local citizens, this 70- to 
80,000 who now are going to provide for their own security and 
the beginnings of the connection between the provinces 
politically and the central government, which is heretofore--or 
at least for the last 3-12 decades had not existed. Certainly a 
lot of hard work.
    And in my view, Ambassador Crocker and his team, as well as 
General Petraeus, but particularly Ambassador Crocker working 
on the political aspects. And if we don't get it reconciled 
politically, nationally, then I don't think there is a 
solution.
    As I indicated, this isn't about a military victory. They 
recently passed a deBaathification law that will go into effect 
here within a month; literally this morning as I showed up, I 
was told that the national government passed the amnesty law, 
their budget, as well as a Provincial Powers Act. Now, that to 
me is a lot of progress nationally, given the challenges that 
they have across the competition at that level. So I am 
actually very encouraged by that. I have watched it. They have 
been working this process very, very hard. It is obviously 
still a new government. Great challenges.
    But the political process appeared to me to be evolving 
painfully slow at times. But literally in the last 24 hours, 
these three big major laws were passed, which I think is 
clearly a big deal, a big step, and made in great part possible 
by the security that they have had in order to be able to do 
that.

                             FUTURE OF IRAQ

    Mr. Moran. Well, Mr. Chairman, I know that your commanders 
are reporting back to you on a regular basis and the decision 
was made to arm the Sunni warlords because they are the ones 
that are making the real progress against al Qaeda in Iraq, 
because the al Qaeda, Sunnis, they live in the Sunni 
neighborhoods. And it is the Sunnis that have paid the worst 
price for their viciousness.
    So the Sunni warlords are now armed. So they are shooting 
the al Qaeda instead of Americans. The problem is once those 
thousands, or however many al Qaeda leaders have gone, killed, 
captured or banished, what are they going to do with those 
arms? They are going to turn it back on us? Are they going to 
turn them on the Shi'a government to take back the government? 
Are they just going to foment a more violent civil war?
    Can you address that because it seems to me that ought to 
be a serious concern in the long run. 
    Admiral Mullen. I think it is a serious concern, and in 
this whole counterinsurgency--in the counterinsurgency and what 
we are trying to do, the center of gravity really is the Iraqi 
people. And they will eventually drive the governmental 
outcome.
    I understand your concerns, sir. But I don't get that from 
the commanders on the ground, that that is an immediate 
concern. That it would be a possibility? I certainly suppose 
so, and one we would certainly be concerned about. We have made 
a huge difference with respect to al Qaeda and Iraq and they 
are very much on the run. Not done. Very violent. You have seen 
that just again recently. So clearly that is going to continue 
to evolve.
    But I have gotten no feedback from General Petraeus or 
Admiral Fallon that we think that is immediately on the 
horizon. Is it a possibility? I certainly think that is out 
there as well. But by and large, we are optimistic that we are 
moving in the right direction there. To guarantee it will never 
happen again, I don't----
    Mr. Murtha [presiding]. I am going to interrupt the 
gentleman. We are going to adjourn after--if the next vote is 
called.
    So, Mr. Frelinghuysen, if you will keep your question to 
about 5 minutes, and then we'll get to Mr. Dicks. And if there 
is another vote, we will adjourn until a future time.
    Mr. England. Can I make one comment, Mr. Chairman, just 
because I think it is really important in this discussion with 
Mr. Moran.
    Mr. Moran, the military is not going to win, but these are 
counterinsurgency, two sides of the same coin. One side is 
security and the other side is economic development. So you do 
have to have economic development, long term, for security. You 
need security, short term, for economic development.
    I think what is very encouraging is that there is economic 
development. In the last 2 months, for the very first time, we 
have foreign direct investment in Iraq. There are now outside 
companies, not countries but companies, that have decided a 
security bond--the security environment is such that they are 
willing to commit their capital. And there are now a lot of 
companies that are in Iraq actually, literally, looking for 
opportunities for investment.
    For the CLCs, that is very important, these concerned local 
folks, the Sunnis you talked about, because we do have programs 
to reintegrate them, to train and reintegrate into, literally, 
the economic system. And ultimately that is the most important 
thing, is developing an economic system that can support 
democratic----
    Mr. Murtha. I hate to interrupt you, Mr. Secretary. Because 
of the time constraints--you know, we have been over this. I 
said the most important part of this was economic development. 
As a matter of fact, you can look at Afghanistan where the 
economic investment has been reduced in half, from a billion to 
500 million. So it is a combination of things, as you know.
    Mr. Frelinghuysen.

                       ROLE OF THE NATIONAL GUARD

    Mr. Frelinghuysen. Thank you, Mr. Chairman. I will be 
brief. But I would like to focus a few minutes, if I may, on 
our National Guard role. We have about 3,200 New Jerseyans that 
are about to deploy to Iraq. They are undergoing training, 
preparing to deploy in June. It's the single largest deployment 
of the New Jersey National Guard since World War II. It means 
half of our Guard will be over there, and the rest will be back 
in New Jersey to get ready for whatever might come their way.
    For many of these men and well, these are not the youngest 
soldiers, but certainly like other members here, I thank all of 
those who serve, all of you for your leadership, all those who 
are volunteer Guard, Reserve, regular military.
    What should those soldiers see when they get there? And 
what can you say about the issue of predictability, if there is 
any, about the potential for future requirements on their part? 
I guess that would be directed to you, Admiral.
    Admiral Mullen. Sir, I think for any of them that have been 
there before individually, I think they will see a dramatically 
different landscape than what they saw the last time.
    Clearly, as was expressed by the Chairman, I am very 
concerned--and in my remarks--very concerned about the stress 
on the force. We are trying to work the National Guard and 
Reserve rotation back to 1 year deployed and 5 years at home. 
We are not there right now but we are working in that 
direction.
    I want to commend the National Guard and the Reserve for 
what they have done since this war started, since we were 
attacked, has been truly enormous and we could not be who we 
are without their participation. And in terms of the overall 
Guard and Reserve posture, I think that is an issue.
    And Mr. Pinero issued a report recently. I felt this way 
for years, that part of what is going to change as a result of 
this is our posture in the Guard and Reserve for the 
foreseeable future. We are moving so fast, sometimes it is 
difficult to predict exactly what it will look like. But these 
soldier citizens have made a huge difference and I think will 
in the future.
    Mr. Frelinghuysen. Would you comment further on the Pinero 
report? Marine general, obviously. Fantastic credentials. I 
mean, the headlines were that we have appalling gaps, we 
wouldn't be able to--back home--I come from a 9/11 state. So 
when I go to town meetings, a lot of people, obviously, have 
angst and anger and concern and apprehension about the war, the 
deployments of Regular and Guard and Reserve. But they are also 
concerned about what is going to be ready as part of our 
military arsenal in the case of natural disasters, or, for that 
matter, God forbid, some sort of a catastrophic event.
    Admiral Mullen. We have made a lot of improvements. I don't 
agree that everything that Mr. Pinero put in his report. For me 
it represents the kind of transformational message that I think 
we are going through with our National Guard and Reserve. How 
that exactly is going to come out in the long run, I don't 
know.
    Clearly we are concerned about that relationship in terms 
of providing the capability for the Guard in each State. We 
have invested there some $32 billion over the next--since 2007, 
I think it is about $46\1/2\ billion in the Guard. We are 
coming up in terms of percentage of equipment on hand. We are 
not where we need to be. For the first time, though, that 
equipment will be the same equipment that our Active Duty army 
has. It will be frontline equipment, so they will be able to 
respond.
    Recently, if I looked at the California fires, there was 
the team, it was the Guard, Reserve, there were Active, led by 
NORTHCOM, and also the entire Homeland Security team that 
responded very well. So certainly there are concerns.
    I think this report should serve as a catalyst for us to 
have a national debate about what we should do for the future.
    Mr. Frelinghuysen. Let me credit both Chairman Murtha and 
Mr. Young on the resource issue. This is one where substantial 
investments have been made. It is the question of where they 
are all going to be sent. And I thank you, Mr. Chairman. Thank 
you, Admiral.
    Mr. Murtha. Mr. Dicks. And, Mr. Dicks, I have said that the 
next vote, we will go to the very end but then we are going to 
adjourn the committee. So if you would keep it as concise as 
possible, as you always do.

                              F-22 RAPTOR

    Mr. Dicks. I will do my best, Mr. Chairman.
    Admiral Mullen, Secretary England, it is good to see you 
both. Tell us what happened on the F-22? What we are concerned 
about--did the Air Force request advance procurement for 
additional F-22s be included in the 2009 budget request when it 
is sent to your controller? If so, why did you remove the 
funding? What happened here? Or is there going to be money for 
four planes? There is a lot of confusion.
    Mr. England. No. That is not what happened. In the fiscal 
year 2009 budget, we had $400-and-some million to shut down the 
line. That was the plan.
    Mr. Dicks. What happened to that? That didn't show up 
either.
    Mr. England. So there was $400-some million to shut down 
the line, was what had been in the program, and there are no 
airplanes in the outyears. And so the decision was to convert 
that, to take that out and not to put the shutdown money in the 
budget this year. So we took that money out and we put it in 
the O&M account so the Air Force would have money to better 
address the F-15 issue. So then at that point, the line does 
not shut down because we took the shutdown money out. So it 
doesn't shut the line down.
    The Air Force would have liked to have converted that 
money, Mr. Dicks, to a long-lead procurement. On the other 
hand, there are no future airplanes in the budget, so that 
would have been difficult to do.
    Mr. Dicks. Didn't you have to do one or the other? Didn't 
you have to either put in the advance procurement or put in the 
money to shut down the line?
    Mr. England. So, instead, what we decided to do was----
    Mr. Dicks. I like giving the money to the F-15.
    Mr. England. So the decision was, instead, that in the 
past, the Congress had not allowed the Air Force to buy 
replacement airplanes where they wanted to buy F-35s because 
they were not in production. So they have some airplanes that, 
because of either damage or wear-out or whatever, that have 
been denied. So the decision was this year, since the F-22 was 
in production, they could ask for those replacement airplanes 
in GWOT because in the past, again, they have been denying GWOT 
because the airplane is not in production. This airplane would 
be in production. That is probably about four airplanes. That 
would basically keep the line open at some very low rate, but 
it keeps the line open. And, frankly, then it defers the 
decision on the F-22. I mean, basically that is what it does; 
it defers the decision.
    My view was, and I think the Secretary certainly will agree 
with this, is that at this point in time we should not preempt 
the next administration by just literally shutting the line 
down at this time.
    So that was the decision, that we would not shut the line 
down. We do not have any airplanes in the future years, so this 
is something that will have to be reexamined. Frankly, my own 
recommendation is--I mean, my strong feeling is that we have 
enough F-22s and they are designed for a specific mission. We 
have enough to do that mission. And we need to go on with the 
joint strike fighter program, which is the next fifth-
generation airplane.
    So the question is, do we continue to buy F-22s for the 
next administration, or do they do the commitment where we have 
a lot of investment in the joint strike fighter. But, again, it 
is now a deferred decision.
    I believe it was the right decision to let that on the 
table and let the next administration decide, rather than 
preempt that at this time.
    Mr. Dicks. Admiral Mullen, do you have any comment on that?
    Admiral Mullen. No, sir. I mean, I am familiar with what 
happened. Certainly you know, probably better than I, we have 
certainly had this coming together for years. It is a huge 
challenge just because of all three variants. This isn't a 
surprise. We have got to have fifth-generation aircraft for the 
future. I think the question that is out there is how many? 
This is 183, I think, plus an additional 4. And I think this 
decision needs to be--needs to take in effect that we are down 
162 F-15s right now. And that was a surprise.
    So I think there needs to be a balance here. But I also 
think the future fifth-generation aircraft is the JSF in all 
three versions. And we have got to get that right. That is also 
a new program. New programs sometimes struggle.
    Mr. Dicks. Slip.
    Admiral Mullen. I mean, that is not uncommon. I think we 
need to approach this from a balanced perspective.

                           PROCUREMENT RATES

    Mr. Murtha. If the gentleman would yield, let me add 
something to this. The maintenance costs have gone up for the 
F-15, 236 percent. The flying hour costs have gone up 87 
percent--the F-15, I am talking about. And the manhours per 
depot maintenance per airplane has gone up 800. My concern is 
that we are buying such small quantities. And what the 
Secretary said is absolutely true--and I have challenged the 
Air Force. Tell me what the threat is so that we can make a 
decision about whether we need it. And Secretary Gates and I 
talked about this very thing.
    The problem I see, though, and I worry about, we produced 
86,000 aircraft in 1943. We produced 30,000 tanks more than 
Germany produced in the whole 5, 6 years of the war. We are 
buying 400 aircraft this year. And we are buying at such a low 
rate, it costs us so much more. So we have got to keep that in 
the equation at the same time. We are trying to come up with an 
agreement between you folks and us about, okay, what can we 
buy? How can we buy it at a better rate and get rid of some of 
these? Can we get rid of the 15s and put the F-22s, if they can 
show us what the threat is?
    Mr. England. Mr. Chairman, I mean, look, I agree completely 
on this. We do have to get the rate up. The economic order 
decline is the joint strike fighter was one airplane for three 
services with a lot of commonality. If we start eating in the 
joint strike fighter procurement, we will find ourselves in the 
same position again, even with joint strike fighter.
    Mr. Murtha. Yeah, well, I understand that concern. But when 
you talk about the number of airplanes we can produce with the 
industrial base we have, this is a concern--past Iraq, I am 
talking about. I am not talking about in Iraq. I am talking 
about past Iraq. But we will talk a number of times about this 
with the Air Force and with the Defense Department.
    Mr. Dicks.
    Mr. Young. Mr. Chairman, let me ask the gentleman to yield.
    Mr. Dicks. I yield.
    Mr. Young. Someone listening to this conversation would 
almost get the impression that the joint strike fighter, the F-
35, would be a replacement for the F-22. That is not the case. 
The F-22 and the joint strike fighter have two different 
missions. They are two different aircraft. And I just wanted to 
make sure that there is no misunderstanding that when we talk 
about the fifth generation, it is not replacing the F-22. That 
is a correct statement, isn't it, Mr. Secretary?
    Mr. England. It is correct, with a proviso, Mr. Young. The 
proviso is that the joint strike fighter performance and the F-
22 performance is extraordinarily close. So the F-22, of 
course, was designed many years ago. It goes back to the 1980s 
in my career, goes way back. The joint strike fighter is a much 
newer airplane, so it also has very similar, if not in some 
cases better performance with other attributes. So I believe 
this is something that is very important that we look at 
carefully, Mr. Chairman, because it will affect the future 
ofairpower for all of our services.

                            AIRLIFT AIRCRAFT

    Mr. Dicks. One additional question. Secretary England, is 
your office conducting an analysis to determine the cost/
benefit of modernizing the engines on the C-5 versus procuring 
additional C-17s? We have been through a number of these big 
battles. And over the years, the cost of operating the C-5 has 
been very expensive compared to the C-17. So where are we on 
that one?
    Mr. England. Sir, we are in a Nunn-McCurdy, Mr. Dicks. And 
part of that is to look at costs----
    Mr. Dicks. This is on the C-5?
    Mr. England. C-5. So we are looking at the C-5 in terms of 
Nunn-McCurdy and decisions on C-5 could indeed affect C-17. So 
that is still in the works, but I believe that is within a week 
of coming out. So very soon that recommendation will be coming 
out from Mr. Young, AT&L. So that will be the result of that 
study.

                             AGING AIRCRAFT

    Mr. Dicks. Just one final comment. Again, the aging of the 
aircraft, all of our aircraft, except for like the F-22 and the 
C-17s, is getting older and older and older. These planes now 
are 25 years old.
    I think we have to worry about the Navy in the same 
situation. They have got--with the F-18, it is a little newer. 
But aren't you concerned about this aging aircraft issue across 
the board?
    Mr. England. I am. But I will make a very blunt statement 
here. In the case of the Air Force, they have an aging fighter 
fleet, but on the other hand they will spend $65 billion, and 
we have 183 F-22s. So I mean, at some point we have to decide 
not to buy the very costly high-end airplane and buy the 
quantity. And so that--and by the way--
    Mr. Murtha. Mr. Secretary, we are going to be looking at 
this. And the development costs and the development time is 
also a concern: 5 years for the 16; 5 years for the 15; 19 
years for the 22; and I don't know how many years for the JSF. 
And these are the kinds of things that we will debate and work 
out.
    Mr. Tiahrt.

                           PROCUREMENT REFORM

    Mr. Tiahrt. Thank you, Mr. Chairman. I understand you are 
trying to wrap this up. I would just have two requests, that 
Secretary England or somebody get back on.
    Number one, I would like to appoint a contact for your 
current procurement reform. I know you have assigned somebody 
to do that. And we have some ideas that I would like to share 
with you, and perhaps change because of that.
    [The information follows:]

    Mr. Shay Assad, the Director of Defense Procurement and 
Acquisition Policy (DPAP), is responsible for procurement 
reform. Representative Tiahrt's office has been notified with 
this information. A meeting between them to discuss the issues 
of concern to Representative Tiahrt will be scheduled based on 
availability in the upcoming months.

                  MILITARY ASSISTANCE TO FIREFIGHTERS

    The second thing is that we have been talking to the Forest 
Service, Mr. Dicks and I, in our Interior Subcommittee. And 
under the fire that was fought in Southern California, we have 
heard some reports that when the Marines were involved with--
they brought in their light utility helicopters, the new ones, 
and they were unable to assist the Forest Service because of 
underperformance. For some reason it couldn't get off the 
ground. I wonder if there was some report that was done at that 
point in time about the performance of the light utility 
helicopter during what was called the ``witch fire'' in 
Southern California. And I would like to know if there is 
something that we could read about that.
    Mr. England. We will get you data, Mr. Tiahrt. I don't 
know. At one point there was a question about did we have 
problems with the helicopters. I think it was determined that 
was not the case, but we will get you that data.
    Mr. Tiahrt. All right. Thank you. Thank you very much, Mr. 
Chairman.
    [The information follows:]

    Marine Aviation units based in Southern California 
supported fire fighting efforts during the October 2007 
wildfires with fire suppression, VIP lift, and surveillance. 
Fire suppression was provided by the CH-53E Super Stallion 
while VIP delegation lift and aerial surveillance was provided 
by the UH-IN Huey. As a light utility aircraft, the UH-1 does 
not carry a significant payload and would not have been an 
effective fire suppression asset. Neither aircraft performance 
nor maintenance was a factor for Marine Aviation in support of 
the Southern California firefighting effort. The Marine Corps' 
newest light utility aircraft, the UH-1Y model or ``Yankee'', 
did not participate in the wildfires. The UH-1Y has not been 
operationally fielded and currently has only limited numbers 
used for training and operational test.

    Mr. Murtha. Mr. Visclosky.

                      RELIABLE REPLACEMENT WARHEAD

    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Secretary, thank you very much for your appearance 
today. And Mr. Hobson alluded to my line of questioning 
earlier. On Energy and Water, we have responsibilities for 
funding the nuclear complex, if you would. And in last year's 
budget request, the administration had $88.8 million set aside 
for the reliable replacement warhead in the Energy and Water 
bill. They had a request for $30 million in the Defense 
appropriations bill. In the end, there were no moneys provided 
in the Energy and Water bill. There were $15 million provided 
in the Defense appropriations bill.
    And not so much a question, although I have a question as 
to why the administration continues to pursue the policy when 
there was pretty clear language last year exhibited in the 
omnibus as to the RRW. My upset, I must tell you, is several-
fold. One is that over the last year, the progress that I have 
seen made on behalf of the administration--and I use that term 
generically across the board, whether it be Defense, whether it 
be Energy, whether it be State, whether it be the Intelligence 
Community--the progress we made here is on the complex 2030, 
the whole rationalization of downsizing of a nuclear complex. 
The only progress we made was that they took off the 2030 
because now they don't have any time frame at all as to when 
they are going to downsize the complex.
    And the point I would make and that I have been making for 
the last year, Mr. Hobson has been making, and the members of 
the Committee, if we as a Nation--not the Bush administration--
if the United States of America does not have a policy that has 
been formulated as to how you are going to use these weapons in 
the future, how we are going to protect ourselves from these 
weapons in the future and what are we going to have as far as 
our nonproliferation issue? Why should you proceed with the 
next generation of weapons?
    I would take the time, if I could, Mr. Chairman, for a 
couple of minutes. The American Association for the Advancement 
of Science--and I would just set the stage with this from their 
report relative to the RRW--said that a panel observes that 
there have been several plants redo the nuclear weapons complex 
over the years, and none have reached fruition, in part because 
of their scope and long time scale. The panel believes that any 
plan for the nuclear weapons enterprise must have a clear 
rationale and bipartisan basis if it is to be sustained over 25 
years, over a generation; because once it is in place, 
obviously conditions change, but administrations and congresses 
are going to have to live with it.
    There was very clear language in the House report on Energy 
and Water this past year for the fiscal year 2008 bill that the 
Committee directs the Secretary--and, of course, in this case 
it is the Secretary of Energy--in consultation with the 
Department of Defense and Intelligence Community to submit to 
the Appropriations committees a comprehensive nuclear security 
plan.
    And if I could for the record, Mr. Chairman, I would like 
to have the contents of that report language included. And the 
fact is that report language was then also referenced in the 
omnibus language in December in which it was stated that 
Congress agrees to the direction contained in the House and 
Senate reports requiring the administration, in consultation 
with the Secretary of Energy, the Administrator of the NNSA, 
the Department of Defense--including the Joint Chiefs of Staff 
and Strategic Command and the Intelligence Community and other 
appropriate independent, nongovernment science and security 
advisory organizations--to develop and submit to the Congress a 
comprehensive nuclear weapons strategy for the 21st century.
    Besides the NNSA, which is not within your particular 
bailiwick, but you happen to be sitting here today and are a 
part of the issue because you are the customer so to speak--
besides dropping 2030 from the nomenclature as far as 
downsizing the nuclear complex, is there any sense on your part 
that the administration is going to follow through on this and 
begin to look at a long-term national strategy so we know what 
we need a new weapon for?
    And I would also go on, if I could, as long as I have 
raised that issue, with submitting for the record, Mr. 
Chairman, about six or seven quotes from House and Energy 
Appropriation Committee reports, Senate Energy and Water 
Committee reports, Senate Armed Services Committee report, the 
Defense Threat Reduction Agency report that says that we need a 
wider analytic and public debate on big nuclear questions, the 
future role of nuclear weapons, the limits of deterrence in the 
early 21st century; and, finally, Senator Nunn, who before our 
subcommittee, said that on the RRW itself, if Congress gives 
the green light to this program in our current world 
environment, I believe that this will be misunderstood by our 
allies, exploited by our adversaries and complicate our work to 
prevent the spread and use of nuclear weapons.
    So to your knowledge, is there any work being done on such 
a strategy so we know why we need a new nuclear warhead?
    Mr. England. Mr. Visclosky, I mean, this is sort of a long 
question here. I think this is going to a take longer answer 
and one that I, frankly, can't provide to you. So we are going 
to have to get back to you on the subject and talk about it in 
more detail.
    Mr. Murtha. Let me make sure I understand. Do you want to 
put this in the record, Mr. Visclosky, the reports? I just want 
to make sure----
    Mr. Visclosky. I would just say sections of the report that 
deal specifically with the congressional direction to the 
administration as to what they are going to do. My upset, Mr. 
Chairman, being that after we zero this and add specific 
directive language, that we need a comprehensive, bipartisan 
generation look at this issue as to how are we going to use 
these. How does this play in----
    Mr. Murtha. What I am asking, though, Mr. Visclosky, what 
do you want us to put in the record? I want to make sure they 
understand what needs to go in the record.
    Mr. Visclosky. Okay. I would like to know what, in this 
case, the Department of Defense is doing in conjunction with 
developing and submitting to Congress a comprehensive nuclear 
weapons strategy for the 21st century, which was in the--that 
was language in the omnibus package.
    Mr. Murtha. Without objection, that will be part of the 
record.
    Mr. Visclosky. Thank you, Mr. Chairman.
    [Clerk's note.--The Department did not provide a response 
for the record.]
    Mr. Dicks. If you would yield just for a second. Who at the 
Department would answer a question like that about nuclear 
warheads?
    Mr. England. It would be our policy department. I mean, our 
policy would pull together all the aspects with the Department 
of Energy and State and work across the administration with the 
Congress. It would be our policy department, Mr. Dicks.
    Admiral Mullen. The other thing I would say, Mr. Dicks, is 
I know General Cartwright has spent an extraordinary amount of 
time on this as well, so he would clearly be a participant.
    Mr. Dicks. Okay. Good.
    Mr. Visclosky. And I would, as long as the general's name 
is mentioned, testified before a subcommittee and indicated 
after an extensive dialogue that there was not such a strategy 
last year.
    Mr. Murtha. Ms. Kaptur.

                          GLOBAL WAR ON TERROR

    Ms. Kaptur. Thank you, Mr. Chairman. Welcome, gentlemen.
    Admiral Mullen, today who stands a better chance of making 
it through Basra? An Iranian patrol or an American patrol?
    Admiral Mullen. I was in Basra over the holidays. It has 
been turned over, by and large, by the British. And I think I 
guess one of the metrics that is very important to me is since 
the British started to do that, the level of violence with 
respect to them has gone down dramatically. Clearly there are 
challenges there locally with respect to how security is going 
to be maintained in the future.
    The strategy, we believe is, it was time to do that. 
Certainly the British felt that way. And by and large, I think 
it has worked in that direction. That doesn't mean that we are 
not going to have significant challenges down the road there.
    You know, we are concerned about the Iranian influence 
coming--you know, the Iranian Shi'a influence in the south. 
Clearly I think, from that standpoint and the violence that 
they oftentimes both support and foment, and their influence on 
the jam specifically. And I think that will continue to be a 
challenge.
    I am not sure I can answer your question from the 
standpoint of specifically who would stand a better chance of 
survival. The violence down there has also gone down. It is a 
safer place than it was a year ago. But it is certainly not 
eliminated. And it can be--it can still be a very dangerous 
place.
    Ms. Kaptur. Some would say that Iraq is a failed state, 
sir. The Sunni, Shi'a and Kurds don't want to live together, 
they don't get along. We are asking our military to fill the 
political gap, and our military is doing a phenomenal job of 
doing what they are trained to do. But how long do you think we 
are going to be required to remain in Iraq with our military 
serving as the glue that holds the place together?
    I believe one of our Senators said 100 years. What is your 
estimate? Five years, 10 years? What are we talking about here? 
20, 50?
    Admiral Mullen. I think I have said before, ma'am, it is 
years, not months. Exactly how many, I don't know. In fact, I 
am encouraged by the fact that in the last 24 hours that the 
Iraq Central Government has passed three laws that have been a 
big challenge that--I am sorry--their parliamentary body has 
passed three laws. That is a lot of progress, and it has been a 
challenge.
    I think the security has been--the security environment 
having gotten better put them in a position to be able to do 
that. The economic development, which has gotten better, needs 
to continue as well. As far as a specific length of time, I 
couldn't--I wouldn't want to predict exactly. But I think it 
will be for a significant period of time.

                          TECHNOLOGY ADVANCES

    Ms. Kaptur. Could I ask you, Secretary England, there is an 
author, Clyde Prestowitz, who has written a book, Three Billion 
New Capitalists: The Great Shift of Wealth and Power to the 
East. And in this book he talks about the advanced technologies 
in the United States. Their development has slipped.
    In fact, in 2003, Thomas S. Hartwig, the former scientist 
at TRW and chairman of the Department of Defense Advisory Group 
on Electronic Devices, told Congress that the structure of the 
U.S. high-tech industry is coming unglued, with innovation and 
design losing their tie to prototype fabrication and 
manufacturing, and that advanced semiconductor production 
needed for a new generation of weapons was migrating to Asia.
    He goes on to say the following: My question really is, who 
at the Department is concerned about this and how are you 
addressing it?
    Prestowitz makes the point that our country needs to use 
Russian, Chinese and European rockets to launch space 
satellites; that Boeing's decisions to outsource production of 
the wings on its 787 dreamliner had to be done abroad; The lack 
of U.S. Firms that had the capacity to manufacture the advance 
systems for military night vision capacity; French licensees 
have sold equipment to China; and finally, the U.S. dependence 
on China for a large number of strategic metals, including 
tungsten, yttrium, magnesium, and timonium and indium. They 
talk about this whole issue of R&D and whether we are able to 
keep up.
    Who at the Department focuses on this? What are your 
comments on his statements? And how can we best address these 
concerns?
    Mr. England. Also, Ms. Kaptur, a couple of comments. First 
of all, just the day before yesterday, we had a whole briefing 
dealing with technology in the United States, what we call, 
quote, future shocks. I mean, what is going to happen in terms 
of energy and weather? What are the things that can happen, 
disruptive things that can affect us?
    One of them, of course, is this whole area of technology, 
which is a concern of the Department because we rely on 
advanced technology. Obviously, that is what is important to 
our Nation. It is a concern to us--keep in mind that we are a 
very, very tiny part of both our national--it used to be we 
were dominant in this area. We are no longer dominant. Compared 
to our U.S. economy, we are a very small part of the U.S. 
economy, certainly a small part of the world economy, and 
indeed, as part of globalization, goods and services move 
around the world.
    And so it is of interest and concern to us, and we do try 
to make sure that we have the capabilities we need here in the 
United States. We do have an office within AT&L that looks at 
this and worries about this all the time. And, of course, we 
also have our own institutions like DARPA, who work the front 
end of this. They give us a leading indicator of what is going 
on in all of these high-tech areas.
    So we have our own DARPA, which is a couple of billion 
dollars a year. This year in the 2009 budget, by the way, you 
will see that we have recommended an increased level of R&D in 
terms of the basic sciences, because we feel like we need more 
work, and Secretary Gates personally asked that we increase 
those accounts. So 2009, you will see that we have increased 
our expenditures in basic science and technology; that is, 
research in important areas to the Department of Defense. So I 
am not sure there is an answer to this. I mean, there are huge 
global trends that we are a part of and that we try to work 
within and moderate to the extent we can.
    But I would tell you, this is an area of great interest to 
me personally. I came out of industry and did a lot of this 
work. It is also of interest to Secretary Gates, who, of 
course, came out of the university environment where we do a 
lot of our S&T-type work in the country. And I know it is of 
interest to our military--I mean, we have regular discussions 
on this subject.
    But, again, I will tell you that at one time we were 
dominant, say, in the semiconductor because we literally bought 
most of the semiconductors. We did a lot of the research. But 
now we are a very, very small part of those enterprises. I 
mean, we are probably 1 percent or less in many of those 
endeavors. So we no longer have the leverage we had in the past 
because of just the growth of the economy.
    Mr. Murtha. The time of the gentlewoman has expired, Mr. 
Boyd.

                      ACQUISITION COST ESTIMATING

    Mr. Boyd. Thank you, Mr. Chairman. And, Mr. Chairman, I 
apologize for being late. Everybody has a hearing scheduled 
today. And, Mr. Secretary, I appreciate your service and you 
being here.
    My question has to do with the Department's CAIG; that is, 
the Cost Analysis Improvement Group. Are you familiar with that 
group?
    Mr. England. Yes, sir, I am.
    Mr. Boyd. That is the group who under the Department's 
policy is supposed to develop independent estimates for major 
acquisitions. And it appears to those of us in Congress that 
that group and those estimating procedures by that group are 
not being used and followed by the Department.
    And it also appears that, as a result, many of the programs 
are underestimated and then cause budget problems down the 
road. Would you speak to that? And are these appearances that 
we have from the congressional level true or not?
    Mr. England. Mr. Boyd, I would say they are largely not 
true because we actually have--I won't say a rule--a policy 
within the Department. If we have a CAIG estimate when that 
goes forward, we go with the CAIG estimate. In terms of our 
funding profiles in the outyears, we use the CAIG estimate 
unless we decide for some overriding reason that we shouldn't 
use the CAIG. I mean, typically the CAIG estimate will be 
higher than the military estimate. And so we will in almost all 
cases go with the CAIG estimate unless there is some specific 
rationale why we believe there was some error or some change in 
circumstances; that is, the historical basis that they may use 
may no longer apply, et cetera.
    So we do try to make this informed. We don't just follow 
every single recommendation of the CAIG. But by and large, we 
do rely on the CAIG estimates.
    Mr. Boyd. When you don't use the CAIG estimates to rely on 
those, and you use some other estimate--by your own statement 
there, you said usually that is the lower estimate--do you find 
that those estimates pretty much hit the mark? Or are they low? 
Do you have any historical perspective on that?
    Mr. England. I am not sure I have a historical perspective. 
In almost every case, we actually go with the CAIG and in most 
cases, usually it would be long term. So, for example, if there 
was a whole new way of building an airplane--and I would say 
just take Boeing in the commercial sector with their new 787 
composite airplane--I mean, you would expect that the aluminum 
airplane building in the past probably would not apply in terms 
of cost estimates to build that. Well, if we go to radical 
changes in our technology such that the historical trend may no 
longer apply, then we examine that. But I would say that is an 
exception and not the rule.
    Mr. Boyd. How long has CAIG been in place, Mr. Secretary?
    Mr. England. A lot longer than I have been around.
    Mr. Boyd. Is it part of the problem? I mean, we do have 
some problems, don't we?
    Mr. England. We do. And, look, it is a fair question, 
because here is the debate about the CAIG. If you put a higher 
in than the program manager estimates the program can cost--the 
program manager estimates a certain cost and the contractor--we 
end up with a cost of the program. If we then put in the CAIG 
estimates much higher and if we then program the higher money 
in the program, then you can be pretty certain that that money 
will be spent on the program. Right?
    So to some extent, people will say it is a self-fulfilling 
prophecy. The CAIG is always right because indeed if you 
program that amount of money, that is what the program cost 
will be. I mean, it is a debatable point in terms of the CAIG. 
And therefore, I don't think we can just blindly go with the 
CAIG. I do think you have to look at this and at least question 
this, because otherwise you can end up actually spending more 
money than you would like on some of these programs.
    Mr. Boyd. Secretary England, the disruption caused by 
faulty budgeting or estimating is greatly disruptive to your 
Department and the Congress in terms of how we appropriate our 
dollars, raise our dollars, spend them and so on.
    Mr. England. Can I make a recommendation? I will tell you 
that my experience is that the most disruptive thing is not 
knowing over a significant period of time what the level of 
investment will be. I mean, we get, by definition, yearly 
appropriations. You never know quite what they are going to be 
year to year. So contractors don't necessarily invest over a 
long period of time because they don't know what the outcome 
will be.
    Multiyear contracts are very good. Stable funding over long 
periods of time is the best thing we can do to control costs or 
reduce costs. And that is within the Department across--I mean, 
in every enterprise, I think that is the case.
    Mr. Murtha. The time of the gentleman has expired.
    You could also say that supplementals ought to be inside 
the regular budget, which gives us a better advantage. You can 
also say that the military estimates in many cases are lower so 
they can sell the program to Congress, and we have to pay the 
bill in the long run. So there are all kinds of ways of looking 
at this and we try to work it out between the committee.
    And Mr. Young and I don't have any questions, but Mr. Dicks 
has a question.

                     DEFENSE CONTRACTOR PERFORMANCE

    Mr. Dicks. Just one that Ms. Kaptur brought up that I don't 
think was fully talked about. And that is this question of the 
quality of the work that is being done out there. I get the 
impression that--I don't know if we have an aging workforce 
with these contractors, but we seem to see a lot more problems 
in terms of ordinary work that ought to be done pretty easily, 
winding up not getting done right. And delaying the programs 
and--especially in the classified arena. We have seen a number 
of examples in recent years of just shoddy performance.
    Are you worried about this?
    Mr. England. I am. And I think it is a systemic issue, not 
necessarily shoddy workmanship. I think the issue is more of an 
opportunity to get a lot of experience. You know, again, if it 
was World War II and Mr. Chairman mentioned all--I mean, if you 
graduate as an aeronautical engineer in your lifetime going 
forward, you could have worked on, like, 100 different 
airplanes. And then in the 1970s it was 80. And now in your 
lifetime, you work on one or two airplanes.
    So how do people get the experience, because literally the 
number of programs are large but small. So there is not the 
variety, I think, for engineers and managers and everyone else 
to gain experience along the way.
    And so, yes, I believe that is a concern, Mr. Dicks, but I 
don't have an answer to that. But I----
    Mr. Dicks. Is there also an aging workforce out there in 
these contractors? And I thought this point was raised, that we 
just seem to see so many programs in trouble now, and 
especially in the high-technology area, where we used to be so 
good in our national technical means, the satellites in 
particular.
    We seem to see failure, after failure, and it is across the 
board. It is everybody. It is all the big companies.
    Mr. England. We may be reaching too far too fast, Mr. 
Dicks. We always want the next technology, so we reach far and 
maybe that is something--and we do----
    Mr. Murtha. Mr. Secretary, we get estimates which we know 
very well are underestimated, and then they give you a figure 
of what they want to build. And in the end, the design is not 
completed, whether it is the Navy, the Air Force. And when you 
were the Secretary of the Navy, you got rid of thousands of 
people in order to build more ships. And those ships never got 
built because they stole the money and spent it someplace else.
    We have got all kinds of problems we have got to work out. 
We have an opportunity here in this next budget to straighten 
out some more of these problems, and we appreciate your coming 
before the committee. We appreciate your dedication and look 
forward to working with you to come up with a budget we can all 
live with.
    The meeting is adjourned until 2:00.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

                  Personnel--Recruiting and Retention

    Question. A key principle of the U.S. Armed Forces is to 
attract and retain competent personnel to assure readiness and 
operational effectiveness. While the services have generally 
met their aggregate recruiting and retention goals, the GAO 
reports that the Army and Marine Corps have experienced 
shortages in mission-critical occupational specialties such as 
health care, human intelligence collection, and explosive 
ordnance disposal. There is growing concern within the 
department as to how the services can meet current operational 
demands with what appear to be chronic shortages in these 
occupational specialties. In addition, there is growing concern 
that recruitment standards may have been relaxed to meet 
numbers.
    Secretary Gates, the Committee is very concerned regarding 
the recruitment and retention for mission-critical occupational 
specialties (MOS). For example there continues to be a shortage 
of nurses in the military and many billets remain vacant. Given 
the wartime environment that we are in, can you explain to the 
Committee what methods are currently available to recruiters to 
remedy this problem?
    Answer. Each Service focuses on maximizing the effect of 
its respective recruiting programs, advertising campaigns, and 
retention programs to target critical or hard-to-fill skills. 
Health professional recruiting is especially critical, and the 
Services are placing increased emphasis in this area. We are 
very appreciative of the new authorities offered by Congress to 
help us meet these challenges, particularly the increases in 
bonus limits and the ability to reduce the military service 
obligation for health professionals in critical medical 
specialties. The Services use a variety of incentives--
enlistment bonuses, educational benefits, and college loan 
repayment--to encourage youth to serve in critical military 
occupations. These incentives are also used by the Services to 
attract high quality youth, even-flow the training base through 
seasonal use, encourage enlistment for longer terms, and reward 
advanced education. Reenlistment and retention bonuses are used 
to encourage continued service while maintaining the desired 
force profile.
    The Army is experimenting with new incentives under the 
``recruiting pilot'' authorities granted in the Fiscal Year 
2006 Defense Authorization Act to expand the recruiting market 
targeting high quality young men and women for service. 
Additionally, the Army has a special program designed to meet 
one of its most critically short and mission-essential needs--
Arab Linguists. This ``09L'' program has been extremely 
successful in meeting this need, with over 1,000 native-
speaking linguists recruited and available for the front lines 
in both Iraq and Afghanistan.
    The young men and women that enter the armed forces stand 
among the best of American youth, above average in every 
facet--smart, fit, educated, moral, and reflective of the 
society they serve to protect. For over 20 years, the Services 
have met or exceeded the Department's quality benchmarks for 
Active duty recruits. Although the Army missed its high school 
diploma graduate benchmark in 2007, the Department of Defense 
(DoD) met its overall goal: 90 percent of Active duty new 
recruits were high school diploma graduates. This compares 
favorably to the national average in which about 70 percent to 
80 percent graduate from high school with a diploma. In 
addition, DoD exceeded its aptitude quality benchmark, with 68 
percent of new Active recruits scoring in the top half of the 
Armed Forces Qualification Test, well above the DoD benchmark 
of 60 percent.
    Question. Secretary Gates, has the Army and Marine Corps 
analyzed how these occupational specialties have consistently 
been under-filled, and what is the operational impact of these 
shortages?
    Answer. Personnel shortages have not, in my tenure, 
resulted in our failure to meet critical mission needs 
communicated to me by a Combatant Commander. The Department 
uses Joint solutions to address immediate shortfalls through 
``in lieu of taskings,'' in which all Services are called upon 
to meet immediate operational shortfalls. The Reserve 
components also have provided valuable contributions to address 
specialty shortfalls.
    The Services evaluate their personnel readiness by 
analyzing how well they are matching the requirements of the 
billets to the Service members assigned to those billets--in 
terms of both skill and grade. Service members in skills that 
are in short supply, either because the qualifying standards 
are difficult to obtain or the skills are in high demand 
outside of the military, are often called upon to do more 
frequent rotations in order to ensure units are operationally 
ready.
    To ensure that high operational readiness can be sustained, 
the Department, over the past five years, has developed a 
rebalancing effort in the Services that initially transitioned 
89,000 billets in less-stressed career fields, for example, 
field artillery, to more heavily used specialties, such as 
Military Police, Civil Affairs, and others. As of this year, we 
have rebalanced about 106,000 billets, and the Services have 
planned and programmed an additional 99,000 billets for 
rebalancing between fiscal year 2008 and 2012. Although the 
amount and type of rebalancing varies by Service, key stressed 
capability areas include: Engineers, Intelligence, Special 
Operations, Military Police, Infantry, Aviation, Space and 
Combat Air Superiority. By 2012, we expect to have rebalanced 
about 205,000 billets. Rebalancing is a continuous and 
iterative process. The Department will continue to work closely 
with the Services as they review and refine their rebalancing 
plans to achieve the right mix of capabilities and alignment of 
force structure. This will greatly help reduce stress and 
support the Operational Reserve by providing a deeper bench for 
those skills that are in high demand.
    For Service members who are deployed more frequently, 
compensation programs and the authorities provided by Congress 
give the Department the flexibility to package these 
authorities in the form of special incentive pays to ensure the 
compensation is fair and equitable. For example, the Department 
recently established the ``Post Deployment Mobilization Respite 
Absence'' program which provides administrative absence days 
for Active component Service members deployed more than 12 
months in any 36-month period and to Reserve component Service 
members deployed more than 12 months in any 72-month period. 
The number of administrative absence days depends on how many 
months beyond 12 months the Service member is deployed. An 
administrative absence is the same as a day of non-chargeable 
leave. Additionally, Active and Reserve component members 
deployed to Iraq or Afghanistan and involuntarily extended 
beyond 12 consecutive months, or deployed for 12 months within 
a 15-month period, still qualify for the $1,000 per month 
compensation for any month or portion of a month served by 
involuntary extension. Administrative absence recognition is 
for additional respite and supplements the broader compensation 
mentioned above.
    Question. Secretary Gates, are you concerned that the 
strain of multiple deployments will discourage good individuals 
from joining the Armed Forces or re-enlisting and staying in?
    Answer. Recruiting: Today's military recruiting environment 
may be the most challenging to the all-volunteer force (AVF). 
Never in the history of the AVF, have our armed forces faced a 
recruiting environment as challenging as they have during the 
past several years. The global war on terror has placed 
unprecedented demands on the Services as our volunteer military 
is now into its seventh year of a protracted war in Iraq and 
Afghanistan. As such, youth willingness to serve, the heart of 
our AVF, is declining, and influencers of youth (e.g., parents 
and teachers) are less likely to recommend military service 
today than in recent years. Despite this, all Services met 
their numerical recruiting goals in Fiscal Year (FY) 2007, as 
well their February 2008 year-to-date goals, and we project 
that all Services will meet their numerical goals in FY 2008.
    Retention: We have studied the retention rates of those 
deployed--the Army's retention rates of initial term and mid-
career soldiers in deploying units has remained between 120-140 
percent of their goals since FY 2005.
    As of February 2008, the Army and Marine Corps--our most 
heavily deployed Services--have exceeded their year-to-date 
retention goals; and the Navy met 98 percent of their aggregate 
year-to-date goal. The Air Force met 99 percent of their mid-
career goal, but fell short in their initial (less than 6 years 
of service) and career (more than 10 years of service) goals. 
This was due to its force shaping efforts, coupled with its FY 
2008 funding priorities.
    However, the Army's increase in end strength, along with 
its reorganization into a modular concept, requires 
proportionally more mid-grade officers--and so we are closely 
monitoring retention in these grades to assess how much concern 
is warranted.
    Question. Secretary Gates, please describe the standards by 
which candidates are measured. Have these standards been 
relaxed in any way to achieve the aggressive recruitment goals?
    Answer. The Department has not relaxed enlistment 
standards. All new recruits are carefully screened and 
qualified for military service. The Department generally 
reports recruit quality along two dimensions--educational 
achievement and aptitude. Both are important, but for different 
reasons.
    We value recruits with a high school diploma because years 
of research and experience tell us that those with a high 
school diploma are more likely to complete their initial three 
years of service. About 80 percent of recruits with a high 
school diploma will complete their first three years of 
service, whereas only about half of those who failed to 
complete high school will make it. Those holding an alternative 
credential (e.g., General Equivalency Diploma) fall between 
these statistics. The Department's benchmark for new recruits 
with a high school diploma is 90 percent and it has met or 
exceeded that benchmark since 1984.
    Aptitude is a separate indicator of quality. All recruits 
take a written enlistment test, the Armed Services Vocational 
Aptitude Battery. Those who score at or above average on four 
of the subtests measuring verbal and mathematics skills (which 
comprise the Armed Forces Qualification Test (AFQT)) are in 
Categories I-IIIA. We value these higher-aptitude recruits 
because their trainability and job performance generally 
exceeds those in the lower aptitude categories. The 
Department's benchmark for new recruits is 60 percent scoring 
in AFQT Category I-IIIA, and it has met or exceeded that 
benchmark since 1986.
    Question. Secretary Gates, DoD standards on qualification tests 
call for at least 60 percent Category 1 to 3 (the higher end of 
testing) and 4 percent Category 4, the lowest end. While the 
Departments of the Navy and Air Force have followed that standard, the 
active Army chose a higher standard of 67 percent in Categories 1 to 3, 
and 2 percent in Category 4. However, now the Army plans to revert to 
the lower standards of the DoD guidelines, which basically lowers the 
IQ standards for recruits. Do you believe that this will reduce the 
average effectiveness of Army units? Do you plan on lowering the DoD 
standards further to assist the Services in meeting their recruitment 
goals?
    Answer. No, we do not believe this will reduce the average 
effectiveness of Army units. All new soldiers are not only qualified 
for military service, but meet the standards for training in their 
military occupational specialty. With regard to enlistment standards, 
the Department has not changed the recruit quality standards 
(benchmarks) since 1993, when those benchmarks were first established, 
and there are no plans to do so. The purpose of the recruit quality 
benchmarks is to ensure that recruit performance is sufficient to 
complete military missions. ``Recruiting at the benchmarks'' means that 
we are recruiting cost effectively for the desired level of force 
performance. The benchmarks were originally set to yield the 
performance levels of the force that fought in Desert Shield/Desert 
Storm. If economic conditions are such that recruiting can be conducted 
above the benchmarks (more Armed Forces Qualification Test Category I-
IIIAs and more high school diploma graduates) at little or no 
additional cost, that is fine. However, recruiting at the benchmark is 
the target. Although the military recruiting environment is 
challenging, the Army met its numerical recruiting goals in fiscal year 
(FY) 2007, and in the first quarter of FY 2008. With regard to recruit 
quality, the Army achieved the Department of Defense (DoD) aptitude 
standard in FY 2007, and we expect it to meet that measure in FY 2008. 
Army fell short of the DoD high school diploma benchmark in FY 2007, 
and remains short through the first quarter of FY 2008. Since this 
educational benchmark is used to predict first-term attrition, the Army 
hopes to ameliorate the effects of not meeting this benchmark by 
implementing other initiatives to reduce first-term attrition.
    Question. Secretary Gates, recruiting and retention goals are often 
relayed to Congress in the aggregate, providing little or no visibility 
into how each occupational specialty is staffed. Will you provide the 
Committee with details on recruiting and retention by specialty code?
    Answer. The Department examines recruitment and retention data for 
critical skill occupations. The Services use the following criteria in 
identifying approximately 10 percent of their occupational specialties 
as most critical for recruiting, and 10 percent of their specialties as 
most critical for retention.
    For purposes of determining if a skill is critical, the following 
criteria are used:
          <bullet> Be, have a history of being, or project to be, 
        short;
          <bullet> Requires high training and/or replacement costs;
          <bullet> Is in high demand in the civilian sector;
          <bullet> Is challenging to recruit into;
          <bullet> Is crucial to combat readiness; and/or
          <bullet> Is a low density/high demand skill.
    See Tables 1 and 2 for the most recent information.

                 TABLE 1: CRITICAL SKILLS FOR RECRUITING ARMY, NAVY, MARINE CORPS, AND AIR FORCE
                                                 [December 2007]
----------------------------------------------------------------------------------------------------------------
                                        FY 2008 total                            FY 2008         Percent of YTD
              Specialty                   accession      FY 2008 accession    accessions to-       accessions
                                         requirement      mission to-date          date           accomplished
----------------------------------------------------------------------------------------------------------------
                                         Army Critical Recruiting Skills
----------------------------------------------------------------------------------------------------------------
Infantryman.........................              11362               1425               1479                104
Cannon Crewmember...................               1879                245                268                109
Field Artillery Computer Systems                    683                117                110                 94
 Specialist.........................
Multiple Launch Rocket System                       280                 19                 16                 84
 Crewmember.........................
PATRIOT Fire Control Enhanced                       419                 44                 23                 52
 Operator/Maintainer................
Air Defense Command, Control,                       297                 38                 31                 82
 Communications, Computers and
 Intelligence Tactical Operations
 Center Enhanced Operator/Maintainer
PATRIOT Launching Station Enhanced                  666                 81                 73                 90
 Operator/Maintainer................
M1 Armor Crewman....................               1388                100                118                118
Microwave Systems Operator-                         224                 33                 16                 48
 Maintainer.........................
Multi-Channel Transmission Systems                  783                 59                 54                 92
 Operator-Maintainer................
Signal Support Systems Specialist...               2150                382                386                101
Military Police.....................               3341                382                353                 92
Intelligence Analyst................                598                104                 83                 80
Human Intelligence Collector........                910                129                131                102
Signals Intelligence Analyst........                372                 90                 86                 96
Light Wheeled Vehicle Mechanic......               2623                435                444                102
Bradley Fighting Vehicle System                     267                 26                 25                 96
 Maintainer.........................
Health Care Specialist..............               3659                489                483                 99
Chemical, Biological, Radiological                  787                 98                 94                 96
 and Nuclear Specialist.............
Motor Transport Operator............               3098                555                567                102
Explosive Ordnance Disposal.........                431                 54                 49                 91
Petroleum Supply Specialist.........               2056                303                312                103
Food Service Operations Specialist..               2143                145                141                 97
Parachute Rigger....................                618                 92                 99                108
Electronic Devices Repairman........                387                 72                 42                 58
                                     ---------------------------------------------------------------------------
    Total...........................             41,421              5,517              5,483                 99
----------------------------------------------------------------------------------------------------------------
                                         Navy Critical Recruiting Skills
----------------------------------------------------------------------------------------------------------------
Nuclear Field.......................               2520                610                614                101
Sea, Air and Land (SEAL) forces.....               1089                237                252                106
Special Warfare Combat Crewman......                285                 55                 63                115
Second Class Diver..................                200                 39                 48                123
Basic Explosive Ordnance Tech.......                213                 28                 28                100
Cryptologic Technician Interpretive.                462                 96                 63                 66
Enlisted Aircrew....................                613                116                121                104
Enlisted Aircrew Rescue Swimmer.....                636                 88                 63                 72
                                     ---------------------------------------------------------------------------
    Total...........................              6,018              1,269              1,252                 99
----------------------------------------------------------------------------------------------------------------
                                     Marine Corps Critical Recruiting Skills
----------------------------------------------------------------------------------------------------------------
Aviation Support....................                688                126                123                 98
Aircraft Mechanic...................               2297                421                554                132
Air Crew/Flight Mechanic/Navigator..                379                 69                 86                125
Aviation Operations.................                331                 61                 76                125
Aviation Electronics Tech...........               1286                235                255                108
Electronics Maintenance.............               1095                200                122                 61
Transportation......................               2043                374                276                 74
Fire Direction/Control Specialist...                338                 62                 38                 61
Cryptologic Linguist................                281                 51                 35                 68
Intelligence........................                715                131                161                123
Infantry............................               6013               1100               1535                139
Marine Corps Security Forces........                584                107                128                120
Marine Corps Security Forces                        484                 89                 87                 98
 (Personnel Reliability Program)....
6 yr Infantry Bonus.................                300                 55                 71                129
5 yr Infantry Bonus.................                900                165                 90                 55
Reconnaissance Bonus................                399                 73                 84                115
Military Police.....................                966                177                217                123
                                     ---------------------------------------------------------------------------
    Total...........................             19,099              3,496              3,938                113
----------------------------------------------------------------------------------------------------------------
                                      Air Force Critical Recruiting Skills
----------------------------------------------------------------------------------------------------------------
Airborne Linguist...................                174                 67                 67                100
Combat Controller...................                222                 56                 56                100
Intel Applications..................                338                 78                 78                100
Imagery Analysis....................                171                 29                 29                100
Linguist............................                480                 64                 64                100
Network Intelligence Analysis.......                226                 52                 52                100
Survival, Evasion, Resistance,                      189                 33                 33                100
 Escape.............................
Pararescue..........................                410                 71                 71                100
Internal Avionics System............                326                 66                 66                100
Aircraft Structural Maintenance.....                334                 73                 73                100
Fuels...............................                286                 77                 77                100
Explosive Ordnance Disposal.........                174                 55                 55                100
Security Forces.....................               3786                714                714                100
Aerial gunner.......................                 51                  8                  8                100
Air Traffic Control.................                672                127                127                100
Tactical Air Command & Control......                173                 41                 41                100
A-10, F-15 & U-2 Avionic Systems....                 62                 20                 20                100
Munitions Systems...................                695                149                149                100
Armament Systems....................                960                227                227                100
Special Vehicle Operations..........                 23                 11                 11                100
Pavements & Construction Equipment..                147                 49                 49                100
Structural Maintenance..............                173                 62                 62                100
Utilities Systems...................                121                 29                 29                100
Engineering Assistant...............                152                 28                 28                100
Weather.............................                197                 52                 52                100
Fire Protection.....................                428                 65                 65                100
Aerospace Medical Service...........                636                132                132                100
                                     ---------------------------------------------------------------------------
    Total...........................             11,606              2,435              2,435                100
----------------------------------------------------------------------------------------------------------------


                 TABLE 2: CRITICAL SKILLS FOR RETENTION ARMY, NAVY, MARINE CORPS, AND AIR FORCE
                                                 [December 2007]
----------------------------------------------------------------------------------------------------------------
                                      Active Army Critical Retention Skills
-----------------------------------------------------------------------------------------------------------------
                                                       Initial             Mid-Career              Career
                                  Authorized/  -----------------------------------------------------------------
        Specialty (MOS)            assigned                   YTD                   YTD                   YTD
                                                 YTD elig   retained   YTD elig   retained   YTD elig   retained
----------------------------------------------------------------------------------------------------------------
Field Artillery Tactical Data        2965/2772         59         49         38         36         11         10
 Systems Specialist...........
Field Artillery Radar Operator         695/582         14         13          9          8          4          4
Signal Support Systems               7808/7386        190        152        109         94         45         41
 Specialist...................
Corrections...................       1212/1170         29         23         14          9         12         12
Intelligence Analyst..........       4860/5073        133        106         96         84         45         37
Combat Medic..................     18186/17647        349        262        348        335        161        148
Motor Transport Operator......     16750/15702        341        295        212        201        107        102
Explosive Ordnance Disposal...       1470/1133         24         18         13         11          7          7
Petroleum Supply Specialist...       9956/9663        241        189        133        117         60         59
Parachute Rigger..............       1663/1426         45         40         59         54         17         17
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
                                      Active Navy Critical Retention Skills
-----------------------------------------------------------------------------------------------------------------
                                                       Zone A                Zone B                Zone C
                                               -----------------------------------------------------------------
        Specialty (Rating)         Authorized/  FYO8 FYTD  FY08 FYTD  FYO8 FYTD  FY08 FYTD  FY08 FYTD  FY08 FYTD
                                     assigned    1st QTR    1st QTR    1st QTR    1st QTR    1st QTR    1st QTR
                                                   goal     reenlist     goal     reenlist     goal     reenlist
----------------------------------------------------------------------------------------------------------------
Nuclear Propulsion...............  10811/10996        168        183        100         87         38         41
Fleet Marine Force Reconnaissance      138/67           2          2          1          3          0          0
 Corpsman........................
Field Medical Service Technician.   6772/7747          51         92         33         70         24         43
Medical Deep Sea Divine                121/86           1          0          0          0          0          0
 Technician......................
Fleet Marine Force Reconnaissance       51/35          NA         NA          0          0          1          2
 Independent.....................
Navy Diver.......................   1275/1002          14         15          6         13          5          6
Cryptologic Technicians              999/1757          13         34         11         16          4          9
 Interpretive (Linguist NEC).....
Explosive Ordnance Disposal......    1064/901           7         10          8         13          3         22
Fire Controlman AEGIS............   2198/1933          19         46         16         48          3          9
Special Operations...............   2159/1896          34         41         19         31         21         24
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
                             Active Marine Corps Critical Retention Skills
--------------------------------------------------------------------------------------------------------
                                                                   1st Term             Subsequent
                                               Authorized/  -------------------------------------------
              Specialty (MOS)                   assigned                   YTD                   YTD
                                                              YTD goal   retained   YTD goal   retained
-------------------------------------------------------------------------------------------------------
Explosive Ordnance Disposal................         568/431         23         64         15         60
Counter Intelligence.......................         675/442         27         47         16         56
Reconnaissance Marine......................       1630/1215         49         52         19         70
Intelligence Specialist....................       1566/1258         32         71         22         94
Fire Support Man...........................         627/508         12         22          6         24
Middle East Cryptologic Linguists..........         230/200          4         15          3          8
Asia-Pacific Cryptologic Linguists.........          169/97          4          9          2          2
Artillery Electronics Technician...........           82/65          2          4          1          0
Aviation Meteorological Equipment                     57/49          1          0          1          2
 Technician................................
Light Armor Vehicle........................         984/992         18         29          8         22
----------------------------------------------------------------------------------------------------------------

    Question. Secretary Gates, with the increases in 
reenlistment and enlistment bonuses, do you feel that the 
funding for recruiting and retention initiatives is sufficient?
    Answer. Yes, we stand by the President's budget request for 
bonuses as sufficient to sustain strong recruiting and 
retention.
    Question. Secretary Gates, how do the Army and Marine Corps 
recruiting commands plan to adapt to meet the new end-strength 
requirements. What are the short- and long-term implications 
associated with sustaining a heightened end-strength?
    Answer. The Army and Marine Corps' end strength growth may 
require increases in both recruiting and retention goals. 
Achieving the higher strength levels will be driven by how 
quickly the Army and Marine Corps programs grow. Continued 
congressional support of recruiting and retention programs is 
essential to sustain the All Volunteer Force in the midst of 
its first protracted war. Sufficient resources must be 
committed to sustain military recruiting and retention 
programs.

                         Personnel--Dwell Time

    Question. One essential element in maintaining troop morale 
during wartime is to provide some guarantees that there will be 
time to rest between deployments to combat zones. This rest is 
officially called ``dwell time.'' At one point dwell time for 
the U.S. Army was a ratio of 1:2, 12 months in combat, 24 
months at home. Due to the Global War on Terrorism (GWOT) Army 
dwell time has evolved to a 1:1 ratio. However, on April 11, 
2007, Secretary Gates announced a new policy that active Army 
units now in the Central Command area of responsibility and 
those headed there will deploy for not more than 15 months and 
will return home for not less than 12 months. The Marine Corps 
sends its units to Iraq for seven months, with seven months 
intended at home station. However, because of mounting strain 
on our military from the war in Iraq, dwell time has been 
reduced.
    Secretary Gates, there have been numerous articles 
regarding DoD consistently reducing `dwell time' for our combat 
units. Do you expect that `dwell-time' standards will be 
further relaxed or changed?
    Answer. We do not expect to reduce our dwell time 
standards. In fact, our goal is to increase the dwell time for 
our ground forces by reducing the number of deployed Army 
Brigade Combat Teams by July of this year and increasing the 
size of the Army and Marine Corps. Even with these plans, we 
must recognize that the operational tempo of our forces is 
largely driven by the situation on the ground in Iraq and 
Afghanistan.
    Question. Secretary Gates, the Army dwell time ratio at one 
point was 1:2, then 1:1, and now its 15 months in theater and 
12 months at home, which equates to less than a 1:1 ratio. The 
Marine Corps dwell time is seven months in theater and seven 
months off. Has there been any evaluation as to whose system is 
better?
    Answer. The various Services deployment paradigms are a 
function of the mission, culture, and needs of the individual 
Service. In that sense, the ``best'' way is that which works 
for each individual Service. These deployment patterns were 
developed over time to address many factors. For example, the 
Marine Corps deploys forces at and below the battalion/squadron 
level for seven months at a time, while units at higher command 
levels generally deploy for a year. This deployment pattern 
aligns with Marine Corps recruiting, retention, and skill 
training goals.
    The Department-wide goal for all Services, regardless of 
deployment length, is that Active component forces are to 
attain a dwell ratio of 1:2 and Reserve component forces are to 
achieve a dwell ratio of 1:5.
    Question. Secretary Gates, during dwell time it is our 
understanding that in addition to being home, our servicemen 
and women are also suppose to go through training. However, 
with dwell time being reduced, what steps are in place to 
ensure our forces get the proper training?
    Answer. Regardless of dwell time, we continue to ensure our 
forces receive the proper training prior to deploying. 
Deploying organizations receive high quality training that is a 
combat multiplier for our forces. An important component of 
that high quality training for brigade combat teams, 
battalions, and some enabling units is the combat training 
center rotations at the National Training Center, Joint 
Readiness Training Center, and Marine Air-Ground Task Force 
Training Center. If deploying combat forces are unable to 
attend the training at the combat training centers due to 
deployment timelines, the combat training centers have 
conducted mission rehearsal exercises for the deploying forces 
at their home station utilizing local training areas. For those 
forces that do not routinely attend combat training centers, 
other training venues and capabilities are leveraged; but 
regardless of the training venue, the Army and Marine Corps 
chains of command validate the mental, physical, and cultural 
combat readiness of units prior to deployment. In addition to 
its Pre-Deployment Training Program, the Marine Corps is 
developing a standards-based Marine Air-Ground Task Force 
Exercise program to maintain proficiency in core war fighting 
functions for the future. For routine Navy employment, the 
Fleet Response Plan provides units trained and ready over a 
longer period of time irrespective of dwell. For Navy support 
to Operation Iraqi Freedom and Operation Enduring Freedom, 
Sailors receive training specified by the theater through the 
Joint Sourcing Training Oversight process administered by 
United States Joint Forces Command in Norfolk, Virginia. Dwell 
does not impact this training. The Air Force ensures similar 
training and, like the Navy, dwell time does not impact their 
training.
    Question. Secretary Gates, is the training that the troops 
are receiving limited to the Global War on Terrorism (GWOT)?
    Answer. No--The Armed Forces of the United States do train 
for executing a range of military operations. However, given 
current operational demands, the Army and Marine Corps major 
training venues, the National Training Center, Joint Readiness 
Training Center, and Marine Air-Ground Task Force Training 
Center, are primarily focusing their efforts on the training 
requirements to specifically prepare forces for the GWOT. The 
bulk of the Navy and Air Force major training programs support 
the broader range of military operations; however, Air Force 
and the Navy forces identified to support current operations 
also focus their efforts on specific training requirements in 
preparation for GWOT deployments. The Marine Corps has reported 
that heavy training for counterinsurgency, coupled with the 
short dwell time, does limit their ability to maintain 
proficiency in core competencies. However, they continue to 
train Marine Expeditionary Units to be proficient in 
specialized missions in support of their global employment.
    Question. Secretary Gates, how much did last years 
``surge'' effect `dwell time' for the Services?
    Answer. The answer depends on the Service. We have seen 
little, if any, affect on individual dwell time for Navy or Air 
Force personnel. In the Marine Corps, two battalions were 
extended by the surge and this had a small effect on overall 
Marine Corps dwell time. For the Army, we increased both the 
number of forces and the ``Boots on the Ground'' (BOG) time. 
These individuals are likely to have a BOG-to-Dwell ratio of 
less than 1:1.
    Question. Secretary Gates, when dwell time is cut short 
what steps are in place to make sure that our servicemen and 
women are compensated?
    Answer. On April 18, 2007, the Department established the 
Post Deployment Mobilization Respite Absence program which 
provides administrative absence days for Active component 
Service members deployed more than 12 months in any 36-month 
period and to Reserve component Service members deployed more 
than 12 months in any 72-month period. The number of 
administrative absence days depends on how many months beyond 
12 months the Service member is deployed. An administrative 
absence is the same as a day of non-chargeable leave.
    On May 24, 2007, the Department authorized the Secretaries 
of the Military Departments to pay Assignment Incentive Pay of 
$200 per day, not to exceed $3,000 monthly, in lieu of 
providing administrative absence, to those Reserve component 
members who are also government employees and cannot legally 
receive their civilian pay during days served on Active duty 
and who specifically elect the payment option.
    Active and Reserve component members deployed to Iraq or 
Afghanistan and involuntarily extended beyond 12 consecutive 
months, or deployed for 12 months within a 15-month period, 
still qualify for the $1,000 per month compensation for any 
month or portion of a month served by involuntary extension. 
Administrative absence recognition is for additional respite 
and supplements the broader compensation mentioned above.

    [Clerks note.--End of questions submitted by Mr. Murtha.]
                                      Wednesday, February 13, 2008.

                      U.S. MARINE CORPS READINESS

                               WITNESSES

LIEUTENANT GENERAL JAMES F. AMOS, DEPUTY COMMANDANT OF THE MARINE CORPS 
    FOR COMBAT DEVELOPMENT AND INTEGRATION
LIEUTENANT GENERAL JOHN G. CASTELLAW, DEPUTY COMMANDANT OF THE MARINE 
    CORPS FOR PROGRAMS AND RESOURCES

                              Introduction

    Mr. Moran. The Committee will come to order.
    This afternoon we will hold a hearing on Marine Corps 
readiness. We will focus primarily on near-term readiness 
issues related to personnel training and equipment repair, 
reset and battle loss replacement.
    We are very pleased to welcome two distinguished general 
officers as our witnesses. Lieutenant General Amos is currently 
the Deputy Commandant for Combat Development and Integration.
    But I understand there is hot news out that you have very 
recently been nominated to be the number-two, the Assistant 
Commandant of the Marine Corps, which is a big deal. And 
congratulations, General Amos.
    General Amos. Thank you.
    Mr. Moran. Lieutenant General Castellaw, the Deputy 
Commandant for Programs and Resources is our other witness.
    And both officers are well-qualified, obviously, to discuss 
these readiness areas and to answer the questions of the 
committee.
    Gentlemen, we thank you for being here.
    And the Committee is very much concerned about the 
readiness of the Marine Corps. Our Marines are performing 
magnificently in Iraq, Afghanistan and other difficult places 
around the globe. We are proud of their service, yet we realize 
the burden that repeated deployments places on them and their 
families.
    In very short order, the committee will be reviewing the 
requests for the fiscal year 2008 supplemental while continuing 
to review the service's request for fiscal year 2009. So your 
responses today will better help the committee to determine 
whether adequate resources have been requested for the many 
programs that support the Corps. We look forward to your 
testimony and to a spirited and informative question-and-answer 
session.
    Before we begin our testimony, though, I would like to call 
on our ranking member, our friend Bill Young, for any comments.
    Mr. Young.

                          Remarks of Mr. Young

    Mr. Young. Well, Mr. Chairman, thank you very much.
    And I want to add my welcome to our distinguished panel, 
Lieutenant General Amos and Lieutenant General Castellaw.
    Congratulations on your nomination. I hope our brothers and 
sisters in the Senate will move quickly to confirm that 
appointment, and we look forward to working with you in that 
new capacity.
    The Marine Corps, as usual, is being stretched pretty thin, 
and you are being asked to send some additional troops into 
Afghanistan to prepare for this anticipated spring offensive. 
At the same time, the Corps is trying to grow the force to 
202,000 active-duty Marines by 2011--an aggressive goal by 
itself when you consider all of the challenges of 
infrastructure, training, resetting some of the old equipment 
that has been worn out, recapitalization. You have a big task 
ahead of you, and the Marine Corps, of course, is always ahead 
of the curve on taking care of their problems.
    And if you can keep my constituent, General Mike Regner, 
under control, you will have really made a major 
accomplishment.
    I want to welcome you both.
    Welcome, Mike Regner, too--as I said, my constituent. Proud 
to have you here.
    We are proud of the United States Marine Corps, and we look 
forward to your testimony.
    Mr. Moran. General Amos, if you would like to summarize 
your statement, we can put the entire statement in the record.

                   Summary Statement of General Amos

    General Amos. That would be great.
    On behalf of General Castellaw and I, we want to thank you 
for the opportunity to tell a Marine Corps story. It is a good 
one.
    We are here on a mission today, and the mission is on 
behalf of the Marines and our family members that are out 
there: 186,000-plus Marines and over 300,000 family members.
    We want to say thank you to this Committee. We look back 
over the last several years, 4\1/2\ years, of really hard 
combat. This Committee and the members that have gone before 
you have supported us with gusto. And it has paid off. It is 
paying off in Iraq, it is paying off in Afghanistan, and it is 
paying off on the home front. So we want to thank you for that.
    If you would take our statement, please, our joint 
statement, and put it into the record. And General Castellaw 
and I stand ready for your questions, Mr. Chairman.
    [The joint statement of General Amos and General Castellaw 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Moran. Thanks, General. Thanks for supporting you with 
gusto, and that was it.
    General Amos. That was it, sir. I want to thank you, and we 
are ready to take your questions. We are looking forward to it.
    Mr. Moran. All right. That is fine.
    Would you like to start off, Bill?
    Mr. Young. That would be fine.
    Mr. Moran. Go ahead.

                         BUDGETARY REQUIREMENTS

    Mr. Young. In the budget that has been presented now to 
us--and we had somewhat of an overview of that this morning 
with Secretary England and Admiral Mullen--are your needs being 
met? Is the request adequate? Are there things that you need 
that haven't been requested in the budget?
    General Castellaw. Sir, he is getting promoted, and I get 
to do the answering.
    Sir, again, I just want to echo General Amos's appreciation 
to the Congress, and particularly to this Committee, for the 
support that we have been given. We have had great 
opportunities within the Department in our relationship with 
the Congress to identify those things that we truly need.
    The Marine Corps is proud of our history. And, in fact, 
what we try to do is be good stewards of the Nation's scarce 
resources. When we talk about that, we are not only talking 
about the appropriations that we get from the Congress, but we 
are talking about the great men and women who are truly, truly 
the number-one resource that we have in the Marine Corps.
    We will continue to work within the Department and with you 
to identify those additional items, those additional things 
that we need to take to war with us. And as we identify them 
and we work with you, we will note them and we will appreciate 
the support that you, I am sure, will continue to give us.
    Mr. Young. But, General, with the additional Marines being 
sent to Afghanistan, there will be additional equipment 
required, personal equipment, body armor, weapons, other types 
of vehicles. Will they be fully equipped when they do deploy to 
Afghanistan?
    General Amos. Sir, they will be. As you know, one of the 
units is a Marine expeditionary unit coming off the East Coast. 
And they come with all their equipment anyway. In other words, 
they were already planning on deploying aboard naval shipping. 
So they are coming with everything that they have.
    Now, there is no question they are going to be plussed up 
with what we call enablers. Some enablers are people and 
different kinds of capabilities. But there will also be some 
equipment: things from signals intelligence kind of things, 
counterintelligence, human intelligence, plus-ups and that kind 
of thing. So they are.
    And the equipment that the battalion that is coming out of 
Twentynine Palms that will go into Afghanistan, we will move 
equipment both from in theater, mostly from in theater, over 
from Iraq, equipment that is not being used that we have 
forward in stores and that type of thing. But they will have 
everything that they need before they go in.
    Mr. Young. So they will take it with them? They will have 
it right with them as they deploy?
    General Amos. Absolutely, sir.

                                TRAINING

    Mr. Young. Will they have completed training that you would 
normally want a Marine to have completed before he is deployed?
    General Amos. They are, Mr. Young. They will leave next 
month, and they will have completed all of what they call 
Predeployment Training, PDT. The battalion was focused 
primarily into Iraq, and they were going to go at a later date, 
and they have been reoriented.
    So, you know, the command down at Quantico has built a 
pretty rigorous training schedule. And using the model that we 
have in Iraq, but modifying it for Afghanistan with the kind of 
things they expect to be able to do and be required to do, 
both--not only that, training police, things that we don't 
typically do--we put that whole package together, to include 
hiring Afghan role-players.
    And they are a Twentynine Palms-based unit, 3rd Battalion, 
7th Marine. So they are already there, which makes it pretty 
fortuitous for us. We can put them up in the higher parts, the 
higher elevations of Twentynine Palms, and it is actually 
almost exactly the same elevation in the country that they 
would be going in, terrain-wise.

                       WOUNDED WARRIOR BATTALION

    Mr. Young. General, a week before last, my wife and I 
visited the Wounded Warrior Battalion at Camp Pendleton, and we 
had a chance to see some of the Marines that we had actually 
met while they were at Bethesda in the intensive care, and 
worked with them and their families at the time. And that was 
quite an emotional reunion with some of them.
    But I have to tell you, the United States of America is 
fortunate to have the type of Marine that we have, because 
their attitudes, despite their injuries, despite their 
sacrifices, their attitudes are just unbelievable. And you 
cannot visit with them and not come away with a tremendous 
inspiration and appreciation for the United States Marine Corps 
and the men and women that make up the Corps.
    So thank you very much for the good job that you do, and 
all of our Marines, and thank you for being here today.
    And, Mr. Chairman, thank you very much.

                               DWELL TIME

    Mr. Moran. Thank you, Mr. Young.
    I would like to ask questions about another aspect of 
morale. Obviously, it is critical to be trained and fully 
equipped. But the amount of rest time between combat 
deployments is also critical to maintain morale. It is not in 
statute. This Committee has tried to put it in statute, because 
DOD has so changed what had been a traditional ratio. In fact, 
used to be a year in theater and then 2 years at home. The 
Corps is now deploying, we understand, for 7 months in combat 
and 7 months rest time. But we wouldn't have gotten involved if 
there hadn't been such a radical departure from the norm to 
deal with the demands of the Iraq war.
    We asked Admiral Mullen today--and Secretary Gates broke 
his arm, apparently, so he wasn't able to make the hearing. But 
we were told that DOD is going to try to get back to a more 
traditional dwell time.
    I would like to ask you, either of you, if you think that 
the Corps is going to get back to a more traditional ratio of 
combat versus rest.
    General Amos. Mr. Chairman, we hope to get there. That is 
certainly the goal of our Commandant. And that is really one of 
the driving factors between the 202K growth, was to try to get 
us some dwell time.
    As you know, our infantry battalions, we have 26 of them 
right now. We will grow to 27 later on this year. The good news 
story is that the two that we built last year down at Camp 
Lejeune, one deploys next month and the other one deploys in 
September. So having just stood both those battalions up, one 
of them leaves next month to go into combat. So that is 
designed to relieve some of the stress and increase the dwell 
time.
    But there are other units besides our infantry battalions. 
Our EOD personnel, military personnel, our unmanned aerial 
vehicle squadrons, intelligence communications, our truck 
companies--almost every one of those units are on what we call 
a 1-to-1 dwell, gone 7 months, home 7 months. And even home 7 
months, it is a little bit of a misnomer, because you have to 
leave early enough to relieve the unit that you are there with. 
So there is an overlap. So truth in lending, they are probably 
home 6\1/2\ months, maybe 6 months.
    So the dwell is an issue with our Commandant. The forced 
growth will mitigate that and will give us the opportunity to 
get to a 1-to-2. And that is the goal in the long war. As long 
as our country is engaged in this long war, then our goal in 
the Marine Corps is to get to a 1-to-2. We appreciate your help 
with your approval of the 202K, the support of equipment and 
buying people. That is our solution, to get to a 1-to-2. Our 
long-range goal in peace time is to get to 1-to-3.
    Mr. Moran. Is there any compensation, General, for Marines 
that have had their dwell time cut short substantially? I am 
curious, in order to make this surge work, what is the shortest 
dwell time that a Marine combat unit might have experienced, 
for example?
    General Amos. I think, as I look back on the ones that have 
gone through this thing, I think the shortest ones are units 
like our unmanned aerial--what we call VMU, our unmanned aerial 
squadrons. They fly our UAVs. They are on about a 1-to-.85. And 
some of our communications battalions are that way, simply 
because we just don't have enough of them.
    Within the unit--and that is just unit now. Within when you 
start talking individual personnel that have unique skills, we 
have some of those folks that are less than a 1-to-1 dwell as 
well.
    So I think the average is, if you were to pin me down and 
say, writ large, across the Marine Corps what would it be, it 
would be slightly better than 1-to-1. But the average combat 
units that you see going over there are about a 1-to-1.

                         RE-ENLISTMENT BONUSES

    Mr. Moran. In order to meet your recruitment and retention 
goals, you have had to offer substantial cash bonuses, we 
understand. Do you happen to know how much you have included in 
the budget for that, for the enlistment and re-enlistment 
bonuses?
    General Castellaw. What we are doing--it has been growing 
each year. But we have had great success. We are maintaining, 
in terms of our enlistments, above 90 percent of high school 
graduates. The quality has not been impacted. We have 
continually met or exceeded the enlistment numbers.
    And we are exceeding our re-enlistment numbers. In fact, we 
exceeded in this recent year, in 2007, the amount of accessions 
and the amount of re-enlistments by about a total of 2,500 
people, more than what we had tagged. So we continue to be 
successful in doing that.
    The numbers, the dollars that we have in bonuses now have 
grown from $200 million, in that neighborhood in 2007, they 
went to about $400 million here in 2008, and we are projecting 
in the neighborhood of about $600 million, a little over that, 
in 2009. So we are seeing an increase in the amount that we are 
putting into those things, monetarily, that encourage Marines 
to re-enlist.
    What we do is we don't put a lot on the front end. People 
join the Marine Corps to be Marines. On the back end, we are a 
merit-based organization, and we look for those individuals who 
want to stay, and then that is where we put our bonus dollars.
    Mr. Moran. You must lose a number of them, though, to 
private security contractors, because they are certainly 
offering better benefits and much higher pay. Are you looking 
into competing with other means, obviously, but possibly 
expanding GI benefits, tuition credits, small business loans 
and so on when they get out, in order to keep the best people? 
Because we are not just talking about quantity, we are talking 
about quality, obviously.
    General Castellaw. Sir, again, as I indicated to you, we 
are good stewards of the Nation's resources. We will 
continually look for those things that fit the Marine Corps and 
what we need to ensure that we keep those quality individuals. 
But as I indicated, the first-term re-enlistment has been up 10 
percent over the last year.
    Mr. Moran. It has been up 10 percent?
    General Castellaw. Yes, sir, first term.
    If you look at the second term--and these are the careers, 
these are the people who have already made the decision to stay 
in--that is up 5 percent. So, with what we are doing and with 
the incentives that we are providing, we continue to meet and 
exceed what our goals are.
    So, again, we will do what is necessary to make sure that 
our people get what they deserve and that we maintain the 
quality that the Nation expects of our Marine Corps.
    Mr. Moran. Mr. Lewis.

                   TWENTYNINE PALMS MARINE CORPS BASE

    Mr. Lewis. Thank you, Mr. Chairman.
    Gentlemen, we very much appreciate your being here. The 
quality and capability and the importance of the Marine Corps 
to our national security is, I think, obvious to anybody who 
will look. But congratulations for the fabulous job you all are 
doing.
    From time to time within the Marine Corps budget, after it 
gets through the DOD process and probably OMB process as well, 
it doesn't give you everything that you might want. So once in 
a while, there is a need for extra funding. Sometimes that 
extra funding is described as an earmark. And far be it from me 
to suggest that earmarks are important, but I would like to 
have you perhaps provide some testimony relative to the value 
of some earmarks that have affected, I think, directly affected 
the Marine Corps.
    That which has happened in Twentynine Palms, that training 
facility, in recent years is almost entirely the result of 
earmarks, now in excess of something like $100 million over 
time, including the improvement of the ranges, including the 
creation of the village that the President visited not too long 
ago--a fabulous, fabulous training facility, competing very 
well with the NTC that is just down the road.
    So I, frankly, would like to have you react to the money 
that this Committee has seen fit to put in that direction, 
specifically at the Twentynine Palms Marine base, but otherwise 
as well. The base happens to be in my district, so I have a 
small little prejudice, but otherwise.
    General Amos. Congressman, you are well-known at Twentynine 
Palms. And I would like to comment about that from the training 
perspective and the value added. And then General Castellaw can 
pile on, as our head money man and resource man.
    I have watched that range at Twentynine Palms change from 
when John and I were Captains and we used to not want to go out 
there. In fact, we looked for reasons to miss deployments when 
our squadrons went out there, because it was just--it wasn't 
the austerity and it wasn't the hardness, but it was kind of a 
combination of everything.
    And I will tell you, the training at Twentynine Palms now, 
in fact, it is my all-time favorite base to go visit and spend 
time with Marines out in the field, because it is a first-
class--in fact, I think it is world quality. I was over in 
Israel not too long ago, visiting their ground forces, looking 
through training, and they have some great facilities, but they 
pale in comparison to Twentynine Palms.
    And I would agree with you, I think it easily rivals NTC. 
It now has joint certification from Joint Forces Command; I 
think you know that. That gives us a lot of capabilities to tap 
into joint capabilities across this country, to include a T10 
line which now allows data passing in virtual simulation all 
across America all tied into a single command post at 
Twentynine Palms, if that is where we want to put it.
    But the villages, for those of you who haven't been there, 
the villages that have been built there, the money that has 
been given to the Marine Corps to hire Iraqi role-players, we 
have what we call a military operations in urban terrain, a 
MOUT facility, we have several of them, where we train our 
battalions. But we have one that is about half done up in the 
very northern part, as you know. And that has been--we have 
been the beneficiary of that earmark. And that will be--I don't 
know what is the largest in our country, but I haven't seen any 
larger or any more capable than that will be.
    So the entire facility at Twentynine Palms is becoming a 
gem in the Marine Corps. And to be honest with you, had it not 
been for this Committee and your strong support, Congressman 
Lewis, it could have just atrophied and been the way it was 
when General Castellaw and I were youngsters. So I think it has 
been a grand slam home run, and it is exciting to go out there. 
Thank you.
    Mr. Lewis. Thank you.
    General Castellaw. Sir, I was in Iraq over the holidays, 
and I had the opportunity to go on a patrol with some Marines 
who had benefitted from the training out at Twentynine Palms. 
And I was in a MRAP as we were moving around. And they gave 
personal testimony--I am a Southern Baptist, so I put a lot 
into testimony--of the training, the use that they got out of 
that training there.
    So that is what we need to continue to be successful, is to 
have those opportunities and those facilities that are world-
class that allow us to be successful, just like those people, 
those Marines and Sailors I was with in Iraq. So thank you.
    Mr. Lewis. Thank you very much.
    Mr. Chairman, we all know the role that the Marine Corps 
has played in theater. They are our point. But in the meantime, 
when it comes to budget time in DOD, oftentimes they end up 
with the short end of the stick. And there are very important 
items that ought to be funded that oftentimes are left off the 
table, things like housing and otherwise. I mean, the work that 
this Committee has done with that facility, beyond the ranges, 
beyond the village, but providing adequate housing, trying to 
satisfy some of the fundamental needs of the families that are 
out there really in the boondocks, the Committee has done a 
good job. So thank you, Mr. Chairman.
    Mr. Moran. Well, thank you, Mr. Lewis. And you make a very 
good point, that there wouldn't have to be some of these 
earmarks if the priorities were built into the budget in the 
first place. And this may be one of those case where it should 
have been.
    Mr. Lewis. More funding for defense all across the board.
    Mr. Moran. Thank you, Mr. Lewis.
    Mr. Bishop.

                      PREPOSITIONED EQUIPMENT SETS

    Mr. Bishop. Yes, sir.
    Gentlemen, welcome.
    I have a couple of questions. I am interested in the 
prepositioned equipment sets. The Marine Corps drew upon the 
prepositioned equipment sets to sustain your operations in Iraq 
to outfit the new units that were standing up as a part of the 
end-strength increase. And just this past December, our staff 
visited the Marine prepositioning program and viewed the 
equipment there, and it was apparent that the set in Norway is 
not currently being rebuilt.
    So my questions are, what is the readiness posture of the 
maritime prepositioning squadrons? What will be the impact of 
the proposed increase in end strength in the units on the plan 
to reset the Marine Corps prepositioned equipment sets? What is 
the timeline to have all of the prepositioned sets returned to 
their desired readiness? And do you have sufficient depot and 
production capacity available? Do you have enough money to do 
it? And do you intend to add the MRAP vehicles to the 
prepositioned equipment sets?
    General Amos. Congressman, I will do my best to try to 
remember all that, but let me start with the ones right on the 
back side of it.
    There is no attempt, there is no plan right now to put the 
MRAP vehicles on prepositioned ships. That doesn't mean it may 
not happen, but we are working through exactly what we are 
going to do with our MRAPs to be good stewards of them, where 
they will likely need to be used around the world. There will 
be other places that MRAPs, I promise you, that MRAPs will be 
the vehicle of choice, the same way they are on the major 
highways in Iraq right now in the very dangerous part. But 
right now, today, there is not a plan to put MRAPs on there. We 
have three----
    Mr. Bishop. Is there a reason why there isn't a plan for 
MRAPs?
    General Amos. Well, there is, sir, because they are very 
large, they take up an enormous amount of room. And when we 
have an MPS ship, that whole squadron, that five--some MPS 
waters are six ships; a couple of them are five--and that 
equipment is tailored for a Marine Expeditionary Brigade that 
is going to be employed coming across the beach in an assault 
echelon kind of operation, or, excuse me, a sustainment kind of 
operation.
    It doesn't mean, again, we can't put it on there, but it 
does mean that we would probably take MRAPs, if I was guessing 
right now, put them on other naval shipping and get them into 
the theater if the theater-specific requirement was there for 
that. I mean, it is a great vehicle. We are very appreciative 
of it. To date, I don't believe we have lost a single Marine in 
any of the MRAPs that have been attacked. I don't think we have 
lost a single one. So it has been a huge success story, and we 
are very grateful.
    The three MPS squadrons' worth of ships, each with a 
brigade's worth of sustainment vehicles, equipment, tanks, 
artillery, water, ammunition, engineering supplies, one of them 
even has Navy Seabees gear on it, we have hospitalization gear 
in some of them--we have three of those. MPS-3, the one in 
Diego Garcia, is 100 percent. MPS-1, which is sourced off the 
East Coast, normally in the Mediterranean, that is down, as of 
today, down to around 42 percent. A couple of ships are down at 
Blount Island right now. The remainder of those ships will come 
in by June, and we expect MPS-1 to be back up to about 80 
percent of its principal end items.
    So MPS-1 will get up to 80 percent. We would like to get it 
to 100 percent, but we are cross-loading equipment, much of 
which you bought for us.
    Mr. Bishop. Do you have enough money to get it up to 100?
    General Amos. I don't think--well, I am going to let John 
answer that.
    Mr. Bishop. That would help us, I mean, because we want you 
to be reset. And we don't want to be caught with the proverbial 
pants down in the future.
    General Castellaw. Sir, we have benefitted and are 
benefitting and will benefit from approximately $10 billion in 
each of the last 2 years. And when we talk about in the 
baseline, the money that we got for grow-the-force and also the 
money that has been designated for reset.
    The Marine Corps has a lot of wants and needs, and so what 
we do is we prioritize where we need it to go. So the guy and 
the gal who is in the gun fight gets the stuff first. We give 
them the best that they got. Anybody that goes to Afghanistan 
or Iraq or Africa or deploys with the 31st MEU and the WESTPAC 
have the best equipment that the Marine Corps can provide. Then 
we go down through the other priorities. And as the equipment 
comes in, then it goes to those priorities.
    We stood up, as General Amos indicated, two battalions, 
infantry battalions, last year. And we had other units that 
stood up, as well. This year we will stand up another infantry 
battalion and other additional units. In the coming, as we grow 
the force, will, in 2009, 20 additional units, plus 
reinforcements.
    Mr. Bishop. Well, I guess my question really is, do you 
have the resources that you need to make all of those units 
meet the high standards of readiness at the time that they are 
stood up, or do we need to try to look at trying to give some 
additional resources, make some additional resources available 
for that?
    General Castellaw. As we stand up these units, we are 
matching the equipment. Right now, what we have to look at, in 
addition to getting the money, is whether or not the industry 
and the others can actually provide the equipment. So, right 
now through 2007 and 2008 and going into 2009, we have the 
pipes full. It takes anywhere from 18 to 48 months to deliver 
equipment. So, right now, we are pretty well filled, in terms 
of the pipes.
    Now, we will continue, as we see what goes on in 
Afghanistan, as we see what goes on in other parts of the 
world, as we look at what attrition we may have on the 
equipment we got, then we will identify those additional assets 
that we are going to require.
    Mr. Bishop. But, basically, what you are saying is you have 
the equipment for the deployed forces, and the nondeployed 
forces, though, are not at readiness in terms of equipment?
    General Castellaw. We have not filled up all of the 
equipment sets here in CONUS, and we have not completed the 
reset. Again, as the stuff comes in, as I indicated, the guys 
going to the fight get it, and then we are putting it in as we 
can with the remaining priorities.
    Mr. Moran. Thank you, Mr. Bishop.
    Mr. Frelinghuysen.

                           HOUSING CONDITIONS

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    First of all, let me compliment some of those who support 
you greatly. Your Marine Corps league in my State is second to 
none. And I have Pete Haas as one of my constituents. And some 
of those Marines may be 80 years old, but they would re-up if 
they could. They are enormously proud of their service.
    And I know Congressman Young and Beverly have done some 
fantastic things with the Marines. But the way that you look 
after one another--we have had some losses in our State, and 
the way the Marines wrap themselves around the families of 
those who are lost, I mean, I wish it could be emulated by some 
of the services, other services. I am not criticizing the other 
services, but it is truly remarkable.
    A couple of questions, not in order of priority.
    A couple of years ago, I was out at Camp Pendleton. 
Anything been done about those gang barracks? I know Marines 
never complain. I know you have other financial priorities. But 
some of those guys who come back, I was led to believe, and I 
saw it myself, some of those conditions were pretty deplorable. 
Any improvements that you can report? And have we been giving 
the means for you to take care of some of that.
    General Castellaw. Sir, that it is a very good observation. 
In fact, even today we had some people praying that the fires 
out in California would take away some of those barracks 
earlier.
    But the good news is this, is that by 2012 we will have 
achieved our initial goal of the BEQs. And what we are going at 
is a 2.0, we call it, which means that for every two 
individuals they share no more than one head facility. So that 
process is in work. $2 billion is what we are going to be 
spending on MILCON this coming year. We have projects at every 
location in the Marine Corps right now, in terms of----
    Mr. Frelinghuysen. I know you never complain.
    General Castellaw. Yes, sir.
    Mr. Frelinghuysen. But, you know, having seen it firsthand, 
something needs to be done. I mean, they deserve better. If you 
are married and you have some sort of quarters, that is 
something else. But for some of these people, I mean, full 
speed ahead.
    General Castellaw. Sir, we have 9,000 spots that we need to 
fill in family housing. After this coming year, we will be down 
to about 5,000. Our goal--and Commandant is beating us on the 
head just like you are to get the projects under contract and 
get to this 2.0 for the enlisted and to get the family housing 
deficits down to as low as possible.

                         TRAINING BASE IN GUAM

    Mr. Frelinghuysen. A brief comment. I don't think Guam will 
know what will happen when--was it 8,000 or 9,000 Marines are 
going to Guam? Could you tell us a little bit about that? They 
are going from Okinawa to Guam. Could you tell us a little bit 
about that move, how you are going to pay for it, you know, 
what those Marines are going to be doing?
    General Amos. Why don't I take the first part of that?
    The final details on the plan are not that; they are not 
finalized. It appears that we have a force layout in the 
Pacific now moving a big chunk of Marines and our Sailors that 
are part of the Marine team off of Okinawa and some of them to 
Hawaii, a large percentage of them, roughly 10,000, to Guam.
    There are training ranges up the Northern Marianas training 
islands that we are trying to build into a collaborative 
training base. In other words, you could put a couple of 
battalions' worth of Marines and an artillery battery and a 
couple of helicopter or V-22 squadrons and you may be pretty 
limited in your ability to be able to train there. So you need 
the ability to get off island to do some of that. So we are 
developing, right now, the training plan on how we would use 
that. We have yet to begin the environmental studies, which are 
required, as you know.
    So that is our plan. It does look like we are going to go 
to Guam. It does look like a good fit for us. We will need some 
help with the Northern Marianas training areas for training 
ranges to develop capabilities. But I think we are going to 
head in that direction, sir, but it is not finalized.

                                  MRAP

    Mr. Frelinghuysen. The figures that I heard for all the 
military are in the billions of dollars. And I wasn't promoting 
earmarks, but obviously it is one of those things that has to 
be put in the overall mix to consider funding.
    I just want to shift just back to what Mr. Bishop sort of 
was involved in, the MRAPs. I mean, we have thrown our arms 
around the MRAPs for the reasons that have been well-described. 
They have minimized casualties.
    The Army seems to be moving ahead with fairly large buys. 
How would you characterize where the Marines are in that 
regard? And if you aren't doing it as aggressively, are there 
strategic and other reasons that you are not?
    General Amos. Sir, again, I want to shout this from the 
rooftops of Congress and say thank you, because I don't know in 
37 years of being a Marine I have ever seen anything move 
either through the industrial base or through the Department of 
Defense or OSD or even Congress that has moved as fast as an 
MRAP has. So it has been a tremendously good news story.
    Honest to goodness, Marines love them. They feel very good 
when they are in them. When you think about the casualties we 
suffered with IEDs over the last 3 or 4 years, and we haven't 
had that. I visited Iraq in November, looked at two staff 
sergeants and a corpsman. And you may have seen the picture of 
their MRAP. It was turned over on its side. It was one of the 
medium-sized ones; it wasn't a small one. The whole engine was 
out about 50 yards away, the front chassis was blown off, and 
it was on its side. And these were the three lives that were in 
it, and they stood there next to the vehicle and talked to me. 
They were just completely--I mean, they were fine and very 
appreciative.
    So we love the vehicle. The situation, the Al Anbar 
province has worked in our favor, as you know. And what we 
found, not having deployed MRAPs over there except small 
numbers on the highways for road clearance missions, what we 
found when we put them down to our units, our companies and 
platoons, and we tried to go off road with some of them, you 
can get stuck. So they are really not off-road vehicles.
    And so there is also a piece of this that--I remember going 
into Rawah, and we drove in there on the outskirts of the town, 
and everybody said, ``Okay, get out.'' Okay, we are going to 
get out, and we are going to walk on a foot patrol with the 
platoon that was there. And the reason they walked is because 
they didn't want to send the wrong signal, because the people 
of the town now believed that they were part of the solution 
and they were part of the family to help them. If you drive 
through there all gunned up and protected, you are sending 
probably the signal you don't want to send.
    So that is kind of the chemistry that has happened where we 
are. It is not necessarily that way in other areas of Iraq, as 
you know. So as we took a look at that, we took a look at some 
of the mobility and the off-road mobility. We said, okay, how 
many do we need? And the original buy was 3,700. That is still 
a program of record for us. We are going, as you know, to the 
JROC to get approval to lower that number to 2,225. We have 
every intention of putting--it is a little bit less than 300 of 
them into what we call our table of equipment for our 
engineers, our EOD folks, explosive ordinance disposal, you 
know, folks that do road clearance. So that will become a 
permanent part of the Marine Corps and will be an enduring 
requirement for that.
    The rest, we are going to put some in Afghanistan when we 
go in there next month. And we are working on the exact numbers 
of that right now. We may end up taking a large slice of that 
into Afghanistan. We have, I think I looked today, and we have 
something around 900 or so MRAPs that have gone into the Marine 
zone, 919 as of yesterday.
    So we like them; they are successful. But there are 
limitations on where you can go. Especially in some of the real 
small urban areas, you can't get around a corner in that thing.
    So I think the next question would be, well, okay, what are 
you going to do with them, Marine Corps? And, first of all, I 
want to promise you that we are going to be good stewards of 
that, the same way we are all the rest of our gear. And I 
suspect we are probably going to take some of these, preserve 
them, have them forward deployed, maybe in the CENTCOM, Central 
Command, area. If we ever go into nasty little places like 
Somalia again, boy, MRAPs would be the one thing that everybody 
would be clamoring for.
    So I think you are going to see some forward and stores 
kind of things, some prepositioned equipment there, and we will 
bring some back to America. But we are going to take good care 
of them. It is yet to be seen exactly what we are going to do 
with them.
    Mr. Frelinghuysen. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Frelinghuysen.
    Mr. Dicks.

                           TRAINERS FOR MRAPS

    Mr. Dicks. Thank you.
    And I appreciate your being here, and sorry I couldn't be 
here for your testimony.
    On the MRAP, when we did the up-armored Humvees and some of 
those things, we bought some trainers. And as I understand it, 
there is only one trainer Marine Corps has for MRAP. And 
apparently these things are a little, somewhat, as you suggest, 
a little bit difficult to handle.
    Do you think trainers would make any sense here, in order 
to get people prepared to use the MRAP when they are in 
country?
    General Amos. Sir, I think I know what you are talking 
about. We had a couple, we call, surrogate vehicles out at 
Twentynine Palms. They look like an MRAP. I am not sure whether 
they were built by the same company, but they looked and kind 
of smelled like one. But they really weren't one, in that they 
weren't----
    Mr. Dicks. Actually, I think they do these, kind of, in a 
trailer. And like they do with the up-armored Humvees, they 
have a trailer, and then the person is in there.
    General Amos. A simulator.
    Mr. Dicks. Yes, in a simulator. He thinks he is driving the 
thing. And then introduce different scenarios to the driver.
    General Amos. Congressman, I don't know of an MRAP 
simulator, but I know exactly what you are talking about with 
our seven-ton vehicles. They are called MTVRs, our big trucks. 
And we have those; we have them out at Twentynine Palms. And 
they--I mean, that is--because we have rolled some of these 
seven-ton trucks. And you hurt a lot of Marines when you do 
that.
    And so we absolutely have gotten a lot of value out of 
that. We have bought some. I can't tell you how many we put, 
but we put some in Camp Lejeune and Camp Pendleton. I can't 
tell you how many we have and would it be better to have more.
    Mr. Dicks. Let me send you something on this, just so you 
can take a look at it.
    General Castellaw. Thank you.

                                  V-22

    Mr. Dicks. The other thing is, how is the Osprey doing?
    General Castellaw. Sir, the V-22 is doing great. I also had 
an opportunity to fly around Anbar in a V-22 that we have 
deployed with the squadron over there. It compresses the 
battlespace. I am an old frog pilot, which is an endearing name 
for a CH-46, which is what the V-22 replaced. The frog does 120 
knots; the V-22 does 240. Plus, it can go anywhere in Iraq 
without refueling and return.
    Mr. Dicks. I understand General Petraeus wants one, is that 
right?
    General Castellaw. Well, sir, we flew him around. He wanted 
to get around and see the troops over the holidays, and there 
wasn't any other aircraft that could take him in the time 
allotted to the locations he wanted to go. He would have to 
have done a combination fixed wing and rotary wing. With a V-
22, you can go anywhere in Iraq, as I indicated.
    So the aircraft is being used in all the assault missions 
that we have that type of aircraft for, plus in expanding the 
usage of it. The maintenance man-hours per flight hours is 9. 
To give you a comparison, the 46 is over 20. The 53 is 40.
    Mr. Dicks. Is that the one that leaked from the ceiling, 
the oil dripped down?
    General Castellaw. Sir, if a helicopter doesn't leak, it 
doesn't have any oil in it.
    Mr. Dicks. I have been on a lot of Black Hawks. I have 
never been on one that leaked, okay. But I was out there at San 
Diego, and we were on some Marine Corps helicopters about 15 
years ago, and they were just drip, drip, drip.
    General Castellaw. That was probably a 53. They leak more 
than 46s. But yes, sir.
    Mr. Dicks. I was just concerned.
    General Castellaw. As I said, sir, if it is not leaking, no 
oil. So you were all right.
    Mr. Dicks. Okay. We did survive.
    General Castellaw. But, again, 53 is over 40 maintenance 
man-hours per flight hours. So the reliability and the 
readiness of the aircraft is doing well also.
    We will deploy the second squadron to replace the first 
squadron later on this year. And then the third one will go 
over after that. And so we are well along in the process of 
transitioning.
    Mr. Dicks. How many of these are we going to buy? How many 
is the Marine Corps going to buy?
    General Castellaw. 360 MV-22s.
    Mr. Dicks. Where are we now in that buy?
    General Castellaw. We have delivered approximately sixty.
    Mr. Dicks. Sixty?
    General Castellaw. Yes, sir.
    Mr. Dicks. Has anybody ever thought about a multiyear on 
this?
    General Castellaw. Sir, we are that close right now to a 
multiyear. And NAVAIR is negotiating with Boeing. We expect to 
hear any day that we closed the deal on the multiyear.
    In 2009, we are going to thirty. That is the number that we 
want to maintain, thirty aircraft. That will allow us to 
transition two squadrons a year, which is what our goal is.
    Mr. Dicks. I understand one of them had an emergency 
landing due to a hydraulic leak. Do we know what that is all 
about, and can we get that fixed?
    General Castellaw. Yes, sir. On one of the control surfaces 
there is an actuator, and there was a leak in that actuator. 
There are three hydraulic systems on the V-22, so you have 
triple redundancy. Everything worked. But the rules are that if 
you have any kind of a leak or any indication that you may have 
a problem, then you land. And so that aircraft landed at 
Greenville. It was repaired and flew home the next day.
    Mr. Dicks. They say you also had a second one that had the 
same problem, and it had a hard landing a few months ago. Can 
you comment on that?
    General Castellaw. Sir, the one I remember that had the 
hard landing, it was not that particular issue. We did have one 
that had a hard landing at Camp Lejeune. And that was the exact 
reason it had the hard landing. Right now it doesn't appear to 
be associated with the issue that it was experiencing.
    Mr. Dicks. If we buy these at a rate of 30 a year, can we 
get the cost down even further, do you think?
    General Castellaw. Well, that is what we expect to see when 
we get this multiyear signed. Again, 30 is what that will 
cover. It will cover 2008, which we bought 21. And then 2009 
and on is 30. And the multiyear should bring the cost down.
    Mr. Dicks. So that would be requested in the 2010 budget, 
do you think? Would you request the multiyear next year, or 
could Congress----
    General Castellaw. Sir, you have already approved us going 
to a multiyear. You have already, in your legislation, allowed 
us to do the negotiation. So you are expecting us to close the 
deal on this multiyear.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Moran. Thank you, Mr. Dicks.
    Mr. Tiahrt.

                         Remarks of Mr. Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman.
    Last December, the Department of Defense released 
statistics about casualties in Iraq. And this is before we have 
had such great success over the last year in reducing the 
amount of casualties. And they listed them by service. The 
least amount of casualties was the Navy, if I recall correctly, 
then the Air Force, the Army. The most amount of casualties was 
the Marine Corps.
    But they also put in there the statistics for an African 
American male living in Philadelphia between the ages of 18 and 
25. And it was safer to be a Marine in Al Anbar province than 
it was to be living in Philadelphia, which I found startling. 
So I think it is a great tribute to the Marine Corps, to the 
training and the leadership that you guys have provided.
    And while we are mentioning training, General Regner and I 
went to the Philippines back in 2000, I think it was. He was a 
colonel at that time. When we landed and were trying to get 
some things done, he bumped into a colonel in the Philippine 
Army that he recognized from a class at Fort Leavenworth, which 
opened a lot of doors for us, as I recall. That kind of 
training I think is very important, because you don't know 
where this Global War on Terror is going to take us next time. 
And to be able to get off an airplane and look somebody in the 
eye and remember his name when they serve under another 
country's flag is very valuable. So please keep that in the 
budget.
    I think Congressman Frelinghuysen talked a lot about how 
the Marines will do with what they got. And when it comes to 
housing, a decade ago Dave Hobson held hearings in the MILCON 
Subcommittee, and we brought in your top-ranking sergeant in 
the Corps. And we asked him about military housing, and he kept 
repeating, ``Sir, we are going to do the best we can with what 
you give us.'' And, you know, I admire that, but also we need 
to know the truth about where the shortfalls are, because if it 
is equipment, if it is housing, if it is something we can do 
for the families, for the troops, I think we all want to do 
that.
    One of the things I think we need to do for your boys and 
girls that are coming back is to get some kind of screening for 
post-traumatic stress syndrome. These kind of things are not 
well-liked. Most people, even if they are suffering from some 
traumatic event, are not going to admit it. So I think you 
ought to put some kind of system in place that gets everybody 
to take some of the stigma away.
    This kind of stuff can fester for years. I have in Wichita, 
Kansas, a VA hospital. There are Vietnam vets that I have met 
that are still suffering from PTSD here some, in some cases, 40 
years later, 30 years later. Some kids it is going to hurt. 
They come back, and it festers. It ends up their families 
suffer as well. If it is caught, I think we can make a 
difference for these kids. And I think it is something you 
ought to consider. As everybody comes through, take the stigma 
away, everybody gets a screening, so that we get a chance to 
save them from a life of misery, because that can happen.
    I am also concerned about how we see cities like Berkeley 
reject the Corps, reject the military. The mayor of Toledo did 
something recently to turn down a military exercise for the 
Marine Corps. I know my own cousins that are older than I am 
that came back from Vietnam, some of them were spit on when 
they came back to the country, and they felt that kind of 
rejection. And I have to think that some of the problems that 
these Vietnam vets have are related to that rejection that they 
felt from their country. And I don't want that to happen again.
    So if there is anything we can do to work out that. I think 
we have great support in this country for the troops. But I am 
concerned when I see some of these things popping up. And we 
need to figure out a way to work with those cities to make sure 
that this doesn't fester and become a problem as well.
    I don't really have a question. I think you guys do a great 
job. I want to thank you for the training, the way you bring as 
many as you can home safe. And I admire the job you do. Thank 
you.
    General Amos. Sir, would you mind if I made a comment about 
a couple of those points, if that is all right, Mr. Chairman?
    Commandant Hagee, I guess probably about 3 years ago, made 
the determination with regards to BEQs and how our Marines were 
living, our bachelor Marines. And we had paid bills over years 
with military construction money. And the person that ended 
up--the group of young Marines that ended up being on the 
receiving end of that, negatively, were a lot of our young 
enlisted Marines with building and barracks. And so you are 
absolutely right to be concerned about that.
    But General Hagee, I think it was 3 years ago, said--
because this plan that General Castellaw talked about, about 
completing all the construction and getting the Marines in the 
right kinds of rooms, was going to go out. I mean, it was out 
in 2015, 2016, 2017, because we just kind of kept shoving it to 
the right of the FYDP. And General Hagee said, ``Drag it in, 
men.'' And that is exactly what has happened.
    So the decision was made several years ago under General 
Hagee's leadership, let's build these out so you have all our 
young E1s through E3s are living two to a room and all our 
corporals, E4s and above, are living in a single room. They 
have their own head. And so that is what is going to be 
accomplished by 2012.
    Well, in the meantime now, we are going to grow the force, 
so we need more of that. And I think the numbers were, 
somewhere out in 2014, we will have completed the rest of the 
military construction.
    But I just want you to know that from the building side of 
the house, for our young enlisted Marines, help is on the way. 
And you can see it at places like Camp Lejeune. I haven't been 
to Pendleton in a while, but I will tell you, when I was at 
Lejeune as the commander, we broke ground on two battalions' 
worth of barracks that were appropriated out of this Committee, 
brand-spanking-new ones. And we were gutting and renovating the 
other ones. So, truly, help is on the way on that.
    Regarding base housing--I am at Quantico now. And I had not 
been here for 4 or 5 years. I had been out doing other things 
in the Marine Corps. Came back, and all the, what I consider to 
be, kind of nasty housing that we put our Captains and Majors 
in while they are going to school down there, professional 
military schools, they are all gone. They are living in 
townhouses that any of us in here would go, ``Well, I would 
like to put my family in there.'' They are absolutely 
beautiful. I was at Miramar last week and saw the new housing 
that is going up at Miramar.
    So help is on the way, with regards to housing. And our 
current Commandant has got the attention of his three-stars to 
make this happen. So we appreciate your help on getting that. 
And I think it is a good news story.
    The PTSD screening, several years ago we went back in, in 
March of 2004. We didn't understand it. It was kind of a soft 
side of the Marine Corps that, quite honestly, probably a lot 
of us just went, ``I don't know that we need to go there.'' 
That is not the case anymore. We have got programs, our OSCAR 
program, where we are embedding mental health professionals in 
our deploying battalions, Naval officers that are mental health 
professionals in our deploying battalions.
    We screen all our Marines, every single one, when they come 
out of Iraq to go to Kuwait for a couple of days to kind of get 
reoriented, turn their gear in and get cleaned up. And during 
that period of time, they do their first post-deployment health 
survey. Now, they can lie and cheat on that, I understand that. 
But what we found was we are catching some kids that have some 
symptoms and have some issues, that we are starting to pick it 
up there.
    What we found, about a year and a half ago, was that some 
of these symptoms didn't start showing up until sometimes 3, 6, 
8 months later. So we now go out at about the 180-day mark and 
we bring these Marines back in by name, we track them by Social 
Security number, and we make them do it again. So we are 
screening them.
    There are probably other things we need to be doing. But 
this has caught our attention, because it is real. TBI is real. 
And my sense in the fleet is that we are past the point of 
manliness on this. In other words, we have some great Marines 
that are very courageous that are feeling the effects of some 
of this stuff, and they are coming forward. And so we are past 
the point of ``I am a little bit ashamed, I have a stigma.'' I 
am not saying it is completely gone, but I think we are headed 
in the right direction, sir.

                        CONTRACTORS/CONTRACTING

    Mr. Visclosky. Chairman, thank you very much.
    Gentlemen, thank you very much.
    And, General, I appreciate your comments on travel by 
helicopter. On contractor provided services, is there a process 
or rules for as far as a cost evaluation of the discreet 
services they provide that can't be provided by civilian 
employees? And the reason I ask is that, excepting out 
inflation, service contracts for these sort of services have 
grown by about 75 percent in the last 10 years. And I am just 
wondering if you could comment on that.
    General Castellaw. Yes, sir. Any contracting we do, we go 
through an evaluation process. What we have really tried to do 
is to free up Marines so that we can use them in their primary 
duties. So when we look at any particular areas that we are 
looking at potentially contracting out, that is the first 
thing. Are there Marines that we can take and we can reassign 
them and get them into units where, again, they use what they 
signed up to do? We have a process also where we continually 
review that because you get a contract to, say, provide the 
contract for chow hall support at Cherry Point, North Carolina, 
it is continually reviewed. And if they don't meet the 
standards, it can be recompeted and we can bring somebody else 
in. So there is a set of standards in place. There is a process 
in place where we try to ensure that we get the best buck for 
the dollar and that, where it is appropriate, that we use 
contracts.
    Mr. Visclosky. Is there a determination when you make those 
evaluations as to whether or not you should do it in-house with 
other civilian employees who are on a permanent basis?
    General Castellaw. Sir, there is a process called A-76, and 
you are probably at least somewhat familiar with it. And what 
we look to see is whether it is inherently governmental or not. 
If it is inherently governmental, we are going to continue to 
do it with Marines or with government civilians. If it is not, 
then we'll look at contracting it out and using that type of 
support in order to accomplish the mission.
    Mr. Visclosky. So, in a sense, 10 years ago, you had, from 
what you are saying, Marines doing a lot more nongovernmental 
functions than they probably should have been at that time, and 
they can be replaced by independent service contractors?
    General Castellaw. What we did is looked at areas on where 
we could again free Marines up to do their primary MOS. When 
General Amos and I came in, Marines were doing chow hall duty 
and cleaning plates and carrying out the garbage and doing 
stuff like that. That is one thing that we contracted out. And 
I haven't met a Marine yet who wasn't happy that we didn't do 
it. So that is what we continue to look for, is for 
opportunities like that.
    Mr. Dicks. Will the gentleman yield?
    Mr. Visclosky. Yes.
    Mr. Dicks. It also gives the Marines the chance to train in 
their unit and do the thing, as you suggested, that they signed 
up for. This was one of the things, I mean, there was a lot of 
criticism 20 years ago in the military reform group about, 
there were so many people doing this other kind of work and 
that this was a better way to go.
    Mr. Visclosky. Do you find contractors working beside 
uniform personnel in instances doing essentially the same jobs 
on occasion?
    General Castellaw. In most cases, no. Again, I will stay 
with the example of the chow hall. What you will have is you 
will have a Marine that is running the chow hall. He will be in 
charge. It will be usually a senior staff NCO. We will also 
have cooks there that will work alongside the cooks that are 
from that particular contracting organization. Why? It is 
because when we go to the field and when we deploy and when we 
do our expeditionary thing, we need cooks that know how to do 
that. So there will be cases like this where, yes, they will be 
working alongside them. But it will be for a good reason 
because we want to use them in our primary role which is to be 
an expeditionary force in readiness.

                               DWELL TIME

    Mr. Visclosky. On dwell time, apparently the practice of 
the current period of time with the Marine Corps is 7 months 
and 7 months. And with the Army, it is about a year and a year. 
Any reason as to the differential? And do you see benefits with 
the 7 months, or is this something particular with the corps 
that works better for you than a year and a year?
    General Castellaw. Let me take a shot at that, and then 
General Amos will jump in. I think it is our view and then both 
of our spouses are heavily involved in working with the 
families of Marines and Sailors that belong to these 
organizations. And I can tell you that for us 7 month chunks 
are about right. With 7 months, you still have the opportunity 
to see the light at the end of the tunnel, to come back. And 
even if you are on a one-to-one--and again it is really--most 
Army units are on a one-to-one, too. Theirs just happens to be 
12 months or--gone and 12 months back. But what we are finding 
in the Marine Corps is that it is better for us morale-wise and 
produces less stress on our families. Again, it is our culture, 
because we grew up with all these 6-month deployments. For 20 
years, I deployed 6 or 7 months at a time aboard ships going to 
the Mediterranean. So that is a type of culture and environment 
that we understand and we know how to plan our lives around. 
And it continues to work for us.
    General Amos. Our regimental headquarters, all of the 
headquarters that are commanded by colonels and generals are 
there for 13 months. In other words, so we rotate the units 
underneath them. The battalions and the squadrons come in for 7 
months and go out. You know, they are on the 7-month rotation. 
The only reason why the headquarters are not on 7-month 
rotations is we want continuity. In other words, we don't want 
the disruption. We don't want seams that the enemy could 
exploit. So we put the headquarters--and we just said, you have 
to suck it up. You are there for 13 months. And during that 13 
months, they get to come home for 2 weeks back in the 
continental United States. I mean, it is not like 2 days 
traveling, you know, going one way in 2 days instead of 3, so 
you are really home for 10 days. It is when you hit home, you 
hit your home for 2 weeks. Many years ago, in Vietnam, we would 
go over there for 3 months. And that is a long time. I did not 
go to Vietnam, but I got in at the tail end of it. And I was 
gone for 13 months as a young married lieutenant, and it was a 
long, long 13 months.
    As General Castellaw said, 7 months, Marines just 
appreciate it. When the Commandant came out and he kind of dug 
in on that thing and said Marines are going to go for 7 months, 
you couldn't hear it, but you can imagine the high fives that 
went up around the Marine Corps from all the young corporals 
and sergeants and lieutenants who said, good, the Commandant is 
taking care of me and my family. So it is a morale issue, and 
it works for us. That is probably about as good an answer as I 
can give you, sir.
    Mr. Visclosky. One more question on the same theme----
    Mr. Lewis. That question was great.
    Mr. Visclosky. I found that the culture had been 
essentially the 6-month rotation, but I find that interesting, 
yeah. On dwell times, given the stress and the responsibilities 
you have, are many of those being cut short, or are you seeing 
in some instances less dwell time at home for members of the 
Marine Corps? And if so, how do you try to compensate for that 
when it does occur?
    General Amos. Sir, we have units that are what we call one-
to-one. We have a couple of units that are a little bit less 
than one-to-one simply because they are one-of-a-kind 
organizations. For instance, our unmanned aerial squadrons or 
UAV squadrons, we have only got two of them. Now, one of the 
things that has happened is we are buying more UAVs, and we are 
going to, 202k growth is going to give us some more bodies. So 
now we will have the equivalent numbers of people where we can 
parcel them out. But right now, they are gone for 7 months, 
excuse me, yeah, gone for 7 months and home whatever .85 of 7 
is. Something probably around 6 months. And then they go again.
    So we do have some units that are less than that. Our 
explosive ordnance disposal, the military police, intelligence, 
human intelligence, UAV, some of our helicopter squadrons are 1 
to 1. Our infantry battalions are 1 to 1.2, yet we still have 
infantry battalions that are home for 1 to 2. But the average 
across the 26 active battalions we have right now is 1 to 1.2. 
So there are some that are less than one-to-one. We are going 
to 1 to 2 with the 202k growth. When we get up to 202k growth, 
assuming we don't spread ourselves real, real thin, much 
thinner than we are right now, then we will find ourselves to a 
1 to 2 dwell across the Marine Corps.
    Mr. Moran. Thank you. But we are going to have to start 
speeding this up a bit because we are told that we may have 
votes at 3:20, in about 10 minutes.
    Mr. Kingston.

                        RECRUITING AND RETENTION

    Mr. Kingston. Thank you, Mr. Chairman.
    General, I wanted to ask you about, and I am not sure who 
wants the question, But in terms of recruiting and retention, I 
understand that you have met your recruiting and retention 
goals. But the GAO said that there are some shortages in 
occupational specialties, human care, human intelligence 
collection, explosive ordnance disposal. Is that correct? And 
what is being done about that?
    General Amos. Sir, you are absolutely right. We have met 
our goals. We are ahead of them as a matter of fact. Some of 
those, like linguist human intelligence, explosive ordnance 
disposal, when you become an EOD Marine, you generally go up, 
you come up through the ordnance field. You are doing business 
in ordnance. And by the time you become a sergeant and you have 
shown a level of maturity that you can go off to school and 
then become, and if you have the inclination, then we will send 
you off to explosive ordnance disposal school. So it is a 
little bit like buying vehicles, putting them under contract. 
It takes each unit 36 months before you can finally get them 
out the other end. That is what happens with some of these 
folks.
    Signals intelligence or cryptologists, EOD, that takes a 
lot of schooling. And we generally will put some young guys in 
every now and then, but usually there is a level of maturity 
that we want to have to begin with to go in there, as you might 
imagine, if you are going to go out there and do some of this 
either intellectually or some of the physical things, like our 
EOD folks. So, there are. The 202k build when it is done is 
going to satisfy our requirements for what we, all these low 
density, high-demand kind of MOSs. But the truth is, even in 
2011, when we finish 202k, there will probably still be some 
shortages in some of those unique MOSs while we grow; in other 
words, while we mature those select kind of Marines to go into 
those fields simply because it takes a lot longer to train them 
and a higher level of maturity than it does for just a basic 
mechanic.
    Mr. Kingston. When you recruit someone the first time, what 
is your targeted group? I mean, just generally, to get it, when 
I say ``first time,'' generally to get them in the Marines 
without any specialty or anything like that? What do you look 
for? And specifically, I am wondering about second-generation 
service members. If their parents were in, does that make the 
recruit probably more likely as a target to join?
    General Amos. You know, I am a second-generation; my dad 
was in the Navy. He didn't talk to me for many years when I 
joined the Marines, but he loves me now. I don't know. My 
children are not and I don't--I am not a recruiter, so I 
probably can't answer that precisely. I will tell you, though, 
that our target audiences, the young 18, 20-year-old man or 
woman, high school graduate and as you know, the DOD standard 
is 90 percent. We are over 95 percent. We recruit a very high 
mental group. When I say that in public, people look and they 
go, that is an oxymoron, you are the Marines, what do you mean 
getting a very high mental group? But we do, we do. And we 
attract a small segment of our society that likes physical--you 
know, they are physically inclined, and they want to be 
challenged.
    Mr. Kingston. How does something like what happened in 
Berkeley affect--what is--do you just kind of ignore the City 
Council and their silliness, or does it just annoy you to the 
extent that you want to react or at least among peers verbally 
react?
    Mr. Moran. Let's make the answer short because we have 
votes.
    Mr. Kingston. Mr. Chairman, everybody else has been having 
10 or 15 minutes. This is an extremely good question and you 
know it. And it will be my last one.
    Mr. Moran. How long----
    Mr. Kingston. The Chairman is real interested in this 
answer.
    General Amos. Honest to goodness, the--once we kind of--it 
certainly takes a Marine and immediately, you know, your veins 
begin to pop out, and then you settle down and you take a look. 
And what is interesting for us is there is such a network of 
former Marines across this country that we never have to say 
anything. We saw it happen with the attorney that defaced our 
deployment Marine's car up in Chicago. He ended up in front of 
a judge; that was a former Marine. The prosecutor was a former 
Marine and the policeman that arrested him was a former Marine. 
So there is enough of us, a connection across the country quite 
honestly, and the loyalty to its Corps by the American people 
that they kind of take care of it. And it seems to be happening 
that way in Berkeley. So we are actually just sitting on the 
side lines. It is interesting reading it in the newspaper.
    Mr. Kingston. It is like picking on a Notre Dame fan, Mr. 
Chairman. You just can't do it and get away with it. I 
appreciate it, and I yield back.
    Mr. Moran. Ms. Kaptur.

                         Remarks of Ms. Kaptur

    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome, Generals, very much and thank you for your service 
to our country. I am curious. In your testimony, where did the 
phrase ``the long war'' come from? Was that your own?
    General Amos. Ma'am, that was actually coined by, I think, 
General Abizaid when he was the commander of Central Command. I 
believe he was the one that coined the long war. It has been 
supported by a whole host of studies. The Commandant has a 
vision group that has been in business now for about a year to 
try to look out on what the world is going to look like in 
2025. And it seems to support General Abizaid's thing about 
generations of warfare of the kind we are in right now.
    Ms. Kaptur. And how long is long?
    General Amos. I think you are probably talking 20 years. 
That seems to be the default position that I hear as I talk to 
other Services and think tanks. Probably several generations, 
but probably out for at least another 20 years.
    Ms. Kaptur. Now, when one discusses the long war as going 
back 5 years, the United States had some allies in this effort. 
Is it your impression that, as we move forward, there are fewer 
allies involved with us? And I am talking about on the ground 
inside of the places in which we are fighting. What is your 
estimate of the allied support for this long war?
    General Amos. Ma'am, I had 2 years in NATO. And so I was 
there when we went from 16 countries to 19, and I worked 
alongside our allies. So I think that will be cyclical 
depending on the leadership of the countries that support our 
allies. I will tell you that we have some stalwart allies, like 
the Australians and the U.K., New Zealand. They are right 
beside us and have been beside us and fought alongside of us 
when we crossed the border in March of 2003. So I can't tell 
you how the allies are going to work because I think that is 
going to be dependent on the leadership.
    Ms. Kaptur. Is it not true that foreign forces from many 
countries have been reduced now to a level around 10,000 from a 
level maybe four or five times that much 5 years ago?
    General Amos. Are you talking about in Afghanistan, ma'am?
    Ms. Kaptur. And Iraq.
    General Amos. I will have to take that for the record 
because I truly don't know the numbers.
    [The information follows:]

    Currently, there are approximately 10,000 troops from 31 
countries serving with the United States in Iraq. Coalition 
Forces in Iraq peaked at just over 25,000 around December 2004.
    Currently, there are approximately 40,000 troops from 42 
countries serving with the United States in Afghanistan.

    Ms. Kaptur. All right. I think my statement is correct. I 
think that it has been reduced by about four-fifths in terms of 
participation in on-the-ground combat. If you could provide 
those figures for the record, I would be very grateful. Also, 
our allies were supposed to provide funding, and that funding 
has not materialized. I think they paid up about $12 billion. 
They were supposed to have much more than that, four or five 
times that much in the pot. If you could kindly provide for the 
record the amount of funding that has come from other countries 
and which country, I would be very grateful.
    I keep hearing references to World War II. This doesn't 
look like World War II to me. But maybe somebody has a 
different take on it, and I would be very interested on how 
they do view it over at DOD. Let me just say, Congressman 
Tiahrt, I'm sorry he is not here right now because he 
referenced my home community of Toledo. I get a little 
sensitive about that. And he made some statement about our 
mayor, Carty Finkbeiner, who is a mayor--he has been a life-
long public official in our area and, I feel compelled to ask 
some questions for the record here. I want to also state that 
our community and region just deployed another 2,500 soldiers 
to Iraq from the Reserve and Guard, the largest deployment 
since World War II. So I don't think we have anything to 
apologize about for our community and its patriotism. But I 
have to inquire as to how the Marines--and what happened in our 
community was there was a unit that had come from Grand Rapids, 
Michigan, and deployed in the center part of our city. There 
was some sort of mix up in the city. I don't know what it was. 
But normally, Toledo, when it sees Marines, it is at Toys For 
Tots at Christmastime and holiday time and Hanukkah time. This 
was a different sort of presence. And, yes, they had been there 
before. My question is, can you provide me information on--
under what authority the Marine Corps is taking its Reserve 
Units and deploying them to American cities? I would like to 
know which cities you are deploying to. I would like to know 
under what terms those units are being deployed. Are they 
paid--are they paying the city governments or local communities 
for their presence? I would like to know what types of weapons 
they carry and whether those weapons are loaded or not. And 
what are the terms of engagement, both with the local community 
and with the local police or whatever? And could you--are you 
aware of these deployments around the country, these exercises 
going into civilian communities?
    General Castellaw. We have been training in various 
locations throughout this great Nation of ours for years and 
years. There is a process that we have in place where we engage 
with the local authorities and make plans for doing that. As 
you indicated, there appears to have been a communications 
problem that occurred in this particular case. But for many, 
many years now, we have successfully been training in various 
locations, New Orleans, Charlotte, San Francisco, Yuma, 
Arizona. And again, we think a pretty good process for engaging 
and planning with it and doing those things that do not disrupt 
the local citizenry. So, you know, I think we will all do a 
post mortem on this and see what the issue was so it won't 
happen again. I don't think any of us want that.
    Ms. Kaptur. I would like a special briefing by whoever is 
in charge of the Reserve Units that developed these plans for 
around the country. Because what happened to our mayor, in my 
opinion, regardless of whoever thinks he is at fault or 
whatever, for him to become the butt of contention on all these 
shock jock shows around the country is unfair to his life 
because he has been a very dedicated public official and made 
the butt of jokes across this country. And I don't agree with 
him on everything, but this is not right. And I don't know 
quite what happened there, but it is really--for somebody in 
the political realm to see this happening in their community 
and not be able to stop it--I got home, all this stuff is all 
over the TV, you know, 3 days before you come over here to make 
your testimony. Maybe it is all just coincidental. But I have 
to tell you, Toledo, Ohio, doesn't like it because we have very 
patriotic people. We are in all the branches of the service. 
And for our mayor and the highest elected officials of our city 
to get in a fight over this, this is ridiculous. And so I 
would--are you in a position to come and someone see me 
separately on what actually, not just happened there, but what 
these plans are across the country?
    General Castellaw. Ma'am, it is our duty to make sure that 
the people that we protect in the United States understand what 
we do, and you know, we do not want this to occur just as much 
as you do. And I understand----
    Ms. Kaptur. It is a public relations nightmare.
    [The information follows:]

    Lt Gen Bergman, Commander Marine Forces Reserve personally 
met with Congresswoman Kaptur to discuss the Toledo, OH issue 
and answer her questions.

    Mr. Moran. But, General, if you wouldn't mind perhaps 
getting the appropriate people to discuss the details with Ms. 
Kaptur, the Committee would be appreciative.
    General Castellaw. We would love to.
    Mr. Moran. Mr. Boyd.
    Mr. Boyd. Mr. Chairman, I will pass.
    Mr. Moran. Thanks very much, Mr. Boyd.
    Mr. Rothman.

                              AFGHANISTAN

    Mr. Rothman. Thank you, Chairman.
    Generals, thank you for being here. Thank you for your 
careers, your sacrifices and those of your families. I will ask 
two questions so I can get the answers. Hopefully--they are 
complicated big questions, and I apologize for the small amount 
of time that I have to ask them in. The National Defense 
Research Institute from RAND Corporation did a 
counterinsurgency study that just came out, a public study. And 
I don't agree with everything they have in the report, but they 
say that in order to address our counterinsurgency needs, we 
need to, quote, ``reduce reliance on large-scale ground 
presence, to support civil capabilities of the local 
governments, to make more and smarter use of information, to 
prepare and enable local forces and to perform critical 
military tasks that only our forces can perform''. Do you buy 
that as your role as Marines? And if so, in whole or in part, 
does your budget reflect your acceptance or rejection of that 
notion of how you should conduct counterinsurgency? That is 
question one. And question two, I apologize for putting you on 
the spot. But I read that the Marine Commandant suggested that 
it might be a good idea to send Marines to Afghanistan to help 
out and that that proposal was rejected in large measure. Can 
you comment on what difference you think the Marines could make 
in Afghanistan? And what was the basis for that proposal? And 
when we can expect the Marines to be in Afghanistan.
    General Castellaw. I will take your second question first 
to give my compatriot there a little bit more time to think 
about your first one. First of all, 3,200 Marines are going to 
Afghanistan in the spring. Our job in the Marine Corps is to 
provide this nation and the leadership options for use of our 
forces. And certainly we continue to provide those--that advice 
to the leadership within the building, and when appropriate, 
the Commandant, one of the Joint Chiefs, has a responsibility 
to provide that to the President. And he meets with the 
President on a regular basis and that President avails himself 
of that particular advice. The Marine Corps is an expeditionary 
force in readiness. We have various capabilities, other than 
our primary role, and we are exercising that now in terms of 
operating in Iraq. But, as indicated, the situation there now 
continues to improve. I think we have been very successful, and 
so we will continue to look for options for Marines to be used 
where their particular talents may be best utilized, and we 
will make those recommendations and then the leadership will 
decide where the Marines need to be.
    The Marines right now on a one-time basis are being ordered 
to Afghanistan. We will send a battalion, as General Amos 
indicated--I am sorry, sir, I think you weren't here when 
General Amos talked about it--out closer to the border. We'll 
have the Marine Expeditionary Unit, which is a balanced--what 
we call a MAGTF, Marine Air-Ground Task Force which will 
operate in the south. It has helicopters. It has Harriers. It 
has ground mobility. It has combat service support. And it will 
fill a role in that part of the country. So, yes, we are going 
to Afghanistan. Right now it intends to be one deployment. And 
we think that the situation as it exists in Afghanistan right 
now, that we can make a difference there, too.

                             HYBRID WARFARE

    Mr. Rothman. Thank you, general.
    General Amos. Sir, I have not read the RAND study, and I 
thought I had read a lot of what was going on with this. So I 
apologize. But I am just--but if they are dealing with 
counterinsurgencies, and I took notes here as you talked about 
reduced reliance on large scale forces, there is a fashion that 
is going around that, and I have heard this in other quarters, 
where we no longer need the ability to have what we would 
typically call traditional, traditional forces, to perform 
traditional missions because of where we are headed. I think 
there is a piece of that that probably is truthful. If you take 
a look at, and we talked a little bit earlier about the long 
war, what the war is probably likely going to look like, the 
kind of wars we are most likely going to find ourselves 
involved in, not necessarily wars, but issues, countries, 
nation building, stateless people moving back and forth across 
borders driven by national disasters in some cases, driven by 
extremism of one kind or another in other cases. And that is 
the kind of thing that we call in the Marine Corps hybrid 
warfare. And it is--back in 1996, General Kulak talked about 
the three-block war where he said: Men, you can expect to be 
handing out candy and food and medical supplies in one block, 
go down to the next block and try to get the populace under 
control in a kind of peace enforcement kind of a thing, a 
little bit like we did in Kosovo. And then in the next block, 
you will find yourself in full scale combat. And all within the 
same unit, probably all in maybe one day. And that is a little 
bit what hybrid warfare is like. So if you take a look out, and 
I think that is what RAND is referring to, that kind of future, 
which is not necessarily the most dangerous thing, but it is 
probably the most likely thing that we are going to be involved 
in, then I would agree that we need to adjust forces and 
capabilities. And I think that is the key, capabilities.
    Mr. Rothman. General, my question was, does your budget 
reflect the need for this hybrid capability?
    General Amos. Sir, I am going to say yes because we are 
building, in this 202k build, we are building capabilities to 
be able to operate successfully in that kind of environment. 
And what are those? Those are people that are military 
policemen, intelligence, reviewing, language training, culture 
training, both professionally here and resident and 
nonresident. So the answer is yes. I believe we are, yes.
    Mr. Rothman. Thank you, general.
    Mr. Moran. Thank you, Mr. Rothman.
    Mr. Dicks has a follow-up question.

                   MARINE SPECIAL OPERATIONS COMMAND

    Mr. Dicks. What happened, there were going to be 2,500 
Marines into a Special Forces Unit? Is that still going 
forward?
    General Amos. Sir, it is called Marine Special Operations 
Command. It is headquartered down in Camp Lejeune. It comes 
under SOCOM, Special Operations Command, Admiral Olson. And it 
is not 2,500 yet. It is going to be at 2,500. It is at 1,200 
right now. And as we grow the Marine Corps force, again it is 
just like equipment. We are sharing assets across the Marine 
Corps as we cross level. So we are doing our best to get that 
force fleshed out. But truth in lending, it will be a couple of 
years before we reach 2,500. But it exists. They have already 
deployed. And it is under command of a two-star general right 
now.
    Mr. Dicks. When you come home on these 7-month deployments 
and you are back 7 months, do you have the equipment you need 
to train with or is that an issue like it is for the Army and 
the Guard?
    General Amos. It is an issue right now. And it is not so 
much an issue, I don't think, that the money is not there, and 
General Castellaw can talk. I think he will tell you the money 
is there. It is just a function of production. We are spread 
loading, cross leveling across the Marine Corps the equipment 
at home station, so that when units are deployed, they have got 
exactly what they need. The units that are preparing to deploy. 
They have exactly what they need. And the units that have just 
come back, quite honestly, are at a readiness level that is 
less than the other units. So until we get to a point where all 
the equipment shows up--and again, it is, a lot of it is 
production. It is a function of physics. They can't make it. 
Some of these lines were closed. And so we have asked or we 
bought new equipment that replaces that. So some of our units 
back home are not at the same level as our deployed units. 
There is no question about it.
    Mr. Moran. Mr. Lewis.

                        COUNTERBOMBER CAPABILITY

    Mr. Lewis. Thank you, Mr. Chairman.
    One question. It is my understanding, General, that you are 
quite familiar with this effort, maybe in the center of doing 
it, that the Marines are sending this month 12 modern person-
borne IED suicide bomber detection systems to Iraq which will 
be integrated. And the purpose is to get a better handle on 
using these systems and effectively identifying ahead, with 
better timing, such devices. Can you describe what you are 
doing there, and what you think the potential is?
    General Amos. Yes, sir. About a year ago, the Commander of 
Marine Forces Central Command came to me, only because I have 
got the war-fighting level, I have got the experimentation, 
science and technology out of Quantico, and we are plugged into 
the Office of Naval Research. And he said, hey, we need what we 
call a counterbomber capability. Not so much because we are 
seeing the suicide bombers in the Al Anbar province because, 
quite honestly, we are not relatively speaking. We did before. 
We had vehicle born folks. But we are not seeing it like they 
are seeing it perhaps in other areas and certainly you are 
starting to begin to see in Afghanistan. But he said, let's see 
if we can develop one. So we already had some techniques and 
some capabilities. But we went to the Office of Naval Research, 
Admiral Landay. And he has an effort--now it is called Naval 
Innovation Lab. It is called NaIL. And we asked him to put $10 
million towards the development of a counterbomber capability. 
And they have done that. Now, I have seen it. I have gone out 
and watched it in action. We are going to deploy 12 of them. 
The forces, we have just turned over the forces in Iraq just 
within the last 2 to 3 weeks and the new command from Camp 
Pendleton who, you know, Major General----
    General Castellaw. I just went blank, too.
    General Amos [continuing]. John Kelly. Excuse me. Don't 
tell him I couldn't remember his name. John Kelly just took 
over, and we have trained John's forces with this equipment. 
And so we have delivered four sets?
    Mr. Lewis. That is our John Kelly.
    General Amos. Your John Kelly. That is exactly right. That 
is why I am embarrassed. I will hear about it on an e-mail 
tonight. But we have deployed four sets already. We are 
deploying another four. And this is a manufacturing issue right 
now. It is not a matter of money. The money is there. And then 
we are going to deploy another four in Afghanistan. This is a 
radar capability. It shows promise. We haven't deployed it in 
tough conditions yet in the freezing cold and the 125 degree 
weather. So it is yet to be seen exactly, so we are in the 
experiential phase. But we decided we are going to push this 
into country to get this.
    Now, this correlates with some other capabilities we have 
got. We have got a thermal imaging capability. We have got 
backscatter vans. I mean, we are trying our best to get ahead 
of this counterbomber business. But I think right now I am 
excited about it; I am anxious to see how it works.
    Mr. Moran. The gentleman from Georgia.

                                TRAINING

    Mr. Kingston. Thank you.
    General, I just want to associate myself with the words of 
Ms. Kaptur. I don't understand the Toledo, Ohio, issue either. 
It doesn't quite seem like the public discussion of it has been 
accurate. It would appear that there was a major paperwork 
snafu somewhere along the line that this wasn't cleared because 
I was not aware that the Marines were training in cities and 
urban areas until you just said that they were. But when you 
respond to her, I would like to be included in that because it 
does--I am confused by the whole matter. I don't think the 
press has given us an adequate explanation.
    General Castellaw. Well, good, sir. Again, we will be more 
than happy to provide whatever information we can that you 
need. But we have been training--when I was back in my youth, I 
deployed to New Orleans, and we trained in urban operations in 
New Orleans, landed 46 on the old Schlitz Brewery right down 
from the New Orleans Picayune newspaper. So New Orleans knew we 
were there. We made appropriate coordination with them. And it 
is extremely valuable training. What we are talking about is 
getting training that allows our Marines and the Sailors that 
go with them to be effective in those type of environments. And 
training has been extremely, extremely valuable for us. But it 
is extremely important that we maintain the relationship with 
the local communities which gives us our support and of who, of 
course, our ultimate responsibility for their defense lies. So 
I am very glad that this issue came up so that at least we can 
talk with you and explain to you what is going on to at least 
allay some of your concerns if you have any on that.
    Mr. Moran. General, do you think they had prior approval of 
the government, the local government?
    General Castellaw. Oh, yes, sir. Again, you work with the 
local--for instance, the FBI for a time being provided a 
liaison that worked with the local authorities, and we had the 
structure set up to do this. And as I said, we have been doing 
this with great success for a long period of time and something 
happened here. We will find out what it is. We do not want to 
scare the people of Toledo or San Francisco or Yuma, Arizona, 
or any place like that. But most of all, we want their support. 
We want your support. We will find out what went wrong. We will 
talk with you about it. We will explain what happened, and we 
will go forward because we need your help and support to be 
successful.
    Mr. Moran. Ms. Kaptur.
    Ms. Kaptur. I just want to thank the gentleman from Georgia 
for offering, and the General, state for the record what year 
were you deployed to New Orleans?
    General Castellaw. Yes, ma'am, New Orleans.
    Ms. Kaptur. What year?
    General Castellaw. This was 1988.
    Ms. Kaptur. 1988. And how many urban units would you have 
deployed this year, Reserve Units into urban areas?
    General Castellaw. Ma'am, I will get the record for that. 
That is not my area of expertise. And again, it is so routine, 
you know, that we really don't give a lot of notice to it. Let 
me get the people who are responsible for that and along with 
them, they will come and talk with you and explain what we are 
doing.
    [The information follows:]

    Lt Gen Bergman, Commander Marine Forces Reserve personally 
met with Congresswoman Kaptur to discuss the Toledo, OH issue 
and answer her questions.

    Ms. Kaptur. And I really think that, I mean, at some point, 
as this proceeds, I believe, Mr. Chairman, but our Mayor and 
our community, we have to repair this. And 2 years ago, we had 
Sailor of the year from Toledo. So we are pretty sensitive. We 
are a port city. We like Marines. But that was really 
unfortunate.

                         POST-TRAUMATIC STRESS

    Mr. Dicks. Just on the 7 months in and 7 months out, have 
you done any research to see if the post-traumatic stress--it 
seems intuitive that it would be less with people that have 
been there for less time, unless they were obviously in very 
violent combat. Is there anything to suggest that that is a 
positive aspect of this?
    General Amos. Sir, there has not been any clinical effort 
done to try to determine or make a correlation between lower 
amounts of PTSD and 7-month deployment. The one thing I can 
tell you, having spent 4 years doing that, that before I came 
to the job I have got, that the morale factor among family 
members and the willingness for family members to stand by 
their Marine, whether it be a man or a woman, and say goodbye 
to them and have a smile on their face and kind of get through 
the deployment even during very dangerous times, a lot had to 
do with the fact that they knew they were going to be back in 7 
months. So, right now, it is intuitive goodwill. But there has 
been no clinical effort.
    Mr. Dicks. Thank you.
    Mr. Moran. Mr. Boyd.

                               READINESS

    Mr. Boyd. Thank you, Mr. Chairman.
    And thank you, Generals, both, for your service. I have one 
brief question. One of you answered earlier that one of your 
roles was to give the leaders options for security, and 
military purposes. It is my understanding and this Committee's 
understanding it has been reported that the Marines that are 
deployed to Afghanistan and Iraq are well equipped and well 
trained. Would you agree with that?
    General Amos. Sir, they absolutely are. They are every bit 
equipped and well equipped with everything they need to include 
special things that you would need in Afghanistan that you 
might not need in Iraq. And trust me, they are very well 
trained.
    Mr. Boyd. Secondly, it is also my understanding from 
previous hearings we have had here that the Marine Corps is 
almost totally focused on Iraq and Afghanistan and would be ill 
equipped and trained to deal with a major contingency in some 
other part of the world. Is that a fair assessment?
    General Amos. Sir, your first statement that we are almost 
unitarily focused on Iraq and Afghanistan is absolutely 
correct. The size of our force, 187,000 and rotating as we do, 
we are a singularly focused force. And that was the beginning 
reason and rationale behind the growth to 202,000 by our 
Commandant. He said we have got to be able to do some of the--
Congress has tasked us; we have legislation that tell us the 
Marine Corps has to be a forceable entry force to come from the 
sea. We have a directive from the strategic planning guidance 
to be able to put two Marine Expeditionary Brigades ashore from 
the sea, forceable entry. I mean, that is kicking the door 
down. And we have got, the Commandant has said, we have got 
generations of Captains now that have never been aboard a ship. 
So as we grow the force, we get some more elasticity, more 
dwell time. And then, and it is our responsibility as the 
leadership of the Corps now to make sure we provide the 
training environment, the shipping. That is why Twentynine 
Palms is so critical to us, to be able to do the fire and the 
maneuver and the other things.
    Mr. Boyd. So it would be a fair statement to say, if there 
was some major contingency someplace else and the Marines were 
asked to go there, that you would have to adjust that focus? It 
would be a serious adjustment and change?
    General Amos. Sir, if there was a major contingency, my 
first point would be the Marines would step up to the plate. 
That is not bravado. We have done it. We did it during Korea 
when we came down after World War II. We were down to 27,000 
from 300,000 during World War II. And President Truman and 
Secretary of Defense Johnson said, you don't need a Marine 
Corps anymore. And one year later, we are developing plans for 
Inchon. So the Marines will step up to the plate. There is 
enough experience with some of the older guys, the old gunnery 
sergeants that we could put together a force that could come 
from the sea and do our Nation's bidding. I promise you that. 
It would not be without pain. What we want to do is get 
ourselves ready to the point where we can do that across the 
full spectrum of operations all the time the way we have always 
been in the past. But we are solely focused right now, and that 
is why the bill and your support for the bill is so critically 
important.
    Mr. Boyd. Thank you, Generals, and thank you, Mr. Chairman.

                                TRAINING

    Mr. Dicks. Will the General give just one last point for a 
second. The Army is doing counterinsurgency training now. Is 
the Marine Corps doing something different when they are home 
for 7 months?
    General Amos. Sir, because of our deployment dwell time, we 
are focused almost solely on what goes on inside of Iraq. In 
other words, counterinsurgency training, operating in that kind 
of environment, that is why we need to get something--a little 
more elasticity in there so that we can do the other kind of 
training, the fire and maneuver, bring three battalions to 
Twentynine Palms. The land expansion at Twentynine Palms is 
critical for that. So we can do the kind of training that the 
Nation expects its Marines to do. Quite honestly, we are the 
only forceable entry force our country has, and we want to be 
able to train in that arena.
    Mr. Dicks. Why not go in with V-22s instead of little 
boats?
    Mr. Moran. That will be our final question.
    General Castellaw. Sir, a V-22 can go anywhere in the 
world. What happens next is what we have to focus on.
    Mr. Dicks. Thank you.
    Mr. Moran. Thank you very much, General Amos. Thank you 
General Castellaw.
                                       Thursday, February 14, 2008.

                             ARMY READINESS

                               WITNESSES

LT. GENERAL JAMES D. THURMAN, DEPUTY CHIEF OF STAFF, G-3, U.S. ARMY
LT. GENERAL STEPHEN M. SPEAKES, DEPUTY CHIEF OF STAFF, G-8, U.S. ARMY
LT. GENERAL MICHAEL D. ROCHELLE, DEPUTY CHIEF OF STAFF, G-1, U.S. ARMY

                              Introduction

    Mr. Murtha. The hearing will come to order.
    We will start a little earlier. We appreciate that today 
because we may be disrupted to vote. So, hopefully, we will be 
able to have enough time to let you say what you have to say.
    I don't think there's any committee that's ever done more 
to make sure of that readiness is funded. We will work with you 
and let you work with us. I think we can do the best we could 
with the circumstance.
    I welcome you to the committee and ask Mr. Frelinghuysen if 
he has any comments.
    Mr. Frelinghuysen. No comments.
    Mr. Murtha. We will listen to your testimony. If you will 
put your full testimony in the record, we will get right down 
to questions.
    General Thurman, whoever is first.

                  Summary Statement of General Thurman

    General Thurman. I will go first. I do have a short opening 
statement for you, sir, if you will allow me, as you have 
studied my written statement that I have provided.
    Mr. Chairman, Ranking Member Young and distinguished 
members of the House Appropriations Committee, thank you for 
the opportunity to allow me to speak to you and let my 
colleagues and I come over and talk to you about the state of 
Army readiness. On behalf of the United States Army and all the 
wonderful soldiers and civilians and our family members, I 
thank you for the continued congressional funding and support 
that you provided us.
    The readiness of our all-volunteer force depends on your 
consistent and committed investment in our training, equipment, 
total transformation and our people. Your funding and support 
also ensures that the Army will achieve the strategic depth 
needed to successfully execute missions across the full 
spectrum of operations.
    Before I continue, I would like to introduce members of the 
Army staff who are here with me.
    To my left is Lieutenant General Michael Rochelle, who is 
the Army G-1; and to my right is Lieutenant General Speakes, 
the Army G-8. To my right here is Major General Vinnie Bowles, 
Deputy G-4. Then to my left here is Ms. Barbara Sisson, who is 
the Director of Installation Services.
    After two deployments in support of Operation Iraqi 
Freedom, I now know that the progress never unfolds inevitably. 
Progress is always carried forward by the men and women of this 
country who serve a cause greater than themselves. For that 
reason, I want to publicly thank our soldiers, the true 
strength of the Nation, whose patriotism and courage exemplify 
all warrior ethos.
    Every soldier has a choice of whether to serve our Nation, 
especially during a time of war, and that clearly defines their 
role when special services require long separations from their 
families.
    I must thank the families who have served this country as 
well as anyone who has ever worn this uniform. Families 
continue to show that they too, believe in serving one's Nation 
by their numerous sacrifices. And we all know there will be 
more, and we thank them for that.
    Mr. Chairman, our Army has demonstrated extraordinary 
flexibility in leading the strategic demands posed by 
globalized asymmetric threats. The total Army is feeling the 
cumulative effects of nearly seven years of war in what we 
believe is an era of persistent conflict. This has led to our 
Army being out of balance. We are stretched; we are not broken.
    Four imperatives will enable the Army objectives to restore 
balance by 2011, and that's what the Chief of Staff of the Army 
has placed as our number one priority--getting back in 
balance--and that will allow us to build the required readiness 
for the future.
    First, we must sustain our soldiers, families and our 
civilians. Second, we are obligated to prepare soldiers for 
success in current operations. Third, we must reset to restore 
the readiness and depth for future operations. Finally, it is 
critical that we continue to transform our Army so that we have 
full spectrum capabilities to meet the demands of the 21st 
century.
    I would like to state for the record, if you would allow 
me, what we believe we need to do to achieve full spectrum 
readiness and restore that strategic depth.
    First, we must accelerate the growth that our Army has been 
authorized, which is more than just increasing manning but, 
rather the growth of personnel, equipment, and facilities.
    Second, we must build sufficient strategic depth for full 
spectrum operations to fulfill increasing global demands in our 
formations, in order to meet combatant commanders' 
requirements.
    Third, we must continue to obtain your full support that 
you give us, in a timely manner so we are allowed to transform 
our Army and be ready to meet the current operations and future 
contingencies.
    Again, on behalf of nearly 1.1 million soldiers, families 
and our civilians, we want to thank all of you for your 
tremendous support that you have given us. It's not lost on us 
what you have done, and we are grateful for it.
    I will save any further comments on readiness for the 
question and answer period and thank you for allowing us to 
come over here today and speak to you and respond to your 
questions. We stand ready to answer your questions, sir.
    [The statement of Lieutenant General Thurman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                         Remarks of Mr. Murtha

    Mr. Murtha. All right, well, we appreciate what you have 
just said.
    You know our concern about your readiness. I remember when 
we went to the all volunteer Army, and I voted against it, 
because I felt that we couldn't sustain a long deployment 
without a draft. We lost that battle, but I remember during 
that period of time I kept hearing we have got to have high 
school graduates. Well, high school graduates dropped from 94 
to 79 percent. We didn't take anybody with tattoos for a while. 
We are now waiving criminal records and drug problems. We are 
waiving twice as many as we waived before. I know it's a very 
difficult task for you folks when you are given a certain 
number of people you have to reach out to.
    And I can remember when I went into the Korean War, this 
guy next to me, they said, raise his arm; and he raised it 
about this high. That's fine, they said. So there are different 
standards at different times when you take people in.
    But what I worry about is that the technology is so vastly 
different than it was when I was there. I went in 1955, I got 
out and went back in 1966, and the only thing that was changed 
was the alphabet.
    There are some big changes in the last 10 years. Anybody 
that is in the service today has to know a little bit about 
computers, and you have to be educated better than you used to 
be.
    I went to Aberdeen a couple of years ago, and they couldn't 
even do one push up. I know you get by with some people not 
doing one push up, but I worry about Afghanistan and Iraq. I 
was in Iraq at Thanksgiving. I was in Afghanistan just last 
weekend. Two people sitting at the same table had diabetes. 
Now, we had the Surgeon General in--no, it wasn't the Surgeon 
General but a colonel who was an expert in diabetes. We 
recommend against anybody going to the battlefield with 
diabetes. I don't know what these people's jobs were, but I 
hear all kinds of stories of people that should have a medical 
deferment, but they are being sent into combat.
    Of course, I hear the other thing about how hard it is on 
the families. This administration cut 39 percent of the money 
out of the money that we put in to help with the counseling and 
taking care of family, what we call ``the family approach.'' We 
are going to restore that money. We are going to make sure that 
the medical benefits go to the people who should have them.
    Admiral Mullen gave me a book yesterday about PTSD. This 
goes back to World War II, Korea. I am going to tell you 
something. I remember it just like that. I mean, I know what he 
is talking about, having been there myself. I know how it 
affects somebody who is in combat. The more they go back, the 
harder it is for them. And there will be a long-term impact and 
cost to the U.S.
    So we need to address this readiness as quick as we can, 
because our procurement is either a $200 or $300 billion 
supplemental for the short term right now. And we better make 
sure that you work with us, telling us what we need so we put 
the right mix in, because whoever is elected next time, will 
likely call for a lot of cuts.
    You talk about increasing personnel. Well, you know better 
than anybody else when you start to decrease the budget, 
personnel costs are the things that come first because they are 
100 percent outlay in the first year versus procurement, which 
is 10 percent outlay in the first year.
    I am going to go into equipment shortfalls, in the question 
period, but we have seen it. We are trying to address it. This 
year, we have a lot of help from you. We appreciate that. So we 
appreciate your coming before the Committee; and the members. I 
am sure, we will be here to ask you the questions that we ask 
ourselves.
    But we appreciate the work you are doing, and we appreciate 
what the families are doing. I went up to Ft. Drum on Friday to 
talk to them about some of the problems that I have seen in the 
papers. Sometimes it doesn't turn out to be that way.
    I was pleased when I was in Afghanistan. It wasn't as bad 
as I was reading the newspaper. I thought it wasn't going as 
badly as some people were projecting. Of course, this is 
wintertime. They don't exactly go out and do the fighting in 
wintertime as far as Afghan goes, but the military is doing 
their jobs.
    Admiral Mullen said we can't win this militarily. He agrees 
that you have to get the State Department involved in it. They 
have been hesitant to get involved. We have done everything we 
could to try to shift the responsibility for construction and 
infrastructure improvements and so forth. We haven't had much 
success, although it looks like we are starting to get there a 
little bit, what the parliament did and military security being 
a little better, so things look a little better.
    But the American public is speaking and saying we cannot 
bear $343 million a day. We have got to figure out the best way 
ahead this year, because none of us know what's going to happen 
next year.
    Mr. Frelinghuysen.

                            FORCE GENERATION

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Gentlemen, we are enormously proud of you and all those who 
serve under you. I know the chairman and all committee members 
thank you for your service and recognize that we have an all-
volunteer Army.
    I should say for the record, Mr. Chairman, I was one of 
those drafted.
    Mr. Murtha. And he did pretty well for himself.
    Mr. Frelinghuysen. I did. I had a good life for a draftee.
    I am not sure we need to go back to that system, because, 
obviously, today we have a military that is highly motivated, 
well educated and, I think, well supported by this committee.
    General Speakes, you and I have talked; and, as we speak, 
we have about 3,200 New Jersians, a number of the 50th Infantry 
Brigade Combat Team going to Iraq. On the issue of Army force 
generation, where do we stand relative to that program?
    General Speakes. Sir, what I would like to do is first ask 
for help from General Thurman. He is the G-3. His job is to 
orchestrate the staff and the Army through the ARPERGEN 
process. My particular responsibility, then, is to ensure I 
follow his guidance when it comes to such important issues as 
equipping.
    So let me ask General Thurman if he would be willing to 
take that question on, and then----
    Mr. Frelinghuysen. The Army plan was--correct me if I am 
wrong--on one-year deployment? Every five years?
    General Thurman. Yes, sir.
    Mr. Frelinghuysen. Obviously, the caveat is in there, but 
can you talk about where we stand?
    General Thurman. Congressman, if you would allow me, that's 
a very good question.
    What I would tell you up front, and I would just like to 
talk about where we are up front in terms of our rotational 
capacity, in terms of what the current commands are.
    Currently, for the Active force, we are rotating for every 
rotation down in either Iraq or Afghanistan at about just--as 
you know, it's 15 months down there for Active Army. For the 
Reserve components, it's 12. It's 12 months from total 
mobilization.
    What we want to get to, our goal, is to get for our Reserve 
components every year that we are deployed, that would be 12 
months, and we would like to spend at least five years back in 
dwell. Now, currently, we can't get there from here.

                  DWELL TIME BETWEEN COMBAT ROTATIONS

    Mr. Frelinghuysen. Tell the committee where we are now.
    General Thurman. Okay, that is a very good question.
    Where we are right now, for the AC, we are rotating at 
about a one for one-deployment cycle to about 8 months.
    Now, what we have done, if we spend 15 months down range 
for the Active, then we want to guarantee at least 12 months 
dwell. So we are rotating less than really a one-to-one right 
now, 1 year deployed, 1 year back at home.
    For the Reserve components, your combat formations are 
rotating at about a 1-year deployment mobilization period for 
them. Because we are in the 12-month mob period, 4 years back 
home is what we got.
    Now, we have some units that are less than that. It's about 
a 1-year and then a 3.3-year dwell.
    For your specific question on the 50th, we do know about 
that formation. I can get you the exact details of where they 
stand, equipping and personnel, because we have gone forward to 
the Department to ask that we alert these formations at least 
24 months out, so we can make sure that they have got the 
amount of personnel and equipment for the mission set that they 
have been given. We put them on our Army force generation cycle 
that allows us to have X number available at any one time and X 
number in a ready pool and in a reset train.
    But that is what we are trying to do, what you stated up 
front, but we can't meet that goal right now.
    [The information follows:]

    The 50th IBCT, currently in New Jersey, is scheduled to 
deploy in late FY08, location: Iraq, Baghdad (T). As a next-to-
deploy unit, the 50th IBCT has equipping prioritization over AC 
and RC units not slated for deployment. HQDA ensures their 
equipping needs will be met, given the constraints of competing 
equipping needs of other next-to-deploy units, equipment 
requirements of units currently deployed, and stock levels.

    Mr. Frelinghuysen. So the Army force generation model is a 
work in process?
    General Thurman. Yes, sir. It is a work in process, given 
the demands that we have. A function of that model is the 
amount of supply that we have, and the demand is greater than 
supply right now.
    Mr. Frelinghuysen. How would you characterize the other 
components besides, obviously, having enough troops to do the 
job? And, obviously, they are motivated. They, obviously, have 
families behind them that are concerned. How about the matching 
of equipment and training? Where does that fit into the overall 
equation?
    General Thurman. Sir, the way we prioritize the manning and 
the equipment is we have a Department of Army master 
prioritization list. I am the guy that has responsibility for 
prioritization of the Army resource priority list that I give 
to either General Rochelle or General Speakes to fill from 
based on, one, we want to make sure that the current force that 
is deployed has exactly what they need. That is priority one.
    Then that is, for the next priority, or the next deployers, 
that when they fall in that readiness cycle, we start 
addressing Reserve component concerns. At two years out, right 
now, is when we try to take a look at what their overall status 
is, if they are under title 32.
    The third priority that we have is our institutional 
generating force capability; fourth priority are folks that are 
in a reset train. Frankly, we do not have enough people and 
equipment, given how we are trying to grow the Army and fill 
the demands to have everybody up right now. So that is how we 
have to do that.
    Mr. Frelinghuysen. Could you tell the Committee what 
percentage of the force has been deployed once, twice or or 
three times or more?
    General Thurman. General Rochelle can tell you the exact, 
by component.
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                  1             2             3             4             5
                 Component                   Deployment    Deployments   Deployments   Deployments   Deployments
----------------------------------------------------------------------------------------------------------------
AC........................................       212,369        84,304        19,951         4,018         1,080
ARNG......................................       118,884        13,702           755            35             3
USAR......................................        55,552         6,483           536            33             3
----------------------------------------------------------------------------------------------------------------

    Mr. Frelinghuysen. Yes, by component.
    General Thurman. He can tell you that with the exact 
numbers, by AC that has been deployed for Army National Guard 
and Army Reserve.
    Mr. Frelinghuysen. And you build into this overall 
equation--as we are working on the next supplemental, you know, 
you are building the needs of what we are talking about into 
that supplemental?
    General Thurman. Yes, sir. We are trying to project what we 
believe is the demand. We meet whatever the COCOM requirements 
are globally, but, in particular with Afghanistan and Iraq, 
it's what the CENTCOM commander, what they ask for and request 
for forces. We try to anticipate that and build that in the 
Army force generation model.

                         MILITARY CONSTRUCTION

    Mr. Murtha. Let me add to what the gentleman is asking. We 
have been working with the Army. We have found shortages in 
bases for military construction and in the bases for the people 
that returned from Germany and from Korea. They are going to 
transfer I think it's $2 billion to military construction to 
take care of the shortfall, but they wouldn't be prepared when 
they got back, in everything the Army told us.
    The other thing we are looking at, when I was out in Fort 
Bliss, I noticed they had a substantial shortage of military 
construction for medical structures. This has been going on for 
years. This is something that people must make a decision on. 
Okay, we need this. Or We need that. There will be large costs. 
So we don't get the medical stuff taken care of. That is almost 
$5 billion.
    We trimmed it down to $4 billion. We are going to try to 
put $2 billion in this supplemental and $2 billion in the next 
one. So we will add $2 billion for infrastructure in military 
construction and another $2 billion for medical structures, and 
infrastructure for the services' bases in the United States. 
Now we are going to look at--and see what they need.
    But our experience has been, when we looked at the 
hospitals, they have been sorely underfunded for a long time; 
and we want to make sure that our personnel get the best 
medical care wherever they go, and the benefits they deserve.
    We also hear from CBO that the $70 billion we have 
provided, has been used in part for ground vehicles, that will 
be up to date a couple more years. So if we robustly fund those 
products for the next two supplementals, we think that you will 
be in a lot better shape.
    Now, still, the Army is in bad shape. You can voice it any 
way you want to, but there is no question, in my mind, when you 
have to send people with diabetes into the area even though the 
surgeons say don't do it, when you have people who have been 
deployed as often as they have been, and when you read this 
book that Admiral Mullen gave me about PTSD, you realize the 
tremendous pressure on these troops and their families during 
their period of time.
    So I appreciate what you go through as trying to set the 
priority. We want to work with you; and, as Mr. Frelinghuysen 
said, we want to make sure we do everything we can to get you 
through this period of time and get you back to a stance you 
can address world events in case something happens in the 
future. This Iraq war is one thing. But we also have to worry 
about what might happen down the road and be prepared to 
deploy; and right now we are not ready to do so.
    General Thurman. We can get those deployment figures from 
General Rochelle at some point.
    Thank you, Mr. Chairman.
    Mr. Murtha. Do you have those figures?

                            DEPLOYMENT DATA

    General Rochelle. I would be happy to give you those 
figures, sir.
    First, before I do that, though, let me make it clear that 
at any point in time when one looks at the Army, we have to ask 
ourselves, how many individuals have deployed in the current 
force, the snapshot we see today? How many are coming in 
through the initial entry pipeline who are destined to units 
who are going to deploy?
    Here is the large question that rarely gets asked. How many 
people have ever deployed by components who have left the 
force? I am afraid I only have one component figure for that 
latter figure that I would like to start with.
    Since the beginning of Operation Iraqi Freedom and 
Operation Enduring freedom, a little over a quarter of a 
million people from all components who have deployed have left 
our formations. So, with that as a background, let me present 
you the figures that you asked for.
    Mr. Murtha. You add to that, I think, 37 percent have never 
been deployed, never been deployed to Iraq or Afghanistan. At 
least, that's the figure Admiral Mullen gave us yesterday, 
right?
    General Rochelle. That is a correct figure, sir. Again, 
that is a snapshot in time.
    For the Active component, if we take a look at the numbers 
who have deployed, who are currently deployed or have deployed, 
that is 63 percent today. But add to that, add to that another 
45,000 who are pending deployment--meaning they are in units 
that have a deployment order, and they will deploy with that 
unit--that is 45,000 more.
    We then aggregate individuals who are in the training 
pipeline, new adds, if you will, new enlistees, new officers. 
That number grows to 80.4 percent of the force, Active 
component force, that has deployed on a deployment order and 
initial entry training and will deploy for the Army or for the 
National Guard. Thirty-seven percent of the National Guard has 
deployed.
    What I am afraid I cannot give you on the National Guard is 
those other components, but one can assume that another 10 
percent, 20 percent are on deployment orders from the G-3 of 
the Army or in initial entry training. So that that would kick 
that number up, in my estimation, to between 42 and 57 percent.
    The Army Reserve, sir, 32 percent; and, likewise, I would 
estimate another 10 percent, which would make it in the 42, 45 
percent of the Army Reserve has been deployed. It's a very 
daunting figure.
    What I did not give you, sir, is for those other components 
that are carrying a substantial burden, as you know, the 
numbers of soldiers who have deployed, who have left the 
formation. But I would be happy to provide that.
    Mr. Murtha. Thank you, sir.
    [The information follows:]

Deployed Since 9/11

        Component                                                 Losses
AC............................................................   152,209
ARNG..........................................................    45,911
USAR..........................................................    34,888
                    --------------------------------------------------------------
                    ____________________________________________________

    Total.....................................................   233,008

    Mr. Murtha. Mr. Moran.
    Mr. Moran. Let me pass for the time being because Mr. 
Cramer was here before me, and then if I could go.

                           TACTICAL MISSILES

    Mr. Cramer. Thank you, Mr. Chairman.
    Thank you for being here.
    Yesterday, we had Secretary England and Secretary Gates; 
and I asked about missile research funding trends. The Army has 
historically spent RDT&E money on the development of missile 
systems. However, I am getting the impression that the recent 
plans indicate that there is some degree of comfort with the 
current inventory of tactical missiles.
    I know, General, that you asked for a capability gap 
analysis way out. We have got a number of threats. I don't know 
that we are ready or can anticipate what the threats will be in 
years from now, but my concern is that if all of a sudden we 
are only developing one tactical missile program, the JAGINT 
program, is that smart for us in the long run? Would you share 
some of your concerns, General Thurman, on that?
    General Thurman. Congressman, on the 21st of December, we 
sent a request to assess the capabilities. We asked him to 
assess the overall capabilities of gaps on missiles inside the 
Army. We did ask that.
    Now, as we were trying to look to the future is the reason 
that I sent that request down to Lieutenant General Mike Thain 
to assess our current capabilities and see if, given the 
operational environments that we may see in the future, if we 
got that right.
    Mr. Cramer. How long will that take?
    General Thurman. I don't know the exact time, but, what I 
told him yesterday is go assess that capability, go see if we 
have a gap and to come back with me on that estimate, that is 
what I would tell you.
    [The information follows:]

    On 21 Dec 07, the Army G-3 signed a memo directing the 
Army's Training and Doctrine Command to conduct an Army Missile 
Capability Gap Assessment that looks at future Army missile 
capability needs in the context of a Joint force. Discussions 
are underway to ensure assessment scope, use of current 
analysis results and completion date will identify and provide 
recommendation/direction for any potential missile capability 
gaps. We expect to provide the results by the FY12 President's 
Budget submission. No Congressional update is currently 
scheduled.

                MINE RESISTANT AMBUSH PROTECTED VEHICLES

    Mr. Cramer. I want to follow up with you on that. I want to 
switch to the MRAPs. How many MRAPs does the Army currently 
have in Iraq and in Afghanistan?
    General Thurman. Sir, currently, fielded today--and these 
are today's numbers, because that changes every day--there are 
1,429 in Iraq.
    Mr. Cramer. In Iraq alone?
    General Thurman. Of which 1,175 have been fielded to our 
soldiers, if we are operating with that.
    For Afghanistan, MG Rodriguez asked for an operational 
needs statement, and their requirement is 615 of the RG-31 Echo 
Light for Afghanistan. We are starting to ramp up. We have got 
the priorities changed through Central Command, changed the 
prioritization on the Iraq vehicle, and the Joint Staff 
approved that back here.
    We have now diverted 615 that will go into Afghanistan, 
because there was concern with that IED threat in Afghanistan.
    Mr. Cramer. From here forward, what is your acquisition 
goal?
    General Thurman. Sir, as it stands now, the interim 
requirement that we have right now is 10,000 MRAP. We are 
studying what we need over and above that for the future. 
That's the interim requirement. I will let General Speakes 
speak on that as the Army G-8. That is what we are doing right 
now. We are doing a follow-up assessment with the theaters.
    General Speakes. Sir, as you know, we are doing this whole 
MRAP process in collaboration with the Army and the Marine 
Corps. At this point--we are doing this by increments.
    Mr. Cramer. Ten thousand over what period of time?
    General Speakes. Ten thousand is our total requirement 
right now, based upon the last JROC validated requirement for 
the Army as a part of the joint picture. The issue in all of 
thisis that it is a continuously evolving picture, so we have a 
requirement to provide an update to the Joint Staff next week. 
And what that will do is lead to the JROC setting a new a 
requirement for the Army that will then go into the Office of 
the Secretary of Defense; and we anticipate about the first 
week of March that the Office of the Secretary of Defense will 
make the decision on the next increment. The Army will be the 
principal service, we believe, that will be involved in that. 
So we expect somewhere in early March that the Secretary of 
Defense will announce any adjustments to the current MRAP 
requirements.
    Mr. Cramer. How have the MRAPs performed?
    General Thurman. Sir, I would tell you that they have 
performed in a very good manner, and I will just cite a couple 
of examples. In cases with IED strikes, which would have 
probably destroyed an 1114 up-armored Humvee, an M-1114 or M-
1151, we have seen our soldiers walk away from them.
    Mr. Rothman. Microphone, please.
    General Thurman. I am sorry. We have seen our soldiers walk 
away from them.
    The interim response out of our soldiers is they are very 
pleased with the vehicle, because it allows us to move through 
those areas, particularly in Iraq, and move our logistical 
formations, medical, and help them better get through the 
environment. That is a dangerous environment, as you well know, 
in Iraq, particularly with the improvised explosive devices.
    But that is our initial assessment, and we have got about a 
10 percent initial assessment, but it has been very positive, 
is what I would tell you.
    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Hobson.

                          AFGHAN POLICE PISTOLS

    Mr. Hobson. Thank you, Mr. Chairman.
    General, I have ask so many questions it will take all 
afternoon, but I am just going to start on two.
    Pistols. The chairman and myself were in Afghanistan--maybe 
you anticipated from yesterday I was going to ask pistols 
again. We bought pistols for training the Afghan police. The 
guy--I won't use the language in here that the guy used with 
us, but there was a trainee there that comes from Pennsylvania, 
none of them had any good things to say about that pistol. It 
has a bad firing pin, just to say one thing.
    Do you have any comment on the pistols?
    General Speakes. Sir, let me first provide some background 
on the request that was made in Afghanistan.
    Late in 2007, the Afghan security service requested over 
9,900 M9 Berettas. There was a lack of Berettas in the Army, so 
what the office within the Army that is charged with overseeing 
this did was to go ahead and decide to purchase the M9s as a--
--
    Mr. Murtha. What was the time schedule there? What period 
of time are we talking about?
    General Speakes. Sir, this is done in response to a request 
that happened in the late fall time period. I don't have any 
specifics for that. I can provide them.
    Mr. Murtha. 2007?
    General Speakes. Yes, sir, this is late 2007.
    So, due to a lack of available extra M9s in the Army 
inventory, the decision then was to go ahead and purchase a 
commercial version of the M9 pistol from Beretta. That was the 
process that was gone through, and that is how the Afghan 
security forces got a commercial variant of the M9 pistol.
    Mr. Hobson. It's not a Beretta. It is Smith & Wesson.
    General Speakes. Sir, that is not my information----
    Mr. Hobson. I will tell you, with all due respect, sir, we 
were in Iraq. I saw it. He saw it. It is not a Beretta. That is 
bad enough, because the Berettas didn't perform either. But 
this is a variant. It is a Smith & Wesson purchased pistol--and 
we can't find out who purchased it, what office purchased it, 
or how many of them they purchased.
    I am astonished that nobody knows. Nobody knew there. 
Nobody knows here. And they bought thousands, sir. What 
happened, we are told by the guys who use them, that it's a 
variant of the Beretta. Actually, it's a variant of the Glock, 
I think. And they got caught and yelled at by the Glock people, 
so they modified it some more. And when they modified it, it 
screwed it up.
    So, very bluntly, I don't think anybody knows what we 
bought, and it is a waste of money, and we are trying to tell 
these people in weapons--first of all, I don't like the 9-
millimeter to begin with, but that is another's story.
    Could I ask one more question, and then I will stop. I will 
switch total subjects, gentleman.

                         CAMP MCCOY, WISCONSIN

    Some months ago, maybe, or longer, I went up to Camp McCoy. 
I don't know if any of you know where Camp McCoy is, but it's--
--
    General Speakes. Wisconsin, yes.
    Mr. Hobson. It is a Reserve unit. Some of my kids are up 
there. My TAG caught hell from the Army, because he took me up 
there to see our kids, and I saw the camp as well.
    In 1960, I went to the Volk field across the way and stayed 
in similar buildings that you have got there today. They are 
all World War II barracks, which we put 111,000 plus kids 
through there in training.
    The field training is fine, but they live in outrageous 
old-type conditions. They don't make it in the line because the 
Reserve and the Army has got so many things that they don't 
give them any money to fix this place up. I think it's 
outrageous that we send 111,000 kids for training up there, and 
this is a base that was used even before all this up tempo.
    And they can't get any money except out of hide to do any 
repair up there, and they can't get any money to build or 
rebuild new stuff up there. It's not on the FYDP because it is 
below the line, and there are about six other bases like this. 
This is one I know about. This is one I visited.
    Before long, one of those barracks is going to catch on 
fire, because they have a lot of heavy electrical stuff on them 
now they can't fix them up fast enough. The chow is right out 
of World War II. It shouldn't exist in this day's world. What 
really ticks me off--and I am an Air Force guy. I can go right 
next door to Volk field and it's all fixed up. And they are 
just training--they are doing Guard and stuff training over 
there.
    These guys are going out in the field, and they are being 
treated terrible, before they go, in these barracks. I think 
the big Army ought to look at this thing and get something done 
about it.
    Thank you, Mr. Chairman.

                      GUARD AND RESERVE FACILITIES

    Mr. Murtha. Let me add to what Mr. Hobson said.
    I went to Bragg, I went to Stewart and found the same types 
of facilities for the Reserve and Guard. Now I hope that this 
money that we are putting in will take care of that.
    For instance, the Guard and Reserve came in and had 
inadequate facilities, to say the least. Mr. Etheridge, who 
represents Bragg and complained for a long time about a sewage 
line that wasn't taken care of, I think we finally got that 
taken care of.
    But I know the pressure that is on you folks to spend money 
on the troops in Iraq. But, in the meantime, we have troops 
that are in training that have inadequate facilities. I hope 
you go back and relook at what you already gave us. You gave us 
an estimate of what you needed, and I hope that is in that 
estimate, because we need to make sure that the Guard and 
Reserve have facilities as good as everyone else has. I know we 
are looking at dual equipment in the next go around for the 
Guard and the Active Army.
    I know that right now we don't have the best equipment in 
the training cycles, so they go and have to relearn what they 
are doing when they get to Iraq.
    So we can't rush over these problems. We have got to really 
fix them. That is what it amounts to. That is what we are here 
for. We have got to hear what the problems are so we can fix 
them. But we can't fix them if nobody tells us what the hell 
going on.
    Mr. Hobson.
    Mr. Hobson. That is what the problem is. That is why this 
Committee and the ranking member are so good. These guys can't 
come--if I hadn't raised heck about this, they wouldn't have 
been back in to see me. This isn't even my State. But because I 
had been there and I saw it, I was able to get them in. You 
have got to use us when you can use us. Fortunately, they came 
back.
    Thank you, Mr. Chairman.
    Mr. Murtha. Yes, I think it's changed since Secretary Gates 
came in. I see a new openness here. When I talked to the 
Secretary this morning, asked him how he is feeling, he said he 
is not feeling too well. Broken arm in three places, he not 
feeling too well. But, at any rate, there has been more 
openness there.
    Mr. Dicks, I am going to go vote, if you will assume the 
chair.
    Mr. Dicks. I will ask a few questions.
    Mr. Murtha. You have 10 minutes.

                               READINESS

    Mr. Dicks [presiding]. Have you talked at all about 
readiness yet, how you measure readiness?
    General Thurman. Sir, we have not specifically been asked 
that. I haven't been asked that question of how we measure 
readiness.
    Mr. Dicks. Why don't you talk about that a little bit, 
gentlemen?
    General Thurman. First off, with our readiness reporting 
system, if a unit that is not assigned a directed mission, we 
have four levels of readiness--or, actually, five levels of 
readiness in our metrics, C-1 through 5.
    Mr. Dicks. But C-1 is the best, right?
    General Thurman. Yes, sir. That is measured in terms of 
personnel, equipment, availability, on-hand equipment, 
equipment readiness and training for units that get an assigned 
mission. And we use also a percent effectiveness rating for the 
mission that they have been given when they are deployed into 
combat, if that formation is going to be used for something 
other than it was organized, designed and equipped for. And so 
that is how we do it.
    Mr. Dicks. Right now, most of the units are being trained 
to do counterinsurgency, and that is it, right, to the deploy 
into Iraq?
    General Thurman. Sir, that is correct, and that is one of 
the things that is a concern of mine as the Army G-3. Because 
we have got to get back to full-spectrum readiness, in my mind, 
to be able to operate across that full-spectrum of conflict.
    Mr. Dicks. Why don't you describe the things that they 
would be doing if they were trained for full-spectrum? What 
equipment would they train on? What would they be doing for 
full spectrum versus what they are doing now so the committee 
will understand what is and isn't happening?
    General Thurman. Yes, sir. I would be very happy to answer 
that question.
    Across the spectrum of conflict, as you stated, we are 
primarily focused on counterinsurgency operations. So we are 
not training on the high end for major combat operations.
    What am I talking about? If you take an armor brigade 
combat team or one of our transformed brigade combat teams, 
they are task organized to fight on the high end.
    What am I talking about in terms of the business to be able 
to deliver in direct fires? The synchronization that is 
required for fire support, for maneuver--fire maneuver on the 
high end takes more training. It takes more repetition.
    So, given the deployment cycles we have right now, we do 
not have the sufficient time to train across that entire 
spectrum and do all of those tasks collectively to be able to 
synchronize in a combined arms fashion on the high end of the 
spectrum of conflict, because we have some units that we are 
requiring to--for example, let's take an artillery unit. They 
may be required to go down and perform something other than an 
artillery mission. That goes on. So that may be in lieu of 
formations to fill holes for transportation formations or 
military police. We have had to do that as we are trying to 
build enough depth back into the force. That is how we would 
explain that by different types of missions that we would get.
    Mr. Dicks. So is there anything other than major combat 
operations that they might be training for, just major combat 
operations in counterinsurgency? I mean, if you were doing full 
spectrum, are there other things that you didn't mention?
    General Thurman. Sir, across the spectrum of conflict, the 
way we look at that and see the strategic environment right 
now--if you look at from today out through at least 2020, 2025, 
we have done those traditional training missions. We said--and 
I would tell you this as a former division commander. I used to 
think if I was trained on the high end and I could do all that, 
then I could do everything across that spectrum.
    I don't believe that any more because now we are forced to 
operate in and around populations. We are forced to understand 
cultures. We are forced to understand an enemy that is not a 
state-on-state enemy. It's an enemy that uses assymetrical 
warfare. So now we are in--if you look at that strategic 
environment as a more irregular warfare, perhaps disruptive or 
catastrophic.
    So what we have looked at in the Army is how we focus and 
train these formations to meet the needs of the future. So that 
range across the spectrum is from stable/peace, unstable/peace, 
uncertainty and general war.

                      SUBJECTIVE READINESS RATINGS

    Mr. Dicks. Now, I have been concerned about this ability of 
the commanding officer to raise their readiness rate. Can you 
explain to me under what circumstances that occurs? Is there 
pressure applied from any source for these commanding officers 
to raise the readiness rates?
    Mr. Murtha [presiding]. Meaning artificially, just give 
them a new----
    Mr. Dicks. Well, do commanders make a subjective decision 
that units are really better off than what their equipment and 
training and everything looks like. For example, we probably 
are a three, but they raised it to a two or a one as they 
deploy into Iraq.
    General Thurman. Congressman, I can answer that. What I 
would tell you is we measure our readiness--the readiness 
report is an objective assessment, and that is with the 
personnel on hand, the equipment on hand, and the equipment 
readiness in training. We will allow that commander to upgrade 
or downgrade one level of C rating. We have put metrics in 
place.
    We want them to tell an honest assessment of readiness. We 
want to make sure that we do not mask or exaggerate readiness 
levels, and we look every month at every readiness report 
because now we can see down through all the units with our 
readiness reporting.
    So we encourage those commanders to call it like it is and 
tell us what their no-kidding state of readiness is.
    Mr. Dicks. Thank you. I will be back.
    Mr. Murtha. There has been no individual in the Congress of 
the United States who has worked harder on readiness than Bill 
Young. Health care is his big issue, but readiness comes second 
to health care. He understands how important health care is 
based on readiness and readiness based on health care. So I had 
to drag him from another hearing to make sure he got here to 
talk to you about readiness.
    Mr. Young. Mr. Chairman, thank you; and I am going to 
apologize to you and to our witnesses. The only reason that I 
was at the other subcommittee is that General Peake, whom I am 
sure you all remember from being Surgeon General, was our 
witness. I really felt compelled to be with General Peake 
because we have an adopted Marine son who was shot in Kuwait. 
General Peake was there at the time and performed the surgery 
that saved his life. So I really wanted to be there, Mr. 
Chairman. You know Josh very well.
    Mr. Murtha. Yes.
    Mr. Young. But on the issue of readiness, Chairman Murtha 
is really right that this whole subcommittee is concerned about 
readiness.
    I want to go just a little bit beyond today. Operation 
Enduring Freedom and Operation Iraqi Freedom, what is the 
situation with our Army in the event that you had to be 
deployed, you had to face another situation somewhere other 
than Afghanistan or Iraq? Are we able to meet another 
obligation?
    I know one time we used to talk about two major regional 
conflicts, that we could handle two without any difficulty. We 
don't hear that conversation any more today, but what is our 
situation with readiness as it relates to another unexpected or 
even expected eventuality?
    General Thurman. Congressman Young, first off, are we ready 
for another contingency? As you know or may not know, that we 
have several operational plans that the Joint Staff has for--
COCOM to respond to whatever the contingency may be. A U.S. 
response would be joint. It is hard to discuss without getting 
into a classified forum for those types of crises.
    I would tell you, as I stated up front, that our concern is 
we have really eaten into the strategic depth of the Army, and 
that is why we have got to continue our growth.
    Mr. Murtha. And our forward deployment of supplies?
    General Thurman. That is correct, sir.
    The other piece of that that is important is our Reserve 
components. That helps us build back strategic depth and gives 
us that operational force that we need to meet these potential 
crises. That is one of the things that we are concerned about, 
and we are trying to build that back as fast as we can.

                             SOLDIER STRESS

    Mr. Young. General, we do the best we can to provide 
whatever the Army or the Defense Department-wide advises us 
that is needed to accomplish the mission and to protect our 
groups while they are performing that mission. We know that we 
have worn out a lot of equipment. We have had to step up to the 
plate with appropriations to reset Army. We already reset the 
Marine Corps.
    But, yesterday, Secretary England made quite a statement 
where he and the Chairman of the Joint Chiefs, Admiral Mullen, 
were there. And Gordon said, our troops are tired. So we are 
not only wearing out our equipment, we are wearing out our 
troops. If our troops are tired, that has got to affect 
readiness.
    I realize we are trying to grow the size of the Army so 
that deployments don't have to be as long. There is more dwell 
time between deployments. We realize that, and we understand 
that program. But if we run out of troops, where do we go?
    I mean, these guys are tough. Chairman Murtha and I both 
see them at the hospitals, especially, when they have been 
wounded and they come into Walter Reed or Bethesda. You can be 
really proud of them. They are tough. Their attitudes are just 
unbelievable. They are a tremendous inspiration. But they are 
wearing out, and there is only so much we can get out of a 
human being. What do we do?
    General Thurman. Congressman Young, my number one concern 
every day that I work is how we can take the stress off the 
force.
    What I would tell you, 15 months is too long. We know we 
need to get back to something that is more palatable to our 
soldiers and their families.
    Dependent upon demand, we are doing our very best to look 
at how we do things smarter in terms of how we reset these 
formations when they return and we take time for soldiers and 
families to reintegrate and give them--take-a-knee-type event, 
if they could, for at least the first six months, and we don't 
have any directed training. We are working that out right now.
    But that is a concern of ours. We know we have got to 
reduce the amount of boots on the ground and expand the amount 
of dwell time before they are called back. That is something 
that I have worked on. That is my number one priority that the 
Chief of Staff of the Army has given me, to work that and look 
across the whole formation of how we can do that better and 
smarter.
    Mr. Young. Well, sir, I hope I don't sound critical in my 
questioning and in my statements, because I think you all have 
done an unbelievable job, and I think your troops have done an 
unbelievable job on the ground. We are here to support.
    I think you will find this committee is prepared to provide 
whatever you identify to us that you need. I am certain the 
chairman has made that commitment over and over again, and I 
certainly make that commitment. So if there is something that 
you need from us, we will provide it. The only thing we won't 
provide is if we don't know about it.
    Thank you very much.
    Again, just please pass on to your troops that the members 
of this Committee understand what they go through and we 
appreciate the sacrifices they make and the really good job 
that they do.
    Thank you for being here today.
    General Thurman. Yes, sir, thank you.
    Mr. Murtha. Mr. Moran.

                MINE RESISTANT AMBUSH PROTECTED VEHICLES

    Mr. Moran. Thanks, Mr. Chairman.
    Mr. Chairman, yesterday, when we had the Marine Corps 
testify, they said that the current MRAPs in the Iraq theater 
have substantial challenges navigating urban warfare. They are 
not designed for off-road expedition, they have to stick to the 
highways and they often get--when it rains, they get stuck in 
the mud.
    So their conclusion was that this MRAP vehicle that we put 
so much money into, and an enormous amount of money to just fly 
them over there, would be better served for forward positions 
in another area in another region, rather than mission-critical 
operations in Iraq. Maybe send them to Afghanistan, although I 
don't even know if they work in Afghanistan.
    I would like for you to respond, because what I have heard 
is fairly positive about the MRAPs, but maybe you are supposed 
to say that. I would like to know what we are going to do with 
all of these MRAPs, plus I don't know how many more we are 
sending--how many more, thousands?
    Mr. Murtha. They said they have 10,000 already produced.
    Mr. Dicks. Will the gentleman yield?
    I think I was at this hearing. I don't quite remember the 
tone that the gentleman is reflecting here.
    I heard the Marine Corps say, thank God for the MRAPs and 
the lives that have been saved--they haven't lost a single life 
since they were there. So I don't remember--this is a much 
different hearing than the gentleman from Washington heard.
    Mr. Moran. Well, I don't know what the gentleman from 
Washington heard.
    Mr. Dicks. I think the staff heard it----
    Mr. Murtha. Just a minute, Mr. Moran has the time, but 
4,000 has been sent by the government, according to the staff, 
and 10,000 are ordered, is that accurate?
    General Thurman. That is accurate for the Army, sir.
    Mr. Murtha. Mr. Moran.
    Mr. Moran. Do I have my time back here, Mr. Chairman?
    Mr. Murtha. Yes.
    Mr. Dicks. You certainly do.
    Mr. Moran. It turns out they did say that, Mr. Dicks. It's 
possible you weren't there at the time. They said all the 
things I said, not what you said.
    Mr. Dicks. Well----
    Mr. Murtha. Would the gentleman from Washington let the 
gentleman from Virginia----
    Mr. Moran. Nevertheless, since it was my time, I am going 
to restate they have difficulty navigating in urban areas. They 
get stuck, and they have to stay on the highway because they 
can't go off road.
    But my bottom-line question is, what are we going to do 
with all the thousands of MRAPs we have over there when the war 
in Iraq is over? What are we going to do with all of those?
    General Thurman. Congressman, those are very good 
questions. Your latter question, I will tell you we are looking 
at how many of those we think we need to put in our Army 
preposition stocks. We are evaluating that right now as we look 
to the future.
    The first portion of your question, it depends on where you 
are at in Iraq. In some of the areas, if you are in a confined 
area, at least in the urban, the roads are in there, and you 
know there are obstructions in there with the way their prior 
distribution center is set up, and it is hard to navigate in 
and around, just like it is for other vehicles.
    But I would tell you, without that--and I will just use a 
vignette that I experienced with what I saw the other day. We 
had one about 600 pounds of explosives, and it tipped the MRAP 
over and, unfortunately, the soldier killed appeared to be 
crushed, but the other three walked away from it.
    It's that confidence--soldiers have to have confidence in 
that equipment, confidence in themselves, their leadership and 
know that we are going to do everything we can to adapt to that 
threat. But some of the road networks are pretty bad in Iraq.

                  SUBJECTIVE READINESS RATING UPGRADES

    Mr. Moran. I understand that, but we were told that they 
were going to be able to navigate all those roads.
    The subjectivity of some of the evaluations of the combat 
brigades is of concern; and the question has been raised, of 
the Army's combat brigades reporting the highest level of 
readiness, how many of the Army's combat brigades would be able 
to report C-1 if the commanders were not allowed to 
subjectively upgrade their readiness?
    We ask that because we understand that there is a fair 
amount of subjective upgrading. Of course, that impacts on the 
Army's overall readiness picture and makes it look better, but 
it is not necessarily consistent with the traditional means of 
grading a combat brigade.
    Can you respond to that?
    General Thurman. Yes, sir, Congressman.
    For selective upgrade or downgrade, we have metrics--first 
off, that is a commander's report, and I will tell you I have 
not seen any pressure on commanders to report better than what 
they are. As a matter of fact, we don't want them to do that.
    With the current metrics that we have from the Department 
of the Army, a unit commander, let's say a brigade-level 
commander, he can upgrade one level or downgrade. We don't want 
to take that flexibility away from a commander. There may be 
cases in terms of training where he thinks he has done what he 
needs to do to meet the training requirements.
    If they want to go to a higher level of readiness, then 
it's going to take the approval of the next higher commander to 
approve that. So we put metrics in place because we want our 
commanders to tell it, to call it like it is, because they know 
we are going to call on them. I feel pretty good that we are 
not putting that pressure on these commanders.
    Mr. Moran. Well, we have been told, General, that most of 
the combat brigades that have been deployed to Iraq would not 
be receiving a C-1 rating if it was based on the objective 
component measures, but that it is becoming commonplace for the 
brigade commander to increase to C-1, that it is not 
necessarily giving us an accurate reflection of the readiness.
    Now, that is why we ask these questions, so you can put 
that on the record.
    General Thurman. Congressman, what I would tell you is, 
sir, I would be more than happy, in a closed forum or 
classified forum, to sit down and give you the status of every 
Army unit and show you who has upgraded and who has downgraded 
in their overall C ratings.
    Mr. Moran. I don't think they want the status of every Army 
unit, but it is a concern, and it's worthwhile to discuss it. I 
appreciate that.
    I think we are going to need to go vote.

                                  MRAP

    Mr. Dicks [presiding]. You go right ahead. Mr. Murtha and I 
are going to rotate. But if you want to go and vote, that's 
fine.
    And just to get back to the point that Mr. Moran made, and 
he was right. They did say they did have mobility problems in 
getting around corners in tight urban situations and they did 
have issues.
    The thing that I picked up on the positive side was that 
they haven't lost a single Marine since they have been in the 
MRAPs, and the Marines loved it for that purpose, because they 
saved lives.
    What is happening with the Army? How effective is the MRAP 
then for the Army?
    General Thurman. Sir, Congressman, I would tell you it has 
been in our initial assessment very good. We have lost at least 
one that I know of right now that was catastrophic, and I won't 
want to get into the classification of what actually happened 
to the vehicle, but it has been very positive as I tell you. I 
mean, we track that on a daily basis.
    Mr. Dicks. So it was a good decision to put MRAP over in 
Iraq, from your perspective.
    General Thurman. As my perspective, sir, as the Army G-3. 
Yes, sir.
    Mr. Dicks. And we have Humvees, we have Strykers, we have 
the right mix now between the Humvees and the MRAPs--or have 
you got your requirement, your full requirement of MRAPs yet, 
or do you want a different mix or numbers than you have?
    General Thurman. Sir, we do not have our full requirement 
of the stated requirement that the theater has asked for.
    Mr. Dicks. What is that? Do you know?
    General Thurman. The current acquisition number, as we 
discussed, I believe, earlier, was 10,000. We are evaluating--
and I went back just this last Saturday and asked the theater 
to come back to us with an operational assessment and tell us, 
you know, one, what is the operational assessment so we know 
what the future requirements are and how is that vehicle 
performing and what do we need to do with it. That is an 
ongoing assessment right now.
    Mr. Dicks. Thank you.
    Mr. Murtha [presiding]. The time of the gentleman has 
expired. Was it your time that expired?
    Mr. Dicks. No, it wasn't. I gave him triple time.
    Mr. Moran. Mr. Chairman, it might be of interest to know 
that Mr. Dicks did acknowledge that the Marine Corps did say 
that in terms of the mobility of the vehicles.
    Mr. Dicks. And they also said, thank God, they liked the 
vehicles.
    Mr. Murtha. The Marine Corps has talked to me about the 
difficulties. You just pointed out the difficulties. I have 
seen an M-1 tank where the turret was blown off; and I worry 
about head injuries, too. They may not have been killed, but we 
want to look into head injuries when these things are blown up.
    So it's a program where you wanted it, troops wanted it, 
they put the money into it, and it's probably one of the 
biggest procurement programs in the history, $21 billion. 
Because the troops wanted it, we came up with the money.
    Mr. Rothman.

                                TRAINING

    Mr. Rothman. Thank you, Mr. Chairman.
    Generals, thank you for your services and your sacrifices 
throughout your career and those of your family. We do 
appreciate it.
    A couple of questions. I know that Mr. Dicks, my colleague 
from Washington, asked this while I was upstairs in terms of 
what are our forces being trained for. Is it strictly limited 
to the terrain, temperature and types of combat that we are 
experiencing in Iraq and Afghanistan or are there other things 
we are training for?
    In general, I heard there are other things we are training 
for. Because, yesterday, the Marines were here to tell us that, 
unfortunately, they were not being trained for anything other 
than the kind of combat that they are going to fight in Iraq 
and Afghanistan. Could you respond?
    General Thurman. Congressman Rothman, yes, sir.
    Currently, we are focused entirely on counterinsurgency 
operations. Once again, it's the amount of supply that we have 
in our Army forces to meet the COCOM demands. We know we need 
to build that depth back to train for full-spectrum operations.
    Mr. Rothman. General, does your budget request this year 
provide for funds to expand the training to include other 
potential theaters?
    General Thurman. Yes, sir, it does. And our training 
accounts, when we get the amount of time back home, that we 
can, in fact, train for full spectrum. Time is one of the 
resources that we have. Because we have to turn our Active 
units around with our brigade combat team so fast that it takes 
about 18 months to train for full spectrum operations. We are 
not doing that right now.

                               DWELL TIME

    Mr. Rothman. In your understanding, is the Army--have they 
announced plans to provide 18 months back home?
    General Thurman. Sir, we have not announced that. Our goal 
for--rotational goals right now is we would like right now for 
every year deployed, for 12 months, we would like to get back 
home for two, but we can't meet that right now.
    Mr. Rothman. Go away for 12, be back for two?
    General Thurman. Yes, sir.
    Mr. Rothman. Or be back for 12?
    General Thurman. Yes, sir, right now, our goal currently is 
one to one.
    Mr. Rothman. Oh, I see. Go for 12 months, back for 24?
    General Thurman. Yes, sir, but it's only one month rotation 
policy for the AC down in Iraq and Afghanistan.

                         FULL-SPECTRUM TRAINING

    Mr. Rothman. Well, let me just offer my observation that 
there is something fundamentally wrong with a policy that would 
not allow us to train for other theaters. It simply shows the 
limits of our capability to do the extent we want to stay in 
Iraq or Afghanistan.
    Something has got to give, but I don't think it can be 
facing future threats. As someone once said, that is not 
planning, that is wishful thinking, that there will be no 
threats for which we need to be trained. But that is my 
observation.
    Unless--so you need to hear from higher ups. You are just 
waiting for the time to train, but you say there is money in 
the budget to train if you are given the time. Is that correct?
    General Thurman. Congressman Rothman, if I could just be 
clear, we don't have any policy that says we won't train for 
full spectrum. The fact of the matter is, given the current 
global demand, we cannot--we do not have the time available to 
train for full spectrum operations. That is the current state, 
given where we are with demand.

                         FUTURE COMBAT SYSTEMS

    Mr. Rothman. If I may go on to another subject just 
briefly, last year, the Army testified that the future combat 
systems program is critical to the future capacities of the 
U.S. Army. Just last week, however, the Secretary of Defense 
said that he had concerns about the program in view of the 
pressures on the defense budget, in terms of balancing the 
budget pressure and the modernization goals which are to be 
addressed by the future combat systems. Can you address the 
issue of whether you are still pushing for the Future Combat 
Systems and how you would accommodate this pressure on the 
budget and these modernization goals?
    General Speakes. Sir, I would be glad to discuss that.
    The first point is the Secretary of Defense was asked a 
hypothetical question. He was asked to project, based upon a 
budget downturn, what the pressures would be on the Department 
of Defense. The Army recognizes that in the event of a budget 
downturn that everything we do has to be reevaluated.
    The points that I would like to make overall is--the Future 
Combat System is the centerpiece of our Army modernization. It 
is the way that we take a force that is being trained and 
shaped to fight today and move it to the future. As you have 
already addressed, we don't want to be focused solely on 
counterinsurgency operations. We want to be full spectrum, as 
General Thurman has outlined earlier.
    To do that then, in our base budget, we have a plan for 
Future Combat Systems. It is a part of our overall investment 
strategy. FCS is never more than one-third of that funding 
strategy. So the point is, it's affordable, it's deliberately 
designed to be the critical element that moves us forward, gets 
us to the next decade with critical capabilities and 
continuously cascades new capability to the force.
    The other thing that we think is very important is it is 
designed for how we are seeing the battlefield evolve. It is 
not last decade's plan for last decade; it is this decade's 
plan for the next decade. So we are working very, very hard. We 
are very optimistic.
    If we were to take you to Fort Bliss this summer, you will 
see the lead elements of FCS right now being used by soldiers 
who are evaluating it to see if it has the promise to be 
brought to the Army right away.
    Through spinouts every two years you will see elements of 
FCS hit the force. We are really excited about that. Many of 
the early elements of FCS are already in combat today.
    For example, as you take a look at the frag kit five that 
is on Humvees, that frag kit has elements of the armor solution 
that will be a part of the main ground vehicle. If you take a 
look at the UAVs that are flying overhead, if you take a look 
at the robotics we are using against IEDs, all those are 
elements we are trying to help shape and prepare for the 
future.
    So FCS is affordable, it's absolutely necessary, and the 
Army leadership is absolutely committed to it.
    Mr. Rothman. Thank you.
    Mr. Murtha. Let me say something about FCS now. You know, I 
have given a challenge to yourself and General Casey. We are 
quite willing if we can see you folks willing to take a short-
term chance in order to put some money in it.
    He and I talked just yesterday. We sat down and talked 
about how much of a chance he could afford to take in order to 
come up with FCS.

                           TRAINING READINESS

    What worries me, FCS is one thing. Of course, the money 
worries me too. But when you say 18 months--and I have known 
this for a long time--to train people in conventional type war 
or what we consider conventional type warfare, and we are 
training them all in the type of warfare that we always do. 
We're going to make an invasion or whatever. It is that we 
train them for that particular task.
    We got a hell of a problem here. When it takes 18 months 
and they are only home 8 months and something happens someplace 
else, everybody in this room can see we have a problem in the 
future with the number of people we have available to us.
    What I worry about, what is going to come down first thing? 
What is going to come down? Personnel is coming down, because 
that is 100 percent, and the other stuff is 10 percent outlay.
    So I hope that you will come up with something--I hope you 
will come up with the money that adds to that money. And we are 
not going to get this done if we don't come up in the next 2 or 
3 years with a big pot of the money.
    What I saw, they weren't ready to go with a lot of stuff, 
but we ought to get what we are ready to go with.
    Mr. Hobson.

                        RECRUITING AND RETENTION

    Mr. Hobson. I want to talk about one of the things that you 
have been able to do is attract people. Although when we have 
talked in the past, you have dropped your standards. Good you 
get into that.
    Mr. Murtha. I did. I talked about the possibility, talked 
about tattoos, I talked about waivers and so forth. I didn't 
talk about enlistment bonuses, which breaks my heart we have to 
pay captains and majors to stay in.
    Mr. Hobson. Do you have any plan? Well, let me go back----
    Mr. Murtha. We didn't have to when he went in.
    General Thurman. The 1994 Bush administration----
    Mr. Hobson. The 1994 Bush administration, but he knew a 
little more on retaining.
    This committee has had an attitude that we will fund if you 
will ask for people. We had a huge spike trying to get the Army 
figure, and we asked the committee to do that. I don't know the 
numbers or how you are growing them, but I am concerned that 
the programs for not only retention but for getting this 
recruitment, which I am amazed that you are able to do, but do 
you have any programs to get away from having to get to pay 
huge bonuses and lessening the standards for the Army as we 
move forward and we can attract people? Because I am concerned 
with the war coming down we have to get people.
    Mr. Hobson. The heart of the Army, the heart of any group 
is its people and retention of those people.
    What kind of new plans are you all coming up with to make 
this work? Because our objectives--the Chairman gives out the 
number about the number of people from West Point, officers who 
are leaving. I can tell you that my recruitment--and I have a 
very strong military, with the Air Force, Wright Patterson in 
my district--but my applications for the first time in the 
academy have gone down, just the number of people coming in to 
apply for it.
    So we need to reinvigorate this program. Some people are 
calling for the draft. I don't want to go back to the draft. 
But do you have any programs to change this?
    General Rochelle. Congressman Hobson, let me address your 
question as the Army G-1, with a little bit of experience in 
the business of recruiting.
    I will tell you, first of all, that indeed it is 
challenging at any time to recruit for an all-volunteer Army. I 
have had two tours, if you will, in the front lines of 
recruiting, and I can speak firsthand of how challenging it is. 
But, first of all, I would have to say that we are blessed as a 
Nation that this young generation of millennials, as they are 
commonly referred to, in my estimation, really are the next 
great generation. They are stepping up to the plate.
    The Chairman spoke a little bit earlier in his opening 
remarks about high school graduation and expressed a little bit 
of trepidation. We are concerned about that. But there is a 
trend that I would like to refer to that is much, much larger 
than the Army, and the trend goes a little bit like this: Fifty 
percent of all the minority youth who enter high school today 
will not graduate. Seventy percent of every young American who 
enters high school today who is at or below the poverty level 
will not graduate from high school. And across the Nation, 30 
percent, irrespective of race or ethnicity, irrespective of 
socioeconomic status, will not graduate from high school.
    In spite of that, the Army is still--no, we are not hitting 
our 90 percent high school degree grad that is the DOD 
standard. But in spite of that, we are hovering at 80 percent 
and will not go below 80 percent high school degree graduates 
in 2008, fiscal year 2008.
    The key metric, if you may--all are important, but the key 
metric is the one--those who score in the upper 50th percentile 
of the Armed Services Vocational Aptitude Battery. Because 
that, more than anything, reflects trainability. The high 
school degree, which was adopted in the 1970s and 1980s, really 
speaks to stick-to-ittiveness.
    To your question, it is going to require innovation for us 
to remain viable and continue to grow the Army. We are on a 
very, very positive track right now for growing the Army ahead 
of schedule, the schedule approved by the President. But it is 
going to take innovation. We are employing innovation, and I 
will name just two.
    We recently launched a partnership with the Army National 
Guard called Active First. The National Guard, sir, as you have 
stated and several have alluded to, is ubiquitous across our 
Nation. There are places where it simply would not be 
profitable to have a recruiting station and several recruiters. 
So the partnership calls for a young person to be recruited by 
the National Guard, trained and then employed, upon completion 
of training, for a period in the active force.
    Mr. Hobson. Let me follow up for just a second, and then I 
have to go vote. The Guard does another thing that is good. In 
my State, we will pay 100 percent for a kid to go to college at 
a state institution in the State that is public or the similar 
amount to a private school within the State. That has got us a 
lot of quality young people.
    The second thing, I don't know whether you are doing--are 
you doing a GED program for these young people, where you can 
get them a high school equivalency while they are there. I 
think you can help society as a whole with these numbers if you 
will get them GEDs. And if the Army cares about them and you 
give them structure in their life, these kids can then achieve 
in the future, not only in the Army but elsewhere.
    General Rochelle. Sir, you are reading my mind, because 
that was my second point, my second point of innovation. At 
Fort Jackson, South Carolina, later this year, we will employ 
and launch a program that was designed and will be spread 
across larger if it proves very profitable--and we think it 
will--which is designed to do precisely that.
    Mr. Dicks [presiding]. The gentleman's time has expired.
    Mr. Bishop.

                       MODULAR BRIGADE STRUCTURE

    Mr. Bishop. Thank you very much.
    And welcome, gentlemen. And I, too, had conflicting 
subcommittee responsibilities.
    But following up on Mr. Hobson's point, let me just say for 
the record I appreciate, General Rochelle, your willingness and 
the willingness of the Army to meet with the Congressional 
Black Caucus in addressing some of the concerns that were just 
touched upon in your answer to Mr. Hobson's question.
    I am concerned about some issues regarding modularity. The 
Army is in the process of converting to a modular brigade 
structure while at the same time fighting a war with half of 
the active component brigades deployed in combat theaters. In 
fiscal year 2006, there were 51 brigade combat teams, and of 
course, by the end of 2008, we are expecting to have 69.
    Can you discuss the utility of adding an infantry battalion 
to each of the modular brigades, presumably to increase combat 
power, without requiring increases in command and logistical 
functions? Do you think that makes sense? And is the Army 
exploring such an idea?
    And tell me what the impact of modularity is going to be on 
the equipment requirements. If additional equipment is 
required, is it funded? Is it fully funded, I might ask?
    And what would you think--and this is probably the more 
complicated of the questions--what is the desired number of 
brigades in the force-generation pool that will allow us to 
achieve 1-year dwell time and 1-year combat tour? And added to 
that, what would be the number of brigade combat teams 
necessary to sustain a rotation of 2 years at home for every 
year that it is deployed?
    Mr. Dicks. Why don't we let him answer that? I think that 
is a lot of questions. Then you can follow up.
    Mr. Bishop. Okay.
    General Thurman. Congressman Bishop, your first question, 
the training and doctrine command is looking at the modular 
concept in terms of do we have the structure right. And, as you 
know, that would add more spaces to that formation, because 
with the force structure allowance that we have, that we have 
been authorized to grow in the AC, is 547.2. Having fought 
these formations, we always probably want more, but it gets 
into what is affordable out there and looks at the overall 
capability we have to have.
    In respect to modularity, I think, as it stands right now, 
we have 38 that we have converted on the AC side plus enablers 
and two nonmodular brigades, for a total of 40.
    We are growing the Army as fast as we can. And what we are 
trying to do by fiscal year 2011 is have a total on hand of 76. 
And I can go into detail on the actual force mix. And that is 
48 on the active, 28 on the reserve components.
    Your specific question on what does it take in the Army 
force generation to have available, as I understand it, at a 1-
to-1 ratio I believe you asked. That would be 24 brigade combat 
teams, programmed right now, as we get to 76, and five Army 
National Guard combat teams, for a total of 29. Additionally, 
that would give us a rotational capacity in that program--that 
is what is in the program--of about 236.8K of rotational 
capacity with enablers. And that would be what we would be 
trying to do to put on that force-generation model of what is 
available, what is ready, and what is in the reset trained.
    Now, right now, given our demand, the reset trained and 
ready is compressed, so we can't get to that. That is why it is 
so important for us to get as fast as we can to the program 
growth, so that we can get that capability. I will tell you 
that the capabilities in those formations is very good. And you 
have the combat power in there, at least in this environment, 
that you can rapidly task organize, given that mission, and 
apply combat power to decisive point with that. So I would tell 
you, I think it is going to take that stress off as fast as we 
can grow it.
    Now, I will defer to General Speakes to answer the 
equipment challenges that we have with modularity.
    Mr. Bishop. What about the 2-to-1?
    General Thurman. Oh, I am sorry. To get to a 1-to-2, given 
a 76 brigade combat team growth for the AC, that would be 16 
brigade combat teams. That is what would be on that 1-to-2-
cycle, with approximately 106,000 or 107,000 of enabling forces 
at rotational capacity. And then for a 1-in-4 with our reserve 
components, because they are part of this equation, we would 
ask them to provide four brigade combat teams. That is at the 
programmed growth of 76 brigade combat teams. And we are 
trying, by the end of fiscal year 2011, to have that completed 
and have grown that capability.
    Mr. Murtha [presiding]. The time of the gentleman has 
expired.
    Does Mr. Frelinghuysen have any questions?

                         FUTURE COMBAT SYSTEMS

    Mr. Frelinghuysen. Yes, I do, certainly before Mr. Dicks 
comes back, because he is going to reclaim that time. Before he 
comes back, let me thank you, General Speakes, for the emphasis 
added in response to Congressman Rothman. I mean, it would be 
catastrophic if we did not continue, even as expensive as they 
may be, our investments in the Future Combat Systems. We might 
as well put up a white flag. I mean, we would not be able to 
proceed with modernization unless we make those investments.
    Would you make the connection between modularity, the 
brigades we are sending out in the field now that are modular, 
which are all about flexibility, and the flexibility that will 
come--are there going to be Future Combat Systems modular 
brigades? Could you talk a little bit about that?
    General Speakes. Sir, I can.
    Mr. Frelinghuysen. I know we are spinning the technology 
out. To some extent, the technology is futuristic being put to 
use.
    General Speakes. Right. Sir, what we have been able to do 
is the program that General Thurman just laid out takes and 
puts the modular formations across our Army. And it is 
magnificent because, as General Thurman said from his personal 
experience as a combat commander, you have the flexibility, the 
agility and the sustainability to be about, to be successful in 
today's battlefield.
    What my challenge is right now, I am behind, because, you 
see, what I am doing right now is taking equipment that was 
designed in the 1970s and 1980s, in large measure, and we are 
adapting it and trying to modernize it to try to fulfill this 
modular vision, but we know it is not really what we want. What 
we really want is equipment that is common, that has incredible 
force protection capabilities, that has much more agility and 
much more sustainability.
    We are seeing the initial elements of that in these Stryker 
Brigade Combat Teams, which have a common platform and the 
ability to almost have a network capability for command and 
control. It gives us a vision of where we are headed. The next 
step in this will be Future Combat Systems, because----
    Mr. Frelinghuysen. You are marrying future combat system 
technology now to the modular units that you are setting up? 
That is sort of what I wanted----
    General Speakes. Exactly. And then what you will see is all 
this common equipment in the brigades that already have been 
successful in combat. So instead of using 1970s and 1980s 
technology, stuff that was designed for the Cold War, we will 
have common platforms, much more survivability, much more 
lethality, much more force protection capability. So those are 
the things that we are seeing in Future Combat System that we 
are so excited about.
    Mr. Murtha. We still have $160 billion to $200 billion 
which we have to find. So you are going to have to do some 
hustling.
    Mr. Dicks, before we adjourn.

                                 RESET

    Mr. Dicks. Okay. Let me ask you, on this very question, how 
are you going to decide what you are going to fix of all of 
this equipment that we are bringing back, the so-called reset, 
and how much are you going to just wait to get the new stuff?
    I mean, I hope we don't go replace all the equipment and 
then buy new equipment. I am sure that is what Mr. Murtha is 
worried about here, accelerating the Future Combat Systems. 
This is the time to fill the holes with the new equipment if it 
is there.
    General Speakes. Exactly. So in the near term, what we have 
is, to fulfill what General Thurman needs, every formation 
coming back has to be made ready to go again. That is what we 
are doing with reset, thanks to your generous support. So what 
we are doing now is returning formations within a year with 
equipment that is ready to go. And that has been a tribute to 
the resourcing you have given us for reset.
    Mr. Murtha. What we are saying is, in the future, if you 
want the Future Combat Systems you are going to have to take a 
chance on not resetting and rehabilitating as much as you want 
to in order to get the other, or we are not going to be able to 
find the money, because it is such a big bill.

                                  MRAP

    Mr. Dicks. One final thing. On the MRAP again--and I want 
to say this for the record. There is no MRAP being built in 
Washington State, but I just want to give a fair hearing here.
    We have done trainers for the uparmored Humvees. They are 
kind of in a container, and these guys go in and train on this 
thing. I am told, General Thurman, there is only one trainer 
for the MRAP. Do you think it would be a wise investment to do 
some more of these trainers, since we are going to be using 
this thing?
    Mr. Murtha. Particularly in Washington State.
    Mr. Dicks. No, it has nothing to do with Washington State.
    General Thurman. Congressman Dicks, sir, what I would tell 
you is that requirement has not been fully brought into me, as 
the G-3. Now, you asked me, do I think we need to have trainers 
for these vehicles? I think we have to evaluate that and look 
at that.
    Any time that we can substitute a training system out 
there--and that is a trade-off with money now and funding--
absolutely. You know, we have done that with a lot of our 
equipment. But right now, I have not got the full requirement 
on that.
    Mr. Murtha. I appreciate that answer, and we have to go 
vote again. So we will adjourn the Committee until the week 
after next.
    [Clerk's note.--Questions submitted by Mr. Cramer and the 
answers thereto follow:]
                                Missiles
    Question. The Army has historically spent RDT&E money on the 
development of missile systems; however recent plans suggest the 
Administration feels comfortable with the current inventory of tactical 
missiles. Tactical missile development is declining in such a manner 
that in a few years the Department of Defense will only be developing 1 
tactical missile program, Joint Air to Ground Missile (JAGM)? Does 
General Thurman believe the readiness of our current inventory of 
missiles is sufficient to address an emerging threat such as North 
Korea, China or Russia? Does the General feel comfortable the United 
States Army can continue to sustain a healthy industrial base for 
future tactical missile research and development as threats emerge and 
the requirements for Army readiness change?
    Answer.
    (1) Is current missile inventory sufficient to address emerging 
threats such as North Korea, China, or Russia?
    In accordance with guidance from the Office of the Secretary of 
Defense (OSD), Army requirements are based upon approved scenarios and 
Defense Intelligence Agency Threat Reports. We have not received 
scenarios or threat reports for all of the areas listed. The Army 
conducted extensive modeling and analysis to determine munition 
requirements for OSD approved scenarios. Based on a comparison of these 
munition requirements and Army inventory, some missile systems fully 
meet FY15 requirements while other missile systems require additional 
procurement to do so. However, missiles have a limited shelf life, and 
Army inventories of critical missiles begin to decline without 
additional procurement in the FY15 President's Budget request. Army 
inventory projections also are predicated upon receipt of FY08 and FY09 
supplemental funds.
    (2) Does the G-3 feel comfortable the U.S. can continue to sustain 
a healthy base for future tactical missiles?
    The Army recognizes the health of the Missiles Industrial Base is 
an issue. At present, we have an unsurpassed capability in Close 
Combat, Aviation, Fire Support and Air Defense. The result is limited 
upgrade or develop of new missile systems. In response, the Army has 
initiated a missile capability gap analysis to highlight emerging 
capability gaps, help focus the President's Budget requests in FY12-17 
to ensure capability gaps do not develop, and to ensure that the U.S. 
retains the industrial base capacity to counter emerging threats.
    Question. I have heard rumors that the Army G-3 has requested an 
Army Missile Capability Gap Assessment and is expecting this assessment 
to address the POM 2012-2017. Is this Assessment going forward as 
requested and can this Subcommittee expected to be undated once this 
assessment is finalized?
    Answer. On 21 Dec 07, the Army G-3 signed a memo directing the 
Army's Training and Doctrine Command to conduct an Army Missile 
Capability Gap Assessment that looks at future Army missile capability 
needs in the context of a Joint force. Discussions are underway to 
ensure assessment scope, use of current analysis results and completion 
date will identify and provide recommendation/direction for any 
potential missile capability gaps. We expect to provide the results by 
the FY12 President's Budget submission. No Congressional update is 
currently scheduled.

    [Clerk's note.--End of questions submitted by Mr. Cramer. 
Questions submitted by Mr. Murtha and the answers thereto 
follow.]
                               Modularity
    Question. The Army is in the process of converting to the modular 
brigade structure, while fighting a war, with approximately half of the 
active component brigades deployed to the combat theaters. In fiscal 
year 2006, the Army had 51 brigade combat teams. By the end of fiscal 
year 2008 the Army plans to have 69 brigade combat teams.
    Please discuss the utility of adding an infantry battalion to each 
of the modular brigades. The idea is to increase combat power without 
requiring a significant increase in command and logistical functions. 
Does this make sense and is the Army exploring such an idea?
    Answer. The Army continually assesses the utility of the modular 
force designs and applies changes based on lessons learned and 
operational experience. The Army must balance the strategic risk of 
preserving the All-Volunteer Force in persistent conflict, the 
operational risk of providing sufficient capacity to support joint 
force rotational requirements, and the tactical risk of maintaining 
sufficient capability within the Brigade Combat Team (BCT) to conduct 
successful full spectrum operations. The current BCT design includes 
one Recon & Surveillance Squadron with three troops and two Maneuver 
(Combined Arms Battalions) with 4 companies each. This design has one 
more maneuver company than a legacy brigade. Adding a third combined 
arms battalion would make the BCT ``more capable'' than previous 
designs, but would increase the size of a Heavy BCT by 812 personnel 
and an Infantry BCT by 848 personnel which would add an additional 
56.1K Soldiers at a cost of over $4.8B per year across the force. In 
addition, the increase of 68 Maneuver Battalions would generate an 
equipping bill of $2.5B.
    Question. What is the impact of modularity on equipment 
requirements? If additional equipment is needed, is that equipment 
fully funded?
    Answer. The transformation of our force has driven up the 
requirements for equipping. The current plan from 2005 to 2013 provides 
$174.9B in procurement ($41.0B for the Reserve Component ($29.4B to 
ARNG and about $11.6B for Army Reserve) and $133.9B for the Active 
Component) from the base budget to meet these increased requirements; 
however, because of pre-modularity shortfalls, the Army depends on 
supplemental appropriations to close the gap between new requirements 
and existing equipment and modernization shortfalls. Our greatest 
concern would be a loss of supplemental funding support for this plan, 
resulting in an inability to fully meet the Army's equipment 
requirements across all components and the unhinging of the Army's 
Equipping Strategy.
    The Army had significant equipping challenges prior to 9/11. 
Particularly noteworthy were the equipment shortages and lack of 
modernization in the Reserve Components. Because of the need to 
integrate the Reserve Components to meet the demand of persistent 
conflict, the Army has adopted a new total force operating strategy 
that resources units based on their deployment window, regardless of 
component. The previous incremental ``tiered'' resourcing strategy 
resulted in late deploying Active and most Reserve Component units 
being equipped last and with the least modernized equipment. Additional 
funding gained through supplemental spending will fill shortages and 
modernize outdated equipment in the force and fund payback plans for 
diverted Reserve Component equipment. The Equipping Strategy is linked 
to the Army Campaign Plan which reflects the time-phased transformation 
of the Army into the modular force.
    Question. Has the Army been able to meet the schedule for forming 
modular brigade combat teams? What have been the key challenges in 
terms of personnel and equipment?
    Answer. The Army is on track to complete personnel growth by 2010 
and Modular BCT growth by the end of FY 2011. The most significant 
challenges to meeting this timeline are:
    (1) Manning: Ensuring manning programs provide for the recruitment, 
development, distribution, sustainment, retention and associated 
systems critical to building and maintaining the all volunteer force. 
Logistics, Military Intelligence, and Aviation Captains and Majors are 
among the major manning challenges.
    (2) Equipping: How to best balance funding to minimize risk to the 
current force and maintaining the momentum in Modernization to ensure 
the viability of the Future Force. Battle Command Systems, trucks, and 
night vision devices are three of the major equipping challenges for 
Brigade Combat Teams.
                         Grow-the-Army-Brigades
    Question. Currently, and over the next several years, the Army is 
adding end-strength and equipment in order to form six new infantry 
brigades.
    When will the Grow-the-Army brigades be available for combat 
deployment?
    Answer. As a matter of course, the GTA BCTs will be available for 
deployment one year after they activate. The Army will activate one 
additional BCT in each year from 2008-2010 and three BCTs in 2011. By 
the end of FY 2011 all GTA BCTs will be available for deployment.
    Question. What is the status of manning, equipping and training the 
Grow-the-Army Brigades?
    Answer. The Army is on track to complete personnel growth by 2010, 
BCT growth by 2011 and equipment growth for the BCTs by 2015. To 
monitor our progress in meeting these goals, the Army conducts a 
monthly Force Validation Committee process to synchronize resourcing 
functions for select units that will deploy or convert within a given 
window. This process brings together the Army Staff and supported 
commands to identify and resolve manning, equipping and training 
issues. Using current readiness data as a baseline, the Force 
Validation Committee projects the status for each unit as it builds to 
its scheduled deployment or conversion date. Units that are not 
projected to meet stated readiness goals on their deployment or 
conversion date are intensively managed at each level to adjust 
resources and mitigate shortfalls.
    Question. Is the necessary equipment for the Grow-the-Army Brigades 
fully funded?
    Answer. The Army's current program from 2008-2013 provides a total 
of $68.6B to include $17.0B in procurement to support the Grow the Army 
plan's original 2012 BCT timeline. The Chief of Staff has approved an 
accelerated Grow the Army Plan timeline that will have all BCTs in the 
force by 2011, and will require an additional $2.6B in funding for 
personnel and training.
    Question. Will all the new brigades be light infantry brigades?
    Answer. The GTA initiative was based on increasing rotational depth 
and filling global operational demands as quickly as possible. The 
growth of six AC Infantry BCTs was the optimal way to accomplish the 
rapid growth with a structure suitable to meeting current operational 
demands in an era of persistent conflict. This decision is subject to 
review based on the results of Total Army Analysis and the Quadrennial 
Defense Review. This process will analyze existing requirements, 
current operational demand, and projected future demand to ensure we 
have the appropriate mix of Heavy, Infantry, and Stryker BCTs within 
the force and across the Active Component and Army National Guard.
                             Reset Funding
    Question. General, Congress provided $17.1 billion for Army's reset 
needs in the fiscal year 2007.
    Please update the Committee on the execution of the $17.1 billion 
provided for Reset in fiscal year 2007?
    Answer. In FY07, the Army executed $16.4 billion of the $17.1 
billion provided for Reset. The Army was unable to spend the remainder 
of the funds toward Reset due to operational changes in the Theater 
that resulted in less equipment returning to the States than planned. 
The Army reprogrammed these dollars toward the Mine Resistant Ambush 
Protected vehicle, a high priority force protection item. In total, the 
FY07 funds Reset of 25 brigade combat teams: 20 completed during in 
FY07 and 5 are completing in FY08.
    Question. What are the key production challenges facing Army Reset 
in terms of industry and depot capacity? Are you facing any major 
capacity problems?
    Answer. Our primary challenge is the receipt of timely, adequate 
funding. The Army requires the remaining $7.6 billion in FY08 GWOT 
procurement no later than Memorial Day to remain on schedule for FY08. 
Timely receipt of these dollars leads to maintaining the necessary 
workforce, procuring of additional spare parts and contracting with our 
industrial partners which leads to the necessary production. Since FY03 
the depots have doubled their direct labor hours from 12.5 million to 
27.1 million (projected) in FY08, tracked vehicle Reset increased 200 
percent, radar and Stryker Reset increased 100 percent, and all other 
systems' Reset increased 50 percent. Additionally, new procurement 
increases equipment on hand ratings, allowing units to start training 
earlier and improve the Army's strategic depth.
    Our depots currently are not operating at full capacity. We 
currently are at 27.1 million labor hours and have the capacity to go 
to 40 million labor hours. We are operating at the necessary capacity 
to meet current requirements with available funding. Each depot's 
production capacity utilization is being optimized in accordance with 
the commodity the depot repairs and the Army's rotation schedules. In 
FY07, 109,249 items were scheduled to be Reset. By the end of FY07, the 
actual Reset completions totaled 123,425 items--30 percent over 
schedule. In FY08 we plan to complete 130,000 items. As Army 
requirements change, depot production will increase as necessary to 
meet them. Our only requirement is for predictable, early funding, 
which is essential to allow for the timely procurement of repair parts, 
adequate production planning, and the hiring and training of necessary 
personnel.
                     Pre-Positioned Equipment Sets
    Question. The Army drew upon pre-positioned equipment sets to 
sustain initial combat operations in Iraq. Some equipment was repaired 
and replaced in pre-positioned sets only to be dawn out again for the 
surge.
    What is the readiness posture of Army pre-positioned sets today?
    Answer. The readiness posture of the Army Prepositioned Stocks 
(APS) available equipment sets for APS-4 are at 88%-95% of fill. The 
APS reconstitution plan will ensure all the other APS equipment sets 
will have a readiness posture of 95-100% of fill.
    (1) APS-4 in Korea and Japan is available; it is comprised of an 
HBCT (95%) and a tailored Sustainment Bde (88%). APS-4 will be 
completed by 4th Qtr FY 08.
    (2) APS-3 Afloat has a Port Opening Package capability in Guam AOR 
at 90% of fill. This set consists of a temporary afloat set of 20 units 
(twelve port opening and eight medical units/teams) loaded aboard the 
USNS Pomeroy. The full Sustainment Bde Set will be completed in FY 11.
    (3) APS-5 is issued and is planned for reconstitution when no 
longer required for ongoing operations in accordance with APS Strategy 
2015.
    Question. Is additional funding needed to repair and reset pre-
positioned equipment sets as the surge brigades depart from Iraq?
    Answer. APS funding has been incorporated in the Supplemental 
request and identified as part of the Reset funding and in Program 
Objective Memorandum (POM) FY 10-15 process. The total cost of APS 
reset is $8.9 B in both Operations Procurement (OPA) & Operations 
Maintenance and Army (OMA) funds through 2015. Army will reconstitute 
APS by 2015 with the continued support of Congress to fully resource 
the budget requests for Army equipment (Supplementals and POM 10-15).
    Question. What is the time line to have all the pre-positioned sets 
returned to their desired readiness?
    Answer. The APS stocks were used to support Operation Iraqi Freedom 
(OIF)/Operation Enduring Freedom (OEF) and to accelerate the build of 
the Brigade Combat Teams (BCTs). The Army has developed an APS 
reconstitution timeline to support the approved Army Prepositioned 
Stocks (APS) Strategy 2015, the FY 10-15 Program Objective Memorandum 
(POM) (based on equipment availability) and Army resource 
prioritization.
          <bullet> Current Year:
                  <bullet> APS-5: Infantry Brigade Combat Team
          <bullet> Near Term:
                  <bullet> APS-5: Heavy Brigade Combat Team #1
                  <bullet> APS-3: Infantry Brigade Combat Team #1, 
                Sustainment Brigade #1
                  <bullet> APS-2: Heavy Brigade Combat Team
                  <bullet> APS-5: Infantry Battalion
          <bullet> Mid Term to 2014:
                  <bullet> APS-3: Infantry Brigade Combat Team #2, 
                Sustainment Brigade #2
                  <bullet> APS-5: Fires Brigade, Sustainment Brigades 
                #1 and #2
    Question. Does the Army intend to add MRAP vehicles to pre-
positioned equipment sets?
    Answer. Mine Resistant Ambush Protected Vehicles (MRAP), will be 
incorporated into APS-5 and APS-3 when no longer required for 
operational use (variant type TBD). MRAP availability will be based on 
the results of Training and Doctrine Command's (TRADOC) Tactical 
Wheeled Vechicle Strategy.
    Question. Given the deployment capability of U.S. Forces and the 
uncertain nature of conventional and unconventional threats, are pre-
positioned sets a wise investment? Would it be a wiser course of action 
to take the equipment from the pre-positioned sets and use it to outfit 
modular brigades and the new Grow-the-Army brigades?
    Answer. Army Prepositioned Stocks (APS) is a strategic asset that 
has proven its value in every recent major contingency. APS provides 
the strategic responsiveness to deploy globally to any contingency 
operation. The last four years of the GWOT in Iraqi, have demonstrated 
that the APS program is flexible, responsive, and critical to the 
Army's ability to deploy forces in support of the Combantant Commander 
requirements and adapt to changing strategic requirements. APS was used 
to support Operation Iraqi Freedom (OIF) and Operation Enduring Freedom 
(OEF). Diverting the APS equipment to support the building of modular 
BCTs and Grow The Army effort limits the ability to rapidly reinforce 
forward units by air movement. Current operational plans and future 
planning scenarios to include requirements that use APS sets. The Army 
complies with the National Defense Authorization Act (NDAA) 2007 to 
identify any APS sets utilized and the plans to reconstitute those APS 
sets annually.
             Mine Resistant Ambush Protected Vehicles (MRAP)
    Question. As the threat from Improvised Explosive Devices and 
Explosively Formed Penetrators grew, the limit of how much armor could 
be applied to the HMMWV was reached. The DoD identified the MRAP-type 
trucks to provide greater force protection. The Army seemed skeptical 
at first about acquiring MRAPs in large numbers.
    General, what is the current Army acquisition objective for MRAPs?
    Answer. The current AAO for MRAPs is 10,000 systems (based on the 
September 2007 interim requirement). A new interim requirement for 
MRAPs of 12,000 systems is currently in staffing. The final requirement 
is dependent on many factors, including future actions taken by the 
enemy.
    Question. How many MRAPs does the Army have currently fielded in 
Iraq; and how many in Afghanistan?
    Answer. As of 4 March, the Army has fielded 1,333 MRAPs in Iraq and 
8 in Afghanistan.
    Question. When do you expect to reach your acquisition goal?
    Answer. The current plan is to procure the 10,000 systems by 
October 2008 and field them by December 2008. If a new interim 
requirement of 12,000 is adopted, it is anticipated that these systems 
could be produced by February 2009 and fielded by April 2009.
    Question. How have the MRAPs been received by soldiers, and how 
have the MRAPs performed in terms of mobility and utility; and how have 
they performed when they have been attacked by various threat weapons?
    Answer. In his initial assessment, LTG Odierno reported the 
fielding of MRAP vehicles has had a positive impact upon crew 
survivability in Theater. Although in some operating environments, it 
came at the expense of maneuverability and mobility. Nevertheless, 
these limitations were expected and most units are ``eagerly awaiting 
additional vehicles.''
    Due to the low densities fielded, there has been no opportunity to 
do side by side ``best of breed'' analysis. It is premature to tell 
which variant of MRAP is superior or to provide definitive feedback on 
performance, final numbers and/or category mixes.
    Question. What is the proper mix of HMMWVs and MRAPS?
    Answer. A two-thirds MRAP to one-third Up-Armored HMMWV fill per 
Brigade appears about right as a fielding plan. However, it is 
premature to tell which variant of MRAP is superior or to provide 
definitive feedback on performance, final numbers and/or category 
mixes.
    Question. Is the Army MRAP requirement fully funded?
    Answer. The Army has been funded for 10,000 systems. The Joint 
Program Office reports sufficient funding to procure 12,000 systems for 
the Army.
    Question. What are your plans for the MRAP vehicles once the war in 
Iraq is over?
    Answer. Training and Doctrine Command is conducting tactical 
wheeled vehicle analyses that include: 1) mission roles and profiles; 
and 2) threats and capabilities of the various fleets including the 
MRAP, Joint Light Tactical Vehicle and HMMWV. The initial results of 
those analyses will influence POM decisions; the Force Mix Brief to 
Congress; and the Combat and Tactical Wheeled Vehicle Strategy due to 
the Deputy Secretary of Defense in JUL 08. The Army's Tactical Wheeled 
Vehicle strategy is an ongoing effort to ensure our Soldiers receive 
the best capabilities available in ground wheeled vehicles to meet 
current and emerging threats.
                       Contractors and Readiness
    Question. The Department of Defense has made a major effort to 
outsource support functions in order to allow soldiers to remain 
focused on core military skills and duties. The proliferation of 
contractors performing support functions ranges from the dining 
facility to aircraft maintenance. Contractors are working side-by-side 
with military forces at home station and in the combat theaters.
    What is the commander's role in defining contractor duties; in 
supervising contractors; and in disciplining contractors?
    Answer. Primary oversight of contractor performance and conduct 
falls to the cognizant contracting officer, and is generally dictated 
by the terms of the Government contract.
    Contractor employees are required to comply with all guidance, 
instructions, and general orders issued by the Theater Commander, as 
incorporated by the Government's contract, including those relating to 
force protection, security, health, safety, or relations and 
interaction with local nationals.
    Commanders may refer contractor criminal misconduct to DoD/
Department of Justice under MEJA, and if jurisdiction is declined, may 
then consider the exercise of jurisdiction under Article 2, UCMJ in 
coordination with DoD.
    Question. Training scenarios at the National Training Center and at 
other locations include role players who represent the Iraqi 
population. Do Army training scenarios include role players for 
contractors, such as contractor security personnel?
    Answer. Army maneuver Combat Training Centers primarily use 
personnel assigned to their Opposing Force cadre to replicate the 
various contractors in theater, including private security contractors. 
In many instances the centers use Arabic-speaking personnel to role-
play contractors working on U.S. Field Operating Bases, since U.S. 
forces in theater are in day-to-day contact with Arabic contractors. 
Army maneuver Combat Training Centers are working to integrate into 
training scenarios actual personnel from contracted companies.
    Every Army maneuver Combat Training Center also challenges 
deploying forces to work through Rules of Engagement and Escalation of 
Force scenarios that involve private security contractors in 
Situational Training Exercises or scripted situations during their 
Mission Rehearsal Exercise. Training of unit contracting officials at 
Combat Training Centers occurs, but is limited due to constrained 
resources (time, expertise and dollars) that are focused on other 
mission-essential training tasks and capabilities.
    At maneuver Combat Training Centers, unit officials are trained on 
the basics of the contracting process from start to finish, and 
specifically on how to manage Commander Emergency Relief Program (CERP) 
contracts to completion in coordination with role players for ``local 
contractors,'' Provincial Reconstruction Team members, and 
representatives of the U.S. Agency for International Development. With 
the Battle Command Training Program, division and corps staff officers 
discuss best contracting practices with actual subject matter experts 
from theatre. Additionally, a Joint Personnel Recovery Activity 
workshop is given, which discusses the accounting and recovery of 
contractors on the battlefield.
                        Recruiting and Retention
    Question. A key principle of the U.S. Armed Forces is to attract 
and retain competent personnel to assure readiness and operational 
effectiveness. While the services have generally met their aggregate 
recruiting and retention goals, the GAO reports that the Army has 
experienced shortages in mission-critical occupational specialties such 
as health care, human intelligence collection, and explosive ordnance 
disposal. There is growing concern within the department as to how the 
Army can meet current operational demands with what appear to be 
chronic shortages in these occupational specialties. In addition, there 
is growing concern that recruitment standards have been relaxed to meet 
numbers.
    Gentleman, the Committee is very concerned regarding the 
recruitment and retention for mission-critical occupational 
specialties. For example there continues to be a shortage of nurses in 
the military and many billets remain vacant. Given the wartime 
environment that we are in, this Committee is extremely interested in 
what resources are currently available to recruiters to remedy this 
problem?
    Answer. Specialties such as Special Forces, Explosives Ordnance 
Disposal, Air Defense and Transport Operators are examples of mission 
critical occupational specialties that are targeted through a 
combination of our highest enlistment bonuses and educational 
incentives. Currently, 27 critical skills are at the highest statutory 
incentives levels, receiving enlistment bonuses of up to $40,000 and 
the Army College Fund of up to $74,000 or loan repayment up to $65,000.
    The NDAA06 raised maximum recruiting bonus limits for all Army 
components ($40,000 for the Active Components and $20,000 for the 
Reserve Components) and we recently initiated a High School Diploma 
Grad targeted program, Army Advantage Fund, which will enable many 
Soldiers to make substantial down payments on a home or business in 
exchange for a service commitment. Recent legislation expanded the 
student loan repayment program to offer a broader range of loans for 
repayment and enhanced educational benefits for our deployed Reserve 
Component members. We have targeted enlistment and re-enlistment 
bonuses as well as the Army College Fund to our most critical skills 
and training programs.
    Through targeted re-enlistment incentives, the Army is addressing 
specialties that are currently short due to rapid growth and 
transformation. The incentives for each specialty are adjusted semi-
annually using the Selective Re-enlistment Bonus Review Board. 
Shortages in critical skills such as Explosive Ordnance Disposal (EOD) 
Specialist, Human Intelligence Collector, Motor Transport Operator and 
some others are continually targeted for some of our most robust 
incentives.
    Question. Has the Army analyzed why these occupational specialties 
have consistently been under-filled, and what is the operational impact 
of these shortages and what resources are needed to fill these 
positions?
    Answer. From a recruiting perspective, the Army has conducted 
internal analysis as well as utilized sources such as RAND and the Army 
research Institute and studies from outside agencies. Factors ranging 
from the requirements for security clearances, aptitude test scores, 
difficulty of training and propensity toward military service have all 
been cited. Each critical skill is evaluated at a minimum on a 
quarterly basis to determine needed changes, receive input from 
training proponents and to develop innovative targeted recruiting 
initiatives. On February 1st, the Army instituted the Army Advantage 
Fund as an innovative tool to reach a more diverse audience through 
guaranteed down payments for a first home or small business. There is 
potential to expand into other markets as well. The critical skills are 
the Army's most expensive recruiting targets and will require continued 
funding at levels needed to attract and retain these Soldiers.
    The operational impact of Soldier shortages in certain skills 
jeopardizes the unit's mission and places Soldiers at greater risk. 
Having the required amount of Soldiers in the right skills and grades 
is essential to ensure units are fully functional and have the right 
leadership, experience, training oversite, can provide for the health 
and welfare of Soldiers. Shortages magnify Soldier stress through 
longer hours and more frequent deployments.
    Question. Is the Army concerned that the strain of multiple 
deployments will discourage good individuals from joining the Army- or 
``re-upping'' and staying in?
    Answer. There are certainly challenges with recruiting during a 
period of protracted war with the added strain of multiple deployments. 
However, we are optimistic about the Army's ability to find, recruit 
and enlist the Soldiers we need to grow the force. The Army was able to 
meet or exceed its recruiting goals in Fiscal Year 2007 in all of its 
components.
    Retention is monitored very closely given the high operational 
demand and multiple deployments experienced by most of our NCOs. 
Multiple deployments to Afghanistan and Iraq are currently not having 
an adverse impact on enlisted retention. In FY 2007 the Army achieved 
or exceeded the retention mission in every component. To date for FY 
2008, all components are exceeding their year to date (prorated) 
missions. The retention rates in deploying units have consistently 
exceeded 100% since FY05. For instance, nearly 600 troops reenlisted in 
Baghdad on Independence Day, this past year. More than 100 Army Reserve 
Soldiers gathered at the Al Faw palace at Camp Victory, Iraq, January 
18, 2008, to reenlist during a ceremony marking the 100th Anniversary 
for the Army Reserve. Continued high retention rates are a significant 
indicator of the quality of leadership within our ranks, the fact that 
Soldiers believe in what they are doing and value the traditions of 
service to the Nation.
    Question. DoD standards on qualification tests call for at least 60 
percent of recruits to be Category 1 to 3 (the higher end of testing) 
and 4 percent Category 4, the lowest end. The Army had chosen a higher 
standard of 67 percent in Categories 1 to 3, and 2 percent in Category 
4. However, now the Army plans to revert to the lower standards of the 
DoD guidelines, which basically lowers the IQ standards for recruits. 
Do you believe that this will reduce average effectiveness of Army 
units?
    <bullet> Please describe the standards by which candidates are 
measured.
    <bullet> Do you expect these standards to be relaxed further to 
achieve the aggressive recruitment goals?
    Answer. The Army adjusted to the DoD standards in August 2005, in 
line with the rest of the services, of 60% TSC I-IIIA and 4% TSC IV. 
Prior to that time Army had internal a goal of at least 67% Test Score 
Category (TSC) I-IIIA, and no more than 2% TSC IV. The Armed Forces 
Qualification Score (AFQT) average score has ranged between 56.5% and 
57% since FY04 so adjusting to DoD standards has not affected the 
quality of the force.
    Applicants are measured based on the percentile in which they score 
on the Armed Forces Qualification Test (AFQT). Test Score Category 
(TSC) I-IIIA includes those applicants who score in the top half (50th 
percentile or higher). TSC IIIB includes those who score between the 
31st and 49th percentile. TSC IV includes those who score between the 
10th and the 30th percentile, of which the Army typically only enlists 
those in the 21st percentile or higher. The lowest category is TSC V 
(9th percentile or lower). By law, the military does not enlist TSC V 
applicants.
    The recruiting environment remains challenging and Army remains 
focused on recruiting a quality force in line with DoD quality mark 
standards.
    Question. Recruiting and retention goals are often relayed to 
Congress in the aggregate, providing little or no visibility into how 
each occupational specialty is staffed. Will you provide the Committee 
with details on recruiting and retention by MOS?
    Answer. The Army monitors the strength of each MOS carefully to 
ensure each required skill is properly manned and maintained. Due to 
several factors, including high entrance standards, high volume 
requirements, and undesirable duties, recruiting and retention is more 
difficult for some MOS's. To compensate, the Army uses priorities and 
incentives, both monetary and non-monetary, to shape the recruiting and 
retention efforts by MOS.
    The Active Army is meeting its year-to-date goals for overall 
recruiting and is generally doing well at the MOS level. However, there 
are a few MOS's that are below their targets, including: Patriot Fire 
Control Operator/Maintainer (81%), Microwave System Operator (49%), 
Military Intelligence Systems Maintainer (74%), and Psychological 
Operations Specialist (76%). As the year progresses, the recruiting 
force places special emphasis on these MOS's to ensure that each 
critical skill is manned to the required levels. One way the Army does 
this is through the quarterly Multi-component Enlisted Incentives 
Review Board (MEIRB) which aligns incentives and priorities with the 
needs of each MOS. For example, Microwave System Operator now receives 
the highest enlistment bonus available to assist in achieving its 
annual target.
    As the Army continues to transform and grow; the Army Retention 
Program will continue to adjust, encouraging the right Soldiers with 
the right skills to reenlist to meet the manning requirements of a 
growing Army. In a time of war and sustained operational demand, 
retention is a significant indicator of the quality of our leaders and 
the commitment of our Soldiers. Currently, the Army is meeting or 
exceeding its objectives in each category (initials, mid-careerist and 
careerists). Through targeted reenlistment incentives, the Army is 
addressing specialties that are currently short due to rapid growth and 
transformation. The incentives for each specialty are adjusted semi-
annually using the Selective Reenlistment Bonus Review Board. Shortages 
in critical skills such as Explosive Ordnance Disposal (EOD) 
Specialist, Human Intelligence Collector, Motor Transport Operator and 
some others are continually targeted for some of our most robust 
incentives.
    Question. With the increases in reenlistment and enlistment 
bonuses, do you feel that the funding for recruiting and retention 
initiatives is sufficient?
    Answer. Base funding alone is not sufficient to cover recruiting 
and retention initiatives. Currently, all three Components rely heavily 
on the Supplemental to fund recruiting and retention programs. In FY08, 
the Active Component Supplemental is expected to account for 68.7% of 
total Active recruiting and retention funding; the Reserve Supplemental 
is expected to account for 20.6% of Reserve recruiting and retention 
funding; and the National Guard Supplemental is expected to account for 
40% of total National Guard recruiting and retention funding.
    Question. How does the Amy recruiting command plan to adapt to meet 
the new end-strength requirements? What are the short- and long-term 
implications associated with sustaining a heightened end-strength?
    Answer. The Army recruiting command has both increased the number 
of production recruiters and developed several new recruiting programs 
in order to meet recruiting goals dictated by the increase in end 
strength. Two notable programs are: Active First, where Soldiers who 
enlist in the National Guard first serve a tour on Active Duty; and the 
Recruiter Assistance Program, where Soldiers who refer a recruit to the 
Army are paid a cash bonus if the recruit completes Basic training. In 
addition to these programs, the incentive bonuses offered to Soldiers 
for both enlistment and reenlistment continue to increase.
    The short-term implication to sustaining increased end strength is 
that the Army must rely on Supplemental funding to meet recruiting and 
retention missions. The long-term implication is that the Base program 
will need to be significantly increased in order to guarantee 
continuing success of recruiting and retention incentives and programs.
                 Growth in Contractor-Provided Services
    Question. The Army's obligations on service contracts rose from 
$3.8 billion in fiscal year 1997 to $22.9 billion in fiscal year 2007. 
(Per 2009 President's Budget). This is a growth of $19.1 billion, or 
500% over 10 years (inflation accounted for 17% of this growth).
    Over the same period, the Army's obligations for civilian pay rose 
$2.4 billion, or 51% (pay raise accounted for 30% of this growth).
    Who in the Army has oversight for ``contract services''?
    Answer. The oversight of services acquisition is the shared 
responsibility of requiring activities, contracting activities, and the 
Assistant Secretary of the Army (Acquisition, Logistics and Technology) 
(ASA (ALT)).
    The ASA (ALT) retains responsibility over the acquisition of 
services. The ASA (ALT) delegated authority to review and approve 
service acquisitions with a total planned value of $500 million or more 
to the Deputy Assistant Secretary of the Army (Policy & Procurement) 
(P&P). Prior to approving any acquisition of services with a total 
planned value of $1 billion or more, the Under Secretary of Defense 
(Acquisition, Technology & Logistics) must be notified.
    Acquisition of services with a total planned value of $500 million 
or more are reviewed by the Army Service Strategy Panel (ASSP), chaired 
by the P&P. Since April 2003, twenty-eight (28) Army service 
acquisitions valued at above $500 million have been reviewed under 
these procedures. These acquisitions represent a total estimated value 
of over $249 billion.
    Contracting Officer's Representatives (CORs) provide the day-to-day 
oversight of the contractor's performance. CORs help ensure the 
government obtains quality services, on time, and at the level and 
prices specified in the contract.
    As of February 23, 2006, the Secretary of the Army requires Army 
HQDA Principals and Senior Commanders at Army Command, Army Service 
Component Commands, and Direct Reporting Units to be responsible for 
the approval for requirements for contracted services. The Assistant 
Secretary of the Army (Manpower and Reserve Affairs) reports these 
requirements directly to the Secretary of the Army.
    Question. How are Army commanders at the various levels of command 
trained to manage contracting out for services?
    Answer. The United States Army has a wide range of schools that its 
officers attend throughout their career and before they enter into 
command positions. Examples:
    <bullet> Command & General Staff School, Command & General Staff 
College
    <bullet> School for Command Preparation, Command & General Staff 
College
    <bullet> Garrison Precommand Course, Army Management Staff College
    <bullet> General Officer Senior Command Course, Army Management 
Staff College
    The Command & General Staff School provides a core course entitled 
F-106, Military Contracting and Ethics. This course covers: (1) why and 
how the Army uses contracting to effectively support military 
operations, (2) considerations and effective planning for contracting 
support, (3) types of contracts--what and how they provide support to 
include their capabilities and limitations, (4) authorities and 
responsibilities for identifying requirements, drafting statements of 
work, and overseeing contractor performance, (5) role of the 
contracting officer's representative, and (6) obligations and 
restrictions concerning oversight of contractor personnel.
    In addition, exercise training venues, such as the Combat Training 
Centers, are incorporating realistic contracting training scenarios 
into operational training.
    Question. The Army is forming a new Contracting Command with a two-
star commanding general. Has the general officer been selected yet?
    Answer. No, a general officer has not yet been selected as the 
commanding general for the new U.S. Army Contracting Command (ACC). The 
ACC is currently being headed by Mr. Jeffrey Parsons, a Department of 
the Army civilian who is a member of the Senior Executive Service. The 
position will eventually be filled by a two-star general.
    Question. The Army now has a Contracting Command located at Fort 
Belvoir, Virginia and an Army Contracting Agency. Is there a degree of 
duplication and potential confusion in having two seemingly similar 
organizations at two different places?
    Answer. The U.S. Army Contracting Agency (ACA) and the various 
contracting organizations within the U.S. Army Materiel Command (AMC) 
will be transformed into the new U.S. Army Contracting Command (ACC), 
that will fall under AMC. There will be no duplication as the ACA will 
be disestablished once the new ACC becomes operational. The realignment 
of ACA and the creation of the ACC will provide the most efficient 
structure to effectively execute installation and expeditionary 
contracting for the Army. This reorganization will help avoid confusion 
because it will provide a centralized capacity to support the 
warfighter and provide one contracting face to the customer.
    Question. What is the Army doing to increase the number of 
available contracting professionals, and to ensure those professionals 
have the necessary skills and status to be effective?
    Answer. The Army is increasing the number of contracting personnel. 
In January 2008, affected Army commands and organizations were tasked 
to evaluate their manning needs and submit concept support to support 
their personnel requirements. Concept plans are due to the Army G-3 by 
March 31, 2008. The Assistant Secretary of the Army (Acquisition, 
Logistics, and Technology) Contracting Oversight plan has already been 
submitted to the Army G-3. To date, we have received increased 
requirements for 478 military and 815 civilians. In addition, we are 
moving forward with the following initiatives aimed at increasing the 
stature and career development of the Army's contracting personnel:
    <bullet> The Army is opening more command opportunities for 
military contracting officers and we are working on adding five General 
Officer positions based on the recommendations from the Gansler 
Commission.
    <bullet> We are now capturing expeditionary contracting lessons 
learned and incorporating them into our doctrine and contingency 
training system. We are also developing a battlefield contracting 
community of interest where lessons learned will be posted.
    <bullet> We are adapting training exercises to stress rapid 
acquisition, logistics, and contracting in expeditionary operations; 
include contracting operations and planning requirements in all 
military exercises.
    <bullet> The Army Contracting Campaign Plan task force is exploring 
ways to foster civilian participation in expeditionary operations, such 
as:
        <bullet> authorizing long-term medical coverage
        <bullet> providing civilian medals for service
        <bullet> providing optional life insurance for civilian 
        employees
        <bullet> removing the need for a waiver to the annual pay cap
    Question. Has the Army accurately determined those functions that 
are defined as core functions, and those that are considered as non-
core?
    Answer. The Secretary of the Army's policy letter of September 4, 
2007 states: ``We must transform to meet enduring requirements in our 
core competencies with Military and Civilian employees, and only use 
contractors for surge or specialized needs.''
    The Army has accurately determined those functions that are defined 
as core and non-core based on the applicable Department of Defense 
(DoD) policy, which provides broad latitude for using military, 
civilian employee or contract in a given function depending on the 
facts and circumstances.
    <bullet> The Army uses the DoD Manpower Mix Criteria in Department 
of Defense Instruction 1100.22 to determine what functions are military 
essential, inherently governmental, exempt from private sector 
performance (core functions) or available for contractor performance 
(non-core functions).
    <bullet> The DoD Manpower Mix Criteria is based on risk 
considerations, the law of war, the statutory definition of inherently 
governmental, command and control, rotation base and career 
progression, as informed by applicable Status of Forces Agreements, 
international agreements and other statutes.
    <bullet> The characterization of a function under the DoD Manpower 
Mix Criteria varies depending upon the facts and circumstances:
        <bullet> Security functions in a high threat environment are 
        inherently governmental except where there are ``rules for the 
        use of deadly force'' that limit the contractor's discretion 
        and there is adequate governmental oversight to assure 
        compliance with those rules.
        <bullet> Interrogation is inherently governmental but may be 
        contracted under a statutory exception authorizing the use of a 
        personal services contract if there are sufficient governmental 
        oversight personnel to limit the discretion of the contractor.
        <bullet> Providing advice to governmental decision makers is 
        normally not inherently governmental except when the 
        government's ability to make independent decisions is eroded 
        through the loss of expertise.
    Question. Do you find that contractor personnel generally end up 
working along side of military personnel, doing much the same work, but 
the contractor costs the government three or four times the pay of a 
lower ranking enlisted soldier. How does that make fiscal sense?
    Answer. In many cases, contractor personnel end up working along 
side of military personnel, doing much the same work, but the 
contractor costs the government three or four times the pay of a lower 
ranking enlisted soldier. However, the pay of a Soldier and the total 
cost of a contract is not the appropriate comparison. The cost of the 
contractor is the complete cost to the government, but the Soldiers' 
pay is only one cost component. The full cost of a Soldier includes: 
non-taxable basic allowance for housing, non-taxable basic allowance 
for subsistence, health care costs, the GI bill, re-enlistment bonuses, 
the cost to train and recruit a Soldier, permanent change of station 
moves, and retirement accrual.
    The specific difference in cost of a contractor and a Soldier will 
vary depending on the type of work performed, but comparing pay of a 
Soldier to cost of a contract will always overstate the difference, and 
fails to consider operational priorities and limitations.
    The decision to use contractor personnel as opposed to military 
personnel is based on long-term cost rather than per hour cost, as well 
as availability of military personnel, and prohibitions against using 
contractors to perform inherently governmental functions. When the 
decision was made to reduce the size of the standing Army as part of 
the ``peace dividend'' in the early 1990s, it increased our need for 
contractors to provide non-inherently governmental support and 
logistics functions in order to free up our military personnel for 
combat operations. The majority of the support and logistics functions 
had to be contracted to free military enlisted and officers for the war 
effort. Each enlisted or officer performing an administrative function 
reduces the available forces.
    In a fiscal analysis, the comparison is between the cost to sustain 
the Army on a war-footing throughout periods of relative peace, while 
maintaining the capability to perform the full range of both military 
and administrative mission, against the cost to sustain the current 
force structure augmented with contractor personnel.
                   Mental Health Advisory Team (MHAT)
    Question. The U.S. Army Surgeon General chartered the Operation 
Iraqi Freedom (OIF) Mental Health Advisory Team (MHAT) in July 2003. 
Its mission was to assess OIF-related mental health issues and to 
provide recommendations to OIF medical and line commands. The MHAT 
conducted group interviews and surveys of soldiers. Many of the 
soldiers who participated had been engaged in combat. This was the 
first time in history soldiers were surveyed in this manner regarding 
behavioral issues during active combat.
    On May 4, 2007, DoD released the fourth MHAT study since 2003. 
MHAT-IV was conducted in August and October of 2006 and assessed more 
than 1,300 soldiers and for the first time nearly 450 Marines. The 
commanding general of Multinational Force, Iraq, also requested a 
first-ever study of battlefield ethics with the participation of 
soldiers and Marines currently involved in combat operations. Survey 
participants were not selected to be representative of the entire 
deployed force. Units were specifically targeted for this survey 
because they experienced the highest level of combat exposure.
    Gentlemen, according to the Mental Health Advisory Team report, 
soldiers who deployed longer (greater than six months) or had deployed 
multiple times were more likely to screen positive for a mental health 
issue. What steps are taken to assure that these soldiers get the 
proper attention?
    Answer. The Walter Reed Army Institute of Research (WRAIR) 
continues behavioral health research prevalence and intervention 
studies aimed at reducing mental health problems of Soldiers across the 
deployment cycle (e.g., Battlemind Psychological Debriefing, and 
Expressive Writing). Operationally, the Task Force 62 Medical Brigade 
conducts continuous and ongoing prevention activities throughout the 
deployment cycle in Theater. Depending on OPTEMPO and identified need, 
Combat Stress Control units will deliver customized services to units 
based on assessed needs and requests by the unit commander.
    MHAT V Soldier Survey data further underscores the importance of 
the 6-12 month in-Theater timeframe for when Soldiers are most 
susceptible to behavioral health problems. Task Force 62 Behavioral 
Health personnel are focusing outreach for units that have been in-
Theater more than 6 months.
    Finally, Army Leadership has mandated that all Soldiers receive 
Post-Deployment Battlemind Training upon return from operational 
deployment.
    Question. The 2006 adjusted rate of suicides per 100,000 soldiers 
was 17.3 soldiers, lower than the 19.9 rate reported in 2005, however 
higher than the Army average of 11.6 per 100,000 soldiers. Does the 
Army have proper resources to provide counseling to soldiers?
    <bullet> When soldiers need counseling who provides this 
counseling?
    Answer. Yes, the Army has proper resources to provide counseling to 
the deployed force. When required, counseling is provided by forward 
deployed behavioral health providers. There are approximately 200 
mental health providers and technicians (150 Army and 50 Air Force) 
deployed in support of Operation Iraqi Freedom; and approximately 30 
mental health providers and technicians (7 Army, 21 Air Force, and 2 
Navy) deployed in support of Operation Enduring Freedom.
    In a typical month, over 1,800 new service members are seen in 
behavioral health clinics, and over 3,000 command consultations are 
conducted regarding the morale and mental health of the fighting force. 
On average over 5,000 behavioral health appointments occur per month. 
There are four restoration centers that provide 3-5 day inpatient 
treatment programs, with a ``return to duty'' rate of 93%. The 
corollary outpatient ``return to duty'' rate is 99%. Less than one half 
percent of the fighting force is evacuated annually for psychiatric 
reasons.
    Question. The Mental Health Advisory Team found that both soldiers 
and Marines reported at relatively high rates--62 and 66 percent, 
respectively--that they knew someone seriously injured or killed, or 
that a member of their unit had become a casualty. What mental health 
assistance is available to our soldiers who are still in combat?
    Answer. There are approximately 200 mental health providers and 
technicians (150 Army and 50 Air Force) deployed in support of 
Operation Iraqi Freedom (OIF); and approximately 30 mental health 
providers and technicians (7 Army, 21 Air Force and 2 Navy) supporting 
Operation Enduring Freedom (OEF). Each brigade combat team (BCT) has a 
behavioral health section assigned directly to them, also known as 
organic assets, and operates in the BCT area of responsibility. In 
addition, OIF has the equivalent of 4 deployed combat and operational 
stress control (COSC) detachments conducting area-wide behavioral 
health and COSC services. OEF has organic BCT behavioral health assets 
and the equivalent of 1 COSC detachment.
    Traumatic Event Management (TEM) is the approved U.S. Army term 
used to define any support activities taken to assist in the transition 
of military units and Soldiers who are exposed to Potentially Traumatic 
Events (PTEs). The goal of TEM is to successfully transition units and 
individuals, build resilience, promote posttraumatic growth (PTG), and 
increase functioning and positive change after enduring a trauma.
    TEM is taught to Army behavioral health personnel during the COSC 
course, currently taught 6 times per year at San Antonio, TX. TEM is 
also published in all Army behavioral health field manuals and includes 
the use of both individual and group support activities to address the 
impact of PTE on units and Soldiers who are routinely exposed to it as 
a result of conducting military operations.
    Both organic behavioral health assets (division) and echelons above 
division (Task Force 62 Medical Brigade) provide services to units and 
Soldiers after critical incidents such as firefights and improvised 
explosive device attacks. Also, Chaplains are indispensable parts of 
the team taking care of Soldiers after combat losses.
    Question. According to the Mental Health Advisory Team, 
approximately 10 percent of soldiers reported mistreating non-
combatants or damaging their property when it was not necessary and 
less than half of soldiers would report a member of their unit for 
unethical behavior. Is there any concern that with lower standards 
these incidents could become worse?
    Answer. No, there is minimal concern that these incidents will 
become worse. MHAT V found that unethical behaviors did not change 
significantly relative to 2006. Battlefield ethics issues have been 
incorporated into the AMEDD combat and operational stress control 
(COSC) and into the Battlemind Psychological Debriefing program 
developed by Walter Reed Army Institute of Research. In addition, Army 
generated a new COSC concept, known as ``remind'' that addresses threat 
of dangerousness to others and the risk of unlawful behaviors. This 
concept is being fielded actively through behavioral health channels 
and will be published in existing COSC doctrine.
    Question. Please explain what the Army has done to address the 
Mental Health Advisory Team findings? Can you provide a list to the 
committee regarding what recommendations were followed and which 
recommendations were not?
    Answer. MHAT V reviewed all MHAT findings and reported the results 
for each. The review is included in the MHAT V report dated February 
14, 2008. The review addresses a total of 46 recommendations including 
4 redeployment recommendations, 19 deployment recommendations, 4 post-
deployment recommendations and 19 sustainment recommendations. A 
complete list of recommendations with the status of each is enclosed.
    Question. What is the cost of a Mental Health Advisory Team and how 
many more reports do you think there will be?
    Answer. I expect annual MHAT missions will continue as long as 
combat operations exist in support of the Global War on Terrorism. We 
have significantly reduced the costs for these assessments in both 
personnel requirements and expenses. MHAT 1 required a 12-member team 
that remained engaged in the assessment and reporting process for 
approximately 6 months. MHAT V was accomplished with a 4-member team 
that produced a final report in about 2 months. I expect future MHATs 
will continue to use this smaller, more financially efficient 
configuration. Regardless of the team's size, it will still require 
extensive planning and support.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                        Tuesday, February 26, 2008.

                         MISSILE DEFENSE AGENCY

                               WITNESSES

LIEUTENANT GENERAL HENRY OBERING, DIRECTOR, MISSILE DEFENSE AGENCY
LIEUTENANT GENERAL KEVIN CAMPBELL, COMMANDING GENERAL, U.S. ARMY SPACE 
    AND MISSILE DEFENSE COMMAND
PAUL FRANCIS, GOVERNMENT ACCOUNTABILITY OFFICE, DIRECTOR, ACQUISITION 
    AND SOURCING MANAGEMENT

                              Introduction

    Mr. Dicks. The Committee will come to order. We have a 
motion from Mr. Young.
    Mr. Young. Mr. Chairman, I move that those portions of the 
hearing today, which involve classified material, be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Dicks. All those in favor of the motion signify by 
saying aye. Aye. Opposed? The motion is adopted. I want to 
welcome our witnesses today on a hearing on missile defense. We 
have a very distinguished panel that should give the Committee 
the benefit of several perspectives on where we are, where we 
are going, and what challenges exist.
    Our panel this morning includes Lieutenant General Henry 
Obering, Director of the Missile Defense Agency; Lieutenant 
General Kevin Campbell, Commanding General of the U.S. Army 
Space and Missile Defense Command; and Mr. Paul Francis of the 
Government Accounting Office, where he is the director for 
acquisition and sourcing management. These gentlemen appeared 
before the Committee last April, and we are pleased to have 
them back. First, I would like it congratulate the Missile 
Defense Agency, in collaboration with the National 
Reconnaissance Office, on the task last week in which a failed 
U.S. satellite in a decaying orbit was intentionally destroyed 
using a modified SM-3 interceptor launched from an Aegis 
cruiser. This was great collaboration by MDA, Navy, and the 
NRO. I also would like to point out that in recent years, our 
missile defense programs have made some significant strides in 
fielding missile defense systems to defend the United States. 
It has deployed forces, friends, and allies against ballistic 
missiles of all ranges, in all phases of flight. This progress 
is the result of the efforts of many people in government and 
industry, and should be noted. This progress also is the result 
of very substantial investments of tax dollars.
    Since 2002, Congress has appropriated almost $60 billion 
for missile defense, while at the same time, allowing an 
unprecedented amount of flexibility, such as an exemption for 
many Department of Defense (DoD) acquisition regulations. The 
fiscal year 2009 budget requests a further $10.9 billion for 
ballistic missile defense programs. A major responsibility of 
this subcommittee is to oversee the allocations of such funds. 
You can be sure that we will work with the DoD to understand 
the basis for its request, to take that into account as we move 
forward in the appropriations deliberations. Included in the 
'09 request is over 700 million, including military 
construction, for a European site for ground-based missile 
defense to include 10 interceptors and two large X-band radars.
    Last year Congress expressed some reservations about the 
pace and manner in which this initiative was planned. I expect 
there will be further discussions about the European site this 
year. Other areas that are likely to be of interest include the 
ability of Congress to provide thorough oversight, given the 
manner in which MDA budgets for programs, the lack of 
independent cost estimates, and the comparison between General 
Accounting Office (GAO) cost estimates and MDA estimates, and 
the future of boost-phase defense.
    Now, I will note that General Obering and MDA has come 
forward with a new Block approach, which may answer some of the 
issues that have been raised by the GAO. I look forward to the 
testimony of our witnesses, but first want to call on Bill 
Young, our ranking Republican member, and former chairman of 
this subcommittee and the full committee. Mr. Young.
    Mr. Young. Well, Mr. Chairman, thank you very much. And I 
just want to join in the congratulations for really a job well 
done. It is pretty exciting to see how effective this shot on 
the satellite was. And missile defense is such an extremely 
important matter. This Committee has taken some raps over the 
years because we have strongly supported funding for missile 
defense, but the importance to our Nation cannot be 
overemphasized. So just thank you very much for a job well 
done. And I am interested in hearing any details about this 
shoot-down that we might not have seen on television. Thank you 
for being here.
    Mr. Dicks. And Mr. Young, we are also trying to figure out 
how General Obering is going to get the NRO to pay for this. 
Maybe the GAO can help us on that. General, have at it.

                  Summary Statement of General Obering

    General Obering. Thank you very much, Mr. Chairman. Good 
morning, good morning Congressman Young, and distinguished 
members of the Committee. I want to thank the Committee for the 
support that we received over the years for this critical 
defense program. As Director of the Missile Defense Agency, it 
is my role to develop, test, and field an integrated, layered 
missile defense system to defend the United States, our forces, 
allies and friends against ballistic missiles of all ranges in 
all phases of flight. For 2009, we are requesting $9.3 billion. 
Approximately 75 percent, or about $7 billion of this will be 
allocated to near-term fielding and development. To lay the 
foundation for this request, let me review why missile defense 
is so critically needed. There were over 120 foreign ballistic 
missile launches last year, significantly exceeding what we 
observed in previous years.
    North Korea's development of a long-range missile, their 
advances in missile technologies, such as solid fuel, and their 
export activities remain troubling. Iran continues to pursue 
newer and longer range missile systems and advanced warhead 
designs. Their actions underscore the need to field and 
integrate long-range defenses with NATO's shorter range 
defenses. As background for the 2009 request, let me provide an 
assessment of where we are today.
    Simply said, 2007 was the best year that we have 
experienced in the missile defense program. We had historic 
accomplishments in all aspects of our program, development, 
testing, and fielding, and across all environments, land, sea, 
and space-based. Thousands of men and women across this country 
in government and industry made this achievement possible. We 
have now fielded a system that may be activated on short notice 
to provide protection in times of crisis and, if necessary, 
defend the United States from long-range ballistic missile 
attack.
    In addition, we have fielded an initial capability to 
protect our allies and deployed forces from medium and short-
range ballistic missile attack. We have now emplaced 24 long-
range interceptors in Alaska and California. We have modified 
17 Aegis ships for tracking, with nine destroyers and three 
cruisers capable also of engaging shorter range missiles with 
the 23 Standard Missile-3 sea-based interceptors that we 
delivered. And, in collaboration with the U.S. Navy, we began 
upgrading the Aegis weapon system and delivered 18 modified 
Standard Missile-2 Block IV interceptors for a sea-based 
terminal capability. We expanded and improved the sensor 
network to detect, track, and discriminate threat objects. In 
addition to the Cobra Dane radar in Alaska, we completed the 
testing and integration of fixed radars in California and the 
United Kingdom. We achieved partial mission capability on the 
very transportable radar in Japan, and delivered another one 
for testing in Alaska. We also conducted sea trials and 
integration demonstrations with the powerful sea-based X-band 
radar, now deployed to the Pacific Ocean.
    The Agency also developed and tested new command, control, 
battle management, and communications technologies to integrate 
and improve the depth, range, and reliability of our defenses. 
Our increasingly complex and realistic testing has continued to 
bolster our confidence in these capabilities. I also want to 
highlight that, as in the past, we will be spending about $2 
billion in 2009 on testing alone. Our very active flight test 
program in 2007 accomplished 10 successful intercepts in 10 
attempts. This included a long-range ground-based intercept, 
six Standard Missile-3 intercepts of both separating and 
unitary targets, and three THAAD intercepts of unitary targets.
    We have now demonstrated hit-to-kill successes in 34 of 42 
attempts since 2001, and conducted 26 of 27 successful flights 
since 2005. And we do not count the satellite event last week 
as a test. We have now not had a major failure in our system in 
our testing in over 3 years. This year also marked a major 
success by our allied partner, Japan. In their December test 
off the coast of Hawaii, they successfully intercepted a 
missile warhead, marking a major milestone in our expanding 
missile defense relationship. Yet the system we have today is 
not sufficiently robust to meet war fighter requirements. Using 
a new Block structure that you referred to, we plan to allocate 
$1.7 billion in fielding new capability. Over the next few 
ears, we will improve long-range defenses by fielding 
additional silo-based interceptors in the United States and 
upgrading the early warning radar in Thule, Greenland.
    Upon reaching agreements with the Governments of Poland and 
the Czech Republic, we will begin site construction for a 
missile field and fixed-site radar. We also plan to deploy six 
more Aegis-capable warships and an additional 36 Standard 
Missile-3 interceptors, 48 THAAD interceptors in two fire 
units, and up to 100 modified sea-based terminal interceptors 
to protect against short to medium-range threats. We are 
allocating about 2.4 billion in our development program to help 
ensure America's missile defense capabilities remain effective 
and reliable well into an uncertain future.
    One of our most critical needs is the ability to deal with 
complex missile threats, which would include multiple warheads, 
advanced decoys, or other sophisticated countermeasures. 
Therefore, one of our highest priorities is the Multiple Kill 
Vehicle program for both land and sea-based interceptors, which 
will allow us to handle these more complex threats. With the 
launch of two demonstration satellites later this year, we will 
also be able to move forward with the Space Tracking and 
Surveillance System, which would provide a persistent global 
detection, tracking, and fire control capability.
    We are working to give this country its first boost-phase 
intercept capability, which will enable the warfighter to shoot 
down a missile shortly after it has been launched. The progress 
made in the revolutionary Airborne Laser program has been 
exciting and historic, and is on track for a lethal shoot-down 
of a boosting missile in 2009. We are also planning the first 
flight of our Kinetic Energy Interceptor in 2009, which will 
deliver an alternative boost phase capability as well as a 
midcourse capability. There are several other major efforts 
underway, to include the U.S.-Japan cooperative development of 
a follow-on Standard Missile-3 interceptor to give the Aegis 
system an ICBM intercept capability, a more robust sea-based 
terminal capability, studies of the potential benefits of a 
space-based intercept layer, and our continuing advanced 
technology efforts, to include our work with Israel to co-
develop very short-range ballistic missile defenses.
    With our unprecedented success, we have also had some 
setbacks. This past year we experienced only the second 
complete target failure in 42 flight tests, but it was enough 
for me to revamp our target program. I have made the transition 
from the legacy boosters to the modern Flexible Target Family a 
high priority for this year. In the Kinetic Energy Interceptor 
program, we experienced nozzle failures in one of our second 
stage firings, which is under investigation. We also 
experienced some cost growth in the THAAD, Aegis and GMD 
programs, which is being addressed within the overall missile 
defense portfolio.
    But as I stated at the beginning, 2007 was an outstanding 
success, we are making great strides in 2008, and with your 
support, we are looking forward to continued success in 2009. 
America needs this critical defensive capability to protect her 
people, her forces and her allies from this growing missile 
threat. I look forward to your questions.
    [The statement of General Obering follows.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. General Campbell.

                  General Campbell's Opening Statement

    General Campbell. Mr. Chairman, Congressman Young, 
distinguished members of the Committee, thank you for your 
ongoing support of our warfighters and for your invitation to 
speak before you today. Today, I will primarily address the 
ballistic missile defense program from an operator's 
perspective. I intend to focus my remarks on the roles and the 
contributions the warfighters continue to play in the ballistic 
missile defense development testing process, and provide an 
assessment of missile defense capabilities to meet the present 
threat. I will also briefly address the Army's integrated air 
and missile defense construct. As the commander of the Joint 
Functional Component Command for Integrated Missile Defense, a 
subordinated command of the U.S. Strategic Command, I serve as 
the joint user representative working closely with the Missile 
Defense Agency, the services, and the various combatant 
commanders to ensure that our national goals of developing, 
testing, and deploying an integrated missile defense system are 
met in an operationally sound configuration.
    From my role as the user's advocate, I am able to report 
with confidence that the combatant commander's input into the 
ballistic missile defense system continues to expand. Last 
year, I outlined a process established by U.S. Strategic 
Command named the Warfighter Involvement Process. As a result 
of the continued maturity of this program, we are seeing 
substantial warfighter requested modifications incorporated 
into the ballistic missile defense system. For example, 
warfighter input led to the Simultaneous Test and Operations 
capability for the ground-based missile-defense system. This 
capability allows the users to maintain the system in an 
operational status and conduct essential training while the 
Missile Defense Agency can continue with testing activity. 
Warfighter input has also led to dozens of software 
modification enhancements to the command and control system. 
Additional warfighter-initiated modifications will continue 
this year.
    From a program and budget development standpoint, the 
Missile Defense Agency is recognizing the user's input and 
including the operator's desired system enhancements and 
modifications in the system development program. As we gain 
more hands-on experience in understanding of the systems' 
behavior, we are simultaneously improving our processes to 
capture the combatant commanders' desired changes to the 
fielded elements and the operational capabilities they need in 
the near and mid-term. We are working with the Missile Defense 
Agency to ensure those recommendations we make for changes to 
the systems' development program are adequately addressed in 
their programmatic decisions.
    The operators have remained fully integrated in the Missile 
Defense Agency's test program. Our involvement spans from the 
development of test objectives to operators sitting at the 
consoles and executing the engagements. Involvement in the 
testing program allows us to gain more insight into the 
systems. And with the success we have seen, our confidence 
continues to grow in the elements we are currently operating in 
today. The flight tests attract the most attention, but they 
are just one aspect of a comprehensive testing campaign. Our 
operators participate in more frequent ground testing hardware-
in-the-loop testing. These ground and hardware-in-the-loop 
tests benefit the warfighter, the Missile Defense Agency, as 
well as the operational testing agencies. Warfighters are able 
to identify more effective methods for employing the systems 
and assist the testing cadre and developers in identifying 
problems long before we move to expensive flight tests. These 
tests, in turn, influence further program developments. The 
point is simply that the testing of these systems is a 
community effort.
    Today there are more than 20 countries with ballistic 
missile technology, and the preponderance of their investment 
is in the short- and medium-range ballistic missile capability. 
Our operational commanders clearly recognize the threat we face 
today from both short- and medium-range ballistic missiles. 
Today we cannot meet all of the combatant commanders' needs. We 
work in close coordination with the Missile Defense Agency to 
ensure that missile defense investment portfolio addresses the 
warfighter needs for the near-term threats as well as for the 
mid- to far-term threats from these threat countries. 
Maintaining a balanced investment portfolio is critical. 
Although we understand the inventories of short- and medium-
range missiles today are significant, we cannot lose sight of 
the qualitative improvements nations are making to their 
ballistic missile defense systems. Our investments for both the 
near and far term must be informed by both the quantitative and 
qualitative advancements our adversaries are making in their 
programs. The users are conducting analyses and presenting the 
Agency with recommendations for adjustments to the development 
program.
    For example, a recent study not yet approved suggests the 
need for additional THAAD and SM-3 missile inventory to handle 
today's short- and medium-range ballistic missile threat. 
Ultimately, these findings will be presented to the Agency and 
DOD for a program decision. In summary, we certainly recognize 
the requirement to address not only the threat of today, but 
also the need to develop new technologies to deter potential 
adversaries from their continued investment in more advanced 
ballistic missile technologies. Given the resource realities, I 
believe the systems developer has struck a good balance.
    Turning to my role as the Army's senior commander for 
missile defense, let me briefly outline our priorities. Our top 
priority within the Army air and missile defense community is 
the continued development of the Integrated Air and Missile 
Defense System of Systems. This integrated system will link 
systems such that we can improve our capability to execute 
terminal phase ballistic missile defense, cruise missile 
defense, and force protection. Our objective is to network the 
Army's air and missile defense systems, such as PATRIOT, THAAD, 
and MEADS so that we can leverage all the sensors and shooters 
we deploy on the battlefield and achieve a greater capability 
against an array of threat systems.
    Mr. Chairman, the Army is a member of the joint team 
fighting an adaptive enemy, while transforming to meet future 
threats. We will continue developing and fielding an integrated 
missile defense for our Nation, for our deployed forces, and 
for our friends and allies. I appreciate the opportunity to 
speak on these important matters, ask that my written statement 
be submitted for the record, and look forward to addressing any 
questions you or the members of the Committee may have.
    Mr. Dicks. Without objection, all the statements will be 
made part of the record.
    Mr. Francis from the GAO.

                 Opening Statement of Mr. Paul Francis

    Mr. Francis. Thank you, Mr. Chairman, Mr. Young, members of 
the subcommittee. I appreciate your inviting me here this 
morning to participate in the discussion of missile defense. I 
am not here as a technical expert or as an operator like 
General Campbell. I am the auditor. And we are required by law 
every year to report on the progress MDA has been making on the 
program. And the material I am going to present today comes 
from a draft report that we have over at the Department right 
now for comment. And that report will be issued in March 15th 
of this year. Some of the things I am going to say this morning 
are similar to what I had said last year, but I think there is 
some important new developments regarding oversight. And I 
think I am going to spend a little time on those as well.
    First, I am going to talk about Block 2006 performance and 
cost. Block 2006 is the second increment of missile defense, 
and it was completed in December 2007. And under Block 2006, a 
number of additional assets were fielded. For example, more 
ground-based interceptors, more SM-3 missiles, more Aegis ships 
upgraded, and more radars fielded and upgraded. While there 
were a lot more assets fielded, not quite as many as were 
originally anticipated. In the area of testing, most test 
objectives I think for the block were achieved. There were some 
tests that were delayed. And we will have to pick them up 
probably in the next year or so.
    We weren't able to assess the overall performance of the 
ballistic missile system against its overall objectives because 
testing done to date is still not quite enough to anchor the 
models and simulations that are used to project that 
performance. And there is not yet enough realism in the testing 
to enable the director of operational testing and evaluation to 
render a determination as to operational suitability and 
effectiveness, so I could not quite address that.
    In the area of cost, the cost of the block increased by $1 
billion. And that cost was accommodated by deferring some work 
out to the future and moving THAAD into a different block of 
missile defense. Deferring work does create some accountability 
problems in that work that is deferred is no longer counted 
against Block 2006. But the budgets did anticipate that work 
being done. So to the extent that work is deferred, the link 
between budget and work done does get weakened. And then we are 
not able to do a total cost estimate for Block 2006 because 
some of the work has moved out.
    So the bottom line on the Block 2006, more capability 
fielded, not quite as much as we thought, and somewhat higher 
cost. Let me move now to the oversight issue. As the chairman 
noted, that MDA does have unprecedented flexibility in its 
ability to manage the program. And some of these things or 
indications of flexibility are the ability to change goals, 
they can defer work, missile defense can concurrently test and 
field assets, and it can produce end items and field end items 
with research and development moneys.
    In addition, the decisions that missile defense makes do 
not have to get approved by anyone else in the Department of 
Defense. Other statutes that apply to major weapons system 
programs do not necessarily apply to missile defense. So for 
example, having a firm cost schedule and performance baseline 
is not a requirement for missile defense. Tracking unit costs 
vis-a-vis Nunn-McCurdy is not required. Independent cost 
estimates are not required, nor is independent operational test 
and evaluation.
    Now, these flexibilities were given consciously to MDA, and 
they enable the Agency to be very agile with its decision-
making. And I would have to say that Blocks 2004 and 2006 were 
fielded more quickly as a result of having this flexibility. It 
does create some challenges for oversight in that the decisions 
of MDA are not always as transparent as other programs. And it 
is more difficult to hold the program accountable for its 
original results. But this is an area where I think some real 
improvements are underway in the area of oversight. The new 
block structure that the chairman and General Obering 
mentioned, I think, is going to be an improvement over the 
previous one. It is more aligned with missions. The quantity 
and performance goals in the blocks will be baselined. MDA will 
track selected unit costs and report on substantial variances. 
And MDA will no longer defer work out of block. So that is 
going to improve transparency and accountability. There is a 
new Missile Defense Executive Board that has been set up. And I 
think it is more substantive than its predecessors, has higher 
level individuals on it, and I think a pretty strong charter 
for providing advice and recommendations on investments, 
strategies, and priorities. It does not quite have all of the 
powers that a defense acquisition board would have, for 
example. It won't necessarily approve decisions that MDA makes.
    And the final area, I think, of improvement and oversight 
comes with a congressional direction that missile defense is to 
start using procurement funds to pay for operational assets. We 
think this will improve accountability significantly, because 
when you use procurement funds, you have to fully pay for an 
asset in the year that you start requesting money. And that is 
going to provide a lot of visibility over unit costs. And it is 
actually cheaper when you fully fund.
    And I think fiscal year 2009 was going to be the first year 
that Missile Defense was going to start requesting procurement 
funds. And I think they were going to go for THAADs firing 
units 3 and 4. And I have seen the budget that those firing 
units have been deferred to fiscal year 2010. So at least in my 
reading of the budget I don't see procurement funds requested 
yet in '09.
    I will just wrap up with there is a few things that we 
think MDA can do to further improve oversight of the program. 
One is while certain aspects of blocks will be baselined, the 
total cost of the blocks will not be baselined or independently 
verified. We think that they should be done. Now, I think there 
needs to be--there is some blocks that can reach so far in the 
future there needs to be a reasonable discussion about what you 
can do in estimating costs. I mean you can't be Draconian about 
something that is that far in the future. But I think a 
discussion can be had.
    But other blocks are nearer term, and I think those costs 
could be estimated. Second has to do with the unit costs that 
MDA is going to report on. I think MDA will need to tell the 
Congress, or you will have to tell them what assets you want to 
track unit costs on, what criteria you will use to say what is 
a significant cost increase, and what vehicle MDA will use to 
tell you about the variances it is going to report.
    And the final area, I think, is in testing evaluation. And 
there has been quite a bit done to make tests more operational, 
more realistic, but we think more needs to be done there. As I 
mentioned earlier, MDA's testing is fairly concurrent with 
fielding. And it does not provide for separate operational 
testing. Now ideally, we would like to see less concurrency 
there and more operational testing done. But short of that, we 
have to accept the fact then that the testing MDA does is going 
to serve two purposes: One is developmental. It has to show 
that the design of the system functions as desired. But also 
operational. There has to be enough information, I believe, to 
allow the director of operational testing and evaluation to 
render a determination of suitability and effectiveness.
    And also the tests have to be robust enough for the models 
and simulations to be anchored so overall performance can be 
projected. So we think more work can be done there. Mr. 
Chairman, that concludes my remarks. I would be glad to answer 
any questions.
    Mr. Dicks. Thank you very much.

                        MULTIPLE WARHEAD TESTING

    Mr. Dicks. One of the things that I remember from a few 
years ago was when we talked about the robustness of the 
testing was a multiple warhead test, where they would launch 
and we would operate against multiple warheads. Have we done 
that yet? Has that been attempted?
    General Obering. Yes, sir. We launched on our Aegis program 
this past November, we launched two targets that were in the 
air simultaneously. And we intercepted them with two 
interceptors in the air simultaneously. So that demonstrated a 
multiple target capability and multiple interceptor in flight 
at the same time. In addition, on long range flight tests that 
we accomplished in September, the way that the target presented 
itself to the kill vehicle, the kill vehicle when it opened its 
eyes it actually saw multiple objects. It saw the warhead, it 
saw the third stage of that rocket, it saw debris from the 
separation that looks like very small--could be warheads. So we 
had to go through--it had to vote on what was the warhead and 
what was not. And I can show you video that shows it going 
through that voting routine. And it selected the warhead and 
hit that. So we feel very confident we are on a very good, 
strong path there with respect to that particular capability.
    Mr. Dicks. Well, as somebody who was here on this Committee 
when President Reagan announced that we are going to have this 
capability, I think for me at least, this is one of the first 
times I really felt that we now have a deployed capability, 
that there is something real with Fort Greely and Vandenberg 
and all the Aegis ships, that we now have a real capability.
    Now you both mentioned, though, that even with this 
capability that we have, that it is not enough to meet what the 
commanders need, both in terms of short-range and long-range 
missile defense. How long will it take us before we will have a 
what you consider a robust capability for this? And General 
Campbell, if you want to answer this after General Obering.

         SHORT-RANGE AND LONG-RANGE MISSILE DEFENSE CAPABILITY

    General Obering. Sir, if you look at what we have loaded in 
our budget for after the 2013 time frame, we will have a total 
of 54 of the long range interceptors. Forty-four of those will 
be based in the United States, and hopefully 10 in Europe and 
Poland. We would have about 133 of the sea-based interceptors. 
We would have 18 ships from which we could fire those 
interceptors. We would have up to three THAAD firing units, 
with about 80-plus missiles associated with them. So that would 
be a good start. Now, one of the things I think General 
Campbell will tell you is they recently conducted a study as to 
how much more do we need in terms of force structure, what they 
call the Joint Capability Mix Study. And we have committed to 
addressing that increase in numbers. It will roughly double the 
production rates for the THAAD and for the Aegis such that we 
can hopefully get to the numbers that they need to get to by 
the 2015 time frame. So that is what we would intend to pursue 
as part of our POM 10. And Kevin, if you want to interject.
    General Campbell. I think if you just add up pure numbers, 
if we look at threat countries we are never going to be in a 
one-on-one state. So what we do, in addition to looking at how 
many missiles do we need, we look at our offensive capability, 
we look at intelligence surveillance and reconnaissance and 
other means of attacking their systems. So it is a total 
solution. And I think what General----

                             GLOBAL STRIKE

    Mr. Dicks. Which I think is critical. Deterrence is still a 
very important capability. Credible deterrence is something 
that we do have.
    General Campbell. Yes, sir. Exactly. And I think if you 
would listen to the commander of Strategic Command, he would 
tell you that he is interested in having a prompt global strike 
so that we can address some of these emerging threats. So it is 
a total package. And again, we will never be at the point where 
it is one on one or we have the majority of interceptors in our 
favor. But we will have offensive forces.
    Mr. Dicks. When this thing was first started, we talked a 
lot about an accidental launch or two, that kind of a scenario. 
This system we have now would be capable against that kind of a 
threat, would it not?
    General Obering. Yes, sir.
    General Campbell. Yes, sir. Absolutely.
    General Obering. In fact, we could handle a fairly, I don't 
want to say substantial, but certainly an attack by let's say 
less than a dozen missiles from North Korea, the system would 
be able to handle that. And we do not believe they have those 
right now.
    Mr. Dicks. Mr. Young.

                          SATELLITE SHOOT-DOWN

    Mr. Young. What do we say to the friendly countries that 
have accused us of using the shoot-down of the satellite as a 
coverup for some scurrilous testing for anti-satellite 
programs?
                                ------                                

    So we had to make all those capabilities. But to answer our 
critics, and I am sure--I am headed to Europe later this week, 
and I am sure I will be asked, we stated all along that while 
our system had an inherent capability, it was not designed for 
that, and we would have to make changes to accomplish this. And 
frankly, we are much more concerned about the ballistic missile 
threat from Iran primarily, and North Korea, which is what the 
system is designed for.
                                ------                                


                             EUROPEAN SITE

    Mr. Young. I know that people all over the world were 
really impressed with what you were able to accomplish, and 
especially for those that recognized the tremendous technical 
challenges that you had to face. So congratulations again. I 
wanted to ask about the deployment of radar and interceptor 
sites in Europe. And I understand that Poland has now made a 
requirement that if we are going to put anything in Poland, we 
are going to have to agree to modernize their military. Is that 
a new requirement on the part of Poland, or is that something 
we have been dealing with all along?
    General Obering. Sir, it is a request that the Polish 
Government made of us as part of the missile defense 
negotiations. There had been talk earlier--there were always 
talk in the back of the negotiations about how are you going to 
protect this site, especially concern about the fact that they 
were exposing themselves, as they described it, to the 
Russians, and some other things. So there was always that talk 
in the background. But as the negotiations proceeded, and I 
think a key breakthrough came when their Foreign Minister, 
Radik Sikorski, came over several weeks ago and met with 
Secretary Rice, and they were able to come to an accommodation 
that said, look, Poland is part of NATO, and they have to 
remember that.
    So the protection of NATO is part of the Article 5 
protection of NATO. And I know that that was the gist of the 
discussion. We know we have to protect these sites, and there 
has to be defenses made. And so we agreed to separate that from 
the missile defense discussions. And then that discussion will 
take place in a separate venue.
    Mr. Young. How serious is the Russian objection?
    General Obering. Sir, when we pulled out of the 1972 
Antiballistic Missile Treaty in 2002, the Russians didn't say a 
word, not a word. And in fact, we were in cooperative 
development agreements with them in terms of cooperation 
through the missile defense exercises and other things. When I 
announced to the Russians, specifically General Brzezinski, 
back in 2003 and 2004 time frame that we had intended to expand 
our coverage into Europe because we were very concerned about 
what we saw going on in Iran, I did not get any major pushback.
    It was not until we announced it was Poland and the Czech 
Republic that Mr. Putin raised the flag and started making the 
objections. I will tell you, and I have been involved, I was in 
the two-plus-two discussions in Moscow in October, I have been 
involved in the discussions with the Russians, and in fact, 
just my chief engineer was with the Russians last week in 
Budapest, they do not have a technical objection anymore. They 
know that their argument about this changes the strategic 
balance between the U.S. and Russia is just not valid. And that 
has played itself out on the NATO stage. It is all 
geopolitical. That is all it is. And I say all it is, that is 
still significant, but that is what it has boiled down to for 
the Russians.
    We have gone to extreme measures in my mind to address 
that. We stated that we would jointly monitor the threat, 
meaning that we would be willing to have Russians observe what 
we are observing with respect to the Iranian threat 
development. And would they allow us to have folks at their 
sites, for example, in Karbala in Azerbaijan. We talked about 
sharing of data between our radar systems and their radar 
systems.
    And we talked about, I would propose that we build out 
these sites, we integrate them and test them, and then we would 
not bring them to an operational status unless the threat 
emerged from Iran. And that argument, which I made to the NATO 
Council and to the NATO-Russia Council, went over very well. 
And our allies very much supported that. But Russia still has 
not moved off the top dead center to try to jump into this 
cooperation.
    Mr. Young. Well, congratulations, again, on the very 
exciting shoot-down of the satellite. That was good news. Thank 
you, Mr. Chairman.
    General Obering. Thank you.

                    SATELLITE SHOOT-DOWN--FUEL TANK

    Mr. Dicks. I also think, I don't know if you mentioned 
this, but the hydrazine was frozen. This was another aspect of 
this.
    General Obering. Yes, sir. What was so much concern here is 
that the hydrazine was solid as a rock. The whole space craft 
was dead. And they had no communication with it whatsoever. And 
so we did everything we could to try to understand and gain 
knowledge about it by imaging it and that type of thing with 
our radars. And of course, we did not know where it was going 
to come back in. We had no knowledge. And so but we were able 
to confirm with three different phenomenologies the fact that 
we did destroy the hydrazine tank. So we are very confident of 
that.
    Mr. Dicks. We were just talking about the fact that you had 
to--didn't you have to get the satellite warmed up a little 
bit?
                                ------                                

    Mr. Dicks. Mr. Moran.

                             SPACE TEST BED

    Mr. Moran. Thank you, Mr. Chairman. There are a number of 
issues. I will try to touch on some that might be less likely 
to be asked. The space test bed, the Congress eliminated that 
program in the last year, and yet you are asking for new money 
in this year's budget for it. Can you tell us why, when the 
Congress removed all the funding for the activity last fiscal 
year, you are coming at it again? Is it just quixotic or 
masochistic or programmatic?
    General Obering. Probably a little bit of all three, sir. 
It is because we do feel strongly that--first of all, we think 
that this country needs to look ahead. We cannot always be 
looking in the present, and we have to continue to look ahead. 
And we think it is important that as you have the debate on 
Capitol Hill here as to where this Nation goes with respect to 
its defense strategy, that that debate be informed. And so we 
were just proposing to have experimentation so that we could 
understand--you know, we may be having a false debate. We may 
be thinking we can build a capability that, in fact, we cannot 
because it is technically not achievable. So that was the 
purpose behind it.
    Mr. Moran. All right. That is a good answer.
    Mr. Dicks. Would the gentlemen yield for just a second?
    Mr. Moran. Sure.
    Mr. Dicks. Tell us a little about the space test bed again.
    Mr. Moran. Take your time, because this doesn't come out of 
my allocation.
    Mr. Dicks. It does not. An unlimited reservoir.
    General Obering. There are a lot of unanswered questions as 
to whether you could actually accomplish an intercept from 
space. By the way, just to clarify, we intercept in space all 
the time. That is where we live. Whenever you engage an ICBM, 
or an intermediate-range ballistic missile, or a medium-range 
ballistic missile, or even a short-range ballistic missile in 
the mid-course phase, that phase is in space, whether you are 
at 80 kilometers or 380 kilometers.
    So we live in space already with our intercepts. But there 
is an advantage to having a space-based interceptor that would 
have the flexibility and mobility and global coverage, so to 
speak, so that you could address emerging threats where you had 
not anticipated them from before. Now, but there is, like I 
said, there are questions about this.
    First of all, there is long-term storage of propellant on 
space. What is the command and control concept? Could you 
actually do the seeking and the sensing that you need from 
looking down in terms of boosting missiles or for a mid-course 
intercept. A lot of questions. So we were trying to understand 
what is possible, what is not possible so that we can, again, 
inform this debate as we move to the future. Because I do 
believe that first of all, a lot of people do not realize it, 
but when they swipe their credit card at the gas station, that 
is typically through a satellite. When you use your credit card 
at WalMart, that is typically through a satellite. So we rely 
on space very heavily. And we are a space-faring nation. And 
historically if you look back, nations that do not protect 
themselves, especially their lines of communication that they 
depend upon do so at their peril. So I think it is important 
that we continue this experimentation.
    Mr. Dicks. Thank you, Mr. Moran.

                            THAAD FIRE UNITS

    Mr. Moran. Thank you, Mr. Chairman. I thank you for that 
answer. I actually agree with you. I do think that is an 
important area for research in particular. And so it would be 
helpful for you to keep the Committee informed, assuming that 
the Committee does not try to eliminate it again. But again, 
looking for inconsistencies, the Congress allowed your agency 
to continue to use research and development funds in fiscal 
year 2009 to incrementally fund previously approved missile 
defense assets, and we expected that you would continue in 
other words procurement, spending procurement funds for the 
THAAD.
    And--but in this budget, there is no money for procurement 
for the THAAD fire units or the Aegis BMD, SM-3 1A missiles. 
And the 2008 National Defense Authorization Act required it, 
and yet there is no procurement funding in this budget. So 
maybe you could clarify that.
    General Obering. Sir, there is a couple issues. The first 
one was in terms of the THAAD, the procurement--I think the 
direction was after the first two fire units that we procured 
with RDT&E, the next two, 3 and 4, that was delayed because of 
cost growth in the program that I mentioned earlier. We delayed 
the delivery of those units. But more importantly, by the time 
that we were able to build a budget, the ability for us to be 
able to generate the procurement program elements (PEs), which 
is not done by us, it is done by the comptroller for the 
Department, it got to be a bridge too far in being able to do 
that for this budget. So our intent is that we would package 
this for the 2010 proposal in terms of what would be 
procurement in the RDT&E.
    Mr. Moran. So that was a matter of timing?
    General Obering. Yes, sir. It was awfully late when we got 
the direction. And we already built the budget by then.

                 GROUND-BASED MIDCOURSE DEFENSE SYSTEM

    Mr. Moran. All right. Well, that explains it. I wanted to 
ask about--and I guess this would go to you, too, General, the 
Ground-Based Midcourse Defense System has a rudimentary 
capability, we are told, to defend U.S. citizens against a 
limited ballistic missile attack. Could you give us your 
assessment of the training and personnel readiness to use such 
a system in defeating a limited ballistic missile attack 
against U.S. citizens?
    General Obering. Yes, sir. And Kevin probably could--
General Campbell could probably step in here. My view of the 
training and readiness from a manpower personnel perspective is 
it is very, very good. The operators know what they are doing. 
They know how to operate the system. We test that in a series 
of demonstrations, readiness demonstrations as well as war 
games and simulation. When we say that we handle a rudimentary 
capability, what we are talking about is we can handle a 
limited attack.
                                ------                                

    And we are going to fly against those. We have flown 
against them in the past, and we are going to fly against them 
in our next flight test for the long-range system. What I am 
talking about is when you get into very complex 
countermeasures, and I can't go into that level of detail here, 
but things that really could begin to fool the radar and the 
kill vehicles. That is when we need a combination of the very 
powerful algorithms that we are building to net our sensors 
together and the Multiple Kill Vehicle capability so that we 
basically have a shotgun effect on each one of these 
interceptors. And that is what we are talking about.
    Mr. Moran. That is good. Could I ask one other quick one?
    Mr. Dicks. Sure.

                     ISRAEL MISSILE DEFENSE PROGRAM

    Mr. Moran. Thank you, Mr. Chairman. Israel is currently 
developing its own program to focus on the same kind of threat 
that the THAAD currently defends against, and I have heard 
partially with our funds, but they say that the U.S. has not 
shared sufficient information as to the capabilities of THAAD, 
and so that is why they need their own program. Would you 
explain any legitimate concerns that would prevent the U.S. 
from disclosing such information? And if so, what would those 
concerns be?
                                ------                                

    Mr. Moran. Put one of our missile defense----
    General Obering. Yes, sir.
    Mr. Moran. Similar to the way we are putting one in Poland 
and Czechoslovakia?
    General Obering. Well, no, this is temporary, and it is 
part of an exercise. We do this all the time in other areas.
    Mr. Moran. So it is more mobile. It is not a permanent 
facility, as it is in Europe.

                           STANDARD MISSILE-3

    General Obering. Right. And I have had some success in 
convincing them that they need to look at some of our 
capabilities, that they could use them, for example, our 
Standard Missile-3 capability and how we could land base that. 
That would be very powerful for the Israelis. And we are 
working through the nondisclosure policy, which we do not 
control, but we have to go through that within the building to 
make sure that any system technology can be protected, or at 
least protected long enough so that it is not a threat to the 
United States. So we are working through that right now. But we 
do not need to be funding a multi-billion dollar interceptor 
development program that we end up funding quite a bit of when 
we have capabilities like THAAD and SM-3 that could suffice for 
that.
    Mr. Moran. So it is true, we are actually, at least partly 
or in whole, funding their development of an alternative 
missile defense system comparable to the one THAAD we already 
have.
    General Obering. That is not my intent to do that.
    Mr. Moran. I understand. But that is, in fact, what is 
happening. Thank you. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Hobson.

                         EUROPEAN SITE AND NATO

    Mr. Hobson. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here. I have a couple of problems. It looks to me 
like in the European thing, here we go again. We are going to 
wind up paying for it. Europeans are not going to pay for it. 
NATO is not going to pay for it. We are dealing kind of outside 
of, inside of NATO as we go deal with one NATO country or two. 
They are not really excited about it. But again, we wind up 
holding the bag protecting Europe when they won't protect 
themselves. I have great frustrations with them right now in 
Afghanistan because they are not playing their role the way 
they should. And I do not understand why we keep doing this.
    This is part of one long question, but why not use the SM-3 
Block IIA missile that is under development rather than doing 
this? And why do we not get NATO more involved in what we are 
doing if we are going to be defending them?
    General Obering. Okay, sir. First of all, let's go to the 
solution as to why did we select 10 interceptors in Poland and 
radar Czech Republic? Why not used the sea-based capabilities? 
Two reasons primarily. One, the sea-based is not going to be 
there for several years. We would not be able to deploy that 
until probably 2016 or beyond. That is a major development that 
we are just now kicking off. So there is no guarantee that that 
missile is going to be available. In addition, it will cost 
more than the 10 interceptors that we are talking about in 
Poland and the radar in Czech Republic and the forward 
deployable radar, it is about double the price because of where 
you would have to put the ship locations.
    Let me give you an example. The interceptors that we have 
in Alaska and California, of which we would have a two-stage 
version for Poland, is about 60 feet long. It is about 55 
inches wide. It is a very big interceptor. It has a lot of 
capability. You need that when you are going against an ICBM. 
We would not have had, for example, from a Delta, what we call 
a capability to engage a threat, we would not have had the same 
issue with the GBI that we have with these used on the 
satellite shoot-down because it is capable of intercepting 
those speeds of targets. Now, if I could go back, the SM-3 
Block IIA missile is 21 inches. So it is less than half the 
diameter, and it is only about 18 feet long. So there is a size 
difference here that matters in terms of its ability to deal 
with the threats.
    So consequently, you have a much more reduced defended 
area. Even if we wanted to use the sea-based SM-3 Block IIA, we 
would still need the radars in the Czech Republic, and much 
more forward deployed in Southeastern Europe or the Caspian. 
You have to have those or the SM-3 does not have a chance 
either of being able to provide a defended area of significant 
coverage to even be an alternative. So when you go through the 
calculations, it is more expensive, there is no guarantee it is 
going to be there. The missile that we are proposing for 
Poland, the two-stage version of the three-stage we are flying 
today is a very minor change, it is less than a $15 million 
modification to those interceptors to be able to make them into 
a two-stage version.
    So it was a matter of programmatics in terms of convenience 
and the most cost-effective. Now, to your other point about 
NATO, we are engaged with NATO. I have briefed them probably 
six or seven times, the North Atlantic Council, we are taking 
our system, our command and control and battle management 
system, and it will be integrated with the NATO Air Command and 
Control System, NATO ACCS, that will form the backbone of their 
NATO Active Layered Theater Missile Defense Program. So we are 
making plans, in fact, we are going to have a demonstration in 
June to pass radar data back and forth between the two systems.
    Mr. Hobson. But who is going to pay?
    General Obering. We are paying for the interceptors in 
Poland, we are paying for the radar in the Czech Republic, and 
the forward deployable radar. Now, what do we gain from this? 
First of all, we gain defense of our forces in the region, of 
which there is substantial number, against this growing Iranian 
threat. We also are benefitting because we are able to cover 
the radars in Fylingdales and Thule, Greenland, which also 
provides protection for the United States homeland against 
Iranian attack, and it gives us a third interceptor site from 
which we can protect the United States as well.
    The coverage from Iran extends all the way for the majority 
of the continental United States. So those are the benefits 
that we are receiving from this arrangement. We are working 
with NATO, and we intend to have this integrated within the 
NATO architecture such that we can take advantage of NATO 
radars and they can take advantage of our radars.
    Mr. Hobson. I bet we will end up paying for all of it. That 
is the problem I have. Let me ask one other thing. The Russians 
offered--I mean, it is interesting, you say to me we are 
willing to have the Russians come in and be on our site, and we 
are willing to exchange information with them. The Russians 
offered that to us in doing our thing. And I do not understand 
what the Russians offered to do as an alternative to our 
situation. We turned that down. Would you explain that to the 
Committee?
    General Obering. Yes, sir. They never offered to 
participate in a what we call a joint regional architecture, 
which is what we would like to do. They never did. What they 
said was they would offer us data from their radar in Quubala 
to show that the Iranians do not have the ability to be able to 
strike Europe or he United States.

                     EUROPEAN SITE--JOINT OPERATION

    Mr. Hobson. They never offered you a joint operational 
situation as you offered them?
    General Obering. No, sir. No, sir. Not to where we would 
actually have set up a joint regional architecture where we 
share data with them, they share data with us, we actually plug 
our systems together. No, sir, they never did that. And it is 
very frustrating with the Russians.
    Mr. Hobson. They normally are.
    General Obering. There was a launch in November that 
occurred a day before the Russian talks here in Washington.
                                ------                                

    A 2,000-kilometer missile which one of the Russian experts 
even admitted that if they had gone that far, they had the 
ability to go much farther. And when we were meeting with them 
here in Washington, they refused to acknowledge--at the 
beginning of the talks, they refused to acknowledge they had 
even flown the thing. And by the end of the talks they said, 
well, yeah, we know they flew it, but we were not going to tell 
you. There is a lot of disingenuousness between the Russians 
and where we are right now.
    Mr. Hobson. Thank you, sir.
    Mr. Dicks. Ms. Kaptur is recognized.

                      MISSILE DEFENSE CAPABILITIES

    Ms. Kaptur. Thank you, Mr. Chairman. Welcome, gentlemen. If 
I were to ask you in the offensive missile capability for 
various ranges, what are our most dependable missiles, how 
would you answer that?
    General Obering. Offensive?
    Ms. Kaptur. Offensive. I know you are defensive, but I am 
just asking. If you were to pick your workhorse missiles, what 
would they be?
    General Campbell. I do not know if I am qualified to answer 
that. I have some time at U.S. Strategic Command, but if you 
look at the operational readiness rates of our ICBM force and 
our submarine force, they are extraordinarily high.
    Ms. Kaptur. What about the Harpoon?
    General Campbell. I do not know. I would have to get back 
to you, ma'am.
    [The information follows:]

    Harpoon is an all weather, over-the-horizon, anti-ship missile 
system. The missile is capable of being launched from Ticonderoga Class 
Cruisers, flight one and two Arleigh Burke Class Destroyers, F/A-18 
aircraft and P-3 aircraft. The Harpoon weapon system, a longtime 
venerable workhorse for the Navy, is currently being upgraded to a 
Block III configuration. The Harpoon Block III program improves the 
surface warfare mission area with data link and GPS capabilities. The 
additional capabilities further increase Harpoon's accuracy, target 
selectivity and provide for in-flight target updates. Through the 
Department's foreign military sales program, approximately 30 foreign 
nations possess earlier versions of the Harpoon missile system.

    Ms. Kaptur. Offense, I was just questioning. Okay. So then 
on the defensive side, since this is the largest research 
program at the Department of Defense, do we have any capability 
now?
    General Obering. Yes, ma'am. We do have. We have the 
capability on very short notice to activate the system. We have 
done so many times in the past. We can shoot down a missile 
launched at the United States from North Korea. We can destroy 
that weapon. And we are confident that we can do that.

                          SEA-BASED CAPABILITY

    Ms. Kaptur. From a sea-based capability?
    General Obering. No, a land-based capability for a long-
range missile. That is the only capability we have today. The 
sea-based would be capable of shooting down the shorter range 
missiles. Let me give you an example. When the North Koreans 
launched the seven missiles they did in the summer of 2006, 
they had a very long-range weapon, the Taepo Dong 2, which was 
multi-stage, ICBM-capable, which they did not tell us what was 
on top of it, they did not tell us anything. And that system, 
had that been a threat to the United States, we could have 
destroyed that with the missiles, the interceptors that we have 
put in Alaska and California. There were shorter-range 
missiles, though, that were launched the day after.
    And you may hear them call an extended-range Scud, a No 
Dong, that type of thing. These are missiles that are within 
1,000- to a 3,000-kilometer range, in that range. They could 
have been destroyed by the sea-based missiles, the interceptors 
that we deployed to the Sea of Japan and in that region. So 
there is a layering that we are doing between our interceptors 
to try to match the offensive capability as well.

                                THREATS

    Ms. Kaptur. Okay. Then explain to me in layperson's terms 
where is our vulnerability?
    General Obering. Well, first of all, this strictly is 
geared toward a North Korean and Iranian threat. So for 
example, if you had the impression that----
    Ms. Kaptur. The issue is range, General? Range? Where is 
the----
                                ------                                

    Ms. Kaptur. Do they have the range capability yet, Russia?
    General Obering. Oh, yes.
    Mr. Dicks. They have ICBMs, just like we do.
    General Obering. Right. We believe that the North Koreans 
have range capability. We believe they have the ability to 
reach the United States. .------.
    Ms. Kaptur. So the real threat is numbers?
    General Obering. Numbers, yes, ma'am.
    Ms. Kaptur. All right. Let me ask you for our current 
research program on the defense side, how do you assure, 
because you have so many contractors, that we actually protect 
our intellectual property and our security? Dr. Clyde 
Prestowitz has written quite a bit about how some of our most 
sensitive defense technologies, particularly in rocket boosters 
and electronic systems have been--we have been required to use 
technologies from other countries and other suppliers. How do 
you assure that we protect the technology that we have and the 
intellectual property that we have? Is this a concern of yours?
    General Obering. Yes, ma'am, it is. And of course, one 
thing you want to make sure is you are not reliant on a foreign 
supplier, for example, that could be put at risk or could put 
your program at risk. We actually----
    Ms. Kaptur. Do we face that in your program?
    General Obering. Pardon me?
    Ms. Kaptur. Do we face that in your program?
    General Obering. There was a gyro, as I recall a laser 
diode that was used in one of our green laser gyros several 
years back, and we discovered that we were relying on a Russian 
provider for that. We qualified an American supplier and came 
off of that dependence.
    Ms. Kaptur. Do you monitor your subcontracts carefully to 
assure that?
    General Obering. Yes, ma'am. That is part of what we try to 
do. In fact, we have a whole organization set up that looks at 
componentry and production of components in that regard.
    Ms. Kaptur. All right. So you have a pretty high confidence 
level there?
    General Obering. I don't know if I have a high confidence 
level because you never know what you do not know, but it is 
something we are trying to guard against, yes, ma'am.

                           RESEARCH PROGRAMS

    Ms. Kaptur. Okay. So in our research programs they are not 
infiltrated through the contracting process. You have high 
confidence level in that?
    General Obering. I would not say high confidence level, 
because again, I do not know what I do not know, but I can tell 
you we try to take safeguards to address that.

                             PATRIOT SYSTEM

    Ms. Kaptur. All right. May I ask a question on this when 
Hezbollah was showering Katyusha rockets down on Israel, what 
technology didn't they have to shoot those down? What was the 
problem there? Too many?
    General Obering. First of all, the PATRIOT system that they 
have deployed is not effective against a Katyusha because a 
Katyusha is such a short-range rocket that it is not airborne 
basically long enough, nor is it cost-effective to be engaging 
a very cheap rocket with a very expensive interceptor.
    So one of the ways that--or one of the initiatives that we 
are pursuing with the Israelis is how do we do that? How are we 
able to take out these short-range rockets? And we have a 
program called David's Sling that we are actually co-managing 
with the Israelis to try to do that. So it is to try to get a 
very inexpensive interceptor that we could use against that 
type of threat.
    Ms. Kaptur. I did not hear what you said, sir. What was the 
name of it?
    General Obering. David's Sling.

                             DAVID'S SLING

    Ms. Kaptur. Oh, sling. David's Sling program. Can you tell 
the Committee anything you learned about Iran's capabilities 
based on, as you looked at what happened in Lebanon in terms of 
their missile capabilities? This is offensive, obviously.
    General Obering. The biggest lesson that I learned there, 
frankly, personally is they did not fire--they did not fire--
Iran did not fire, obviously, any long-range weapons at Israel, 
anything that we would be concerned about. But they did provide 
Hezbollah with missiles, with the shorter-range missiles, and 
that was very well documented in the intel community. And that 
is of concern. When you have a state government providing a 
nonstate actor, in this case, Hezbollah terrorist group, with 
those missiles what is to stop the ranges of those increasing 
and the capabilities of those increasing?
    One of those concerns is obviously having a very capable 
missile getting in the hands of these type of organizations and 
being used against us, the homeland or against our allies. That 
is one of the things I am very worried about.
    Ms. Kaptur. I am sure there is a lot of trading that goes 
on in the world in those components, isn't there, in those not 
just manufacture, but trading arms trading, right?
    General Obering. Yes, ma'am.
    Ms. Kaptur. Missiles of that size. Do I have time for one 
more question, Mr. Chairman?
    Mr. Dicks. I think the time has expired.
    Mr. Kingston. We have to get everybody through here.

                          EUROPEAN SITE--RADAR

    Mr. Kingston. Thank you, Mr. Chairman. General, I wanted to 
ask you in terms of obtaining permission to build the long-
range interceptors and the fixed radar in Europe, you have to 
get obviously the people in Poland and Czech Republic to agree 
to it. Where is that in the process?
    General Obering. Currently, we do not have any more 
negotiating sessions scheduled with the Czechs because we 
basically, as far as I know, resolved all the remaining issues 
there. And so I would think that an agreement that could be 
signed by their government and our government would be 
imminent.
    Mr. Kingston. And is that negotiated on kind of an 
executive branch level in both areas? And I know you have to 
have congressional approval here once that is done, right?
    General Obering. It is negotiated at the executive branch 
level, so it is--the State Department is leading those 
negotiations. We are just supporting. We are in a support role. 
The Department of Defense is in a support role. The State 
Department is leading those negotiations with the Czech and 
Polish Government. But the discussions with the Czechs are 
going very well. The discussions with the Poles were going very 
well. We had the change of government. It slowed down the 
negotiating process somewhat. That has now picked up again. So 
I do believe there is going to be an agreement in at least the 
next couple of months.

                       APPROVAL OF EUROPEAN SITE

    Mr. Kingston. And when you say in your testimony, you have 
to have congressional approval, does the Senate have to sign on 
or does it actually go through both Houses?
    General Obering. I do not believe there has to be 
Congressional approval, per se. You guys own the budget, the 
funding of it. That is how you approve what we do is through 
the funds. But this would be--and I understand--and I am not an 
expert here, so you probably need to get the expert about what 
Congressional approval would be needed for this agreement.
    Mr. Kingston. Is that something, Mr. Chairman, do you know 
does it have to be authorized? Because in your testimony, you 
say assuming we can obtain agreements with Poland, Czech 
Republic, and obtain Congressional approval to proceed. I was 
just wondering----
    Mr. Dicks. Staff says the MILCON site has to be authorized.

                  EUROPEAN SITE--MILITARY CONSTRUCTION

    Mr. Kingston. So it is a funding issue more than an 
authorizing?
    Mr. Dicks. Authorizing. You have to authorize it and then 
fund it.
    General Obering. Yes.
    Mr. Kingston. Okay. But there is not--I just wanted to see 
if there was some sort of a vote that took place free-standing 
or anything like that.
    Mr. Dicks. If somebody offered an amendment or in the 
Committee or in the full committee or on the floor there could 
be a vote.
    Mr. Kingston. Well, that might be where Mr. Hobson could 
have a vehicle for discussion of the European gratitude or 
participation or whatever. There would be an opportunity for 
people of his view, which I think a lot of us share, at least 
partially, to have a bite at this apple.
    Mr. Hobson. If I might add, I am advised that the MILCON 
part is at least $2 billion, so that is a pretty good slice of 
MILCON.
    Mr. Dicks. Is that accurate?
    Mr. Hobson. On the low side by MILCON standards.
    Mr. Kingston. If you know, for example, an amendment like 
that is going to be offered so there is opportunity to talk 
about European participation do you have enough, you know, 
firepower in terms of the political scene to come back and make 
the case as strongly as you can? Because frankly, you know, 
when I listened to you, I think you gave a very good answer, 
but I would also sort of love to hear more that, hey, this is 
all about us a lot more than them.
    General Obering. Well, again, we derive benefit from this, 
substantial benefit from this. The thing that we do not want to 
have happen that we have already seen is the ability for the 
Iranians to begin to coerce our allies and to start peeling 
them off from us. We saw a little bit of that with respect to 
al Qaeda and the Spaniards in Iraq. Now imagine if you had that 
happen on a nation-state scale where you are holding entire 
cities or nations hostage, how that could disrupt the alliance.

                                TARGETS

    Mr. Kingston. General, I want to ask about the number of 
MDA targets for the test program. Do you have enough targets? 
And where do you get them?
    General Obering. We have enough targets for fiscal year 
2008, 2009. As I mentioned earlier, we have had some 
difficulties in our targets program. We were using--we were 
trying to save taxpayers' money. We were using the last 
vestiges of the old Polaris motors that you remember from the 
old SLBM, Submarine Launched Ballistic Missile. Now that we are 
getting to kind of the bottom of the barrel there, we were 
transitioning to a more modern, flexible target family. So we 
do have enough targets to handle '08 and '09. We are looking at 
'10 and beyond as part of our POM 10 activity and how we can 
even more robust our targets program.

                          AEGIS BMD CAPABILITY

    Mr. Kingston. Okay. I wanted to ask one more question, Mr. 
Chairman. In terms of the Aegis BMD-capable ships, they are all 
in the Pacific, right?
    General Obering. Currently they are, yes.
    Mr. Kingston. And there is two that are going to be 
upgraded in the Atlantic?
    General Obering. Yeah, but that is not our decision. That 
is a part of the combatant commanders and the Navy's decision.
    Mr. Kingston. But that is because there is so much focus on 
North Korea?
    General Obering. Right. And you could move those ships if 
need be to the Mediterranean. And we have done that. We have 
actually moved some of these Aegis missile defense-capable 
ships into the Atlantic and the Mediterranean region.
    Mr. Kingston. But you are comfortable, and I understand 
that decision is not yours, but that we are okay in terms of 
the Atlantic side.
    General Obering. Yes, I am. And again, another initiative 
that you may not be aware of is we are funding what we call 
open architecture, which will allow every Aegis ship to be 
ballistic missile defense capable. We are doing that with the 
Navy. So that would tremendously expand the number of ships 
available to the warfighters as we proceed with that.
    Mr. Kingston. What kind of ship does it have to be?
    General Obering. It is an Aegis, we use Aegis both 
destroyers and cruisers. It is a certain configuration for 
these Aegis ships, the 18 that we have.
    Mr. Kingston. How many potential are there?
    General Obering. There is more than 80 when we go the open 
architecture.
    Mr. Kingston. How long is the conversion? How long does it 
take?
    General Obering. It would be several years.
    Mr. Kingston. How long per ship, though, would it take?
    General Obering. I would have to take that for the record. 
I will get back to you.
    [The information follows:]

    The Navy and the Missile Defense Agency (MDA) are engaged in a 
joint effort to integrate the Aegis BMD capability through the Aegis 
Modernization Program's Open Architecture (OA) environment. In this 
collaborative effort, the Navy is responsible for the development of 
the OA computing environment including replacing Military Specification 
(MILSPEC) equipment with Commercial-Off-The-Shelf (COTS) equipment and 
COTS-based Multi-Mission Signal Processor (MMSP) integration with the 
SPY-1 radar. The MMSP merges Anti-Air Warfare (AAW) and Aegis BMD 
Signal Processor (BSP) functionality into a single common processor. 
The MDA is responsible for migrating the Aegis BMD 4.0.1 weapon system 
computer program into an open architecture computing environment and 
integrating BSP functionality into the MMSP, resulting in BMD 5.0 
weapon system computer program.
    The end result of this joint program is a more robust, multi-
mission capability fielded in modernized Aegis ships. The Aegis OA 
program is key to expanding the Aegis BMD capability to the entire 
fleet of Aegis ships, with a proposed eventual total of 84 ships. The 
modernization program also provides the foundation for the potential 
implementation of Aegis BMD in allied navy ships.
    The first Aegis destroyers are scheduled to commence their 
modernization upgrade in FY 2012. The modernization upgrades include 
not only OA but also other combat system and engineering improvements 
funded by the Navy, requiring about one year to complete installation.

    Mr. Kingston. Well, thank you.
    Mr. Dicks. Mr. Boyd.

                         MULTIPLE KILL VEHICLE

    Mr. Boyd. Thank you, Mr. Chairman, and thank you, 
gentlemen. I know these are very expensive programs that we are 
talking about. And we really are chasing some technology that 
leads us into uncharted waters in a lot of ways I am sure. I 
want to focus my time on an issue that the Chairman brought up 
in his opening question, and that is the issue of the Multiple 
Kill Vehicle, the MKV. MDA is, as I understand, you explained 
the deployment, operational--I mean, an operational capability 
in the 2017 time frame.
    General Obering. Yes, sir.
    Mr. Boyd. Is that correct? And you have awarded a contract 
to Lockheed Martin to develop a carrier vehicle. And you expect 
to have the research done sometime in the 2010 time frame as to 
whether this technology can be developed?
    General Obering. Yes. That is about right.
    Mr. Boyd. It is my understanding that--and Mr. Francis, 
this question might be more appropriately addressed to you, 
that MDA has awarded two contracts for the development of the 
carrier vehicle, but we don't know--for multi-kill purposes--
but we do not know yet whether we can--that technology is going 
to work. What is the thought process about awarding two 
contracts before we know whether the technology is going to 
work or not?
    General Obering. Let me take that.
    Mr. Boyd. Okay. General Obering?
    General Obering. That is exactly what you want to do. Let 
me give you an example. When we started the ground-based 
midcourse system, we had two versions of our long range 
booster. We had an orbital version, what we called an OBV, and 
we had a BV Plus version built by Lockheed. The reason we had 
two is because we were not confident that either one of those 
configurations would work. And we wanted to have a fallback 
position in case one of them ran into some trouble.
    Well, sure enough, we ran into trouble on the BV Plus. We 
had an explosion out in Pratt & Whitney Chemical Systems 
Division in California, and it wiped out our inventory of those 
BV Plus configurations. When we gained enough confidence in the 
OBV configuration, which we had flown two or three times at the 
time of the explosion, we were able to jump from that to the 
OBD configuration.
    The same principle is true here. What you always want to 
have is not have all your eggs in one basket. So if I could 
have two kill vehicle suppliers, in this case, Lockheed Martin 
and Raytheon, because they are the primary kill vehicle 
suppliers, I can continue a competition between those, an 
ongoing alternative source so to speak, and it really motivates 
each one of the contractors. And we have seen that already when 
we were running into problems with the kill vehicle for the 
long-range system in terms of deliveries, supplier management, 
supply chain management, that type of thing.
    As soon as we awarded the Multiple Kill Vehicle to 
Lockheed, the first in a demo contract, we saw the behavior of 
Raytheon change to the good. So we want to continue that 
behavior with both these contractors as we move to the future.
    Mr. Boyd. Okay.
    Mr. Francis. Mr. Boyd, if I may, I think you raised a good 
question on MKV. And as General Obering said, he is trying to 
have multiple ways to solve a problem and not have all of his 
eggs in one basket. I think the question that you asked, 
though, is a good one in terms of what we can afford and how 
many options we can pursue. Because I think right now we are 
looking at--I mean we do have an EKV that is a unitary system 
that we are improving the discrimination on. In MKV, we are now 
going to pursue two approaches to that. My understanding, and I 
will defer to General Obering on that, is that it is not 
necessarily going to be a competition, that we are going to 
keep both of those going. And if they do not work, then we may 
go back to a unitary system. So I think from a capability 
standpoint you want to keep as many options as you can open. 
But then you have to look at affordability, which how many 
things--how many options can we afford to keep open?

                 MISSILE DEFENSE--A BALANCED CAPABILITY

    Mr. Boyd. Okay. Thank you. I want to move to sort of a 
related area. And again, I am just baffled by the cost of this. 
Since 9/11, obviously the world has changed in so many ways. 
And we were pursuing these efforts prior to 9/11 and everything 
was going along pretty well, and all of our forces were in--
services were in good shape. But today that situation is 
different.
    General Campbell, the Army is in serious, serious need of 
recapitalizing forces and equipment. Those are well documented, 
documented every hearing we have in this room. And we all know 
that we face constant evolving and increasing threats. How can 
we afford the same unconstrained approach to missile defense 
that we did prior to 9/11 that is not possible for the other 
services? Can you speak to that or did I----
    Mr. Kingston. Will the gentleman yield a second? Will the 
gentleman yield? Because there was, I wanted to say, a lot of 
criticism of the GAO in terms of the accounting, and the fact 
that so much of this is very difficult for Congress to have 
oversight the way you do your, is it element-based accounting 
or nonelement based? But I read some of the GAO comments, and 
it is very difficult to follow, and I just wanted to kind of, 
you know, underscore what Mr. Boyd is saying.
    General Campbell. I am not sure if I understood your 
question. You talked about the Army, and we are out of balance 
in that we are putting everything into counterinsurgency 
operations and we have to bring balance back so that we have a 
fully capable force across the spectrum of conflict.
    Mr. Boyd. That is correct. That is the gist of the 
question.
    General Campbell. And the Army has done a good job, in my 
view, of balancing their investment portfolio so that we can 
get back to that balance. It is possible to do that. But as far 
as getting into any detail with you, I am not prepared to do 
that, to talk broad general purpose forces.

                   ALLOCATING MISSILE DEFENSE ASSETS

    Mr. Boyd. And that really the general, the broad area of 
how we allocate our resources given the occurrences and events 
of the last--2001--7 years now almost, or 6\1/2\ years, and the 
circumstances being completely different, and most of our 
services, particularly the Army, in such dire need of reset 
dollars and those kinds of things.
    General Obering. Could I address that, if you do not mind? 
I am glad you brought up 9/11, because if you look at all the 
money we spent on missile defense, going back to Ronald Reagan 
in 1983, it is about a hundred billion dollars as of last year. 
The damage caused from 9/11 alone to New York was $83 billion. 
And that wasn't a weapon of mass destruction. That was not SCUD 
on a tub, on a ship off the coast coming into New York City. If 
we had that, it would be in the hundreds of billions of 
dollars, trillions of dollars, and tens of thousands of lives.
    So to protect us against that, I think that spending much 
less than 2 percent of our budget is reasonable in terms of the 
overall strategic view. The other thing, if you stop and think 
about it, is just think what would change if you have a 
nuclear-tipped Iran providing an umbrella. We know they are 
already sponsoring terrorist forces around the world. We know 
that. Imagine if they had the ability to strike the homeland 
with a nuclear weapon and how that would change some of the 
calculations that we face in the future and not have a 
protection against that, which is what we are building out to.
    So I think from a strategic view and perspective, I think 
it is reasonable to spend this amount of money on this 
protection for not only our homeland, but our deployed forces, 
not the least of which the last time we engaged in Iraqi 
Freedom, for example, we had to defend ourselves against these 
missiles.
    The same thing occurred in the original Gulf War. More and 
more countries around the world are saying ballistic missiles 
are our Air Forces. So I think it is very prudent this Nation 
invest a very small amount in terms of what that is. And if I 
may to your point, sir, I respectfully--and I respect the GAO, 
but I think that we do account for our costs. And we can show 
you. In fact, the billion dollars that they talk about the 
growth in Block 2006, that represents a 5 percent increase over 
the life cycle of that. That is not significant. In fact, our 
entire cost variance for all of our programs are less than 6 
percent. So there is some that are worse performers than 
others, like the Space Tracking and Surveillance System, but 
overall, we account very closely for those. What we are trying 
to do is move through this new Block structure that the 
Chairman talked about. And they actually--they recommended the 
new Block structure last year. We have gone to that now to help 
them understand what our accounting is as well.
    Mr. Dicks. It may help us as well. Mr. Rothman.

                            IMMINENT THREATS

    Mr. Rothman. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here, thank you for your service. You have an awesome 
responsibility, and we appreciate it. Continue the diligence, 
please, and Godspeed. My first question has to do with the 
boost phase, or the defense against--during the boost phase. 
The notion being that when do you know that you are going to go 
after a particular missile that has been launched and is in 
boost phase? The problem being you can have the greatest weapon 
in the world, but if you do not permit yourself to fire it, 
there is some deterrence in having the greatest weapon, but it 
loses its deterrent value if everyone knows you are going to be 
so uncertain about using it that you will never use it.
    So how do you know, for example--is it the policy, for 
example, that if a missile is launched from Iran that we are 
going to take it out? Or do we first have to determine its 
trajectory, the object that it is supposed to hit, the country 
it is supposed to hit, and by that time, can we hit it in boost 
phase?
    General Obering. That is an outstanding question. That is 
part of why we like to lay in what we call knowledge points to 
determine what is the knowledge that we need to be able to 
advance our programs. But to get to your point specifically, 
what I envision for a boost phase defense is number one, if we 
get a shot from the blue that Ahmadinejad wakes up one morning 
and says I am going to launch a missile to New York City, that 
would not be a boost phase defense in my mind because of all 
the complications that you just talked about, not understanding 
whether that is a space launch initially or just a test launch 
or whatever. But very rapidly, we would know that it would be--
--
    Mr. Rothman. But would he make a public announcement I am 
going to New York?
    General Obering. No.
    Mr. Rothman. So you wouldn't even know where it is headed.
    General Obering. That is right. So for something like a 
bolt out of the blue, I think a boost phase defense would be 
problematic. Where it would be more appropriate is when you 
have indications and warnings that there is activity or that 
there is hostilities, that type of thing, in which you know 
that there is going to be--you know, you can tell, in fact, the 
way we execute with the Aegis ships, for example, is we say, 
okay, you have to defend this area and for any threats come out 
of this location. Okay. That type of thing.
    So there is going to be some indications and warnings, and 
then a boost phase capability can be very effective in being 
able to destroy those weapons while they are still in boosting 
phase. There is another aspect that there is more telltale 
signs than you believe. For example, one of the things we were 
looking for out of North Korea is the injection angle. If you 
are going into a space launch, for example, that injection 
angle is very flat. If you think about the shuttle when it 
launches, it rolls over and then it starts immediately to pitch 
over, because it wants to convert all that energy into orbital 
velocity.
    A ballistic missile does not do that. It goes much steeper. 
And so you get indications very quickly as to whether it is a 
space launch or a ballistic missile launch, and then you can 
propagate those through the command and control system.
    Mr. Dicks. Also we have satellites that let us know almost 
instantly when a launch has occurred.
    General Obering. Yes, sir. We do.
    Mr. Rothman. The question was would we attack it without 
knowing where it was headed? But the general was saying there 
are these telltale signs and specific areas of responsibility 
so to speak that----
    General Obering. Plus, if we were--let me just use a 
concrete example. The Iranians launch from their northwest to 
the southeast. That is their typical launch ranges. If we see 
something coming out of there heading up north over Russia or 
heading up over Europe, we know it is not one of their 
launches.
    Mr. Rothman. Let me ask you this. If we saw a launch from 
Iran and it were not--we determined quickly that it was not 
launched against any of our forces in the region or the United 
States, are there circumstances where we would go after that 
missile if we determined it was headed against one of our 
allies? Or--any one of our allies?
    General Obering. Yes. If it was determined to be headed 
into one of our allies, one of our defended areas, meaning 
Germany or Great Britain or Prague, whatever, yes, we would go 
after it.
    Mr. Rothman. Is Israel included in that umbrella?
    General Obering. Israel would be included in a different 
umbrella, but still part of the missile defense shield, yes.
    Mr. Rothman. On the Iranian-transferred missiles to 
Hezbollah, part of missile defense presumably is the 
intelligence work and other defensive exercises, endeavors that 
would, for example, blow up the component parts before they 
ever got assembled, or once they got assembled, or once they 
got to the factory or on the ship, et cetera, et cetera. Are 
you involved in that or is another agency?
    General Obering. No, sir. I am not involved in that.
    Mr. Rothman. But that is certainly a big--that is, as you 
fellows would say, a robust part of our defense operation, I 
would assume. I would hope.
    General Obering. I would certainly say that that--you know, 
if you are looking at a holistic approach to missile defense, 
being able to use what we call nonkinetic means are important.

                             IRANIAN THREAT

    Mr. Rothman. Okay. Why then do we permit, or one would 
imagine then with our robust intelligence services and all 
these nonkinetic elements of our defense forces that we would 
have--and satellites and humans, et cetera, we would know when 
the Iranians are literally transporting these devices to 
Hezbollah or to anybody. And so the question is why don't we 
ourselves or assist others in the destruction of those missiles 
before they get to the bad guys, the other bad guys?
    General Obering. Sir, that is not my area of expertise, and 
I do know that I believe that the United States has initiatives 
that we are trying to do that type of interdiction. But let me 
give you an example of some of our shortfalls. When the North 
Koreans launched their missiles in the summer of 2006, we had 
almost every intelligence asset known to this country looking 
at that country, and yet they were able to roll out several of 
their shorter-range missiles and fire them before we ever were 
able to pick that up.
    So this idea that we have some type of an omnipotent 
ability to interdict in the supply chain or even just before 
they launch is not very proper.
    Mr. Rothman. May I just follow up with that? Do we accept 
as a given that we will always not know what we do not know, 
and never have that complete capability of being able to 
anticipate a launch and then simply rely on other redundant 
forces or whatever to cover that, or is it simply a matter of 
providing more resources in order to address that shortfall?
    General Obering. Sir, I think you have to do the whole 
spectrum. I think you have to invest in resources to do that 
interdiction that you talked about. I think you have to invest 
in other nonkinetic means by interrupting their command and 
control chains, that type of thing. And but you cannot rely on 
that solely, because when you have a warhead in the air, you 
have got to do something about it.
    Mr. Rothman. Thank you. Thank, Mr. Chairman.
    Mr. Dicks. Mr. Bishop.

                            ISRAEL AND THAAD

    Mr. Bishop. Thank you very much. Thank you, gentlemen, for 
being here, for sharing your knowledge with us. I am going to 
touch on two areas basically with our relationships with 
foreign governments. Israel, for example, is interested in 
developing a new program to focus on the threat that the 
Terminal High Altitude Area Defense currently defends. One of 
the issues that they have raised is that the U.S. has not 
shared information with them as to the capabilities of THAAD, 
and thus they do not know if THAAD will work for them.
    Can you give us an update on the U.S.-Israeli cooperation 
and tell us to what extent the national disclosure policy is 
preventing us from sharing missile defense information and 
technology with our allies? What is the extent that that 
national disclosure prevents us from sharing? And tell me 
whether or not there are legitimate concerns based on that 
national disclosure policy that would prevent us from 
disclosing certain information and what those concerns would 
be?
                                ------                                

    Mr. Bishop. What are the concerns that would prevent us 
from disclosing information under the national disclosure 
policy?
    General Obering. Well, obviously we have a concern about 
any sharing of information or technology that the Israelis 
would, in turn, share with other countries. That is one thing 
that is of concern. I know that we are also concerned that 
their industry may take advantage of that technology vis-a-vis 
our own industry to establish a competitive advantage. So there 
are any number of reasons why people are concerned.
    Mr. Bishop. I was wondering what those were.
    General Obering. Well, there were certain things that we 
would never, I mean, what we call the family jewels we do not 
share, some of the detailed algorithms that we use in our 
radars to distinguish warheads, some of the algorithms that we 
use in our kill vehicles to do the discrimination that we use 
today. Those are the types of things that we consider to be 
very sensitive.

                      JAPAN COOPERATIVE AGREEMENT

    Mr. Bishop. Okay. With regard to Japan, over the past 
several years the U.S. and Japan have conducted cooperation in 
the missile defense area which has included the deployment of 
an X-band radar in Japan and a joint fifty-fifty cost share 
development of the Standard Missile-3 Block IIA missile. What 
is the status of our cooperation with Japan and are you 
considering moving the second forward deployed X-band radar to 
Japan? And thirdly, recently the MDA decided to incorporate a 
modular kill vehicle into the Block IIA even though Japan has 
only agreed to use the unitary warhead. How would that impact 
our cooperation with Japan?
    General Obering. I would say our cooperation with Japan is 
extremely healthy and very robust. As you said, they share, 
they were willing to host the Shariki radar in the Amori 
district in the northwestern portion of the country. That is 
proceeding very well, and we are sharing data from that radar 
with the Japanese as well. With respect to our co-development 
of these SM-3 Block IIA, we have a systems requirement review 
that is scheduled for this March, or next month, that we began 
the U.S. only requirements review for that system.
    And again, that is proceeding very well. There was some 
concern early on by the Japanese about the Multiple Kill 
Vehicle program that you mentioned and whether it would impact 
our development of the SM-3 Block IIA, and I am pleased to 
report that I just got a letter yesterday from the Government 
of Japan saying that they do not have any problem with our 
approach on MKV. And so I think we put that all to bed now in 
terms of that concern.

                         TESTING INFRASTRUCTURE

    Mr. Bishop. Okay. With regard to your testing 
infrastructure, the Committee has been informed that one of the 
key elements limiting current missile defense test programs is 
the lack of infrastructure. What specific actions can be taken 
by us to improve the Missile Defense Agency testing 
infrastructure and what are the costs associated with these 
steps?
    General Obering. Sir, first of all, the full support for 
request for the money for our testing targets would be very 
helpful. And I believe that, as I said, we are going to come 
back for our next budget request in 2010 for our POM and we are 
going to be focusing on targets and the test infrastructure as 
a priority. But right now, many aspects of our test 
infrastructure are not funding limited, it is primarily the 
fact that we are maxing out the capabilities that we have. And 
just in terms of tempo.
    But targets has been a shortfall. That has been an area 
that we need to invest more in. And that is what I said we are 
okay for '08 and '09, but starting in 2010, we are going to be 
requesting more emphasis there.

                                TARGETS

    Mr. Bishop. How can you improve the number of targets?
    General Obering. By increasing the funding for those, for 
targets.
    Mr. Bishop. Thank, Mr. Chairman.
    Mr. Dicks. Thank you. And I want to thank Mr. Tiahrt for 
being patient and a good sport and all the other attributes.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Tiahrt.

                             AIRBORNE LASER

    Mr. Tiahrt. First of all, I want to congratulate you on the 
tremendous success the programs had as far as ABL especially, 
but the MDA in total. But the ABL, I think, has really now 
shown all the key subsystems are working, and we are looking 
forward to the lethal shot shootdown in 2009. Just talking 
about open source information, we recently had a decaying orbit 
on a satellite and we used a kinetic capability to try to knock 
it down or effectively make it less dangerous. And I think that 
we were successful. That kinetic capability is sort of a backup 
for what the ABL is supposed to do. And in terms of the launch 
capability, kinetic as a backup takes a long time to get there 
compared to the speed of light.
    So there is a big difference there. And I think the need 
was verified again by this successful shootdown. But what was 
not told, and just using common sense, the ABL also is a backup 
for what was done by the previous or by the kinetic weapon. So 
I think there is a great capability here that we are 
developing. And that laser just does not point down, it points 
up as well. And I think we kind of forget the real tremendous 
tool this is to keep our country safe. I am a little concerned 
about how we are funding it, though. And I have some firsthand 
knowledge, because you know, in a typical program you have this 
big bulge in front of manpower and talent, and then as the 
first product becomes more secure and more technically 
complete, then you start seeing this talent go off to other 
areas.
    And we are experiencing that in the modification area in 
Wichita, where a lot of the engineers that worked on the first 
unit and have gained a lot of great experience now are being 
taken to other companies, other parts of the country, other 
parts of the company. And those who want to stay are even going 
to commercial ventures because we have not acted on tail number 
2.
    And so I am very concerned if you look at the request that 
we made for this program in 2006 versus the request we are 
making in 2009, we are seeing that a lot of the plan that we 
had to move that second tail number in is being pushed way out 
to the right. And I am concerned about that because of the loss 
of talent. That alone will cost the program more money because 
you have people that have to get back up to speed. They are 
going to be back up higher on the learning curve that than they 
were. And we are about 250 million behind this year where we 
were planning to be in 2006. So we have got 3 years more of 
information, but why are we reducing such a big amount on a 
program that is doing so well, and why are we delaying tail 
number 2?
    General Obering. Okay, sir. As I stated before, first of 
all, thank you very much for your support for overall program, 
and especially for ABL. We base these programs on knowledge 
points and their achievement of knowledge points. Airborne 
Laser has achieved everything that we have asked them to do so 
far. The big one left is to be able to put that high energy 
laser on the aircraft, which we have got the six modules loaded 
on today at Edwards, and then to get all the rest of the 
installations on board and then get back in the air by the end 
of this year, first part of next year to go forward with a 
lethal shoot-down.
    Now we have already learned, what maybe is not evident is 
that we have a workforce, as you said, in Wichita that did a 
lot of the modifications that supported the flying aircraft for 
the low power flight testing. It is almost unavoidable that we 
are going to lose some of those people in this transitory 
period. Because we are learning tremendous amounts on almost a 
daily basis, especially when we get back into our testing, that 
is going to indicate that we are going to have to go into a 
transition period not unlike what THAAD did. I will tell you I 
think that is what we are facing right now is that we are going 
to go into a transition period like THAAD where we flew in '99 
and 2000, and we stood down for about 4 or 5 years, and we 
assembled all that we learned, and we totally remanufactured 
the THAAD program to where it is today, very successful, very 
affordable, and moving ahead. And I think that we are going to 
have something similar on ABL.
    So it was premature for us to order tail 2 until we get 
through this period of the lessons learned from the shoot-down, 
how we can do and incorporate those lessons learned into a more 
affordable design, and a more produceable design as we move out 
for the fleet. So I think it is what I call a transition 
period. And I wish I could say that there is ways we could 
maintain that workforce, but in my mind, it is almost 
unavoidable because we are not funding paced here, we are 
technically paced.
    Mr. Tiahrt. Well, there is a long lead time on the 
aircraft, you know, just a green airplane, and you have got to 
get a place in line, and then it has to be built, it has to go 
through flight check before it is delivered.
    General Obering. Yes, sir.
    Mr. Tiahrt. If you wait until 2009 to order, you will be 
sitting on your hands that much longer, because there is a 
demand for this aircraft. I am very concerned about that. And I 
hope you have factored into your schedule a second airframe. I 
don't see an ability right now to change airframes, or a need 
to. So the airframe itself, that long lead time should be 
calculated into your churning the data and coming in, and so--
--
    General Obering. Yes, sir. I understand. The 747 8F is what 
we are looking at.
    Mr. Tiahrt. It is a good airplane, and I think it is a 
right choice, and it provides capability that you need. The GAO 
ran a report, I was not going to mention it, but the gentleman 
from Georgia did, but after going through the report, there is 
some things that, you know, the GAO says this is how we do 
business according to what is written. And in a lot of respects 
that is old school procurement that is out of date and needs to 
be revised. And some of the things I thought they were good, 
you establish a base line as soon as you possibly could, which 
I think that is good advice. But on some of the others, the 
only--I think one of the comments they made is include only 
blocks--include in blocks only those elements that will field 
capabilities during the block.
    Well, if you do that, then you can't shorten your schedule 
when you have the ability. It is very rigid. And so I think the 
way that you have managed the program is much better than the 
way--the process the GAO wants you to follow would be. So I 
want people to understand that GAO, I have great respect for 
them as well, but they also are very confined in their 
recommendations to what is written. And there is no thought 
about what it should be. It is what it is.
    And I think, you know, quality is a dynamic thing. And 
improving procurement is a dynamic thing. We can always do a 
job better. And successful corporations in America today do 
that. They continue to look for a way to do the job better, 
whether it is a small coffee shop or an aerospace company.
    So I want the people to know here that we have I think a 
good management team in place. And I think you are doing a very 
successful job. One last thing I would like to mention, because 
I am very concerned about this, in delaying this program we 
continually see new people come on not only in the private 
sector with the engineering staff, but also the public sector. 
General, you have had a great track record here and have done 
an excellent job, but even here on the Capitol on the Hill, we 
have new staffers that come in like in HASC, and they question 
the program. We have to reeducate them over and over again.
    You know, every year it seems like we have to face somebody 
on an authorization committee that needs to be up to speed on 
this program. And it is a complex program. And it takes a long 
time to get their security clearances, it takes them a long 
time to understand the program. In the meantime they say, well, 
we are not going to fund this because it is really not that 
important. And it is a very important program. So as this 
program gets delayed, I mean that is another reason for us to 
keep it moving, keep the momentum up, keep the success going. 
Thank you, Mr. Chairman.
    Mr. Dicks. Thank you, Mr. Tiahrt. Mr. Bishop has an 
additional question.

                    AEGIS BALLISTIC MISSILE DEFENSE

    Mr. Bishop. Thank you very much. I thank the Chairman and 
the Committee for the indulgence. General Campbell, I 
understand that all of the Aegis ballistic missile defense-
capable ships are currently assigned to the Pacific. And the 
Missile Defense Agency only plans to upgrade two Atlantic fleet 
ships to missile ballistic defense configuration.
    What is the rationale for that decision, and do you have 
any plans to upgrade additional Atlantic fleet ships? If not, 
why not? And for General Obering, if all of the BMD-capable 
ships are in the Pacific, what is the plan for using Aegis 
ballistic missile defense to defend our troops and allies in 
the CENTCOM area of responsibility.
    General Campbell. Let me address this by saying no matter 
what asset we are talking about, there is a process within the 
Department where a combatant commander can come in and request 
a force, whether it is a tank battalion, an Aegis ship. We have 
a process such that we can shift an asset that is in the 
Pacific to the CENTCOM AOR. So we do that as a routine, sir. So 
these Aegis ships that are in the Pacific, and as General 
Obering mentioned, we have already moved one before into----
    Mr. Bishop. There is a time lag in that transition, though, 
isn't there?
    General Campbell. There is a time lag. It has to transit, 
obviously. But again, out of context it is hard to answer the 
question. But within the context of I have indications and 
warnings that I need that ship in an AOR, we will begin moving 
that ship as soon as possible to get it to that particular 
area.
    General Obering. And sir, one of the things that we could 
move a ship into CENTCOM, and in fact, their area of 
responsibility, and in fact, we have, but I want to use your 
question, if I may, to make a major point. We have asked over 
the years to fund systems engineering integration. What that 
means, and I will give you an example, is we know now that if 
we put a THAAD radar, if the THAAD unit that we are going to 
put in Israel in on Juniper Cobra, if we tie that radar to the 
Aegis ship the way that we tied the radars into that Aegis ship 
to shoot down the satellite, we could actually have that ship 
stand off from the coast outside of Silkworm missile range and 
still protect all of Israel with its SM-3 interceptors.
    That is the power of this integration that we talk about 
between our land and sea-based components. That integration 
comes at a price in terms of our systems engineering and the 
ability to do that. So there is no reason why we can't take 
those ships from the Pacific and use them in the CENTCOM AOR or 
the EUCOM AOR. And there is no technical limitation there. And 
we are trying to design the system to integrate it so we can 
get the most from each of these components by doing this 
integration.
    Mr. Dicks. I think you are concerned about the East Coast 
of the United States. Now, can you explain how the existing 
system that we have deployed can protect the east coast of the 
United States?
    General Obering. Yes, sir. The SM-3 missile, the PATRIOT 
missile has the ability to protect the east coast from short 
range attack. Not from long range attack, but from short range 
attack. So it has the ability to do that today. It is a matter 
of if we chose to deploy them and to do that.
    Mr. Rothman. Mr. Chairman, can I ask one follow-up 
question?
    Mr. Dicks. Yes. Mr. Rothman.

                          NORTH KOREA AND IRAN

    Mr. Rothman. Generals, you have given an extremely 
impressive bit of testimony about our capability to deal with 
missiles from Iran and North Korea and projecting other threats 
in the future such that one would imagine that if the North 
Koreans and the Iranians were rational actors, big assumption, 
and knew of our capabilities they would be sufficiently 
deterred from bad conduct. And we must plan for then for 
irrationality, so that is off the table, because we will never 
know whoever has their finger on the button whether they are 
going to be rational or not. But are these actors, the Iranians 
and North Koreans aware of our capability----
    Mr. Dicks. Oh, yeah.
    Mr. Rothman [continuing]. Such that they understand that 
there would be a very--not only a very limited chance of 
success of any offensive effort on their part, but of course, 
the devastating response that they would feel?
    General Obering. I have thought a lot about that. And I 
will tell you my own personal view. You stated initially a very 
important assumption is that if they are rational in their 
decision-making. And one of the things we are counting on, 
frankly, is that they are rational to the extent that if we 
field effective missile defenses they will choose to no longer 
invest in ballistic missiles because they realize there is a 
defense against them. I think that has been the problem 
historically is we have not had a missile defense system or 
capability, and therefore countries like Iran and North Korea, 
Libya and others chose to invest in those missiles. We would 
like to be able to defer them or deter them from even investing 
in those missiles to start with in the future.
    But the one scenario I am really worried about is that you 
have a group within Iran or within North Korea, or you could 
almost pick another country that decides that they want to 
strike a blow for radical Islam or whatever, and they are 
willing to incur the potential retaliation that would come 
their way and then they launch. I mean, that is what--when that 
happens, you have to have the ability to shoot that down. You 
can't talk to anybody, you can't offensively take it out, you 
have got to have the ability to shoot that down. And if we can 
prevent that from just one American city we would pay for this 
program many times over.
    Mr. Rothman. No questions. Thank you, Mr. Chairman. Thank 
you.

                                  STSS

    Mr. Dicks. General Obering, please update the Committee as 
to the present cost schedule and technical performance of the 
STSS program.
    General Obering. Yes, sir. We are launching two what we 
call demonstration satellites this year. It is based on what we 
call legacy hardware that was left over from the SBIRS low 
program, frankly, from many years ago. I think we are investing 
about $300 million, as I remember from the request, the budget 
request.
    Mr. Dicks. The cost of this program has gone up. Isn't that 
right?
    General Obering. Yes, sir.
    Mr. Dicks. There has been some discussion of a Nunn-McCurdy 
breach. I guess maybe you are exempt from that.
    General Obering. Yes. Well, the cost variance at the 
completion of that particular contract is about 20 percent, 
which would break a Nunn-McCurdy type of a tripwire. But the 
program that we are going to launch this year is not the 
program that we are going to build for that constellation. 
These are demonstration satellites that demonstrate the 
functionality. If it works, if we can show that we can do--and 
for the rest of this Committee, what this is is right now all 
we do from space is early warning. We get it, we say there is a 
rocket launch, a missile launch, it is headed toward New York 
or whatever. And that is it. We do not have--we do not have any 
precise knowledge of the track. What we want to be able to do 
is precisely track that missile from space the same way we 
precisely track missiles with a radar.
    And so that will allow us to engage them then. The 
satellite constellation that we have envisioned after a 90-day 
study that I had chartered says that we can provide----
                                ------                                

and provide the same coverage that we were originally 
envisioning with the STSS program. And it would be the same 
functionality that we are demonstrating in the satellites this 
year. So while we have had cost, schedule, and performance 
technical delays with the program, it is on track to get in the 
air this year. And we are restructuring that to take advantage 
of frankly more modern technology and a more modern approach as 
to how we do this constellation.
    Mr. Dicks. STSS is basically SBIRS low as you suggested, 
right?
    General Obering. That is what is going up this year.
    Mr. Dicks. Now SBIRS high, tell us about that.
    General Obering. That is not my program. That is an Air 
Force program.
    Mr. Dicks. But I thought you know everything.
    General Obering. Can I take you to my wife?
    Mr. Dicks. Right.
    General Obering. SBIRS high is to replace the Defense a 
Support Program satellites.
    Mr. Dicks. DSP?
    General Obering. Yes, sir.
    Mr. Dicks. What does SBIRS high provide over DSP?
    General Obering. That gives us the early warning capability 
to a better degree, and it is much more capable in terms of 
sensitivity and that type of thing, but it still does not get 
us the precise tracking that we need with the Space Tracking 
and Surveillance System.
    Mr. Dicks. So we are going to have a follow on to STSS?
    General Obering. Yes, sir.

                                  KEI

    Mr. Dicks. Okay. Now, I want--about the Congressional plus-
up on the KEI program in '08. Please tell us what you are doing 
to restore KEI to a full up weapons system and capitalize on 
the mobility aspects in the program, or are you?
    General Obering. Yes, sir, we are. In fact, the major 
knowledge point that we had for airborne laser is it has got to 
go shoot down a boosting missile. The major knowledge point 
that we have for KEI is that it has to achieve a very, very 
high acceleration booster flight in 2009. And we had taken that 
program to a booster-flight-only program, frankly, because we 
had not gotten the funding support on the Hill in the previous 
years, and so we had to reduce it to that.
    With the plus-up that we got last year, the 115 million net 
plus-up, we are taking about 15 million of that to protect our 
booster flight in 2009 because we ran into some problems on the 
second stage firing, .------.
But we also took about $40 million of that to reinvigorate the 
weapons system engineering and the mobility options aspect. 
What that means is this is like a PATRIOT or THAAD on steroids.
    So it is a much larger missile. It will still be in a 
canister. It is still mobile. So we are using a lot of that 
money to be able to do the weapons systems engineering. We are 
also looking at taking about $37 million out of it toward the--
to accelerate the objective design, otherwise how we actually 
do the land-based version of this capability. And then about 
$20 million out of it goes to a kill vehicle development that 
Raytheon is under contract for.
    Mr. Dicks. How is Raytheon performing on that particular 
contract?
    General Obering. Well, we had actually pulled them back 
very severely when we went to the booster only program. And 
they have not been performing per se on the KV, on the kill 
vehicle piece of that. Now they have responsibilities for the 
overall interceptor for this, and they are the prime contractor 
for the interceptor, reporting to Northrop, who is the prime 
contractor for the entire program. So far so good with respect 
to their performance. But again, the jury is still out on the 
kill vehicle portion.
    Mr. Dicks. We understand that you plan to spend 20 million 
on a kill vehicle for KEI. Is that what you are talking about?
    General Obering. Yes, sir. Yes, sir.
    Mr. Dicks. Will that 20 million be under the current KEI 
contract?
    General Obering. Yes, sir.
    Mr. Dicks. General, if the KEI program achieves a 
successful booster flight in 2009, will you accelerate the 
program?
    General Obering. Yes, sir. I do not know if ``accelerate'' 
is the proper word, but we would certainly go for the full 
funding for initially a land-based mobile capability, because 
we believe that provides the most promise in the near term. And 
eventually we could even sea-base the capability if we so 
choose to.
    Mr. Dicks. Mr. Francis, anything else you would like to add 
again? Talk about these blocks again. What again are your 
concerns? You say they are going part way in the direction GAO 
wants. But if you could convince them to do everything you 
wanted, what would the final two or three things be?
    Mr. Francis. Mr. Chairman, I think that the main thing 
would be to develop a total cost estimate for those blocks that 
I think are close enough along where you could reasonably do 
that estimate and have those estimates independently verified. 
I also think that, as I had mentioned before, for Missile 
Defense to clarify what unit costs it is going to track, what 
criteria they will use to report on those and how it will 
report.
    And I also think that to help the Missile Defense Executive 
Board out there needs to be some things done on technology 
development efforts in missile defense, which could comprise 
about half of the budget. Right now they are not amenable to a 
very strict baseline, but we think some things need to be done 
to help the executive board get a good gauge on not only 
technical progress, but matching technical progress with budget 
and cost as well. So some kind of a construct to facilitate 
oversight of technology capability.
    Mr. Dicks. Okay. You want to comment on that, General?
    General Obering. Yes, sir, if I may. First of all, the 
GAO's report is draft. And we are still commenting on the 
report that they have submitted. And there is a couple of 
things that we are going to comment on. One is we do plan to 
provide total cost estimates for the blocks to include life 
cycle costs. And in fact, we engaged the CAIG, the Cost 
Analysis Group at OSD to be able to do that. And we want to be 
very careful on how we are reporting out on our unit costs 
primarily because of just like I said before, we want to make 
sure that we continue to do this as an integrated weapons 
system.
    And so we want to make sure that we do not have the 
situation where we are reporting out on the costs of the tires 
of an aircraft, for example, to put an analogy, as opposed to 
reporting on the entire aircraft. And so we are going to be 
careful as to how we report that out and what those variances 
are. But if you will allow me a little bit of leeway, I want to 
proceed carefully with the GAO's recommendations, because if we 
are not careful, and Mr. Tiahrt kind of alluded to this, we 
will end up looking like every other program in the Department.
    And I do not think that is what we want to do. I think we 
have shown the ability to get things out the door faster. And I 
think we have shown an amount of cost accountancy that is 
reasonable for the Department, and flexibility that is 
necessary in the uncertain future. So I want to be careful as 
to what we incorporate and what we do not.
    Mr. Dicks. Well, and I can understand that. I think in 
looking back on programs that we have done well in the 
classified area, because a lot of times the flexibility and the 
ability just to go forward and do it, like the F-117 stands out 
in my mind, is a very important thing.
    Now, General Campbell, in your statement, you talked a 
little bit about the conditions up at, is it Fort Greely in 
Alaska?
    General Campbell. Yes, sir.
    Mr. Dicks. Tell us about that. What are your troops faced 
with up there in operating that base in the remote areas of 
Alaska?
    General Campbell. Mighty cold days and cold nights. But if 
we go back----
    Mr. Dicks. What can we do to help them?
    General Campbell. We have worked with our own Installation 
Management Command on the mission support side. And the one 
lesson I have walked away with as we look at that, when we go 
to Europe that you want to make sure that the mission support 
side of this business is at the same level as the missile 
defense capability. I think it is foolish not to invest in 
both. The soldiers, the men and women that operate this are 
just as vital to that system as the missile that is in the 
silo.
    So each time I go up there, we are continuing making 
progress. The missile defense system is in good shape. They are 
well trained. But on the mission support side, we still have a 
little ways to go in providing them with the things that I 
enjoy in Huntsville, Alabama. It shouldn't be really any 
different in Fort Greely, Alaska, for that.
    Mr. Dicks. Could you be a little more specific about what 
the deficiencies are?
    General Campbell. The type of deficiencies on the support 
side usually relate to soldier care and family care. For 
example, this post was a closed post, Fort Greely, in 1995. It 
was brought back to life so we could support the missile 
defense complex. So areas such as a community activities center 
for families that had been closed years ago, so we have to go 
in and get money to build a new one.
    Mr. Dicks. You have families living up there?
    General Campbell. Absolutely. Yes, sir. On Fort Greely. As 
well as the Missile Defense Agency has folks living right there 
at Fort Greely. So this is a vibrant place. There is a lot of 
activity there. And we have to catch up on the mission support 
side for these folks.
    Mr. Dicks. I take it Vandenberg, that is pretty easy?
    General Campbell. I am not--we have a very small element at 
Vandenberg, on the order of seven soldiers to manage the silos 
that are there.
    Mr. Dicks. Why is that? Why is it different between Fort 
Greely and Vandenberg?
    General Obering. Colorado Springs is where we have the fire 
control element. That is the backup for Fort Greely.
    General Campbell. Right.
    Mr. Dicks. But you have interceptors there, too, right?
    General Campbell. No. Not at Colorado.
    General Obering. Just at Vandenberg. We had interceptors at 
Vandenberg and fire control at Colorado Springs. It just so 
happens we have interceptors and fire control at Fort Greely.
    Mr. Dicks. I got it. I got the difference. So the next 
major test for you, General Campbell, will be in this European 
scenario, if that goes forward. And again, give us some ideas--
I am on the military construction subcommittee as well. Give us 
some of the ideas of what you are going to need over there.
    General Campbell. Yeah. We have taken a look at it. And 
right now, until the negotiation is complete, we envision that 
we could have as few as 33 U.S. soldiers at the interceptor 
site all the way up to 255. And those are estimates based on 
what we have seen at Fort Greely. We do not know yet how much 
the Poles will assist us with base security, for example, or 
how much they will put into support infrastructure on the base 
for the living quarters and those other support activities 
diction.
    Mr. Dicks. Is there an existing facility there?
    General Campbell. There are buildings there from the Polish 
force on that site. I personally have not been over there yet. 
I do not think we have been on the site at all yet, even the 
Missile Defense Agency, so we have not had a site survey done 
to determine if we can refurbish those. But again, I will go 
back to lessons learned at Fort Greely, if we find that those 
are substandard, to me it is worth the investment to put in the 
right barracks, the right dining facilities and support 
facilities for those troops that we put there.
    Mr. Dicks. Okay. Now, looking out into the future, where 
would you have--where would be the potential place for future 
bases? I mean, you have got Fort Greely, you have got 
Vandenberg, you have got maybe the European site. What would be 
out in the future in the kind of robust system that you are 
talking about?
    General Obering. Sir, I believe that once we get the layer 
of the 44 interceptors in the United States in Alaska and 
California and the 10 in Europe, I think that is all we need to 
do respect to silo-based defenses.
    Mr. Dicks. Okay.
    General Obering. I think what we need to invest in, and you 
will see that ramped up more and more in the budget, is in 
mobile flexible defenses. So KEI, for example, and the ability 
to move that around as you need to, the ship-based SM-3s, and 
the SM-3 Block IBs and IIAs and IIB, frankly, which is that 
Multiple Kill Vehicle variant. Having the flexibility to move 
these defenses around as you need them I think is the way to 
go. And the Secretary of Defense has asked me that before in 
the past.
    And I do believe we have enough with the silo-based shield 
to provide that protection, that initial shield in terms of an 
urgency with respect to North Korea and Iran. And then where we 
may face in the future we don't know. It could be coming from 
any azimuth. And to be able to have that flexibility would be 
very useful.
    Mr. Dicks. Mr. Bishop, do you have anything further? All 
right. The Committee will stand adjourned. Thank you very much. 
The Committee is adjourned until Wednesday, the 27th, at 10 
a.m., for a hearing on shipbuilding.
    General Obering. Thank you, sir.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow.]

                         NRO Satellite Mission

    Question. On February 20th, the Missile Defense Agency (MDA) shot 
down a non-functioning National Reconnaissance Office satellite. MDA 
used a network of sensors to track the satellite, and then a modified 
Standard Missile-3 from the AEGIS cruiser, USS Lake Erie. Most of the 
debris from impact was expected to burn up on reentry within 24 to 48 
hours and the remaining debris is expected to re-enter within 40 days.
    Did this test prove the effectiveness of a U.S. anti-satellite 
capability?
    Answer. No. The satellite engagement was not a test of an anti-
satellite capability. The President decided to destroy the satellite to 
prevent terrestrial damage or loss of life. His advisors presented him 
with a range of options, including one involving the missile defense 
system. Existing missile defense capabilities were subjected to an 
extensive, one-time modification, and were employed in a manner for 
which they were not developed to accomplish the mission. System 
modifications to the Aegis ship used for the test were reversed, and 
the unused interceptors were returned to their BMD configuration. MDA 
does not maintain, nor is it developing, an anti-satellite capability.
    Question. In a briefing to the press, Gen. James E. Cartwright, the 
vice chairman of the Joint Chiefs of Staff noted that important 
elements of the sensors for the nation's missile defense system had 
been used. Could you describe the sensors that were used to conduct 
this test?
    Answer. The Missile Defense Agency (MDA) Sensors program was 
responsible for the BMDS sensor activities conducted during all phases 
of the NRO Satellite intercept mission, including pre-mission planning 
and analysis, real-time mission execution, and post-flight hit and kill 
assessment. MDA sensors directly supported STRATCOM during all phases 
of the mission. Multiple BMDS ground-based and mobile assets 
participated, including 3 AN/TPY-2 X-Band radars, the Sea-Based X-Band 
(SBX) radar, and the Ground-Based Radar-Prototype (GBR-P) X-Band radar.
    The AN/TPY-2 radars provide homeland and regional defense and can 
be integrated into the THAAD Weapon System. During this satellite 
intercept, one radar participated from Vandenberg Air Force Base 
(VAFB), CA. A second AN/TPY-2 radar was located at the Pacific Missile 
Range Facility where it is currently supporting THAAD flight testing. 
The third radar was located at White Sands Missile Range (WSMR) for 
Limited Environment Testing and New Equipment Training prior to 
fielding THAAD Fire Unit #1.
    The SBX radar is mounted on a mobile, ocean-going platform that was 
located in the vicinity of Hawaii for this mission. The radar provides 
a unique capability to detect, track, and discriminate complex and 
challenging threats. The radar is currently undergoing BMDS-level 
testing to demonstrate operational capability.
    The GBR-P was originally developed as part of the three year 
National Missile Defense development phase to support flight testing 
and system integration. It is located at the Reagan Test Site (RTS) in 
the Kwajalein Atoll.
    The External Sensors Laboratory (ESL) located at the Missile 
Defense Integration and Operations Center was established to take 
advantage of sensor systems that other agencies operate and apply those 
sensor data to the BMDS mission. During this mission, ESL tasked 
several electro optical sensors to observe the intercept point. Based 
on these observations, ESL was able to confirm the hit within seconds 
of the actual event. Further, the ESL provided some of the first 
confirming analysis that the hydrazine tank had been breached.
    Question. Has the conduct of the satellite shoot down, harmed, in 
any way foreign cooperation with the Missile Defense Agency?
    Answer. There have been no negative impacts on MDA's foreign 
cooperation efforts as a result of this satellite shoot down. The 
Director of MDA briefed information on the satellite shoot down during 
a 5 March 2008 NATO North Atlantic Council (Reinforced) meeting (Allies 
reinforced from capitals) and the feedback from the Allies was 
positive.
    Question. Did the Missile Defense Agency have other options for 
intercepting the satellite, and were those options considered?
    Answer. The Missile Defense Agency and the Combatant Commands 
examined options to include the Ground-based Midcourse Defense (GMD) 
long-range interceptor element and also the Terminal High Altitude Area 
Defense (THAAD) element. It was determined that the inherent 
flexibility of the Aegis Ballistic Missile Defense element to place a 
Standard Missile-3 equipped ship in an optimal position in the Pacific 
Ocean was the best way to effectively engage the de-orbiting satellite.
    Question. What was the relative size of the intended target (tank) 
on the satellite as compared to the ``sweet spot'' on a ballistic 
missile warhead?
    Answer. The physical sizes of the satellite's hydrazine tank and a 
ballistic missile warhead are roughly comparable. The relative size of 
the sweet spot on a warhead is roughly similar to the relative size of 
the hydrazine tank as part of the larger satellite.
    Question. In the event of an incoming missile, about how much time 
would the Aegis program have to be alerted and prepare to fire? About 
how much time did the Aegis program have to prepare to fire on the 
satellite?
    Answer. The amount of time available for Aegis alertment and firing 
preps is dependent upon a variety of factors, especially the 
availability and quality of off-board sensor inputs. Available time 
could range from seconds to hours or days or longer.
    In the case of the satellite, the Aegis units involved had on the 
order of several weeks advance notification of the need to engage, and 
tens of seconds to actually initiate the successful engagement.
    Question. How does the launch window for the satellite differ from 
the launch window for a ballistic missile?
    Answer. The actual launch window to shoot the SM-3 to intercept the 
satellite was not significantly smaller than what would be expected for 
intercepts of ballistic missiles, especially when deployed forward for 
ascent phase intercepts.
    On the other hand, while the NRO satellite mission was planned in 
advance, there would likely be limited warning and preparation time in 
the case of a hostile ballistic missile launch.
    Question. The Aegis element required modifications before it could 
fire on the satellite and successfully intercept its target. How long 
did it take and what was the cost of making these modifications?
    Answer. Aegis BMD was assigned the Satellite mission on 4 January 
2008 and less than seven weeks later the satellite was successfully 
intercepted. The total cost was $112.3M of which $93.4M was for the 
Aegis BMD Program.
    Question. Please describe the total cost of conducting the mission 
to shoot down this satellite including missiles, modifications to the 
Aegis and other systems, and any other costs directly related to this 
mission.
    Answer. The total cost of the mission has been assessed at 
$112.361M and includes expenditures by the U.S. Pacific Fleet, the 
Aegis BMD Program Office, and other MDA radar and test assets. Detailed 
expenditure information is below.

------------------------------------------------------------------------
                Item                       Description        FY08 Cost
------------------------------------------------------------------------
Missile Hardware...................  Replacement of 1            $14.100
                                      Production Round.
Missile Modifications..............  Modifications;               10.675
                                      Certification &
                                      Simulation; Shipping
                                      and Software Analysis.
Aegis Weapon System................  Software Testing;             6.055
                                      Installation &
                                      Checkout; Analysis;
                                      Combat System
                                      Engineering
                                      Development Site
                                      (CSEDS) Usage.
Data Analysis......................  MDIOC and Aegis BMD...        2.102
Ship...............................  Mission Support and           1.364
                                      Training.
Pacific Fleet Costs................  Fuel, Tanker                 11.300
                                      Availability and
                                      Personnel.
Aegis BMD Developmental Program....  Buy back estimated 2         59.145
                                      month schedule delay
                                      to Blk IB development
                                      and increased risk to
                                      test program.
Sensor/Radar Utilization...........  SBX, TPY-2's and GBR-P        2.920
Airborne Sensor Utilization........  HALO-I Mission Costs..        2.537
Other Costs........................  Test Range,                   2.163
                                      Situational Awareness
                                      and Communications
                                      Nodes.
Engineering........................  Lethality Analysis....  ...........
                                                            ------------
                                      .....................      112.361
------------------------------------------------------------------------

            U.S. Taxpayers Paying for the Defense of Europe

    Question. Based on the Administration's current plan, it seems that 
the U.S. taxpayers will be picking up the costs of defending Europe 
from ballistic missile threats.
    Have you discussed this issue with the Europeans?
    Answer. Yes. The Allies are aware of the large financial commitment 
that the U.S. is making to the European deployment, which will also 
provide additional protection to the U.S. while protecting the European 
population and also providing protection for our deployed forces in the 
European theater.
    Question. If so, what type of contribution are they likely to make?
    Answer. The United Kingdom and Denmark (host of the UEWR radars in 
Fylingdales and Thule, Greenland, respectively) as well as Poland (host 
of the GBI site) and the Czech Republic (host of the European Midcourse 
X-Band Radar) will provide a substantial contribution to the U.S. BMDS 
and the Alliance by hosting these missile defense assets on their 
territory.
    Additionally, NATO Allies already have or are pursuing short- and 
medium-range theater missile defense capabilities that will be 
integrated into the Active Layered Theater Ballistic Missile Defense 
(ALTBMD) Program to protect deployed forces, including acquiring/
upgrading PATRIOT PAC 2/3 systems and co-developing the Medium Extended 
Air Defense System. This will provide a significant contribution to U.S 
and European security.
    Question. How many missiles is Poland planning on procuring?
    Answer. The Ground Based Interceptors deployed in Europe will be 
procured by the U.S. These missiles will provide protection to the 
European population and additional protection to the U.S. homeland and 
our deployed forces in the European theater.
    Question. What has NATO agreed to do with regard to missile defense 
in Europe?
    Answer. NATO Missile Defense Systems.
    NATO agreed to develop the Active Layered Theater Ballistic Missile 
Defense (ALTBMD) Program that will have a command and control 
capability to link Allies' short range missile defense assets for 
protection of deployed forces. In 2011, the ALTBMD Program plans to 
deliver what it calls a ``lower layer'' capability (i.e., Patriot like 
system). Future capabilities will include ``upper layer'' systems like 
THAAD and SM-3. The Final Operational Capability for the ALTBMD systems 
is scheduled for 2017.

                     NATO Missile Defense Policies

    Secondly, at NATO's Prague Summit in 2002, NATO Heads of State and 
Government (HOSG) agreed to conduct a study (the Missile Defense 
Feasibility Study (MDFS)) to examine the feasibility of a system to 
protect European territory and populations from long-range threats. The 
MDFS was completed in 2006 and concluded that such a system is 
technically feasible.
    When the HOSG reviewed the MDFS at the Riga Summit in November 
2006, it was decided that further work was needed to address remaining 
questions in the policy, military, and technical areas of the MDFS. 
These ``Riga taskings'' along with NATO Defense Ministers' June 2007 
tasking to assess the implications of the US European Capability form 
the basis of a report that will inform the discussion at the Bucharest 
Summit planned for April 2008. This report on the Riga and Defense 
Ministers' taskings concludes that the US European Capability will 
provide substantial coverage for most of NATO territory.
    The NATO Secretary General, Mr. Jaap de Hoop Scheffer, attested to 
the level of NATO agreement in his 19 April 2007 remarks:
    ``There is absolutely a shared threat perception between the 
Allies. Allies all agree that there is a threat from ballistic 
missiles.''
    ``The Allies are united on the issue, on the threat, and on the way 
ahead.''

                     European Site and NATO Allies

    Question. Several NATO allies have expressed concern about the 
Administration's decision to deploy missile defense on a bilateral 
basis (i.e., with Poland and the Czech Republic) rather than through a 
NATO process.
    Why did the Administration decide to move forward on a bilateral 
instead of a multilateral process with NATO?
    Answer. Forces operating under NATO auspices are not typically NATO 
assets but force/capability contributions made by NATO members. This is 
the common model that the U.S. has chosen to follow for the European 
Deployment. We held significant discussions with our North Atlantic 
Treaty Organization partners on a way forward to strengthen Trans-
Atlantic unity and improve protection for all NATO countries against 
longer-range missile threats.
    Question. What impact will this decision have on NATO?
    Answer. The European deployment will provide protection to most of 
Europe from the long-range ballistic missile threat posed by Iran. 
Further, the planned interoperability of the U.S. Ballistic Missile 
Defense System and the European Active Layered Theater Ballistic 
Missile Defense (ALTBMD) will greatly enhance the effectiveness of both 
systems, reaffirms the indivisibility of U.S. and European security 
interests, strengthens deterrence and promotes regional stability by 
giving U.S. and European leaders more options, limits the ability of 
hostile governments to coerce European allies thereby indirectly 
holding the United States hostage, and devalues the utility of 
ballistic missiles.
    Question. Could this potentially become a divisive issue within the 
Alliance?
    Answer. The U.S. is working hard to ensure a common understanding 
among NATO allies of the proposed European deployment. On September 3, 
2007, NATO Secretary General Jaap de Hoop Scheffer stated publicly that 
there is ``absolutely a shared threat perception between the Allies.'' 
At the Bucharest Summit, NATO allies are fully expected to reach 
agreement on a way forward for cooperation between the European 
Deployment and NATO Missile Defense efforts.
    Question. Could you provide us an update on our consultations with 
NATO to date?
    Answer. Public Diplomacy/Pol-Mil:
    The U.S. has been actively engaged with its NATO partners on this 
issue in a number of fora, both political and technical. We have 
participated in and briefed on the proposed deployment in every North 
Atlantic Council and NATO Russia Council Meeting since February 2007. 
We have also played an active role within the Executive Working Group 
as NATO moved forward to develop a position on the proposed deployment.
    Technical:
    Under the auspices of the Conference of National Armaments 
Directors, we have played a leading role on the Missile Defense Project 
Group to ensure that accurate and comprehensive reports have been 
developed for NATO's decision makers:
    In June 2007, the NATO Defense Ministers tasked the Council of 
National Armaments Directors (CNAD) via the North Atlantic Council and 
NATO's Executive Working Group to study the implications of the U.S. 
proposed European Site.
    In October 2007, the CNAD agreed to a report, the Defended Asset 
Analysis Report, which indicated that the proposed U.S. European Site 
provides substantial coverage to the Alliance against ballistic missile 
attacks.
    In March 2008, the NATO Missile Defense Project Group (tasked by 
the CNAD to lead the June 2007 tasking), issued agreement on the 
Executive Summary of the Report on the Riga and June 2007 Defence 
Ministerial Taskings on MD and a corresponding Annex with limitations 
and assumptions of the report and noted the 215 page report main body. 
This Executive Summary supports that the European Capability will 
provide substantial coverage to most of NATO territory.
    Question. Is there currently a formal NATO endorsement or approval 
of the proposed deployment?
    Answer. The NATO Heads of State will meet in early April in 
Bucharest. They are expected to issue a report that is supportive of 
the European deployment.
    In June 2007, the NATO Defense Ministers tasked the Council of 
National Armaments Directors (CNAD) via the North Atlantic Council and 
NATO's Executive Working Group to study the implications of the U.S. 
proposed European Site.
    In October 2007, the CNAD agreed to a report, the Defended Asset 
Analysis Report, which indicated that the proposed U.S. European Site 
provides substantial coverage to the Alliance against ballistic missile 
attacks.
    In March 2008, the NATO Missile Defense Project Group (tasked by 
the CNAD to lead the June 2007 tasking), issued agreement on the 
Executive Summary of the Report on the Riga and June 2007 Defence 
Ministerial Taskings on MD and a corresponding Annex with limitations 
and assumptions of the report and noted the 215 page report main body. 
This Executive Summary supports that the European Capability will 
provide substantial coverage to most of NATO territory.
    Question. What formal requirements does NATO have for missile 
defense in Europe?
    Answer. NATO currently has a requirement to protect deployed forces 
against ballistic missiles with a range of less than 3000 kilometers.
    While NATO currently has this single requirement for protection of 
deployed forces, it is also currently studying architecture options and 
requirements for the defense of territory and population.

              European Site and Polish and Czech Relations

    Question. Until recently, there had been strong public support in 
Poland and the Czech Republic for deploying U.S. missile defense 
capabilities in their respective territories. However, over the past 
several months, public support for the potential deployment has 
decreased.
    What have been the key reasons contributing to the change in public 
opinion in Poland or the Czech Republic?
    Answer. The U.S. is sensitive to the concerns of the citizens of 
Poland and the Czech Republic and has assisted the host governments, 
when requested, with information to inform their citizens and provide a 
better understanding of our plans to base U.S. missile defenses in 
their countries. We are complementing these efforts by engaging the 
wider European community on our missile defense plans to communicate 
how our efforts contribute to overall regional security.
    Despite criticisms of the proposed deployment by some, the host 
nation governments continue to support U.S. missile defense basing 
plans. We are moving forward with plans to complete negotiations in the 
next few months. These negotiated agreements ultimately must be 
approved by the Polish and Czech Parliaments.
    Question. Have the different political parties in Poland or the 
Czech Republic have an influence over the negotiations?
    Answer. We have enjoyed a productive working relationship with our 
Czech and Polish counterparts regardless of their party.
    Question. What impact will this have on our decision to move 
forward?
    Answer. It has not impacted our decision to move forward. We have 
made good progress in negotiations with both the Czechs and the Poles.
    Question. What impact do the local entities have over the 
negotiations (i.e. mayors and local politicos)
    Answer. The Ministry of Foreign Affairs in both Poland and the 
Czech Republic are responsible for negotiation of these agreements. We 
are unaware of any direct influence from any local entities in either 
country.

                Use of THAAD and Aegis To Defend Europe

    Question. One of the Administration's key rationales for deploying 
a GMD site in Europe is to protect our forward deployed radars in 
Europe. That said, if Iran decided to attack our European radars they 
would use medium and intermediate-range missiles, the type of missiles 
that THAAD and the SM-3 are designed to counter.
    Why can't we use THAAD and the SM-3 missile to protect Europe, 
especially the radars, from medium and intermediate range missile 
threats? Isn't that what these systems are designed for?
    Answer. Yes, we could use THAAD and Aegis BMD with SM-3 
interceptors to protect locations in Europe, especially the radar 
sites, from medium (MRBM) and intermediate (IRBM) range missile 
threats. However, the number of ship stations, total number of ships 
and/or total number of THAAD Fire Units to protect Europe on a 24/7/365 
force alert posture would be cost prohibitive and could be susceptible 
to increasingly complex threats. Aegis BMD and THAAD are ideally suited 
as a complementary capability option to the European Interceptor Site 
(EIS) to provide layered defense of key areas, defend the parts of 
Europe that EIS cannot or provide some protection while the EIS is 
being built. Each is designed for this capability.
    For complete coverage of Europe and redundant coverage of the U.S., 
the best BMDS solution is a mix of THAAD, Aegis BMD and EIS working 
together with land and space based sensors.
    Question. Couldn't the SM-3 Block IIA missile, which we are 
currently co-developing with Japan, protect most European population 
centers from medium and intermediate range missile threats?
    Answer. ------.
    Question. What are the implications for the Navy's or the Army's 
force structure requirements if an SM-3 or THAAD alternative were to be 
pursued?
    Answer. ------.

        Two-Stage Ground-Based Interceptor for the European Site

    Question. When MDA submitted its fiscal year 2008 budget, it 
requested funds to continue the acquisition of GBIs for the European 
site, but this time it stated those interceptors would have a two-stage 
booster. The fiscal year 2009 budget submission continues this effort.
    Has MDA conducted a study of the feasibility of using a 2-stage 
booster at a European site? If so, what were the results of the study? 
Has MDA conducted a test of a two-stage booster?
    Answer. Yes, the MDA has conducted studies of the feasibility of 
using a 2-stage booster at a European site. The results of this study 
show using a 2-stage vice 3-stage booster is required to better defend 
Europe against Iranian threats.
    The 2-stage booster is being developed primarily to meet the needs 
of the defense of Europe, but also expands protection of the U.S. 
homeland with its capability to intercept long range ballistic missiles 
targeting the U.S. Its shorter minimum engagement time is better suited 
to engage threat ranges in the European Theater. The European 
Interceptor Site (EIS), combined with mid-course and forward-based 
radars, provides considerable redundant coverage of the U.S. and, 
depending on the threat, defends Western and Central Europe and most of 
Eastern Europe.
    The 2-stage booster is a configuration of the currently deployed 
and flight-tested 3-stage booster at Fort Greely and Vandenberg Air 
Force Base. The booster contractor will complete design modifications 
to eliminate the third stage rocket motor and repackage the booster 
electronics that were located on the third stage. Additionally, 
navigation and guidance software changes will enable the interceptor to 
perform mission profiles for two stages of flight versus three. The 
common components between the 2-stage and 3-stage booster have 
undergone significant ground, flight, and qualification testing as part 
of the 3-stage development effort. Because the 2-stage interceptor 
planned for Europe has fewer components than its 3-stage predecessor, 
the 2-stage variant is a less complex version of the successfully 
tested and fielded 3-stage interceptor.
    The Ground-Based Midcourse Defense (GMD) 2-stage development 
activity has started and a Program Critical Design Review is scheduled 
to occur in December of 2008. Two flight tests will be conducted, both 
from Vandenberg Air Force Base in California, prior to the deployment 
of the interceptors at the European site. The two flight tests include 
a booster verification flight with an Exo-atmospheric Kill Vehicle 
(EKV) mass simulator and an integrated flight test with an EKV and a 
threat-representative target vehicle. These tests are scheduled to be 
completed in 2009 and 2010 respectively. The GMD Fire Control (GFC) and 
Command and Launch Equipment (CLE) software adapted for the 2-stage 
interceptor will also be included in the 2-stage intercept flight test.
    MDA has successful prior experience in modifying 3-stage boosters 
to fly 2-stage missions. The Payload Launch Vehicles (PLVs) flown in 
the GMD program's first ten Integrated Flight Tests (January 1997 
through December 2002) were 2-stage variants of the standard 3-stage 
Minuteman boosters. The 2-stage interceptor reliability will be 
demonstrated through rigorous component qualification, integration 
testing, ground testing and flight testing.
    Question. What is the cost of retrofitting the booster from a 
three-stage to a two-stage configuration?
    Answer. The estimated cost for retrofitting an on-hand booster 
stack from a 3-stage to a 2-stage configuration is $4.5M. The estimated 
cost for retrofitting an emplaced 3-stage Ground-Based Interceptor 
(GBI) to a 2-stage configuration is $8.83M.
    To date, MDA has not retrofitted a booster from a 3-Stage GBI to a 
2-Stage GBI, therefore the estimates provided here are based on a 
combination of actual costs for tasks already performed as part of the 
ongoing 3-Stage interceptor program, engineering estimates and 
estimates derived from similar activities already performed. 
Additionally, the cost of retrofitting shown below assumes a level of 
manufacturing similar to the current program. If the manufacturing rate 
drops, retrofit costs could be substantially higher.
    The $4.5M estimate assumes the starting point is a completed 3-
Stage booster stack on hand at the Orbital Sciences Corporation (OSC) 
Missile Assembly Building (MAB) at Vandenberg Air Force Base (VAFB), 
CA. Three additional 2-Stage-related hardware items are necessary for 
the retrofit:
          <bullet> Booster Avionics Module (BAM) adapter ring ($200k)
          <bullet> Wire harness installation modification ($350k)
          <bullet> 2-Stage shroud (with relocated cutouts for the 
        Attitude Control System (ACS) thrusters ($750k)
    The total estimated cost for additional 2-Stage specific hardware 
is $1.3M.
    Required work at the OSC MAB to convert from a 3-Stage to a 2-Stage 
booster stack includes:
          <bullet> Disassembly of the booster stack to remove the third 
        stage ($500k)
          <bullet> Reintegration/retesting of the 2-Stage booster stack 
        to include the BAM adapter ring and the wire harness 
        installation modification ($2.7M)
    The total cost of the booster stack disassembly and reintegration 
work at the OSC MAB is $3.2M.
    The $8.83M estimate assumes the starting point is an emplaced 3-
Stage Limited Defensive Capability (LDC) GBI, additional activities are 
required to complete the de-emplacement, retrofit, and re-integration, 
and re-emplacement of a 2-Stage interceptor. For example, assuming an 
emplaced Fort Greely, AK (FGA) LDC GBI is the starting point, a 
complete retrofit would incur the following additional costs:
          <bullet> Interceptor removal from silo and transportation to 
        the FGA MAB ($150k)
          <bullet> De-mate of the 3-Stage booster stack from the 
        Payload Avionics Module (PAM) ($100k)
          <bullet> Transport 3-Stage booster stack from FGA MAB to OSC 
        MAB ($183k)
          <bullet> Upon completion of retrofitting [$4.5M described 
        above], return transportation for the reconfigured 2-Stage 
        booster stack from OSC MAB to FGA MAB ($183k) [Transportation 
        costs to other re-emplacement sites will vary depending on 
        location, with European Interceptor Site (EIS) costs being the 
        greatest; however, EIS transportation costs have not been 
        determined.]
          <bullet> Reintegrate booster stack and PAM at FGA MAB ($3.3M)
          <bullet> Transportation from the FGA MAB to silo, 
        emplacement, and return to operations ($550k)
    These additional costs total $4.33M.

                          New Block Structure

    Question. MDA established a new block acquisition approach in 
response to Congressional concerns about transparency and 
accountability. Whereas previously MDA developed capabilities in two-
year increments, it now plans to develop and field capabilities based 
on specific threat sets. Five blocks are currently defined:
      <bullet> Block 1--Defend the U.S. from limited North Korean long-
range threats;
      <bullet> Block 2--Defend Allied/Deployed Forces from short-to-
medium-range threats;
      <bullet> Block 3--Defend the U.S. from limited Iranian long-range 
threats;
      <bullet> Block 4--Defend Allied/Deployed Forces in Europe from 
limited Iranian long-range threats; and
      <bullet> Block 5--Expand defense of Allied/Deployed Forces from 
short-to-intermediate-range threats in two theaters.
    In its recent draft report, GAO noted that the new block structure 
does not address whether the assets included in a block will be 
transferred at the block's completion to a military service for 
production and operation. Officials across DOD recognize that transfer 
criteria are neither complete nor clear given the BMDS's complexity. 
Without clear transfer criteria, MDA has transferred the management of 
only one element--the Patriot Advanced Capability-3--to the military 
service for production and operation. MDA and the military services 
have been negotiating the transition of responsibilities for the 
sustainment of fielded elements--a task that has proven arduous and 
time consuming.
    How have the block priorities been determined?
    Answer. MDA has three strategic objectives that drive our block 
construct and budget priorities. The five blocks and non-block 
(Capability Development) funding category are associated with the 
strategic objectives as follows:
    1. Maintain and sustain an initial capability to defend the U.S., 
allies and our deployed forces against rogue nation attacks:
          a. Homeland defense against long-range missiles from North 
        Korea (Block 1.0--Defense of the U.S. from Limited North Korean 
        Long-Range Threats)
          b. Develop initial defense for deployed forces and allies in 
        regional conflicts (Block 2.0--Defense of Allies and Deployed 
        Forces from Short-to-Medium Range Threats in One Region/
        Theater)
    2. Close gaps and improve this capability against rogue states:
          a. Expand homeland defense against Iran (Blocks 3.0--Expand 
        Defense of the U.S. to Include Limited Iranian Long-Range 
        Threats and 4.0--Defense of Allies and Deployed Forces in 
        Europe from Limited Long-Range Threats/Expand Protection of the 
        U.S. Homeland)
          b. Defeat larger and more complicated attacks (e.g., decoys, 
        multiple warheads) (Block 3.0 and Capability Development)
          c. Extend deterrence, enhance defenses for deployed forces 
        and allies, and increase international cooperation (Blocks 4.0 
        and 5.0--Expand Defense of Allies and Deployed Forces from 
        Short-to-Intermediate Range Threats in Two Regions/Theaters)
          d. Extend U.S. decision time and complicate enemy planning 
        (Block 4.0 and Capability Development)
    3. Develop options to dissuade and stay ahead of current and 
emerging threats:
          a. Leverage technological advantage to increase defense 
        effectiveness (Capability Development)
          b. Build a foundation for global access and response 
        (Capability Development)
    Question. How is this new block structure reflected in the budget 
request?
    Answer. MDA's budget is organized for FY 09 and through the period 
of the Future Years Defense Program (FYDP) based on the existing 
program element (PE) structure subdivided according to the new block 
structure. For example, the BMD Midcourse Defense Segment PE has budget 
projects for Ground Based Midcourse Defense (GMD) Blocks 1.0 (Defense 
of the U.S. from Limited North Korean Long-Range Threats), 3.0 (Expand 
Defense of the U.S. to Include Limited Iranian Long-Range Threats), and 
4.0 (Defense of Allies and Deployed Forces in Europe from Limited Long-
Range Threats/Expand Protection of the U.S. Homeland).
    Also, BMDS program funding that does not fit into existing blocks 
(1.0 through 5.0) is assigned to four general categories:
          <bullet> Capability Development--technology programs that are 
        maturing and being considered for future blocks (Block 6.0, 
        etc.); for example, the defense of the United States against 
        complex countermeasures might draw on multiple kill 
        capabilities from the multiple kill vehicle (MKV) program
          <bullet> Sustainment--operations and support of weapon 
        systems, sensors, and command and control, battle management 
        and communications (C2BMC) components
          <bullet> Mission Area Investment--activities that support 
        multiple blocks and capability development activities and 
        cannot be reasonably assigned to a specific block or capability 
        development program (e.g. intelligence and security; modeling 
        and simulation; systems engineering and testing cores; safety, 
        quality, and mission assurance)
          <bullet> MDA Operations--activities that support the Agency, 
        such as Management Headquarters and Base Realignment and 
        Closure (BRAC)
    Question. How does the new structure meet the stated goal of 
addressing Congressional concerns?
    Answer. MDA's new block structure was designed to address 
Congressional concerns about accountability and transparency and to 
better communicate to the Congress, Military Departments, GAO, and 
other stakeholders our plans and baselines and the continuing 
improvements in BMDS capabilities that are expected to be delivered to 
the war fighter.
    Congressional concerns such as the movement of program content from 
one block to another and our development program being schedule-driven 
rather than vent-driven are addressed by the new block structure, which 
has several key tenets:
          <bullet> Blocks will be increments of BMDS capabilities--
        rather than biennial time periods--being fielded against 
        particular threats. They will represent a discrete program of 
        work.
          <bullet> When MDA believes a firm commitment can be made to 
        the Congress, blocks will have schedule, budget, and 
        performance baselines. Schedule delays, budget increases, and 
        performance shortfalls will be explained as variances.
          <bullet> Once baselined, work cannot be moved from one block 
        to another.
    Question. Given that at the end of each block, MDA plans to have 
fully-mission capable components, when does the agency plan to 
transition and transfer such components to the military service?
    Answer. In accordance with 10 U.S.C. 224, Ballistic Missile Defense 
Programs, minimum criteria for the transfer of responsibility for 
elements of BMDS from the MDA Director to the Secretary of a military 
department is established by the Secretary of Defense. At the very 
least, the criteria established for such a transfer shall address the 
technical maturity of the program, the availability of facilities for 
production, and the commitment of the Secretary of the military 
department concerned ensuring procurement funding for that program, as 
shown by funding through the FYDP and other defense planning documents.
    Current status of planned transition and transfer for BMDS 
components to identified Lead Military Departments is detailed on the 
attached slide, ``Integrated Ballistic Missile Defense Scorecard.'' 
Several dates are currently undefined, as element progress is event-
based vice time-based. As the BMDS meets MDA Director approved 
Knowledge Points, it will progress through and be potentially available 
for Early Capability Delivery, Partial Capability Delivery, and Full 
Capability Delivery. After Commander, United States Strategic Command 
has completed a Military Utility Assessment; USSTRATCOM will declare 
Partial Mission Capability and Full Mission Capability. Actual transfer 
dates will be agreed upon after close coordination between MDA and the 
designated Lead Military Department.

                    Missile Defense Force Structure

    Question. What efforts has the Department undertaken to assess 
missile defense force structure requirements?
    Answer. The Missile Defense Agency (MDA) has initiated a number of 
analyses, embodied in the ``MDA Summer Study'' effort and elsewhere, to 
determine what baseline force would be required to counter long range 
ballistic missile (LRBM) threats. These studies have been updatd 
periodically to accommodate changes in the potential threat, technology 
advances, and changes in National guidance.
    Joint Integrated Air and Missile Defense Organization, previously 
named Joint Theater Air and Missile Defense Organization, led a Joint 
Capabilities Mix (JCM) Study in 2006 to assess BMD force structure and 
missile inventory needs in Major Combat Operations. This study evolved 
into the Joint Capabilities Mix Study series, an iterative opportunity 
for the joint communities of interest to explore weapon and force 
structure options for the global BMDS. This effort includes the 
Services, Joint Staff, combatant commands, MDA, Defense Intelligence 
Agency, OSD Program Analysis and Evaluation (PA&E), Space and Missile 
Defense Command, and Program Offices.
    In addition to the Joint Capabilities Mix Studies, MDA, in 
conjunction with the Services, developed the Ballistic Missile Defense 
System Transition and Transfer Plan that specifies the roles and 
responsibilities of various Defense organizations in the development of 
BMDS force structure requirements, including Memoranda of Agreement 
(MOA) with the Military Departments and Services providing for force 
structure development. This plan includes Annexes for each element of 
the BMDS that specify roles and responsibilities, programmatic 
linkages, transition and transfer objectives and milestones, and 
contract status.
    Missile defense force structure is also explored within the 
Department's Analytical Agenda effort using various Defense Planning 
Scenarios and Multi-Service Force Deployment studies.
    The Department also established the Missile Defense Executive Board 
(MDEB) to ``oversee implementation of strategic policies and plans, 
program priorities, and investment options'' for the BMDS.
    Question. What are the military's force structure requirements for 
current and future missile defense capabilities?
    Answer. Current force structure requirements for missile defense 
capabilities are found in applicable Service source documents, i.e., 
Navy Activity Manning Documents, Army Table of Organization & 
Equipment, and the Air Force Definition of Operational Capability. 
Current Service capabilities that map to the applicable source 
documents are Patriot PAC-3, AEGIS Standard Missile 3, Ground Based 
Interceptor (GBI), Upgraded Early Warning Radars, and the Cobra Dane 
Radar. On-going processes that will help define the requirements for 
future missile defense capabilities such as the European Component, X-
Band AN/TPY-2 Radar, Terminal High Altitude Area Defense system, and 
Airborne Laser are: (1) The Warfighter Involvement Process which 
provides the important interface between the materiel developer and 
warfighter identities of missile defense solutions that facilitate 
effective development and employment of missile defense capabilities; 
(2) The Missile Defense Executive Board (MDEB) which oversees 
implementation of strategic policies and plans, program priorities, and 
investment options concerning missile defense capabilities necessary to 
protect our Nation and our allies from missile attack and makes 
recommendations to the Deputy Secretary of Defense; (3) The Joint 
Capability Mix (JCM) studies led by the Joint Staff J-8 Joint 
Integrated Air and Missile Defense Organization (JIAMDO) which help 
inform missile defense force structure requirements for various 
scenarios and environments; (4) the Commander, United States Strategic 
Command (CDRUSSTRATCOM) Military Utility Assessment used to evaluate 
the operational effectiveness, interoperability and operational 
suitability of the current fielded system and, (5) the Warfighter 
Prioritized Capabilities List, developed by USSTRATCOM (based on 
combatant commander input) articulates warfighter capability desires 
and is used to help the materiel developer, the Missile Defense Agency, 
understand the warfighter's needs. The Missile Defense Agency in turn 
develops the Achievable Capability List which identifies what 
capability can be provided. This exchange informs the materiel 
decisions that will ultimately impact force structure that is 
delivered.

                          Boost Phase Defense

    Question. The Department has indicated that it will make a down-
select in 2009 as to whether to proceed with the Airborne Laser (ABL) 
or the Kinetic Energy Interceptor (KEI) as the prime boost phase 
defense system.
    What specific criteria (e.g., affordability, operational 
effectiveness, etc.) will the Department use to make the down-select 
decision between ABL and KEI?
    Answer. MDA will consider criteria that will include affordability, 
operational effectiveness, technology maturity, producability, ground 
and flight test data, technical performance during build-up activities, 
and other factors. Data and knowledge gathered during the build-up and 
execution of ABL's ``shoot-down demonstration'' and the build-up and 
execution of KEI's ``high acceleration booster demonstration'' will be 
used to support any decision.
    Directly comparing the two programs for a down select decision is 
difficult because each program is designed to satisfy a Boost Phase 
Defense capability with a dramatically different approach. A review 
will require a very broad Ballistic Missile Defense System (BMDS) view 
that encompasses not only these two programs, but also the scope of 
work and maturity of other related technology and development programs 
within MDA. Other factors external to these programs may influence a 
decision. These factors may include other investment opportunities, 
program timing, total funding availability, BMDS functionality, as well 
as dynamic warfighter requirements.
    Question. Both ABL and KEI have key milestone tests planned for 
FY09. If ABL fails to conduct the scheduled September 2009 shoot-down 
demonstration or KEI fails to complete its booster flight test, what 
impact will that have on the down-select decision?
    Answer. A knowledge-based down-select decision is dependent on data 
and knowledge from each program as well as data from external sources. 
If either program fails to meet its scheduled milestone date, a broader 
Ballistic Missile Defense System (BMDS) view will be taken to determine 
if there is sufficient knowledge to make a decision at that time. 
Several outcomes are possible: a decision to maintain both programs 
until sufficient knowledge is obtained from the build-up and outcome of 
the key milestone events, a decision to proceed with only one program 
based on data and knowledge obtained to date, or a decision to proceed 
with neither program due to other external factors such as funding 
availability, technical viability of a third alternative, and dynamic 
warfighter requirements.

                           Asymmetric Defense

    Question. General Obering, we are very concerned about the 
potential threat of asymmetric attacks on the U.S. homeland. Based on 
these concerns, this Committee has added funding for the last two years 
specifically for a review of asymmetric threats and our capabilities 
against these threats. Future opponents will have many options for 
attempting to deter, disrupt, or defeat U.S. use of military power. 
Four broad options could be part of an asymmetric response to current 
and foreseeable U.S. superiority in regional combined-arms warfare 
capability. An example of an asymmetric threat is the acquisition of 
weapons of mass destruction (WMD) and long-range ballistic or cruise 
missiles. Even without operational use, the mere presence of such 
capability would act as a regional-strategic shadow and might weaken 
the commitment of key allies to any future U.S. military response to 
regional aggression.
    Please discuss current threats.
    Answer. ------.
    Question. Can you discuss the work you have conducted with these 
funds?
    Answer. In FY08, the HAC-D provided $10M to MDA to conduct 
experiments, develop prototypes, test CONOPS, and recommend deployment 
options for an integrated asymmetric missile defense capability that 
would protect population centers from a ballistic or cruise missile 
launched from a ship off of the U.S. coastline. Previous funding was 
received in FY06 ($10M) and FY07 ($4.1M) to address the same Asymmetric 
Defense Issue. Starting in FY06, MDA initiated, with Congressional 
support, a three-phased approach to solving the problem. First the MDA 
initiated an architecture study which assessed existing cruise and 
ballistic missile capability that could be used to augment the existing 
air defense architecture and provided recommendations for further 
development. Second, MDA leveraged a planned Joint Integrated Air and 
Missile Defense Organization (JIAMDO) test in the National Capital 
Region (NCR) in June 2007 to evaluate the Lockheed Martin Silent Sentry 
III passive surveillance system against surrogate ballistic and cruise 
missile targets in a realistic urban environment. Third, MDA funded an 
Operator-In-the-Loop (OITL) experiment with participation from 
NORTHCOM, STRATCOM, JIAMDO and the services in order to assess 
capabilities and develop CONOPS for defense of the homeland against the 
asymmetric threat.
    MDA is using the FY08 funding to build upon previous architecture 
studies, surveillance prototype testing, and OITL experiments to 
initiate a multi-year effort to design and prototype an Element 
architecture in the NCR to defend against asymmetric missile attacks. 
This effort leverages the existing air defense infrastructure in the 
NCR, called the Enhanced Regional Situational Awareness (ERSA) system. 
This year, we are designing an upgrade of the existing ERSA 
infrastructure to support necessary interfaces to additional sensors 
and the integration of surveillance fusion processing necessary to 
support surveillance and fire control functions for countering cruise 
and ballistic missile threats. We are also designing threat 
conditioning and intent assessment logic to assist the warfighter in 
timely identification of positive-hostile threats. We are continuing to 
conduct experiments and develop prototypes of surveillance technologies 
that will support detection, tracking and fire control capability for 
engagement of ballistic or cruise missile threats. We are continuing 
associated systems engineering studies and assessments necessary for 
overall integration and will continue to assess options for future 
capability spirals. We are building upon the OITL experiment completed 
in FY07 and will jointly fund an experiment in FY08 with JIAMDO which 
builds upon the FY07 experiment to continue assessing architectures and 
developing CONOPS with warfighter participation.
    MDA has brought together a team of experts from MIT Lincoln 
Laboratory, NORTHCOM, STRATCOM, JIAMDO, as well as the Army and the 
Navy to assess the architectures being developed with this funding. 
This work is being done in a collaborative environment with warfighter 
and service participation. Additionally, MDA has also been requested to 
write a report summarizing the results of our efforts to date. This 
report was written in a collaborative fashion with the same team. The 
report is in MDA's final Staffing process and we expect delivery to 
Congress on or before June 2, 2008.
    Question. What are our current capabilities? What about future 
capabilities?
    Answer. Shortly after the attacks of September 11, 2001, an initial 
air defense architecture, called NORAD's Integrated Air Defense System 
(IADS) was established in the National Capital Region (NCR). The 
Command and Control connectivity of the IADS sensors and ground based 
air defense assets is provided by the Enhanced Regional Situational 
Awareness System (ERSA), which is an augmentation of the existing 
Operation Noble Eagle. The details of this system are classified 
SECRET, but will be provided in the Asymmetric Threat report to 
Congress that will be delivered in June 2008 (please see response to 
Question 38 for more specifics). In addition to the NCR IADS, a 
Deployable Homeland Air and Cruise Missile Defense (D-HACMD) capability 
was assembled by NORAD as an extension to Operation Noble Eagle. This 
capability consists of AWACS surveillance aircraft, FAA and Sentinel 
radars, fighter aircraft, Avenger surface-to-air missile systems, and a 
mobile command and control capability, and, with adequate warning can 
be deployed to a specific location for a heightened state of alert or 
National Special Security Event. Integration of Patriot and Aegis into 
the D-HACMD has also been demonstrated in a test event.
    The future capabilities being proposed by the Missile Defense 
Agency, in conjunction with NORTHCOM and STRATCOM, will leverage the 
sensor and command and control infrastructure that currently exists. We 
will add sensors for surveillance and fire control that will be 
integrated into the existing IADS system in the NCR. Additional threat 
conditioning and intent assessment logic will also be required in order 
to assist the warfighter in timely identification of positive-hostile 
threats that will be necessary to support the stressing timelines 
required for the engagement of a short range ballistic or cruise 
missile threat. This capability, once developed and demonstrated in the 
NCR will form the basis for an architecture used to protect other 
population centers. MDA (in consultation with NORTHCOM and STRATCOM) 
has developed a Tiered structure to characterize the capabilities 
required to protect a single population center, a region, a coastline, 
or protection of the entire U.S. (or North America). The details of 
these proposed architectures are classified as SECRET, and will be 
provided in detail in the congressional report that will be delivered 
in June 2008.
    Question. How is DoD and MDA countering asymmetric threats?
    Answer. It is assumed that this question is referring to the 
definition of an asymmetric threat that is provided in the FY08 HAC-D 
tasking, that being a cruise or short range ballistic missile launched 
from an aircraft or a ship off of the U.S. coastline.
    The Missile Defense Agency is rapidly prototyping, developing, 
testing and fielding capability to protect the U.S., our deployed 
forces and allies against ballistic missiles at all ranges and in all 
phases of flight.
    An air defense architecture was established in the National Capital 
Region (NCR) following the September 11, 2001 terrorist attacks to 
provide a limited defense against airborne threats. Currently, this air 
defense system has very little capability against cruise missiles since 
they can fly low and have small radar cross sections, and has no 
capability against short range ballistic missile threats that could be 
launched off of the U.S. coastline. The Congressional funding mentioned 
in the response to question #38 has provided MDA with the resources to 
develop architectures and to prototype technologies and CONOPS that can 
be used to implement a defense against asymmetric cruise and ballistic 
missile threats, should this requirement become a national priority. 
The FY08 effort is focused on the design and initial prototyping of 
such a capability in the NCR. The details of this capability are 
SECRET, but will be provided in the MDA's report to Congress on the 
Asymmetric Threat, which will be delivered in June 2008.

                      Lack of Program Transparency

    Question. In its February 2008 report, GAO recommended that to 
improve the transparency of the Ballistic Missile Defense System (BMDS) 
program, MDA should establish cost, schedule, and performance baselines 
for those elements in system development and demonstration and report 
against those baselines. MDA partially concurred with this 
recommendation, but was concerned that an element-centric approach 
would detract from its efforts to develop a single integrated BMDS. GAO 
continues to support its recommendation because the element-centric 
reporting approach reflects the way MDA requests funding and contracts 
for development of the BMDS.
    What reporting basis would MDA recommend to provide a similar level 
of transparency as reporting against element baselines would provide?
    Answer. Pursuant to Section 234 of the Ronald W. Reagan National 
Defense Authorization Act for Fiscal Year 2005 (Public Law 108-375), 
MDA established schedule, budget, and performance baselines for each 
block configuration being fielded (biennial Blocks 04, 06, and 08 under 
the previous block structure) and reported variances annually in the 
agency's Statement of Goals (SOG).
    In 2007, MDA established a new block structure to address concerns 
about transparency, accountability, and oversight and to better 
communicate to Congress and other key stakeholders our plans and 
baselines and our continuing improvements in BMDS capabilities. Blocks 
will be based on fielded capabilities--not biennial time periods--that 
address particular threats, and each block will represent a discrete 
program of work. When blocks are established, schedule, budget, and 
performance goals will be defined for each block. These goals, revised 
as necessary, will become baselines when MDA can make a firm commitment 
to the Congress because we have a high level of confidence that the 
baselines can be achieved.
    MDA has established schedule, budget, and performance baselines for 
Blocks 1.0 (Defense of the U.S. from Limited North Korean Long-Range 
Threats), 2.0 (Defense of Allies and Deployed Forces from Short-to-
Medium Range Threats in One Region/Theater), and Block 3.1/3.2 (Expand 
Defense of the U.S. to Include Limited Iranian Long-Range Threats). We 
have established goals, not baselines for Block 3.3 (Expand Defense of 
the U.S. to Include Limited Iranian Long-Range Threats--Improved 
Discrimination and System Track), Block 4.0 (Defense of Allies and 
Deployed Forces in Europe from Limited Long-Range Threats/Expand 
Protection of the U.S. Homeland), and Block 5.0 (Expand Defense of 
Allies and Deployed Forces from Short-to-Intermediate Range Threats in 
Two Regions/Theaters). In the SOG that accompanied the President's 
Budget for FY 2009, we presented these baselines and goals.
    In each subsequent year's SOG, we will explain any significant 
variances from schedule, budget, and performance baselines and the 
reasons for re-defining block goals. We will also explain changes in 
year-to-year funding plans for each block over the period of the Future 
Years Defense Plan (FYDP). This level of reporting is a significant 
enhancement to transparency.
    MDA has also begun establishing unit cost baseline estimates for 
BMDS capabilities being acquired and delivered to the war fighter. Our 
approach is to build these estimates from the level of selected 
components to be fielded (such as the Terminal High Altitude Area 
Defense Fire Unit) to the element (THAAD) level and eventually to the 
block level. This latter calculation will be a full block cost baseline 
estimate. Before establishing cost baseline estimates, MDA will request 
an independent review by the Cost Analysis Improvement Group (CAIG), 
DoD's independent cost estimating unit.
    Once the estimates are established, MDA will report any significant 
cost variance to the Congress. This information will supplement the 
reporting of acquisition cost at the BMDS level in the agency's annual 
SAR. We are now in the process of determining the thresholds to report 
such cost variations and will incorporate them in a MDA directive.
    While our capabilities-based, spiral development program may not 
provide the identical kind of information and baselines generated under 
DoD Instruction 5000 for traditional acquisition programs, our 
intention is to fully meet the transparency, accountability, and 
oversight needs of Congress and other stakeholders.
    Question. Would MDA adjust its budget requests and contracts to 
match its reporting approach?
    Answer. We are re-considering the current program element (PE) 
structure that organizes our budget request. As of this time, however, 
we intend to continue our practice of subdividing the existing 
structure into budget projects tied to the five new blocks and non-
block Capability Development category. As for contracts, our intention 
is to restructure contracts as appropriate to reflect the new block 
structure, cost reporting requirements, and the transition to multiple 
appropriations.

  Use of Research and Development Funds by MDA to Incrementally Fund 
                                Programs

    Question. MDA has approval to acquire assets with research and 
development (R&D) funds, which allows MDA to incrementally fund 
procurements. This is unlike any other program at DOD.
    Has MDA completed analysis to determine the overall effect of 
incremental funding? That is, has MDA determined whether incremental 
funding will result in a reduction of financial obligations in the 
early years, but a greater outlay of funds in future years?
    Answer. Yes. MDA has completed an analysis that compares the impact 
of incremental funding to the full funding required when using 
procurement funds. The results of that analysis show that in the near 
term (FY09/10), fully funding the BMDS would result in budget 
shortfalls that would require significant adjustments to our program 
plans that would lead to delays in delivery of missile defense 
capability to the warfighter. Separately, incremental execution fits 
well with the spiral upgrade approach that MDA is employing for BMDS 
development.
    Question. Is there any reason, other than freeing-up funds for 
other uses, that funding for the GMD interceptor has been stretched 
from 3 to 5 years?
    Answer. The funding profile for the GMD interceptor has not been 
stretched to free up funds for other uses. Funding has been distributed 
across fiscal years to fit within the available program allocation and 
at a level to meet program requirements. The extended profile exists 
because of the duration between the purchase of long lead for the 
initial European Capability GMD interceptor in 4QFY09 and the final GMD 
interceptor emplacement in 2QFY13. This results in a total funding span 
of approximately four years and, from a budgetary standpoint, a funding 
span which includes a total of five fiscal years. During this period, 
the individual interceptor manufacturing time remains at approximately 
three years and the complement of ten interceptors, #45-54, are 
emplaced in Europe.
    Question. Can you give examples of new threats that MDA was able to 
address because it is incrementally funding fielded assets?
    Answer. The Ballistic Missile Defense System (BMDS) program is 
focused on the threat from North Korea and Iran. But the threat can 
never be predicted with certainty, and MDA has used incremental funding 
in a flexible ``capabilities-based'' strategy to exploit technological 
opportunities and place capability in the war fighters' hands far more 
quickly than could have occurred under a traditional acquisition 
approach. This strategy has enabled us to field a BMDS capability that 
currently provides a limited defense of the U.S. against 
intercontinental ballistic missiles from North Korea and an initial 
defense of deployed troops, allies and friends against regional 
ballistic missile threats. We expect to continue using this 
capabilities-based strategy to improve the performance capability of 
the BMDS by fielding additional components as they are completed and 
developing new capabilities to respond to the emerging threats of the 
future.

                         GMD Flight Test Delays

    Question. LTG Obering, GMD had planned a flight test in December 
2006 that was delayed until June 2007 based on findings from the 
September 2006 flight test. A ground test was completed in the 1st 
quarter of 2008 and subsequent tests have been rescheduled.
    What happened in September that would drive a delay in the test 
program?
    Answer. FTG-02 was a successful intercept test conducted in 
September 2006. However, five observations related to the 
Exoatmospheric Kill Vehicle (EKV) were subsequently identified that 
necessitated program attention which resulted in the delay of the 
follow-on intercept mission (FTG-03) until May 2007. The five issues 
involved: (1) EKV discrimination performance, (2) Divert Attitude 
Control System (DACS) rough combustion, (3) sensor debris management, 
(4) secondary infrared focal plane temperature management, and (5) 
focal plane infrared reflections. After extensive ground testing and 
analysis, all five issues were addressed via an EKV software update, a 
change to the DACS fuel mixture, and a modification to the cleaning 
process for the infrared focal plane cooling system. These mitigation 
efforts were successfully demonstrated during the FTG-03a mission in 
September 2007. These modifications were not exercised in the FTG-03 
attempt in May 2007 due to a target anomaly during that mission.
    Question. Can you explain reasons behind the rescheduling of the 
three 3rd quarter 2008 tests?
    Answer. In the April 2007 Integrated Master Test Plan (v.08.05), 
the test scheduled for the 3rd quarter CY 2008 included the following:
          <bullet> FTG-05 (Ground-Based Midcourse Defense (GMD) Flight 
        Test)
          <bullet> FTT-10 (THAAD Flight Test)
          <bullet> FTK-01 (Kinetic Interceptor Booster Test)
          <bullet> STSS Space Vehicle Launch (SVL)
          <bullet> GTD-03 (Distributed Ground Test)
    In the March 2008 Integrated Master Test Plan (v.08.10), the tests 
scheduled for the 3rd quarter CY 2008 are as follows:
          <bullet> FTG-04
          <bullet> FTT-10
          <bullet> NFIRE-2b (Near Field Infrared Experiment)
          <bullet> GTD-03
    The April 2007 schedule had one GMD flight test scheduled for 3rd 
quarter CY 2008, not three. FTG-04 was rescheduled from the 2nd quarter 
CY 2008 into the 3rd quarter CY 2008 due to required target hardware 
modifications and the failure of a test-specific component in the 
Exoatmospheric Kill Vehicle (EKV) that prevented the transmission of 
telemetry. FTG-05 and FTG-06 were rescheduled into the 4th quarter CY 
2008 and 2nd quarter CY 2009, respectively, due to the rescheduling of 
FTG-04. FTT-10 is on schedule for execution in the 3rd quarter CY 2008. 
FTK-01 is delayed for 2nd quarter CY 2009 due to Kinetic Interceptor 
technical issues. SSTS SVL is now scheduled for 4th quarter CY 2008 due 
to schedule issues with other non-MDA launches and technical issues 
with the satellite payloads. NFIRE-2b was rescheduled due to higher 
priority missions and is on schedule for execution in the 3rd quarter 
CY 2008. GTD-03 remains on schedule for execution in the 3rd quarter CY 
2008.
    Question. What issues remain to be resolved?
    Answer. None of the issues experienced during FTG-02 (September 
2006) remain unresolved. The mitigation efforts were proven effective 
on FTG-03a.
    Question. How will this impact the current test plan for GMD?
    Answer. None of the issues experienced during FTG-02 (September 
2006) are impacting the current flight test program. The mitigation 
efforts for the issues experienced during FTG-02 were demonstrated on 
(September 2007) FTG-03a.

          STRATCOM and the Number of Ground-Based Interceptors

    Question. We understand the Missile Defense Agency currently plans 
to terminate production of the GBI interceptors at 54 missiles.
    Is this true?
    Answer. The Missile Defense Agency intends to complete fielding of 
54 Ground Based Interceptors (GBIs) in 2013, representing the currently 
planned full complement of operational GBIs. However, manufacturing 
will continue beyond delivery of the 54th operational GBI in order to 
permit GMD (and overall BMDS) performance and upgrade testing (ground 
and flight) and stockpile reliability testing (ground and flight) in 
2013 and beyond. Additional manufacturing is required to ensure 
adequate spares and line-replaceable units (as part of the 
refurbishment program).
    Question. If so, what role did STRATCOM play in MDA's decision to 
terminate production at 54 interceptors?
    Answer. There has been no decision to terminate manufacturing of 
GBIs. Manufacturing will continue beyond the delivery of the 54th 
operational GBI. The Missile Defense Agency intends to complete 
fielding of 54 Ground Based Interceptors (GBIs) in 2013, representing 
the currently planned full complement of operational GBIs. However, 
manufacturing will continue beyond delivery of the 54th operational GBI 
in order to conduct GMD (and overall BMDS) performance and upgrade 
testing (ground and flight) and stockpile GBIs for reliability testing 
(ground and flight) in 2013 and beyond.
    Question. What analysis has STRATCOM done to identify future GBI 
requirements given current and future threats?
    Answer. STRATCOM conducts an annual Military Utility Assessment 
(MUA) of the fielded Ballistic Missile Defense System (BMDS) against 
the current enemy threat. The MUA identifies the capabilities and 
limitations of the fielded BMDS, including issues associated with 
missile inventories. In the MUA 2008, identified limitations are being 
linked, for the first time, to the recently developed STRATCOM 
Warfighter Involvement Process (WIP). The WIP is the collaborative 
mechanism by which the Warfighter feeds back desired BMDS modifications 
and future capabilities to the BMDS developer, MDA.
    In addition, NORTHCOM is currently conducting a GBI study. This 
study contains three phases.
    Phase I--Provide USNORTHCOM/J31 with an analytical basis for 
recommendations to MDA regarding future GBI-basing decisions at 
Vandenberg AFB, CA.
    Phase II--Assess performance trade-space between 2 and 3 stage 
Orbital Boost Vehicle GBI based at VAFB and FGA ``what is the right 
capability mix?''
    Phase III--Quantify the operational benefits of an east coast GBI 
site in the context of the projected 2012-2015 BMDS capability.
    Question. Can you share that analysis with the Committee?
    Answer. Although MDA works with U.S. Northern Command (USNORTHCOM) 
and U.S. Strategic Command (USSTRATCOM) reviewing and conducting 
analysis with respect to Ground-based Interceptors (GBIs), USNORTHCOM 
is leading the study on GBIs. According to USNORTHCOM, the study is not 
complete and they have not drawn any conclusions. We believe USNORTHCOM 
should provide Congress with the analysis.

                         Multiple Kill Vehicles

    Question. MDA is developing the Multiple Kill Vehicle (MKV) to 
allow a single interceptor to engage a number of credible objects that 
an enemy missile might deploy. The agency expects to deploy an 
operational capability in the 2017 timeframe. In January 2004, MDA 
awarded a contract to Lockheed Martin to develop a carrier vehicle that 
directs multiple kill vehicles with planned deliveries in 2014. This 
concept, if successful, would benefit GMD and KEI. MDA also proposed in 
the FY08 budget to have Raytheon develop an alternate concept in which 
a lead kill vehicle would direct other kill vehicles. This concept, if 
successful, would primarily benefit SM-3. In the third quarter of 
fiscal year 2010, MDA will determine whether a carrier vehicle with 
multiple kill vehicles is feasible or whether the program will move 
forward with a unitary carrier vehicle.
    If MDA finds that multiple kill vehicles are not feasible, how will 
this impact the GMD and Aegis BMD programs and the kill vehicle planned 
by the KEI program since you plan to stop all work on unitary kill 
vehicle work this year?
    Answer. BMDS Kill Vehicles will deliver both a unitary kill vehicle 
for the SM-3 Blk IIA Cooperative Development missile with Japan and 
multiple kill vehicle payloads for all midcourse weapon systems of the 
future (Ground Based Midcourse Defense, Kinetic Energy Interceptor, 
Aegis Ballistic Missile Defense Standard Missile-3 Blk IIB).
    To ensure delivery of kill vehicles to the BMDS, our evolutionary 
acquisition strategy emphasizes use of proven technologies, early 
development of key components and capabilities, realistic knowledge-
point testing and demonstrations. We began developing engagement 
management algorithms, key payload components (sensors, divert and 
attitude control systems), and a hover test bed to prove out these key 
technologies and inform the Missile Defense Agency Knowledge Point 
decisions. This early component development and testing will mitigate 
technical, schedule and cost risk and prove out the kill vehicle 
capability.
    If through the component development and testing and knowledge 
point decisions the Agency decides multiple kill capability is not 
achievable in the near term, we will work with the Agency's System 
Engineer to determine the best kill vehicle payload for the Ground 
Based Midcourse Defense, Kinetic Energy Interceptor and Aegis Ballistic 
Missile Defense SM-3 Blk IIB weapon systems until multiple kill vehicle 
is ready.

 Kinetic Energy Interceptor (KEI) Compared to Airborne Laser (ABL) for 
                          Boost Phase Defense

    Question. MDA awarded a contract in December 2003, which was to 
continue through January 2012, to develop and test the Kinetic Energy 
Interceptor (KEI). At that time, MDA stated that KEI was being designed 
as a mobile capability to destroy intermediate and long-range ballistic 
missiles during the boost/ascent phase of their flight. In 2005, MDA 
selected the Airborne Laser (ABL) as its primary boost phase 
capability, but continued development of KEI. We understand that a very 
comprehensive study was conducted by DoD's Office of Program Analysis 
and Evaluation (PA&E) that looked specifically at boost phase programs.
    Have there been any studies that conclude KEI is the better choice 
for a boost phase capability? If so, why has MDA chosen to continue to 
pursue ABL as its primary boost phase capability? Can you provide us 
with the PA&E study?
    Answer. The MDA submitted a Boost Phase Intercept study Report to 
Congress in April 2006 that described in detail the different boost 
phase capabilities and limitations of the ABL and KEI. There was no 
finding in this report that KEI was a better choice than ABL as a boost 
phase capability. The development of this Congressional report included 
significant interaction with PA&E and a detailed review of their 
independent study results. MDA openly shared our technical and 
programmatic data with the PA&E team, and we conducted several 
technical interchanges with them to review and discuss findings. These 
discussions with PA&E led to modifications of the MDA Report to 
Congress. We recommend that Congress get the latest PA&E boost phase 
study results from the PA&E team, to it is the most current and 
accurate version of their study.
    The ABL is our primary boost phase capability because it is the 
only capability that can intercept all ranges of threat in the boost 
phase. KEI boost phase intercept is limited to long range threats that 
burnout in the exoatmosphere (greater than 100 km altitude). The ABL 
has the potential to greatly augment our ability to defeat large raids 
of short range and medium range ballistic missiles (our adversaries 
have large quantities of these missiles) by significantly thinning that 
threat in the boost phase.
    The 2009 Knowledge Points for ABL and KEI, along with parallel 
objective BMDS engineering and planning work, will provide us with the 
performance, cost, schedule, and risk information we need to refine our 
BMDS acquisition strategy for boost phase capabilities.
    Question. Has KEI been redefined as a midcourse capability instead 
of a boost/ascent phase capability?
    Answer. No. The Agency recognizes that booster vehicle performance 
required for boost phase intercepts is more than adequate to provide 
midcourse intercept capability. KEI's mobility makes it attractive for 
both BMDS mission areas. A decision on KEI's role(s) in the BMDS will 
not be finalized until after its knowledge point event (first flight) 
and the Airborne Laser's knowledge point event (lethal shootdown).
    Question. Will the contract extension increase termination costs 
should MDA decide to terminate KEI's contract in 2009 or is contract 
termination not a possibility even if ABL remains the primary boost 
phase capability?
    Answer. Termination costs will not increase as a result of a 
contract extension. Termination liability will not change in 2009 from 
the current amount unless contract effort is increased or decreased, in 
particular the number of contractor personnel performing the contract 
and amount of material ordered. Potential contract termination costs 
are appropriately tracked and funded not only for the basic contract, 
but for any and all extensions. MDA plans to continue to execute its 
evolutionary acquisition strategy for KEI consisting of knowledge point 
events (the first knowledge point: Booster Flight--Development 
Verification Test scheduled for 2009). MDA will determine or adjust the 
future course of KEI based upon outcomes of knowledge point events.
    Question. In 2009, the KEI program will flight test the 
interceptor's boosters, a critical technology, to determine if they 
will function as intended. In 2009, MDA will use the results of the 
booster test and the results of ABL's lethality demonstration to decide 
the future of the KEI and ABL programs. However, in 2005 MDA directed 
the KEI program to incorporate the capability to engage missiles during 
the midcourse phase of flight and KEI's contract is being extended 
until September 2015. In testimony before the House Armed Services 
Committee on the fiscal year 2008 budget, MDA's Director said that the 
mission of KEI has not been redefined. KEI is still an alternative for 
ABL should ABL fail in its lethality demonstration.
    Does the FY2009 budget request reflect either the advancement of 
evolution of the KEI program?
    Answer. Yes. The plan in the FY08 President's Budget request was to 
conduct as booster-only System Design Review in FY2009, but with the 
additional funding appropriated by Congress in FY08 the KEI program has 
been adjusted and it will now be a full KEI Weapons System Design 
Review.
    The FY2009 budget request includes two major components; element 
engineering and interceptor. The element engineering work planned for 
FY2009 is for requirements development for full mobile weapon system 
for incorporation into the BMDS. The FY2009 budget request also 
includes the effort necessary to complete preparations for and conduct 
of the KEI knowledge point event (first flight). In accordance with the 
Agency knowledge point acquisition approach, successful completion of 
the knowledge point event will enable the advancement of the system 
into full mobile weapon system development.
    The Agency recognizes that booster vehicle performance required for 
boost phase intercepts is more than adequate to provide midcourse 
intercept capability. KEI's mobility makes it attractive for both BMDS 
mission areas. A decision on KEI's role(s) in the BMDS will not be 
finalized until after its knowledge point event (first flight) and the 
Airborne Laser's knowledge point event (lethal shootdown).

                       Kinetic Energy Interceptor

    Question. The FY2009 budget request contains $387 million for the 
Kinetic Energy Interceptor program, which MDA has designated as a 
replacement for the current GBI booster deployed in Alaska and 
California. Previous budgets planned on KEI being a boost phase defense 
platform.
    Why are we planning to replace the GBI when we just began deploying 
that system 4 years ago?
    Answer. The Agency is not planning on any near term replacements of 
the GBI boosters with KEI boosters. The Agency plan is to pursue GBI 
booster spiral upgrades in close coordination with the KEI booster 
development team. The GBI and KEI boosters provide different and 
complementary capabilities to the BMDS. The MDA Engineering, GM and KI 
Program Offices are developing plans for the coordinated acquisition of 
common, core standards compliant booster avionics for the KEI and 
future GBI capability spirals. This enables us to save significant 
dollars through the integrated development of high cost components 
needed by both KEI and GBI.
    The MDA plan is to efficiently sustain and spiral upgrade the GBI 
while adding new KEI capabilities to the BMDS such as boost phase 
intercept or mobile midcourse.
    Question. What is the expected lifetime of the GBI?
    Answer. ------.
    Question. In a midcourse role, how much more capability does KEI 
provide as opposed to the GBI?
    Answer. The high acceleration and mobile KEI complements the GBI by 
providing the Warfighter additional midcourse engagement capabilities 
in a layered BMDS. A forward-based KEI (based closer to threat 
countries than fixed GBI sites) disrupts and limits our adversaries' 
ability to selectively time the deployment of countermeasures by 
expanding the midcourse intercept battlespace to shortly after threat 
burnout. Furthermore, a forward-based KEI with a multiple kill vehicle 
payload, reduces the number of credible threat objects (and threat 
complexity) left for the later GBI layer to handle. The KEI can be 
flexibly-based to defend Friends and Allies in Japan, Southern Europe 
(forward of the European Site) or the Middle East against medium range 
ballistic missile threats. The longer burn, silo-based GBI is not 
designed to counter this threat set. The Agency is focusing the KEI 
development and test program on the realization of layered BMDS 
capabilities.
    Question. If the objective for KEI is a mobile system, why invest 
significant resources in a silo-based KEI system?
    Answer. We are not investing significant resources in a silo-based 
KEI system. At this point, silo-basing for KEI is best viewed as a 
potential capability, much like a sea-based KEI is a potential 
capability.
    Question. If ABL and KEI are supposed to compete as a future boost 
phase weapon, why have you removed everything but the booster portion 
of KEI from this year's budget?
    Answer. Boost phase weapon selection is based on two capability 
demonstrations or knowledge point events; the Airborne Laser's lethal 
shootdown and the KEI booster vehicle's first flight. The FY2009 budget 
request for KEI includes funding to prepare for and conduct this flight 
test as well as significant funding for requirements development for 
the full mobile weapon system for incorporation into the BMDS. In 
accordance with the Agency knowledge point acquisition approach, 
successful completion of the knowledge point event will enable the 
advancement of the system into full mobile weapon system development.

             Airborne Laser (ABL) Costs for Full Deployment

    Question. After a schedule delay, the Airborne Laser is now 
expected to demonstrate a lethal shoot-down in 2009. Based on the 
demonstration, you will make a decision on development of Tail 2.
    What is the requirement with respect to the number of ABL's needed?
    Answer. The final BMDS architecture to include number of ABL's has 
not been defined. This decision will occur subsequent to the knowledge 
point event (lethal shoot-down).
    Question. For 24/7 coverage, how many orbits of ABL's and how many 
ABL's per orbit are required? Is this similar to the requirements for 
JSTARS and AWACS?
    Answer. The number of orbits required will depend on the wartime 
scenario. According to the Air Force Air Combat Command's Operational 
Concept for Airborne Laser dated 1 Jan 2007, ABLs will be tasked to 
engage ballistic missiles originating from one or more Named Areas of 
Interest (NAIs). Once established in theater, the ABL will operate one 
or two Combat Air Patrols (CAP) based on relative size and location of 
the NAIs. Also according to the Operational Concept, five ABL aircraft 
will be able to sustain two near-continuous 24/7 orbits, or three ABLs 
will be able to sustain one near-continuous 24/7 orbit.
    Similar methods are used for JSTARS and AWACS, but because these 
are sensor and command and control platforms, the criteria are 
different from the ABL weapon system.
    Question. What is the basing concept for ABL? What is the plan for 
delivering the chemicals into a forward-based location?
    Answer. According to the Airborne Laser (ABL) Operational Concept, 
developed by the Air Force Air Combat Command, dated 1 January 2007, 
operational ABLs will be primarily based in the Continental United 
States (CONUS), where the Main Operating Base (MOB) will be equipped to 
handle and service the ABL aircraft and its unique weapon system. An 
operational ABL will be able to deploy to Forward Operating Locations 
(FOLs) world-wide. FOLs can be located at any operational location 
where heavy cargo aircraft operate. Runways, taxiways, and instrument 
approach requirements are similar to those for other heavy aircraft.
    ABL will utilize common support equipment available at bases in 
theater wherever possible to reduce the size of the deployment package. 
ABL will require peculiar support equipment, such as Aerospace Ground 
Equipment (AGE) to service the laser weapon. Transport of this 
equipment will require military airlift. Exact airlift needs have not 
been established. Aircraft hangars will not be required at the FOL. 
Required maintenance will be accomplished on the flight line or in 
back-shops. Sufficient workspace, shelter, and messing facilities will 
be required for deployed operations and maintenance personnel. FOL 
security personnel will be augmented with ABL security personnel, as 
required. The amount of equipment and personnel will depend on the 
operational scenario.
    Pre-positioning of ABL laser fuels at pre-designated FOLs would 
also hell ensure the immediate availability of chemicals upon arrival 
of ABL aircraft during operational deployments. Air mobility or sea 
transportation can then be used to replenish laser fuel farm reserves 
as they are consumed. Options for transportation of extra chemicals are 
currently being explored. Prior to mixing the chemicals and loading 
them on the ABL the shelf life is unlimited.
    Question. Do you have an independent cost estimate for an 
operational ABL? What about the cost of forward basing?
    Answer. The Airborne Laser (ABL) Program Element is a Capability 
Development within MDA. As such, MDA has not requested the OSD Cost 
Analysis Improvement Group to perform an Independent Cost Estimate for 
ABL. MDA intends to request an independent cost estimate for ABL at a 
later time, when programmatic uncertainties are reduced and prior to a 
decision to commit resources for procuring and sustaining an ABL 
capability.
    ABL has a comprehensive Program Office Operations and Support 
Estimate from 2002. We have worked closely with the U.S. Air Force, Air 
Combat Command (ACC) on the update of their Operational Concept and are 
in the process of gathering data to develop an updated cost estimate 
for the operational ABL and forward basing. Initial estimates will be 
available later this year.
    Question. Can the taxpayer afford to buy the number of ABL's 
required?
    Answer. The affordability of ABL assets, along with the boost-phase 
defense capability this BMDS Element would provide, will be among the 
many factors that will be weighed by the Department in considering a 
commitment to including the ABL capability in the BMDS. The ABL Element 
of the BMDS has significant upfront investment costs. However, the 
engineering estimate indicates a cost per shot which will be 
insignificant relative to the cost of an equivalent missile 
intercepting and destroying an enemy ballistic missile potentially 
armed with weapons of mass destruction. At this time, however, no 
conclusive decisions have been made on affordability or other issues 
associated with ABL.

             Airborne Laser (ABL) Against Potential Threats

    Question. Even if ABL is successful in its lethality demonstration 
in 2009, there are still many questions about how it would be employed.
    What is ABL's capability against potential threats from China and 
Iran with respect to ICBMs? What about other nations?
    Answer. ------.
    Question. What about potential overflight of a hostile nation?
    Answer. Decisions about ABL flights over a hostile nation will be 
the responsibility of the regional combatant commander with input from 
the air component commander. This decision will take into effect the 
operational environment, including factors such as hostile air-to-
ground defenses, friendly air support, and mission priorities at the 
time of the potential overflight.
    Question. Are there other programs currently in development at MDA 
that are possible better options for boost phase defense?
    Answer. As part of a layered defense strategy the Kinetic Energy 
Interceptor (KEI) is the only other Element currently in development 
capable of a Boost Phase mission. One additional benefit of the Kinetic 
Energy Interceptor program is its potential multiple use application. 
The Kinetic Energy Interceptor could provide the Ballistic Missile 
Defense System a strategically deployable, land and sea-based 
capability to defeat medium to long range ballistic missiles in the 
boost, ascent or midcourse phase of flight. However, as a BMDS boost 
phase defense asset, ABL has several characteristics that are unique. 
As an airborne asset, ABL can be forward deployed quickly. Once 
deployed, ABL will also be able to provide missile track information to 
cue other U.S. and NATO assets. In addition, ABL's chemical laser 
provides a relatively low cost per kill (less than $20k per kill).
    Question. Are there other missions for ABL?
    Answer. ABL has the potential to conduct many missions including: 
Defensive Counter Air (DCA), High Value Airborne Asset Protection 
(HVAA), Cruise Missile Defense (CMD), Counter Surface to Air Missile 
(SAM), Intelligence, Surveillance, and Reconnaissance (ISR), and 
Command and Control (C\2\).
    The ABL program office is developing capabilities to support three 
adjunct missions: Tracking debris from successful ABL missile 
engagements, extended ballistic missile engagement ranges, and engaging 
post-boost vehicles. The ABL program plans to conduct a series of 
experiments and demonstrations proving the technical feasibility of 
these adjunct missions following the ABL's lethality demonstration.

                  Airborne Laser (ABL) Countermeasures

    Question. One concern with the deployment of ABL is the potential 
impact of countermeasures that some countries either already have or 
are developing.
    Can we expect countermeasures to ABL?
    Answer. Any fielded weapon system is likely to cause an adversary 
to investigate potential countermeasures. There is currently little to 
no evidence that potential threat countries have fielded 
countermeasures likely to impact ABL. MDA is however actively 
investigating the effectiveness of likely potential countermeasures and 
methods for negating them. The details are protected within special 
access channels.
    Question. What are the types of countermeasures that countries may 
develop to counter a laser weapon like ABL?
    Answer. In general, adversaries may choose to develop 
countermeasures that increase a missile's resistance to heating effects 
of laser weapon systems. These countermeasures typically decrease the 
effective range and/or lethality of an adversary's missiles because 
additional weight is added to shield the missile from laser systems. 
Alternatively, adversaries could attempt to decrease the effectiveness 
of the ABL's tracking systems.
    Question. Do certain countries already have countermeasures?
    Answer. There is little to no evidence that potential threat 
countries have fielded countermeasures likely to impact ABL. MDA is 
however actively investigating the effectiveness of likely potential 
countermeasures and methods for negating them. The details are 
protected within special access channels.
    Question. How do we counter the countermeasures?
    Answer. MDA's investigation of potential countermeasures will 
determine the effectiveness of those countermeasures and guide the 
development of any necessary counter-countermeasures. The ABL has 
various options for decreasing the effectiveness of an adversary's 
countermeasures. The details are protected within classified/special 
access channels.

           Airborne Laserbeam Control/Fire Control Component

    Question. This year the Airborne Laser program was late in 
achieving one of its knowledge points--a ground test meant to prove-out 
the operation of the element's Beam Contral/Fire Control component. 
ABL's Program Manager signed-off on the completion of the test in 
December 2006 after a 3\1/2\ month delay, but he did so with two 
caveats. First, the software was not performing as intended and second, 
the low-power laser, which is a surrogate to the element's high-power 
laser in early flight tests, did not put enough power on the target. 
ABL's Program Manager said these problems would have to be corrected 
before the low-power system integration active flight testing begins. 
The delay in achieving this knowledge point pushed ABL's planned 
lethality test from 2008 to 2009. Now that we are in the FY 2009 budget 
cycle:
    Have the software and low-power laser problems been corrected? If 
not, when do you expect them to be resolved?
    Answer. Yes. During the Low-Power Integration Ground testing, MDA 
collected data which ultimately led to determining the root cause of 
the issues and correcting them. The software was upgraded as required 
to complete all of the testing with no caveats, the surrogate's high-
power laser and other optical components were realigned, and multiple 
successful aerial engagements were demonstrated. During these 
engagements, adequate laser power was put on target; had the actual 
High Energy Laser been used instead of the surrogate under the same 
engagement conditions, a missile would have been destroyed.
    Question. Is it likely that ABL's lethality test will be delayed 
further?
    Answer. The ABL element is on track to achieve a lethal 
demonstration in 2009. The Airborne Laser successfully completed its 
Low-Power System Integration flight testing in 2007, which culminated 
in using all three of the aircraft's laser systems to detect, track, 
and then engage a ``non-cooperative'' target aircraft. Since then, the 
Airborne Laser element of BMDS and its contractor partners have been 
aggressively refurbishing low- and high-power optics, sensors, and 
laser systems and installing all of the hardware in the Airborne Laser 
Aircraft required to begin High-Power System Integration ground testing 
in the fall of 2008 and begin High-Power System Integration flight 
testing in early 2009.
    Question. Has MDA determined the cost impact of the recognized 
delay in the lethality demonstration? What is the cost of the delay?
    Answer. ABL rebaselined its Boeing contract in May 07 adding $250M 
and 1 year to the schedule. The program was able to absorb the cost of 
this delay within the President's Budget by reducing activities that 
were not directly related to shootdown and assuming a higher level of 
risk for the program.
    Question. Did the contractor's failure to fully meet the objectives 
of the 2006 knowledge point affect the fee awarded to the contractor?
    Answer. Yes. The Airborne Laser element of BMDS award fee plan is 
structured to evaluate contractor program and cost management, mission 
success, and Knowledge Point execution. Knowledge point execution is 
weighted the heaviest among the three areas. The award fee was 
adversely affected as the challenges experienced during the 2006 
Knowledge Point completion were considered in the overall assessment 
and resulted in a reduced award fee.

                      Contracted Logistics Support

    Question. MDA contracts with prime contractors for fielded elements 
to provide logistics support for the elements and to collect and report 
reliability data, including data on the frequency of breakdowns and the 
cost of repairs.
    What is MDA learning about the cost of sustaining fielded elements?
    Answer. Sustaining fielded Ballistic Missile Defense System (BMDS) 
capabilities until they are transferred to the Military Services 
remains one of our highest priorities, and we have learned that 
sustainment costs are comprising an increasing portion of program 
funding for each block. As additional elements of the BMDS have been 
fielded (or are planned for future fielding) we are seeing sustainment 
costs grow from about $105 million in FY05 to a projected total of 
almost $956 million in FY13. We have also learned that we can more 
efficiently manage sustainment costs when assets to be sustained are 
grouped under a single contract vehicle rather than separate contract 
vehicles. This advantage may be diminished or eliminated in future 
fiscal years if the restructuring of contracts is required to 
accommodate the use of multiple appropriations.
    Given these significant costs, we are working through the Missile 
Defense Executive Board to establish a set of business rules that will 
govern the smooth transition of BMDS capability to the Services. Our 
goal is to ensure that fielded capability is fully sustained during 
this transition and to work closely with the Combatant Commanders and 
Services to ensure the Services have significant lead time and program 
information to continue operations and maintenance budgeting 
requirements for the capabilities they will be responsible for 
operating.
    Question. Is MDA appropriately considering the cost of supporting 
an element as the element is being designed?
    Answer. Yes, MDA does consider the cost of supporting a system 
during initial design and all subsequent associated reviews. 
Sustainment is a key design element in both the System Requirements 
Review and the System Design Review. Additionally, the early use of 
Business Case Analyses of test system design and other factors for life 
cycle affordability are part of the process that provides feedback for 
improvement. Currently, Contractor Logistics Support has been the 
common strategy for our fielded systems. As systems mature, an updated 
Business Case Analysis is conducted to determine other support 
strategies.
    Question. How do award fees built into contracts affect support?
    Answer. Award fees are used to influence favorable contractor 
performance in support of MDA's logistics objectives, and can 
positively affect targeted support provided by the contractor. In our 
cost plus award fee contracts, the contractor earns a fee only when 
successfully meeting contract performance objectives pertaining to 
program and cost management, satisfactory accomplishment of key events, 
and adherence to program mission success before fee can be earned. For 
example, the Ground-Based Mid-Course Defense (GMD) program has 
established metrics which are reflected in its award fee plan to 
measure performance for system availability, cost, training and support 
to service transition and transfer. The THAAD program's award fee plan 
includes a key event that requires contracted logistics support 
products be sufficiently mature to support maintainability 
demonstration and the achievement of user and contractor logistic 
support test objectives. These features incentivize the contractor to 
provide better than satisfactory logistic support to the Ballistic 
Missile Defense System and its components.

                     THAAD and Enhanced Performance

    Question. The Committee understands that THAAD's performance could 
be enhanced/increased by adding a second-stage to the current 
interceptor.
    Have you done any modeling examining the contribution that an 
upgraded THAAD could make to the overall missile defense mission?
    Answer. ------.
    Question. Does MDA plan to put any money into exploring this 
option?
    Answer. MDA has no present plans to fund any significant upgrades 
to enhance the performance of the THAAD System.
    Question. If not, why?
    Answer. Existing funding constraints have made it difficult to fund 
enhancements to existing development Elements of the BMDS. MDA is 
provided a $1.5B/yr ``wedge'' for fielding and sustaining the BMDS. 
Fielding and sustainment costs in FY09 are estimated at $3.6B, with 
estimates of $3B/yr over the FYDP. The difference between the 
estimated fielding and sustainment costs and the wedge reduces the 
funding available for the further development of Elements. The 
reduction in funding for development efforts makes it difficult to 
sustain existing efforts, let alone provide funding for new BMDS 
program enhancements and new capability development efforts.
    Question. If performance could be enhanced by this capability, 
would it decrease the number of THAAD Fire Units that would be 
required?
    Answer. Yes, if the THAAD interceptor was enhanced it would 
decrease the number of THAAD Fire Units required. However, THAAD 
enhanced performance is not a substitute or a replacement for the 
defense provided by the European Interceptor Site.

   Foreign Military Sales of Terminal High Altitude Area (T) Defense 
                 (THAAD) to Israel and Other Countries

    Question. Israel is interested in developing a new program to focus 
on the same threat that THAAD currently defends. One issue they have 
raised is that the U.S. hasn't shared information with them as to the 
capabilities of THAAD and thus do not know if THAAD will work for them.
    Can you provide us an update on current U.S.-Israeli Cooperation?
    Answer. There are currently 3 significant US-Israeli initiatives: 
baseline system for defense of Israel (Arrow Weapon System-AWS), 
defense against short-range ballistic missiles (David's Sling Weapon 
System-DSWS), and discussion of an upper-tier component of this defense 
architecture.
    Arrow System Improvement Program (ASIP): The program's focus is to 
upgrade the AWS to counter evolving longer range and more sophisticated 
ballistic missile threats. In April 2006, Israel declared Block 3.0's 
Initial Operating Capability (IOC). Block 4 is in the final design 
stages and is scheduled to be ready for fielding in early 2009. The 
current ASIP program ends in FY09; however, due to increased regional 
threats, Israel requires an upper-tier system and received FY08 $20M to 
perform risk mitigation and preliminary design. Israeli Aircraft 
Industries (IAI) has proposed an Arrow III.
    Short Range Ballistic Missile Defense (SRBMD/David's Sling): The 
2nd Lebanon War between Israel and Hezbollah underscored the strategic 
effect of short range, inexpensive ballistic missiles to civilian 
populations. In 2006, Israel selected the DSWS proposed by Rafael/
Raytheon for their SRBMD solution. The goal is $350K per missile cost 
(as compared to the $2-3M per Arrow or Patriot missile). Israel is 
expected to request an additional $28M above the $45M PB09 to 
accelerate the development and production. MDA plans to aggressively 
engage Israel to make the DSWS a true joint international development 
program and assess the military utility of this system for the U.S.
    Upper-tier alternatives: Discussions continue which respond to the 
evolving longer-range threat and provide for a layered defense with 
multiple shot opportunities. Interceptor options discussed with Israel 
include Arrow III (based on Israeli technology), the THAAD missile, and 
a land-based version of the Standard Missile 3 (SM-3). Formal approval 
has been granted (via EXCOM and National Disclosure Policy channels) 
for disclosure of data and possible FMF sale for THAAD baseline and 
extended range to Israel. In addition, sharing of SM-3 data has been 
authorized to facilitate the ongoing discussions toward a possible 
sale.
    After the data sharing and joint discussions with Israeli, it was 
agreed that THAAD does not met Israel's Upper Tier Requirements. MDA's 
analysis of alternatives shows SM-3 to be the most effective answer, 
but Israel is pushing for their indigenously developed Arrow III 
solution. At this time, Israel has no interest in procuring THAAD FMS. 
However, from a joint warfighting perspective, the Defense Policy 
Advisory Group for which OSD (Policy) is a chair, directed the creation 
of the Architecture Enhancement Plan that includes the deployment of 
U.S. owned and operated THAAD in Israel as part of a joint combined 
missile defense architecture.
    Question. To what extent is National Disclosure Policy preventing 
us from sharing missile defense information and technology with allies?
    Answer. National Disclosure Policy does not prevent us from sharing 
missile defense information and technology. It does prescribe a process 
for ensuring appropriate interagency review occurs prior to sharing 
information in order to protect national security and economic 
interests. The length of the overall disclosure process is increased 
when a separate LO/CLO (Low Observable/Counter Low Observable) EXCOM 
ruling is required prior to gaining an exception from the National 
Disclosure Policy Committee (NDPC).
    Question. What needs to be done to fix this?
    Answer. Advance planning and clear articulation about what we 
propose to share are the most important factors in ensuring timely 
approvals in support of international programs. As a general rule, 
review, assessment, and planning for release of U.S. systems and 
technologies to specific partners and allies need to occur during the 
development stage vice production/fielding.
    Question. Are there legitimate concerns that would prevent the U.S. 
from disclosing certain information, and if so, what would those 
concerns be?
    Answer. Yes, when advanced systems and technology are being 
discussed, there are legitimate concerns that would prevent the U.S. 
from disclosing certain information. In order to protect both national 
security and economic interests, it is necessary to ensure that 
technology is protected and that discussions are tailored to support 
specific military and foreign policy objectives. The concern over the 
potential for reverse engineering of advanced systems and unauthorized 
third party transfer or sale of information and technology guide U.S. 
technology protection activities.

            Testing and Lack of Sufficient Number of Targets

    Question. One of the key limiting factors of MDA's test program has 
been the lack of sufficient number of missile defense targets.
    Do you currently have a sufficient amount of targets to execute 
your testing program?
    Answer. Yes. Assuming our target development and production 
activities proceed according to schedule, we plan to deliver sufficient 
targets to execute the test program as it is laid out in the MDA 
Integrated Master Test Plan (IMTP). Specifically, in the MDA/TC 
Production and Delivery Manifest for BMDS flight tests through FY10 
there are seven (7) targets for THAAD, five (5) targets for GMD, seven 
(7) for Aegis BMD, six (6) for cooperative tests with Japan's Aegis BMD 
capability, four (4) for the PAC-3, three (3) in support of the SSTS, 
three (3) for ABL, and three (3) in support of special experiments for 
BMDS sensor technologies.
    Having additional target inventory or having a spare target 
available in the event of target failure does not mean a test could 
proceed immediately with the backup target. MDA must take the time 
necessary to conduct a root cause analysis to understand the target 
failure prior to resuming or re-attempting the test.
    Question. If not, what can we do to improve the number of targets?
    Answer. The FY09 President's Budget submission represents the best 
application of limited resources to meet the needs of the Missile 
Defense Agency in providing an integrated, layered ballistic missile 
defense capability to the warfighter. We, therefore, support the 
President's Budget request. The Targets and Countermeasures Program has 
limited flexibility to meet short-term, emergent, or contingency 
planning requirements. Activities that would support a more robust 
target program include the following priorities:
Priority: 1
$31.5M (FY09), $12.9M (FY10)
    Implement a rolling spare and maintain minimal inventory as 
contingency for additional short notice test events for Ground-Based 
Midcourse Defense. Additional spare procurements optimize the 
manufacturing capability/thru-put. This procurement will include LV-4 
($25.7M), one reentry vehicle ($8.6M), multiple deployables and ejector 
mechanisms ($9.1M), and support equipment ($1.0M).
Priority: 2
$7.8M (FY09)
    Implement an Aging Surveillance program to monitor the reliability 
and functionality of inventoried C-4s and Minute Man rocket motors. The 
Flexible Target Family rocket motors are in DoD inventory with minimal 
or no ongoing surveillance programs. The Director of MDA is developing 
long term budgets and plans for ongoing surveillance activities that 
will be prioritized within MDA's requirements as part of future budget 
development activities.
    $3.5M would establish the C-4 Rocket Motor composition and 
characteristics baseline through the execution and analysis of static 
fire testing in support of the Aging Surveillance program.
    $2.2M would be required to develop a C-4 nozzle return and repair 
capability. The C-4 has a defect in the first stage nozzle affecting 
roughly 60% of the inventory. Residual volatiles in the motor off-gas 
causing the material to shrink which sometimes results in nozzle throat 
cracks. The C-4 Motors are screened for this Forward Exit Ring Crack 
(FERC) defect prior to processing. However, this condition may worsen 
over time, affecting larger portions of the C-4 inventory and 
potentially occurring during rocket motor processing prior to target 
launch.
    $2.1M would be required for the Air Force Aging Surveillance 
program for Minute Man (MM) motors which consists of propellant 
sampling and testing to characterize chemical stability, component 
testing (e.g., Ordnance Devices) to characterize performance, hot gas 
generator and motor instrumented static firings, and technical analysis 
of test results. Funding Aging Surveillance program would maintain 
viability for use of flight-proven assets for future FTF missions and 
in legacy target designs. MDA previously (FY06 and prior) funded the 
Air Force Aging Surveillance program for these M55, SR19, and M57 
motors, but began phasing out funding in FY07 (M55 AS discontinued) and 
FY08 (SR19 unfunded) due to planned timeline for FTF implementation and 
funding constraints.
Priority: 3
$25.6 (FY09), $5.6 (FY10)
    Implement a rolling spare and initiate inventory to optimize 
manufacture flow and support potential future short notice requirements 
in support of AEGIS and THAAD program requirements by procuring one (1) 
52" SR-19 (SR-19/57), one (1) MBRV-1, and one (1) Air Launch Carriage 
Extraction System for Air Launch requirements.
    Question. Would additional funds in this area be helpful?
    Answer. Yes, Funding and maintaining a backup inventory of Flexible 
Target Family hardware components would minimize target cycle time in 
the event of mission failures, mitigate risk of critical path 
schedules, and improve the ability to meet short-fuse new requirements. 
As stated previously, additional target funding and inventory will not 
necessarily mitigate all potential delays in testing because if a 
target fails, MDA may need to take the time necessary to conduct a root 
cause analysis prior to conducting a subsequent test.

                     Aegis and Atlantic Fleet Ships

    Question. Gen. Campbell, I understand that all Aegis BMD-capable 
ships are currently assigned to the Pacific, and MDA only plans to 
upgrade two Atlantic Fleet ships to BMD configuration.
    What's the rationale for this decision?
    Answer. U.S. Pacific Fleet is the primary force provider of forward 
deployed and rotational forces for both the Western Pacific and Middle 
East regions, where the preponderance of the current threat resides.
    Today the Navy has 12 Aegis BMD Engagement ships and five Aegis BMD 
Long-Range Surveillance & Track ships that have been upgraded with BMD 
capability. Eighteen Aegis BMD Engagement ships will be available by 
the end of CY 2008. Additionally, the Navy will begin outfitting the 
Arleigh Burke Class Destroyers with BMD capability as part of the DDG 
Modernization program in FY 2012, expanding the number of BMD capable 
surface ships to 62. The Navy is also examining opportunities to 
include BMD capability in th Cruiser Modernization program.
    Question. Do you currently have any plans to upgrade additional 
Atlantic Fleet ships? If not, why?
    Answer. The Missile Defense Agency's (MDA) resources provided in 
the President's budget will provide for 18 Aegis ships for Ballistic 
Missile Defense (BMD), including two destroyers in the Atlantic Fleet 
by the end of CY08.
    In addition, Navy is adding BMD capability on all DDGs through the 
DDG Modernization program beginning in FY12.
    MDA is working closely with Navy to ensure that future spirals of 
the Aegis BMD capability are compatible with an open architecture. In 
addition, the Navy is currently considering including this capability 
in additional Aegis Cruisers as well. These upgrades will apply to both 
Atlantic and Pacific fleet ships.
    Question. Lt Gen Obering, if all BMD-capable ships are in the 
Pacific, what's the plan for using Aegis BMD to defend our troops and 
allies in the CENTCOM AOR?
    Answer. I will defer to Commander, U.S. Central Command to discuss 
plans for using Aegis BMD ships to defend our troops and allies in his 
AOR. From my perspective, I work with the Navy to ensure the ships are 
as capable and operationally flexible as possible to perform BMD 
missions anywhere in the world. In this regard, the Navy is developing 
an open architecture (OA) for the AEGIS combat system that will provide 
BMD capability at relatively low cost to the rest of the fleet. We 
closely watch the threat, and if the promises of OA do not meet the 
current schedule MDA will work with the Navy to accelerate expanded BMD 
capability.

                     Warfighter Involvement Process

    Question. I understand that STRATCOM and MDA have developed a new 
program called the Warfighter Involvement Program (WIP) to ensure 
warfighter views are incorporated into the missile defense development 
process.
    What are the key elements of the Warfighter Involvement Program?
    Answer. The Warfighter Involvement Process (WIP) has been codified 
in the US Strategic Command (STRATCOM) Instruction SI 538.3, Missile 
Defense Warfighter Involvement Process. This document, closely 
coordinated between STRATCOM and MDA, defines the goals and objectives 
of the WIP; identifies roles and responsibilities of the key 
stakeholders; and prescribes the processes for assuring the integration 
of both near and far term Warfighter needs into Ballistic Missile 
Defense System (BMDS) development. The key products of the WIP are:
          <bullet> STRATCOM Prioritized Capabilities List (PCL) defines 
        Warfighter desired far-term future BMDS capabilities
          <bullet> STRATCOM Modification & Fielding Request List (MFRL) 
        describes Warfighter desired changes and additions to the 
        currently fielded BMDS
          <bullet> MDA Achievable Capabilities List (ACL) provides the 
        response to the PCL; articulates budgetary, programmatic, 
        schedule, and performance issues, as well as external-
        dependency shortfalls, for each PCL item
          <bullet> STRATCOM Capabilities Assessment Report (CAR), 
        provides the STRATCOM assessment of the MDA ACL
    The STRATCOM PCL refines COCOM priorities for potential MDA POM 
adjustments and the Program Change Board (PCB) institutes the 
adjustments. The result is an integrated BMDS development effort that 
includes Warfighter-desired capabilities.
    The STRATCOM MFRL communicates to the MDA desired modifications and 
fielding requests after a capability is fielded. Requests are 
adjudicated through the Missile Defense Management Structure (MDMS) and 
approved by the PCB. The Joint Functional Component Command for 
Integrated Missile Defense monitors the MFRL.
    In a parallel effort, MDA is currently developing a WIP Directive 
and implementing Instruction that codify internal MDA responsibilities 
and procedures to support the STRATCOM WIP. The Directive and 
Instruction are in the staffing process and are due for publication 
this summer.
    Question. To date, are you satisfied with the Warfighter 
Involvement Program?
    Answer. Yes. In October 2006, MDA established the Warfighter 
Support Center (MDA/DFO), collocated with the USSTRATCOM Joint 
Functional Component Command for Integrated Missile Defense (JFCC-IMD) 
in the Missile Defense Integration and Operations Center (MDIOC) at 
Shriever AFB, CO. The mission of MDA/DFO is to provide a direct 
Warfighter link that ensures consistency and transparency in planning, 
coordinating, and integrating between the Combatant Commands (COCOM) 
and MDA. Over the past year this relationship has evolved, matured, and 
enabled a new and unique MDA-Warfighter synergy, based largely on the 
Warfighter Involvement Process (WIP).
    Within the context of Continuous Process Improvement, the MDA 2007 
Summer Study analyzed the existing WIP, focusing on the Prioritized 
Capabilities List (PCL), one of the principal WIP products. The PCL, 
developed by STRATCOM in conjunction with the other COCOMS, provides 
MDA with the Warfighter prioritized list of future desired BMDS 
capabilities, and constitutes a major input to future BMDS design and 
development. The Summer Study WIP focus group developed a list of 
recommended changes to the process that are being considered and 
implemented, as appropriate, through a new STRATCOM Instruction, SI 
538-3, Missile Defense Warfighter Involvement Process, and a 
corresponding MDA Directive and Instruction.
    Over time, implementation of the WIP changes will facilitate 
integration of Warfighter operational requirements and desired 
capabilities with the MDA system engineering process. The net yield 
will be a more operationally effective and suitable Warfighter oriented 
future missile defense capability.
    Question. What happens if there's a disagreement between STRATCOM 
and MDA on an issue? How are differences resolved?
    Answer. There are several venues to alleviate disputes existing 
between USSTRATCOM, representing the warfighter community, and the MDA. 
As described in section 2.3 of STRATCOM's Warfighter Involvement 
Process (WIP) directive, the CDRUSSTRATCOM has personal interaction 
with the Director of MDA in addition to using the Missile Defense 
Executive Board (MDEB) as a means to resolve disagreements. As directed 
by JROC memorandum 133-03, Commander, USSTRATCOM employs the Global 
Missile Defense Management Structure to integrate community input on 
operational concerns and issues. Through the management structure and 
through WIP interactions, many issues are surfaced and addressed from 
the 0-6-level up to and including the Executive Steering Committee at 
the 3-Star level.
    Additionally, USSTRATCOM participates in MDA's Program Change Board 
(PCB) and its subordinate supporting group, the Integration 
Synchronization Group. The PCB is the MDA's single forum for managing 
the development, fielding, and integration of the BMDS. The PCB, under 
the authority of the Director, is the sole decision authority for 
establishing and changing BMDS and element program baselines. Given its 
function, it may also be used to resolve differences between the two 
communities.
    For conflicts between test and operations of fielded systems, there 
is a rigorous asset management (AM) process. Using co-developed 
instructions, MDA Directive 3000.1, BMDS Asset Management Planning, 
Scheduling, and Execution; and USSTRATCOM Directive 538-1, BMDS System 
Description and Asset Management, the community of BMDS stakeholders, 
including all MDA program offices and all Combatant Commands and their 
Service components, collaboratively plan, schedule, and execute all 
BMDS test, training, exercise, and maintenance events/activity, while 
ensuring missile defense operations can be executed as directed.
    Question. Are there areas where the process could be improved?
    Answer. The 2007 MDA/USSTRATCOM Summer Study established a 
Warfighter Involvement Process (WIP) evolution focus group to study WIP 
improvements. This group, comprised of members from MDA and Combatant 
Commanders (COCOM), reviewed WIP processes and documents to synchronize 
Warfighter desired capabilities with MDA's engineering process. The 
recommendations from the Summer Study are being implemented by both MDA 
and USSTRATCOM, as appropriate.
    The study team made the following recommendations:
          <bullet> Restructure the MDA system engineering process (SEP) 
        to incorporate warfighter input during appropriate points in 
        system design which includes the road mapping and define and 
        design phases. (process, participants, and overarching)
          <bullet> Add a new WIP activity encompassing warfighter 
        analysis of quantity, operating locations, and deployment 
        timing of systems prior to fielding. (process and product)
          <bullet> Restructure the change request process to permit 
        resolution of single element item, fielding, and training 
        requests in addition to system issues. (process and 
        participants)
          <bullet> Insert the Achievable Capabilities List (ACL) (MDA) 
        and Prioritized Capabilities List (PCL) (USSTRATCOM) into the 
        evolved SEP with the goal of achieving consensus. (product and 
        overarching)
          <bullet> Modify the PCL to convey both a long-term vision of 
        the objective BMDS and more specifically defined capability 
        needs. (product)
          <bullet> Modify the USSTRATCOM WIP instruction to account for 
        these identified changes in the process and content of WIP 
        products. (documents recommendations)

                    STRATCOM Capabilities Mix Study

    Question. LTG Campbell, STRATCOM recently completed a Capabilities 
Mix Study, which outlines the combatant commander's future missile 
defense force structure requirements.
    Please discuss potential new requirements outlined in the study 
that are present in the FY2009 budget submission.
    Answer. The Joint Integrated Air and Missile Defense Organization 
(JIAMDO) briefed the findings of the Joint Capability Mix (JCM) Study 
to the Joint Requirements Oversight Council (JROC) on February 21, 
2008. On March 25, 2008, the JROC endorsed the study findings. The JCM 
study findings provide for minimum quantities for combat operations in 
certain contingencies in the 2015 timeframe. These findings recommend 
minimum quantities of upper-tier (THAAD and SM-3) interceptors, 
additional THAAD fire units, and modifications to the Forward Based 
Radar (AN/TPY-2) program. The Missile Defense Agency (MDA) has briefed 
the Missile Defense Executive Board and the JROC on their plan to meet 
the JCM study findings. It is anticipated that the study findings from 
this recent iteration of the JCM will be included in MDA's Fiscal Year 
2010 and out budget submission.

                  Missile Defense and Soldier Training

    Question. LTG Obering, with the continued development and fielding 
of the Ground-based Midcourse Defense system, DoD may now have a 
rudimentary capability to defend U.S. citizens against a limited 
ballistic missile attack.
    What is your current assessment of training and personnel readiness 
to use the system in defeating a limited ballistic missile attack 
against the U.S.?
    Answer. Assessment of training and readiness is a Combatant 
Commander responsibility and final say should be theirs. However, MDA 
does provide initial qualification training and we support proficiency 
training at the individual, crew, and joint levels. We also provide 
Ballistic Missile Defense System-Level Training and Education covering 
the capabilities, limitations, and employment of the entire system to 
the Combatant Command staffs--supporting their ability to develop 
tactics, techniques and procedures to defend America. Based on the 
training that we provide, I believe that the training and readiness of 
ballistic missile defense personnel is excellent.

     Missile Defense Capabilities and Transition to the Warfighter

    Question. LTG Campbell, ballistic missiles and technology continue 
to proliferate in the world. Some nations are using their developing 
ballistic missile capabilities to threaten their neighbors. Our 
deployed forces have a missile defense capability with PATRIOT and 
fielding of Standard Missile 3 as the intercept or on the Aegis system. 
Additionally, the Terminal High Altitude Area Defense (THAAD) has 
successfully returned to flight testing and should soon be a deployed 
missile defense asset.
    Looking to the future, how are you working to transition these 
missile defense capabilities to the warfighters and to determine the 
appropriate asset mix of PATRIOTS, Standard Missile-3s, and THAAD 
interceptors.
    Answer. The Missile Defense Agency (MDA) is developing memorandum 
of agreements with individual element lead Services to document the 
transition process for procurement and sustainment. The U.S. Strategic 
Command (STRATCOM) is assisting the other Combatant Commanders (COCOMs) 
with understanding the capabilities and limitations of these systems in 
development and how they may impact operations until they transfer to a 
Service. We have several venues to assist the COCOM's in this, 
including the Operational Readiness & Acceptance Process, the BMDS 
Combined Element Review, and the BMDS Military Utility Assessment to 
name a few.
    We are continuing to refine the force structure requirements 
through additional analysis and inform MDA of future COCOM capability 
needs through the STRATCOM-led Warfighter Involvement Process, the 
Joint Requirement Oversight Council process, and the Missile Defense 
Executive Board.
    Active defense forces are but one piece of the solution. Combatant 
Commanders integrate attack operations, passive defense, and non-
kinetic options to meet the threat.

                         GAO Questions for MDA

    Question. To carry out its mission, MDA, until December 2007, 
executed an acquisition strategy in which the development of missile 
defense capabilities was organized in 2-year increments known as 
blocks. In 2007, MDA redefined its block construct to be based on 
fielding capabilities addressing particular threats as opposed to the 
biennial time periods that were the agency's past approach. MDA's new 
block construct makes many positive changes such as establishing unit 
cost for selected block assets, including in a block only those 
elements or components that will be fielded during the block, and 
abandoning the practice of deferring work block to block. However, 
there are remaining concerns with the new structure as several issues 
are left unaddressed. Specifically, the GAO was concerned that there 
would be no block cost estimates. Instead, MDA will include all prior 
costs for activities included in the block and an expected budget 
baseline for each block activity. This will address the six years 
included in DOD's Future Years Defense Plan.
    Why can't cost estimates be made for nearer term blocks like 1.0 
and 2.0--they have a large percent of work already completion?
    Answer. MDA will build cost baseline estimates for the full costs 
of all blocks, not just Blocks 1.0 (Defense of the U.S. from Limited 
North Korean Long-Range Threats) and 2.0 (Defense of Allies and 
Deployed Forces from Short-to-Medium Range Threats in One Region/
Theater). We also intend to request an independent review of these 
estimates by the Cost Analysis Improvement Group (CAIG).

                      FY2009 THAAD Budget Request

    Question. In the FY2009 budget submission for THAAD the request is 
relatively the same as last year, just about $1 billion.
    Can you explain how the funding profile has changed for THAAD from 
FY2008 to FY2009 budget submission?
    Answer.

                                            CHANGES FROM PB08 TO PB09
----------------------------------------------------------------------------------------------------------------
                                  FY08       FY09        FY10        FY11        FY12        FY13       FY08-13
----------------------------------------------------------------------------------------------------------------
PB08.........................    858.277    897.358     826.654     756.440     583.732     406,379   4,328.840
PB09.........................    867.064    864.899     689.924     619.949     450.639     343.618   3,836.093
Delta........................      8.787    (32.459)   (136.730)   (136.491)   (133.093)    (62.761)   (492.747)
----------------------------------------------------------------------------------------------------------------

    The funding profile has changed as a result of the following 
adjustments:
    1. The FY08 changes were due to the Appropriation Conference 
addition for the Juniper Cobra 09 exercise and various Congressional 
undistributed reductions.
    2. In the FY09-FY13 budget submission all AN/TPY-2 Radar efforts 
were consolidated into the Sensors PE (0603884C). Therefore, THAAD 
transferred all of their funding for the Fire Unit Radars and their 
associated radar program office support to the Sensors PE (0603884).
    3. There were also various Department of Defense adjustments and 
miscellaneous internal MDA adjustments.
    The table below provides a detailed listing of the FY08 to FY09 
changes.

                                                DETAILED CHANGES
----------------------------------------------------------------------------------------------------------------
                                      FY08        FY09       FY10       FY11       FY12       FY13      FY08-13
----------------------------------------------------------------------------------------------------------------
Add for Juniper Cobra............       14.9   .........  .........  .........  .........  .........       14.9
Congressional Undistributed           (6.113)  .........  .........  .........  .........  .........     (6.113)
 Reductions......................
THAAD Fire Unit Radar Funding      ..........   (40.000)  (126.700)  (126.600)  (124.300)   (54.600)   (472.200)
 Transfer to Sensors PE..........
Radar Program Office Support       ..........    (4.949)    (5.098)    (5.251)    (5.408)    (5.570)    (26.276)
 Transfer to Sensors PE..........
Various OSD PBDs/MDA Adjustments.  ..........     12.490    (4.932)    (4.640)    (3.385)    (2.591)     (3.058)
                                  ------------------------------------------------------------------------------
    Totals.......................      8.787    (32.459)  (136.730)  (136.491)  (133.093)   (62.761)   (492.747)
----------------------------------------------------------------------------------------------------------------

    Question. How can you spend that amount requested funding with the 
delay of the fire units three and four?
    Answer. Following the February 2008 House and Senate Authorization 
Staffer Day briefing, the Agency made additional internal re-alignments 
which have restored the $65M in FY09 to enable award of the THAAD Fire 
Units 3&4 long lead contract as originally planned. The Agency has 
confidence that budget execution for FY09 funds for the Terminal PE 
will continue our track record of exceeding obligation and expenditure 
goals. Program execution in FY09 is paced by the need for completing 
critical activities on the THAAD Development contract, which was the 
rationale for initially delaying Fire Units 3&4.
    Question. Why does the budget submission not show a reduction due 
to the fire units' delay? delay?
    Answer. There were primarily only re-alignments between Fire Units 
and Development funding within the Terminal PE to complete critical 
activities on the THAAD Development contract, with no substantial 
reduction to the total budget submission for THAAD.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                      Wednesday, February 27, 2008.

                              SHIPBUILDING

                               WITNESSES

VICE ADMIRAL BARRY J. McCULLOUGH, DEPUTY CHIEF OF NAVAL OPERATIONS FOR 
    INTEGRATION OF CAPABILITIES AND RESOURCES
ALLISON STILLER, DEPUTY ASSISTANT SECRETARY OF THE NAVY (SHIP PROGRAMS)

                              Introduction

    Mr. Murtha. I want to welcome to the Committee Assistant 
Secretary of the Navy, Ms. Stiller, and Deputy Chief of Naval 
Operations for Integration of Capabilities and Resources, 
Admiral McCullough. We are delighted to have you before the 
Committee and look forward to getting some advice about how we 
can go forward.
    I have been challenging the shipbuilding industry to come 
in with more realistic goals, and they are saying, well, give 
us a better design or more finished designed, and we will do 
that. I think it is partly the Navy's fault and partly 
industry's fault. But I have been challenging everybody. I 
said, the Committee is no longer willing to keep paying for the 
mistakes that are made by the Navy and industry. So I know that 
we are getting closer, I think, to that kind of an agreement.
    But we also need some advice about any additional ships. If 
we took the ships that the administration sent over, we would 
never get to what the Navy is saying that you need; and so we 
are going to try--Bill and I are going to try to convince the 
Committee that we need three or four more ships. I think they 
finally sent over seven this year. We are going to find a way 
to get to a number that will take us to 313 ships in much less 
years. I think it would take 50 years the way they were going.
    So we welcome you to the Committee and look forward to your 
testimony.
    Mr. Young.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much.
    I want to join the chairman in welcoming you to the 
Committee.
    We were one of the original--two of the original Ronald 
Reagan 600-ship Navy folks. So we are a little disappointed. We 
are trying to attain 313 ships. But we are going to do the very 
best we can to do that. So we are anxious to hear your 
testimony today.
    We are very specifically interested in the direction of the 
Littoral Combat Ships, since I understand there have been some 
serious changes in what the ship is going to look like and what 
it will do. Anyway, we are looking forward to what you are 
going to have to say to us, and we may have some questions for 
you. Thanks for being here.

                    Additional Remarks of Mr. Murtha

    Mr. Murtha. The Littoral Combat Ships that Mr. Young 
mentioned I think is a perfect example of what I am talking 
about. We went in with inadequate design. I knew when they said 
they cost $188 million, and I even commented in Committee, that 
I doubted very much they will come in at that price. I realize 
the first ships are going to be expensive because of the 
changes and so forth. But I think a lot of this is solved if we 
have a better design earlier so that industry can make a 
legitimate design. I know you went out to shipyards that don't 
normally do Navy work. But they complained about the changes 
the Navy makes.
    In the past, we have made mistakes by limiting the number 
of changes the services could make, and the perfect example of 
that is the B-1. We made a deal years ago that we would buy 100 
B-1s for $20.5 billion with Secretary Weinberger. Well, we 
built the B-1s, but they didn't have any of the things they 
needed, and they sat on the runway during Gulf War 1991. So we 
all realize there has to be some changes, but when you come to 
4 or 5,000, just seems to me that is excessive. So we need 
better design work.
    So we look forward to hearing your testimony and any advice 
you have. We want to put at least 10 ships in the inventory for 
next year.
    Secretary.

                 Summary Statement of Secretary Stiller

    Ms. Stiller. Mr. Chairman, Mr. Young, it is a privilege for 
Vice Admiral McCullough and me to appear before you today to 
discuss Navy shipbuilding. I request that our written statement 
be entered into the record.
    The Department is committed to build an affordable fleet at 
or above 313 ships tailored to support the National Defense 
Strategy, the recently signed Maritime Strategy, and the 2006 
QDR. For the first time in a long while, the Navy's budget does 
not include any lead ships. This year, a total of seven ships 
are included in the fiscal year 2009 President's budget: one 
Virginia Class submarine, one DDG 1000 class ship, two LCS, two 
T-AKEs, and one Navy Joint High Speed Vessel (JHSV). In 
addition, although not part of the Navy's 313-ship structure, 
the Navy will procure one JHSV for the Army in 2009.
    I will now elaborate on the specifics of our request.
    The Navy is requesting $2.1 billion of full funding for one 
Virginia Class submarine in 2009, an advanced procurement for 
the fiscal year 2010 boats, an advanced procurement for two 
boats in fiscal year 2011. The Virginia Class construction 
program is continuing to make progress toward realizing CNO's 
goal of buying two Virginia Class submarines for $4 billion as 
measured in 2005 dollars by fiscal year 2012.
    Because of your support with the addition of advanced 
procurement funding last year, the Navy has accelerated the 
production of two Virginia Class submarines per year from 
fiscal year 2012 to fiscal year 2011. The Navy also requests 
approval for the next multiyear contract, which encompasses 
eight boats planned in fiscal year 2009 through 2013.
    Two weeks ago, the Navy awarded contracts for the 
construction of the dual DDG 1000 lead ships to General 
Dynamics, Bath Iron Works and to Northrop Grumman Shipbuilding. 
The fiscal year 2009 budget request of $2.55 billion provides 
full funding for the third DDG 1000 and advanced procurement 
for the fourth ship. With recent approval from the Defense 
Acquisition Executive for the follow ship acquisition strategy, 
the Navy intends to utilize fixed price incentive fee contracts 
through a competition for quantity for the remainder of the 
class.
    The Navy remains committed to the Littoral Combat Ship 
(LCS) program, and LCS remains a critical warfighting 
requirement for our Navy. The fiscal year 2009 budget includes 
$920 million for two additional LCS sea frames. The Navy also 
intends to execute the fiscal year 2008 appropriation for one 
seaframe, utilizing the remaining funding and material from the 
terminated ships.
    Under an acquisition strategy approved in January, the 
fiscal year 2008 and 2009 awards will be for fixed price 
incentive contracts based on a limited competition between the 
current LCS seaframe contractors.
    The fiscal year 2009 budget also provides for procurement 
of two T-AKEs in the National Defense Sealift Fund. The fiscal 
year 2009 funding is for two ships, T-AKE 11 and 12.
    The Joint High Speed Vessel program is currently in the 
technology development phase. Lead ship award is anticipated in 
late fiscal year 2008, with delivery of the first vessel in 
fiscal year 2011. The fiscal year 2009 budget includes $187 
million for construction of the first Navy funded JHSV and $173 
million for the second Army funded vessel.
    We have worked diligently to stabilize our shipbuilding 
plan and move into serial production. The Navy remains 
committed to ensure fiscal responsibility in shipbuilding 
acquisition programs, as evidenced by the cancellation of LCS 3 
and 4 last year.
    Mr. Chairman, we would like to thank you for this 
opportunity to discuss the Navy shipbuilding budget request for 
2009. Vice Admiral McCullough would like to remark briefly on a 
day in the Navy.
    Thank you.
    [The joint statement of Vice Admiral McCullough and Ms. 
Stiller follows.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                Summary Statement of Admiral McCullough

    Admiral McCullough. Chairman Murtha, Ranking Member Young, 
I am honored to appear before you with Ms. Stiller to discuss 
Navy shipbuilding.
    Before we begin, I would like to share with you what your 
Navy accomplished one day last week on the 20th of February.
    The fleet is 279 ships strong, with 127 ships underway, or 
about 40 percent of our fleet. There are over 332,000 Active 
component, 70,000 Reserve component, and 177,000 civilians 
serving in your Navy.
    Beginning in the eastern Atlantic, GEORGE WASHINGTON is 
preparing for future forward deployment to Japan, while the 
NASSAU Expeditionary Strike Group is underway to start its 
deployment.
    CROMMELIN, SIMPSON, STEVEN W. GROVES, and Navy P-3s are in 
the Southern Command's area of responsibility conducting 
counternarcotics operations in the Caribbean and eastern 
Pacific.
    In the European theater, COLE is operating in the 
Mediterranean with the British, and SAN JACINTO is in the Black 
Sea with NATO and Partnership for Peace Navies.
    Supporting the African Partnership Station off western 
Africa, FORT MCHENRY arrives in Cameroon; and HSV2 SWIFT is in 
the Gulf of Guinea.
    BAINBRIDGE and JOHN HALL are on station to support the 
President's visit to the continent.
    In the Central Command area of operations supporting Iraqi 
and Enduring Freedom, HARRY S TRUMAN Carrier Strike Group 
departs Jebel Ali and the TARAWA Expeditionary Strike Group re-
enters the Arabian Gulf.
    Riverine forces are conducting a variety of missions in 
country, while, in the air, Navy airborne ISR assets are 
providing critical intelligence to the Navy and special 
operations forces.
    On the ground, 14,000 Sailors are employed as individual 
augmentees. Six Navy led Provisional Reconstruction Teams in 
Afghanistan delivered aid and reconstruction, while more than 
3,000 medical personnel support operations.
    Off the east coast of Africa, CARNEY, WHIDBEY ISLAND, and 
OSCAR AUSTIN are supporting counter-piracy operations with a 
coalition force.
    In the Pacific theater, the NIMITZ Carrier Strike Group is 
underway in the western Pacific, providing presence while USS 
KITTY HAWK undergoes maintenance.
    ESSEX Expeditionary Strike Group continues exercises with 
the Republic of the Philippines forces.
    The USS OHIO conducts the first-ever SSGN port visit to 
Busan, Republic of Korea.
    Finally, in the Pacific, the USS LAKE ERIE launches a 
modified SM3 missile and successfully intercepts and destroys 
an inoperable satellite containing a toxic hazard.
    These are everyday examples of the balanced capability set 
the 2009 fiscal year shipbuilding program will provide to meet 
the challenges the nation faces with a reasonable degree of 
risk. The Navy's 313-ship force structure represents the 
minimum number of ships the Navy requires, the minimum 
capability and capacity, if you will, to provide global reach, 
persistent presence, and warfighting effects expected of our 
Navy forces as outlined in the National Defense Strategy, the 
QDR 2006, and our recently signed Maritime Strategy.
    I thank you for this opportunity to discuss the Navy 
shipbuilding program, your support of our Navy, and I look 
forward to answering your questions. Thank you very much.

                               FLEET SIZE

    Mr. Murtha. Thank you very much.
    The one thing that I keep worrying about is the threat down 
the road in looking past Iraq. I have been arguing policy-wise 
with the White House for a long time. But now I am trying to 
concentrate on how we can stabilize the Armed Forces not only 
to fight a war, to prevent a war.
    I look back at Korea when they drew the line underneath 
Korea, and the North Koreans attacked South Korea because they 
didn't think we had an interest in the area. When they see we 
are weak, or perceive us as being weak, then I perceive a 
danger out there.
    Intelligence people only spent a very short time on Russia 
or China, and yet it takes us much longer to build ships today 
than it did in the old days because of the sophistication of 
these ships. So I think we have to start now.
    Every time you say you are going to build 313 ships, you 
come to us and you say, the out years are going to make up the 
difference. Well, we have said, no, no, we are going to start 
last year; and we didn't get as far as we wanted. But we hope 
that we can come to an agreement with the Navy and the Senate 
this year to build at least 10 ships.
    A couple suggestions staff has made is to take one of the 
1000s out and put in two more T-AKEs, because they are 
stabilized platforms. I don't know if that is the right answer. 
But we need some suggestion from you folks about which 
direction to go. Our industrial base is so small and there is 
so little competition that we need, obviously, competition. 
But, on the other hand, we need to build as many ships as we 
can. So we need to look at all the options.
    I have been talking to Gene Taylor and Mr. Young about the 
possibility of jumping over the 1000 and going to the nuclear-
powered cruiser. I would hope, and in talking to you privately 
beforehand, I know the Navy is looking at that.
    Finally, I want to compliment the Navy on the shot that you 
just mentioned as if it were a routine thing, shooting down the 
satellite. That was by far not routine. In everything that I 
have heard, it was a complicated thing, and there had to be 
some substantial changes made. And it shows you planning ahead, 
how important it is when something like that comes about. If it 
hadn't been for the money that was spent in research and 
providing what was needed in that regard--and that started in 
this Committee, what we called defense of individual ships. A 
guy named Dave Killian came up with the idea. We kept putting 
it in, and the Navy kept resisting what we were trying to do, 
and finally you developed a much more sophisticated system than 
we ever envisioned. But the point is we come up with some 
pretty damn good ideas which have been very helpful in the long 
run.
    Mr. Young and I worked assiduously over the years trying to 
make sure that you have what you need. I know that you have cut 
back on I think 28,000 personnel in order to build ships. This 
is when England was the Secretary of the Navy. That is what he 
told me he was going to do. I liked that. I said, well, I worry 
you're cutting back too many personnel because you lose your 
flexibility. But, on the other hand, we want to start building 
ships.
    Well, they stole the money. In other words, the money went 
someplace else.
    Well, we are here to change that direction, to stabilize 
it. We hope that the supplementals will become part of the 
overall picture, rather than being separate from the base bill 
that has been sent over here to us. Both Mr. Young and I have 
said over and over again, put everything together so that we 
can understand and plan ahead and work with you folks, coming 
up with a viable defense or the strength we need to make sure 
we prevent a war rather than get into a war.
    So I appreciate the Navy's role. There is no other force 
that can project yourself better than you can.
    I worry you are talking about going down to 10 carriers. 
That is the kind of thing that we get into with the military in 
Iraq and Afghanistan, not having enough people, not being able 
to deploy with the worldwide commitments that we have.
    So I think you have got to rethink these things. I know how 
expensive they are. But I know lethality is a lot more than it 
was in World War II, and we don't need quite as many. But, on 
the other hand, you could only force your ships out there so 
often. You are going to have breakdowns, whether it is the air 
wing or the shipbuilding itself.
    So we want to work with you doing everything we can to help 
you get going in the right direction.
    Mr. Young.

                          LITTORAL COMBAT SHIP

    Mr. Young. Mr. Chairman, thank you very much.
    We are both committed to doing everything we can to make 
the Navy as strong as it needs to be. So Chairman Murtha is a 
very strong leader in making this happen; and the subcommittee 
is very, very supportive.
    He made one point that I think is important, and that is we 
have got to look beyond the conflict that we are dealing with 
today in Iraq and Afghanistan. We have got to look to what 
might be the next event of hostility that we might face. Navy 
shipbuilding and the Navy fleet, of course, is extremely 
important to that question.
    Let me go to the LCS, because in working with CNOs, the 
present CNO and previous CNOs, LCS was very, very high up on 
their priority list. We started to build two LCSs. One 
contractor fell a little behind, had some problems. The other 
contractor was quite proud of the fact that they were on track, 
when all of a sudden the other contractor wasn't on track 
either. So the Navy has decided to change the design, as I 
understand; and the LCS of tomorrow will not be the LCS that we 
anticipated yesterday.
    Tell us about that. My understanding is that you are going 
to a design that is very similar to a Coast Guard cutter. I am 
not sure if that is accurate or not. I would like to have the 
answer to that.
    Admiral McCullough. Yes, sir, I will take part of the 
question; and Allison will jump in where she thinks 
appropriate.
    First, we have not changed the warfighting requirement for 
the LCS program since its inception. As you know, we started to 
build this ship with very little of a firm design, and it was 
an underestimation on both the part of the government and the 
contractor on what the implementation of the vessel rules--what 
the effect of that would be, if you will.
    Mr. Murtha. Say that again.
    Admiral McCullough. The implementation of the Naval Vessel 
Rules. When we initially started this contract, the design was 
immature and the Naval Vessel Rules had not been finalized.
    Mr. Murtha. How far along was the design?
    Ms. Stiller. When we signed the contract, about 2 weeks 
later the Naval Vessel Rules were firmed up. What we did as 
part of the contract was say we know they are not firmed up so 
come back in and tell us what the implications are. And we did 
adjust both contracts.
    What Admiral McCullough has pointed out is both sides 
underestimated the true impact of the Naval Vessal Rules. But 
the Naval Vessel Rules are approved now, approved before we 
signed the contract for DDG 1000, so we don't feel we will have 
that situation on DDG 1000.
    I will defer back to you.
    Admiral McCullough. So we haven't changed the warfighting 
requirements for the LCSs. The LCSs in what we propose in the 
2009 program will be what we call flight zero plus LCSs. They 
will only incorporate the minimum number of safety changes that 
we feel appropriate for that ship. So there is no intent to 
wholesale redesign any one of the LCSs.
    We will perform sea trials and builders' trials and take 
lessons learned from both hull forms and decide what changes, 
if any, need to be implemented in the fiscal year 2010 ships. 
The LCS meets a current critical warfighting gap in the areas 
of mine warfare, response to high-speed maneuvering surface 
vessels and littoral anti-submarine warfare. The LCS and its 
mission modules have been designed to meet that warfighting 
gap.
    Sir, I have heard a lot of discussion about national 
security cutters, but there is currently no warfighting 
requirement in the United States Navy that sees a national 
security cutter as a solution.
    Mr. Young. Does your funding profile meet the needs of your 
LCS requirements?
    Admiral McCullough. Sir, when we revised the program due to 
the cost growth that we saw on LCS 1 and 2 that subsequently 
resulted in the cancellation of LCS 3 and 4, the profile we 
have put in the budget is to build the number of ships that we 
can with the amount of money that is profiled in the budget. 
Our commitment is still to build 55 LCSs, and that will require 
additional funding outside the FYDP.
    Ms. Stiller. I would just like to add we also were given a 
cost cap for LCS, and so the budget reflects that cost cap. The 
provision does not allow us to adjust for escalation over time. 
The cost cap is something we are going to come back to Congress 
and ask to be addressed. Because a ship today isn't going to 
cost the same as one way out there. Obviously, you will have 
learning on the first ships that will counterbalance the 
escalation impacts. But as you come down a learning curve the 
cost cap may be a challenge.
    Mr. Young. What is the status of LCS 1 and 2 now? What is 
their construction stage?
    Ms. Stiller. Concerning LCS 1, the program office projects 
it is about 79 percent complete. That is as of December 2007. 
We are going to go to builders' trials when the ice melts and 
we are able to get underway, hopefully this spring. The good 
news is both diesel engines were lit off, one yesterday, the 
second one this morning. So the ship is in testing right now, 
primarily, and things are going well.
    On LCS 2 we are about 65 percent complete. This is the 
Navy's estimate. That is also as of December 2007. They hope to 
launch that ship once she is about 80 percent complete, and 
that is predicted to be sometime this spring. She will also go 
into test and trials as well. Both should deliver this year.

                         ANTI-SUBMARINE WARFARE

    Mr. Young. Let me shift to another issue, Mr. Chairman, if 
I might.
    Submarines. The Chinese have aggressive underwater 
programs, the surprise that they gave the U.S. Navy by 
surfacing a submarine very, very near one of our large ships. 
Is this something that the Navy is dealing with? Do you have a 
plan to find out more about what the Chinese are doing or how 
they are doing it?
    Admiral McCullough. Yes, sir, we do.
    The Chinese have approximately 65 submarines. Some of them 
are extremely modern, and some of them are not. We have a 
variety of programs using distributive arrays that are in 
research, development and evaluation to help us get at that 
problem. The program of record for our advanced sonar system 
for our surface combatants, the SQQ-89, AV-15. We have 
accelerated in last year's budget to put additional assets on 
our ships.
    We are working on surface ship torpedo defense. We have 
successfully demonstrated the guidance package on an anti-
torpedo torpedo that could be launched from a surface ship. We 
recently completed a demonstration of detection, classification 
and localization of a five torpedo salvo up in the Pacific 
northwest.
    We recognize that the Chinese have accelerated development 
of their submarine program, and we have got several programs 
and several research and development projects under way to 
counter that threat, sir.

                     ENVIRONMENTAL IMPACTS OF SONAR

    Mr. Young. You mentioned the advanced sonar program. We are 
beginning to hear a lot about sonar and the effect of sonar on 
sea mammals. Are you gearing up for a discussion of that issue?
    Admiral McCullough. Sir, I am on the periphery of that 
discussion with my counterparts on the OPNAV staff. But that is 
not really in my lane. If you will, I would like to take that 
question for the record.
    Mr. Young. I understand that. Since you mentioned sonar, I 
just thought I might take a shot at it.
    Admiral McCullough. I understand.
    [The information follows:]

    The AN/SQQ-89A advanced surface ship sonar program utilizes the 
existing hull-mounted mid-frequency active (MFA) sonar source, the AN/
SQS-53. Improvements to the system include upgrades to signal 
processing and displays in commercial-off-the-shelf computers, a new 
passive multi-function towed array for improved anti-submarine warfare 
(ASW) performance, and software upgrades include improvements to the 
acoustic waveforms.
    Because the advanced system will use the same source as the 
existing active sonar system, the AN/SQS-53, the source level will be 
the same as that currently in use. MFA sonar has been linked with only 
a very small fraction of marine mammal standings in a limited number of 
geographic areas (specifically the Bahamas, the Canary Islands, and 
Greece). Despite the limited number of strandings associated with 
sonar, Navy is concerned about the potential for sonar to negatively 
affect marine mammals. Navy is a world leader in funding research on 
potential acoustic effects on marine mammals and is spending 
approximately $18 million per year on research with ocean agencies, 
academic institutions, and independant researchers around the world to 
better understand what combinations of ocean conditions, geography, and 
sonar use may lead to marine mammal disturbances.
    For the U.S. Navy, the safety of Sailors and Marines is top 
priority when carrying out our national security mission. A critical 
part of this mission is defending Navy ships from the current and 
future submarine threat. The only effective way to counter this threat 
is training with active sonar at sea under simulated combat conditions 
to detect these submarines before they strike. At the same time, the 
Navy goes to great lengths to protect marine mammals and the 
environment during training exercises.
    The Navy has implemented an At-Sea Policy to guide compliance with 
environmental laws, regulations and executive orders in the conduct of 
naval exercises or training at sea. The most important element of this 
Policy involves environmental analysis of all reasonably foreseeable 
training activities on each of 12 range complexes in the United States. 
The training activities being analyzed includes the use of MFA sonar 
and its potential effects on marine mammals. These analyses have also 
resulted in extensive coordination with other federal agencies 
including the National Marine Fisheries Service.
    Currently, all major ASW training exercises using MFA sonar 
incorporate protective measures to ensure there is minimal effect on 
the marine environment. Protective measures include: posting highly 
trained lookouts; listening for marine mammals with passive 
hydrophones; creating buffer zones within which sonar levels are 
reduced if marine mammals are present; and ceasing sonar operations if 
marine mammals are detected within a certain distance of an active 
sonar dome.

    Mr. Young. I had a chance 2 weeks ago to visit the Marine 
Mammal Training Center in San Diego, and we had a long 
discussion about the effect of sonar on those sea animals. It 
is an issue that we are going to be faced with I think pretty 
seriously as the days go on.
    Mr. Chairman, thank you very much.

                                DDG 1000

    Mr. Murtha. Would you go through the DDG, what we are 
looking at here with the 1000? In other words, was it three of 
them now in line? If we were to take one out, what does that do 
to the shipbuilding distribution here? If we take one out and 
we go to two T-AKEs, what does that do to our distribution of 
ships and capability to build ships?
    Ms. Stiller. Yes, sir. I will answer that from the 
industrial base perspective.
    You are right, the 2009 ship is the third of the DDG 1000s. 
Like I said, we just awarded the two lead ships. The yards that 
build those ships are General Dynamics, Bath Iron Works and 
Northrop Grumman Shipbuilding down on the gulf coast. T-AKEs 
are built by NASSCO in San Diego. We have two T-AKEs in the 
2009 budget already, and we feel when we balanced the seven 
ships that are in the plan, we looked at it from an industrial 
perspective and felt that was a good balance both in the 
warfighting requirement, what with the warfighter needed as 
well as the industrial base. To put two more ships at NASSCO, 
they likely could not execute four in one year. They would have 
to spread them out over time, the deliveries.
    Mr. Murtha. How long would it take them to build the four? 
That would end the program, right?
    Ms. Stiller. Yes, sir, that would end the program. I would 
have to look at the exact date. I don't know that off the top 
of my head. But they likely couldn't execute four in one year. 
They are only building one a year currently, and we felt that 
could go to two a year. That is why we put the two in 2009. But 
to go to four would be quite a leap for them.
    Mr. Murtha. What we are looking at is if you take one of 
the others out, that funds the LPD 17 and the two T-AKEs. We 
are looking for how we can shift this and not affect 
shipbuilding. So what happens to the shipbuilding industry? How 
does this affect it? What is the problem we will have?
    Ms. Stiller. The issue will be with the surface combatant 
builders. Granted, you said an LPD, and Northrop Grumman 
Shipbuilding builds LPDs as well. So, in their case, it is 
probably not as big of an impact as it would be to Bath Iron 
Works, who is one of our two surface combatant providers. So 
that would be where the industrial base would feel it the most.
    Mr. Murtha. What does it look like, the profile for the 
1000?
    Ms. Stiller. DDG 1000, two ships in 2007. They were split-
funded between 2007 and 2008; and then one a year through the 
rest of the FYDP, for a total of seven. So one in 2009, one in 
2010.
    Mr. Murtha. What kind of cost are we talking about and what 
do you see as a cost growth?
    Ms. Stiller. Right now, we don't estimate we have any cost 
growth. We have about $2.5 billion in 2009 for DDG 1000, with 
another $51 million for advance procurement for the next--
around $2.6, and then it goes down to $2.3, in that range 
through the outyears where we will start to see the learning in 
the ships.

                         COST REDUCTION EFFORTS

    Mr. Murtha. So what is the difference in the platform 
between a submarine and a 1000? They are going to get the 
submarine down to $2 billion. That is what they are committed 
to, and I think the Navy worked on getting them down to $2 
billion. What is the difference between a surface ship, this 
particular ship, and a Virginia Class submarine?
    Ms. Stiller. As you know, sir, the Virginia Class 
submarine--we have already delivered four Virginia Class 
submarines and are continuing on that path. DDG 1000 is several 
years behind where Virginia Class was. Concerning the Virginia 
Class submarine cost reduction initiatives, we made an 
investment in R&D to get at some of these cost reductions to 
get to the $2 billion submarine in 2012.
    The luxury here is you have more ships delivered and more 
quantity in the class to get to that $2 billion a year, where 
you only have seven ships in DDG 1000. Certainly, after you get 
lead ships delivered, you can certainly look at cost reduction 
efforts for the later DDG 1000s. But there are not going to be 
too many to catch with only a seven ship class.
    Mr. Murtha. We are trying to help you with this. We are 
trying to get to the point where people know in the industry, 
the Navy knows what we can afford over here in the Congress. I 
know COTS has been a big part of them getting the price of the 
submarine down and Navy pressure from the submarine. We are 
doing the same thing, I assume, with the surface ships.
    Ms. Stiller. Yes, sir.
    Mr. Murtha. We are how far along on the design of the 1000? 
Eighty-five percent did you tell me?
    Ms. Stiller. When we start production later this year, they 
will be at 85 percent complete in design. That is very similar 
to where the Virginia Class was when they started production. 
In fact, they were right at 85 percent.
    We also project the carrier CVN 78 will also be in that 
range. That is because we have taken the steps to make sure 
that we get the design mature, where we didn't have that luxury 
on the LCS.

                           SHIPBOARD MANNING

    Mr. Murtha. One of the other things this Committee has been 
worried about is the number of people on the ships and the fact 
that you are depending on technology to solve some of these 
problems. Yet, if we have a major disaster, I worry there is 
not going to be enough. I brought this to Admiral Mullen's 
attention when he was CNO. He understands that, and I know I 
have harped on that for years and years.
    Are we getting down too low in the number of people? I 
realize personnel costs are going to have to come down. If we 
are going to procure and get our military back to the 
capability it should be, and this is the first war in history 
where we lost capability rather than increased capability with 
all the services. In order to recapture that, we are going to 
have to cut personnel costs. The Army is going to be the one 
that suffers. The Navy has already lost some. The Air Force cut 
back substantially and is still not buying the airplanes we 
need.
    But where are we in that regard? Where are we with the 
numbers of people on these ships in case something happens?
    Admiral McCullough. Mr. Chairman, we look carefully at how 
we design the ships to get to the minimum crew that we can to 
effectively operate the ship and maintain the damage control 
standards. I think that is what you are concerned about.
    In the LCS, we have a core crew of 40 folks, with 15 folks 
for the mission package and an aviation det of about 20, for a 
total of 75 people on the LCS.
    In the DDG 1000, the core crew on that ship is about 114, 
with an aviation det of 28. The technology advances that let us 
get to the 114 folks had to do with human systems integration 
in the ship's mission center that allowed us to reduce the 
number of watch standers we had in the combat information 
center; and advances in technology in the fire suppression 
systems and the flight deck fire suppression systems, which let 
us reduce the number of people we had on standby when we did 
helicopter operations.
    If you visit a surface combatant today, let's say a CG 47 
or DDG 51 class, and you land in a helicopter, you will see 
about 25 Sailors as part of the rescue and salvage crew in the 
event that the helicopter crashed. The modifications that we 
did in the DDG 1000 allow the firefighting to be done remotely 
from the helo control station and the need for only two 
additional folks to rescue the flight crew.
    This has been demonstrated in an engineering demonstration 
module, and we have tested it repeatedly. We put up fans to 
replicate the wind that you would have across a flight deck 
during a helo crash, which is essentially 30 degrees off the 
center line at a speed of 30 knots.
    Additionally, we took an EX 963 class ship to sea and 
configured the general workshop with fire main, because there 
isn't any fire main in the workshop on the 963. We put in the 
fire suppression system that we will use in the DDG 1000. It 
involves a series of smart valves that have flow and pressure 
sensors in the control system. We put a 1,000 pound warhead in 
the general workshop and detonated the warhead. The fire main 
reconfigured itself and put the fire out in less than 10 
minutes. Demonstrated it worked.
    So we feel confident that the damage control safety of both 
the DDG 1000 and the LCS are supported by the crew. Any further 
reductions in crew size we would have to seriously look at what 
technology was available.
    As for personnel costs, as you state, the Navy has been 
coming down in size. I said in my oral statement that we were 
about 332,000 people a week ago. The goal is for 322,000 
people. N1 has a very detailed program on that, Vice Admiral 
Harvey.
    I would tell you, even as we ramp the number of people 
down, our personnel costs went up at about a percent and a half 
a year. So personnel costs are huge to not only the Navy but 
all the Services. We have to continue to get our arms around 
personnel costs so we don't severely impact the procurement 
accounts, as you referenced.
    Mr. Murtha. I understand what you are saying, and I 
appreciate--I assume there is redundancy built into this. For 
instance, the exercise you are working, has a redundancy, and 
you have tried to consider all the alternatives.
    We went into Iraq. We had that problem. Many of us thought 
we needed more people initially. The Secretary of Defense 
disagreed with that. He said no, no, technology will take care 
of this.
    So you are telling me you are convinced that the technology 
has enough redundancy, that no matter what happens, how many 
people are killed or wounded on these ships, you will still 
have enough to get that ship back.
    I think it was the Cole or the Roberts, I think it was, was 
hit out in the Gulf, and I went out to visit that ship at one 
of the ports, I think it was Dubai, and it was right down at 
the water level at the time. They told me the horrendous 
stories about how heroic the crew had been in getting that ship 
saved. Because it hit the mine. There was a hole as big as a 
bus on the side of it. It kept coming down. But they got it 
back; and, of course, we brought it back to the United States 
and repaired it. The point was they had enough people to take 
care of it.
    Then the Navy cut out the firefighting, the damage control 
school that they had at Guantanamo at the same time. The 
captain of the ship had written the regulations for this. So 
you can see our experience is that once you get into a combat 
situation it is very hard to make the changes.
    So I just hope that you are looking at whatever redundancy 
is necessary. I know what you are talking about personnel 
costs. You are going to struggle here for a while. But I just 
worry we are not going to have enough people that, if something 
dramatic happens on those ships, we are not going to have 
people to take care of them.
    Admiral McCullough. Mr. Chairman, I will tell you on the 
DDG 1000 and what we have done with technical mitigation in the 
area of damage control, I am confident in the area of 
redundancy and capability that we have built in that ship that 
allows us to get to the 114 core crew.

                          SHIPBUILDING FUNDING

    Mr. Murtha. Is there any advanced funding we need to keep 
this shipbuilding going? For instance, any advanced funding we 
need in the supplemental or in the base bill for next year that 
we need to put in to keep any of these programs going?
    Admiral McCullough. I don't think there is anything that is 
required in the supplemental or the base program that is 
required.
    Mr. Murtha. Advanced funding for the submarine. There is no 
other program that needs any advanced funding.
    Admiral McCullough. The budget lines that we have put in 
the 2009 submittal, the President's budget 2009 contained all 
the requirements we have for our programs as submitted in 2009, 
sir.
    Mr. Murtha. The problems we had at the shipyard down there 
in the south from Katrina, are those all worked out now?
    Ms. Stiller. Yes, sir. We have re-baselined all the 
contracts affected by Katrina, finished that the end of last 
year, so they are executing to those new contracts.
    Admiral McCullough and I were talking on the way over, LHD 
8, who is under construction, also lit off diesels yesterday. 
We are making forward progress down there as well.
    We christened LPD 21 on Saturday in Avondale.
    Mr. Murtha. Mr. Young.

                                 LPD 17

    Mr. Young. Let me go back to shipbuilding now. LPD 17. The 
Marine Corps this year and also last year made this, an 
additional LPD 17, their number one unfunded requirement. They 
are really feeling strongly about this, considering what their 
missions might be in the future years.
    My big question is I think we are going to have to do this 
for the Marines somewhere along the line. But if we don't do it 
in 2009, is the possibility that you will begin to prepare to 
close down that capability of building that particular ship?
    Admiral McCullough. I will take the operational aspect of 
that, Congressman.
    The Commandant of the Marine Corps has stated a requirement 
for 33 ships in the amphibious assault echelon to deliver two 
Marine Expeditionary Brigades. He specifically requested 11 
aviation-capable ships, 11 LSD 41/49 class, and 11 LPD 17s. The 
CNO has concurred. CNO Roughead has concurred with that 
determination. So we understand and agree with the Commandant's 
requirement.
    That said, in the 2009 program, given the needs of the 
entire Navy, we could not put an LPD 17 in the 2009 program. 
Some things we have worked at to get at the Commandant's 
requirement is looking at extending the service lives on some 
LHA 1 class ships and some LPD 4 class ships. While it doesn't 
get to the entire requirement, depending on the year and the 
mix, we get to anywhere from 1.86 to 1.92 MEBs based on a 2015 
agreed-to MEB baseline between the Navy and Marine Corps. We 
will continue in future programs to look at when and if we can 
put that ship in the program.
    Ms. Stiller. I will just comment from the ``could you 
execute it and where are you in the program''. We have 
delivered the first three LPDs, and through LPD 25 are under 
contract. We awarded that contract in December, exercised the 
option on the contract in December. That ship doesn't deliver 
until February of 2012.
    There is a backlog of LPD work. As we went through the 2009 
budget, we felt from an industrial base perspective we did not 
have to put the ship in the FY 2009 Budget, that they could 
wait and we could revisit as part of the discussions in POM 10.
    Mr. Young. The answer to my question is, if we do not fund 
the additional LPD 17, we will not close down the line.
    Ms. Stiller. That is correct, sir. Yes, sir.
    Mr. Young. Mr. Chairman, thank you very much.

                          VIRGINIA CLASS WELDS

    Mr. Murtha. Tell us about the bad welds on the Virginia 
class submarine. I know staff mentioned this to me. What was 
the problem there? Where was it and what happened and what did 
you do to correct it?
    Ms. Stiller. Yes, sir. This was an issue at Northrop 
Grumman Newport News, not an issue at General Dynamics Electric 
Boat. It was a procedural issue and a quality assurance issue 
and who was overseeing what welds. Newport News took immediate 
action to change processes and procedures. We have looked at 
all of the weld issues on the Virginia Class submarine and have 
come through all that; and, in fact, we just delivered USS 
NORTH CAROLINA, which was a Newport News boat, on the 21st of 
February.
    I think we have come through the issue. We have put the 
right processes and procedures in place at Newport News. We 
don't feel that there are any issues that are going to hold up 
production on the future submarines.
    Mr. Murtha. Tell me how it was discovered, and it must have 
gone a while before you discovered it. I remember years ago 
going out for the first Trident submarine, and it had 5,000 bad 
welds, and General Dynamics said they wanted us to pay for it, 
and we didn't. They did it themselves. What happened here is 
that all at once we had a lot of bad welds.
    Ms. Stiller. That was a different issue in the Sea Wolf 
days. That was a material issue that caused the problem.
    In this particular case, it was oversight or supervision of 
journeymen level folks doing welding and what procedures they 
had to follow to report when they had to rework a weld, and 
they weren't doing that necessarily. It got caught in a spot 
check. That is why we wanted to make sure we knew how pervasive 
it was.
    Mr. Murtha. Were they in the hull or the piping?
    Ms. Stiller. I believe just the hull. But I will get that 
for you for sure, sir. I don't remember.
    [The information follows:]

    During routine testing of VIRGINIA Class submarines, the Navy 
learned of weaknesses in non-nuclear pipe welding processes at Northrop 
Grumman Shipbuilding-Newport News. The Navy has thoroughly investigated 
the problem, taken corrective actions, and certified the ships safe for 
operations. All of the affected welds have been pipe welds. An 
assessment of the potential long-term impact of this issue is due from 
General Dynamics-Electric Boat and Northrop Grumman Shipbuilding-
Newport News by April 15, 2008.

    Mr. Murtha. So now there is no possibility of being in a 
submarine in the Antarctic underneath the ice. I worry about 
those bad welds. That is not a good thing.
    Ms. Stiller. Yes, sir. In any place we felt the weld needed 
to be reworked, it has been reworked. The engineering 
discipline NAVSEA has looked at, the technical authority has 
looked at it in great detail.

                        SEALIFT OF MRAP VEHICLES

    Mr. Murtha. Ms. Kaptur.
    Let me ask one more question before I go to Ms. Kaptur.
    This MRAP thing has always worried me. It took so long for 
people to recognize the MRAPs overseas. One of the things that 
I worried about them when I found out we are going to send them 
by air was they cost $150,000 apiece. Now I understand we send 
them by sea. Are those all U.S.-flagged ships that we are 
sending them in?
    Ms. Stiller. Yes, sir. Yes, sir. Any ship that TRANSCOM or 
Military Sealift Command uses has to be U.S.-flagged and U.S.-
crewed.
    Mr. Murtha. If you don't have the figures, I would like to 
know what it costs per MRAP by ship versus by air. It just kind 
of worried me that we were sending them by Russian air. Or I 
guess it was Russian airplane. I don't remember where the crew 
was from, Kiev or someplace, but, at any rate, Russian air. I 
think you get four in there, and none of our airplanes could 
carry that many, so it was cheaper. It just shows you how our 
capability has been degraded, and we don't have the things we 
need out there now in order to get things like the MRAP 
overseas.
    [The information follows:]

    USTRANSCOM uses these planning factors:
          $18,000 via surface ship per MRAP
          $135,000 via air shipment per MRAP (regardless of whether an 
        AN-124 or C-5/C-17 is used)

    Ms. Kaptur.

                     LEASING OF FOREIGN-BUILT SHIPS

    Ms. Kaptur. Thank you, Mr. Chairman, for giving me a few 
moments to catch up. I apologize for being late. We have three 
concurrent hearings on my subcommittees.
    Let me turn to the issue of the leasing of foreign-built 
ships. We have talked about this in past hearings. Secretary 
Stiller, what are the Navy's long-term plans regarding the 
practice of leasing foreign-built ships to augment your sealift 
capacity?
    Admiral McCullough, my question to you along the same 
lines, what would be the impact to the Navy's mission if 
Congress were to prohibit the Navy's ability to enter into 
these leases on foreign-built ships?
    Let's start with Secretary Stiller.
    Ms. Stiller. Yes, ma'am.
    Today, we have 17 long-term leases for foreign-built ships. 
All of these ships are now U.S.-flagged. To get them to U.S. 
Coast Guard standards, work was done in the U.S. shipyard to 
bring those ships to U.S. Coast Guard standards. There are 17 
of these long-term leases that were foreign built out of 32 
leases right now. When I talk lease, I am talking greater than 
6 months. Nine of these 17 won't be rehired at or before when 
their lease is expired. The Navy has in our budget money to buy 
out five of the MSC leases, two in 2008 and three in 2009.
    Two of the vessels that are under long-term charter are 
High Speed Vessels. The Navy and the Army intend to procure 
Joint High Speed Vessels. When those vessels deliver, these 
leases won't be continued.
    There is also one Air Force container ship that the 
requirement from the Air Force won't exist when the lease 
expires, so we won't renew that lease.
    Then there is one undersea surveillance support ship that 
is going to be filled by reactivating a Navy asset.
    Out of the 17, six of the 17 are from long-term leases that 
were authorized for the MPS force back in 1986. But, again, all 
of them have been reflagged to U.S. standards.
    Ms. Kaptur. You said 32 or 35?
    Ms. Stiller. Thirty-two total.
    Ms. Kaptur. Thirty-two leases?
    Ms. Stiller. Yes, ma'am. Thirty-two long-term leases, and 
17 of those were foreign-built and then converted to U.S. The 
remainder were built in the U.S.
    Ms. Kaptur. Can you provide for the record what types of 
ships are being leased?
    Ms. Stiller. Yes, ma'am.
    Ms. Kaptur. The actual type and purpose and which 
countries.
    Ms. Stiller. Yes, ma'am.
    Ms. Kaptur. And how much we are paying for those leases.
    Ms. Stiller. Yes, ma'am.
    [The information follows:]

    The attached spread sheet provides a complete list of the 32 ships 
currently under long-term charter to the Military Sealift Command 
(MSC), including the type of ship, ship mission, country of origin, and 
chartering costs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Kaptur. Admiral.
    Admiral McCullough. Ms. Stiller talked about which leases 
we were buying out and how we were going to replace a lot of 
those ships with LMSR takes from the Army, which are U.S.-built 
ships. The ones that remain as foreign-built, if we were 
prohibited or required to terminate the lease, are in our 
maritime pre-positioning force. We would have to procure ships 
to replace those. Those ships are not currently planned to be 
recapped until the mid-2020s. So it would be an additional bill 
that we would have to figure out how to fund to replace that 
capability.
    Ms. Stiller. I would also add, if the lease period was 
reduced from the 5-year, it would also be costly to the Navy. 
Because when an operator or a ship owner decides to lease the 
vessel, he is trying to amortize it over the greatest period 
possible. Five years would give him a better chance of paying 
off what he spent to build the vessel than a 2-year period. The 
cost would get passed along to the Navy as well.

                           SMALL BOAT DEFENSE

    Ms. Kaptur. I am interested in smaller vessels. And you may 
know, obviously, I am from a Great Lakes community; and we have 
tried very hard to retain some ship repair capacity on the 
Great Lakes. That is easier said than done.
    I am wondering about your needs for smaller ships within 
the Navy. A few years ago, a Toledoan was Sailor of the Year. 
We are having all kinds of difficulty in our region of the 
country repairing vessels, getting vessels constructed, getting 
the Navy's attention to our region.
    The Iranians seem to have a capacity to cause a little 
trouble over there in the Strait of Hormuz and in the Persian 
Gulf. What are your small ship needs; and, for a region like 
ours, what role do you see that companies there or interests 
there can play in helping to supply the Navy?
    Admiral McCullough. Ma'am, as you know, we recently stood 
up the Navy Expeditionary Combat Command. We have developed 
three riverine squadrons. The first one is in the process of or 
has recently completed a deployment in the Haditha Dam 
protection in Iraq. There are some small vessels associated 
with the riverine squadrons but only three squadrons' worth.
    As we look at the requirement for that capability, I have 
to say we were not sure of exactly what we needed. I looked at 
a myriad of small craft options to work in theater security 
cooperation both in the Horn of Africa region, the Arabian 
Gulf, and in the Gulf of Guinea region.
    What we looked at initially is, since we could not define 
the requirement because we don't yet fully understand the 
mission, is to, for lack of a better word, service life extend 
the patrol coastals, the Cyclone class ships that we currently 
have. We have embarked on that at the tune of about $12 million 
dollars a hull. I will tell you we continue to look at that 
requirement; and, as we design it, we will better know what our 
requirements for small ships are.
    Ms. Kaptur. Mr. Chairman, I have to go cast my vote. Are 
you going to continue the session?
    Mr. Murtha. I think we will adjourn.
    Ms. Kaptur. All right.
    Mr. Murtha. Thank you, very much, Secretary and Admiral. We 
appreciate what you have said.
    The Committee will now adjourn until Thursday at 10:00.
    [Clerk's note.--Questions submitted by Mr. Obey and the 
answers thereto follow.]

                       Shipboard Control Systems

    Question. What steps is the Navy taking in the development of the 
313 ship fleet to increase commonality of equipment across the fleet?
    Answer. The Department continues to strive to achieve commonality 
at ship, system, and material levels. The Department is analyzing and 
implementing where possible greater modularity, open architecture, 
commercial technology, and common equipment and specifications:
    <bullet> The Naval Sea Systems Command is looking for ways to 
reduce hull types and potential Hull Mechanical and Electrical (HM&E) 
components with the potential to garner savings in testing, logistics, 
supply, and training.
    <bullet> The Department is also assessing ship design commonality 
opportunities, looking at product data interoperability, design tools, 
Technical Warrant Holder tools for certification, and design community 
tools coordination.
    <bullet> The Navy is even examining the possibility of strategic 
sourcing with the Navy setting up commodities contracts which the 
shipyards may then utilize to purchase from vendors. The objective of 
the effort would be to allow economic order quantity purchases, while 
maintaining multiple sources to ensure competition.
     In the area of combat systems, the Navy continues looking for 
efficiencies as well. Open architecture is helping the Navy evolve, 
especially over the long-term. The Navy has already made a move to 
increase the use of COTS-based systems. Aegis Combat System Baseline 7 
Phase one on DDG 91 and follow is a major example. The Navy intends to 
continue implementing Open Architecture further, by working towards 
adopting Commercial Software Development practices, leveraging Open 
Source Code offerings, and partnering with Small Businesses in 
harvesting the ``best of breed'' in Software Algorithms.
    Question. With the existing shipbuilding plan, how many unique 
surface ship machinery control systems is the Navy currently 
supporting?
    Answer. There are 13 unique machinery control systems in the 
Surface Fleet today.
    Question. What are the plans for converting proprietary legacy 
hydraulic control systems to more modern technology that uses standard 
equipment?
    Answer. Today there is no formal program to convert legacy 
hydraulic systems on in-service ships. The Navy monitors the 
supportability of shipboard hydraulic system components and will 
consider alterations to more modern technology when necessary. The Navy 
is designing new classes of ships, such as DDG 1000 and CVN 78, with 
significant reductions in the use of hydraulic systems where feasible 
to reduce life-cycle maintenance costs.

    [Clerk's note.--End of questions submitted by Mr. Obey. 
Questions submitted by Mr. Boyd and the answers thereto 
follow.]

                          Littoral Combat Ship

    Question. What is your best estimate for when the Navy will 
complete the competition and select a single contractor?
    Answer. It is vital that the Navy continue through first of class 
construction challenges to complete LCS 1 and LCS 2. The Navy believes 
that additional design maturity, production progress on LCS 1 and 2, 
and a competitive contract award between incumbent suppliers will 
enable the use of fixed price incentive terms for the FY08 ship 
appropriated by Congress and the two FY09 ships that the Navy is 
requesting. When these ships are delivered, the Navy will be able to 
better evaluate their costs and capabilities, and to make decisions 
regarding the best manner to procure the remainder of the class.
    Acquisition strategies for FY10 and outyear ships have not yet been 
formulated. OSD will conduct a Milestone B prior to FY10 procurement. 
The Navy and OSD will consider the questions of single seaframe 
assessment (or not) and the transition to full and open competition (or 
not) as part of the FY10 acquisition strategy deliberations.
    Question. What is your best estimate for when the Navy will accept 
delivery of the first two Littoral Combat Ships from the contractors?
    Answer. LCS 1 (FREEDOM) is under construction at Marinette Marine, 
Marinette, WI. LCS 1 launched in September 2006, and is projected to 
deliver in August 2008. LCS 2 (INDEPENDENCE) is under construction at 
Austal USA, Mobile, AL. The Navy projects LCS 2 to deliver in December 
2008.

                          LCS Mission Modules

    Question. As we understand it now, the first LCS is scheduled to 
arrive in Panama City in Oct. 2009 and the second LCS in Jan. 2010. 
From now until then, the Mission Packages are scheduled to remain in 
Panama City, which offers a lengthy opportunity to accomplish 
intermediate testing that could reduce the risk of integration problems 
when the LCS actually arrives.
    What is the Navy doing during the next 1.5 years to ensure that the 
integration of the Mission Packages to the LCS is successful?
    Answer. The Navy's Littoral Combat Ship (LCS) Program Offices, PMS 
420, the LCS Mission Modules Program Office, and PMS 501, the LCS 
Seaframe Program Office, are performing several activities to ensure 
that the Mission Packages are effectively and successfully integrated 
into the LCS ships. Ongoing integration activities for the next 1.5 
years include:
          <bullet> Independent validation and verification (IV&V) of 
        interfaces to ensure that both the Seaframe and Mission Modules 
        conform to the approved Interface Control Document;
          <bullet> Land-based combat system and shipyard Seaframe 
        software testing of the Mission Package Computing Environment 
        with the Ship's Core Mission Systems to ensure interoperability 
        between ship and mission modules;
          <bullet> Shipboard testing of mission module components to 
        ensure that the launch, recovery, and shipboard handling (LR&H) 
        systems can adequately support the mission systems and 
        associated mission package equipment.
    Question. What are the current testing plans for the Mission 
Packages?
    Answer. Each Mission Package has extensive testing plans:
    <bullet> Mine Countermeasures (MCM) Mission Package Unmanned 
Surface Vehicle (USV) integration testing is currently underway, and 
its sweep payload will be installed and tested this spring and summer. 
The MCM Detachment Sailors will support DDG-96's Remote Minehunting 
System (RMS) Technical Evaluation and Operational testing this summer 
and fall. MCM Mission Package #1 will be tested end-to-end in the 
waters of Panama City, Florida, beginning in the second quarter of FY 
2009.
    <bullet> Anti-Submarine Warfare (ASW) Mission Package in-water 
integration testing is currently underway. Unmanned Surface Vehicles 
(USV) and their sensor payload will be tested in shallow and deep water 
through the spring and summer. This fall (first quarter of FY 2009), 
ASW Mission Package #1 will undergo end-to-end testing.
    <bullet> Surface Warfare (SUW) Mission Package will test fire the 
Gun mission on the range at Naval Surface Warfare Center, Dahlgren this 
fall. The software for the gun will also be integrated and tested at 
Dahlgren. This includes an end-to-end test firing against small boat 
targets planned for early FY 2009. The Non-Line of Sight (NLOS) 
Precision Attack Missile mission module will be tested with the Army. 
Tests include:
    <bullet> Captive Flight Testing in the Gulf of Mexico during August 
2008;
    <bullet> Multiple Restrained Firing Tests at Dahlgren over the next 
12 months;
    <bullet> Guided Flight Testing of missiles in FY 2009.
    Question. What funding is being provided for this and at what 
level?
    Answer. The mission module level testing is funded through the 
RDTE,N appropriation PE0603581N, Project 3129, for LCS Mission Modules. 
The LCS Mission Modules Program plans to apply $9.5M in FY08 and $29.6M 
in FY09 toward testing.
    Question. If the LCS schedule slips what are the Navy's contingency 
plans for using the Mission Modules?
    Answer. Mission Packages are not procured for a specific LCS hull. 
They are procured at a rate to provide in-theater operational 
flexibility for deployed LCS Seaframes and support forward staging of 
sufficient Mission Packages to meet operational needs, while allowing 
for a Mission Package maintenance cycle.
    LCS is the ideal platform for deploying the planned operational 
capability for Mine Warfare, Anti-submarine Warfare, and Surface 
Warfare. The mission modules are designed to integrate seamlessly into 
the LCS via a standard interface. This allows for these modules to be 
operated from other platforms if a contingency requirement emerged. 
Currently, there is no requirement for alternative platforms, and there 
is no other ship in the U.S. Navy that can fully employ all three 
Mission Package (MP) types. However, some platforms may offer 
potentially satisfactory contingency capability for elements of 
individual Mission Packages.
    USD (AT&L) has directed the Navy to conduct analysis on the use of 
the Mine Countermeasures (MCM) Mission Package on alternate platforms. 
Analysis is currently underway.

    [Clerk's note.--End of questions submitted by Mr. Boyd. 
Questions submitted by Mr. Hobson and the answers thereto 
follow.]

                              Shipbuilding

    Question. Admiral McCullough, why is the Navy's Fiscal Year 2009 
budget for new ship construction, including T-AKES's only $12.1 
billion? This is $1.2 billion below the Fiscal Year 2008 funding for 
new ships. Is your office not fighting for a larger percentage of the 
Navy budget? Is the Navy being trumped by the needs of the Army and 
Marine ground forces in Central Command and the expense of new 
procurements for Air Force?
    Answer. The Navy's base program in the Fiscal Year 2009 President's 
Budget represents the best balance of warfighting capabilities within 
fiscal guidelines. The Defense Department also balances capabilities 
within its base budget to meet warfighting requirements.
    Within the Navy budget, some factors pressurizing warfighting 
procurement include significantly rising manpower and health care costs 
in MILPERs; increasing fuel costs in O&MN; increased material, design 
and manufacturing costs in ship construction; and accelerated depletion 
of expected service life due to current operations in the Global War on 
Terror. There are more requirements than Navy has resources which 
equates to taking risk. The Navy's Unfunded Priority List outlines 
areas where Navy took risks to its base budget in order to balance the 
overall program.
    Question. How are you going to rebuild a 313-ship Navy if more 
money isn't budgeted for shipbuilding?
    Answer. While the Navy's FY 2009 shipbuilding budget is less in FY 
2009 than it was in FY 2008 ($12.4 billion versus $12.5 billion), it 
represents the best balance of meeting requirements with the resources 
available to the Navy at the time. In fact, when accounting for the 
$588 million in Advance SSN procurement in the FY 2008 budget and the 
$300 million in the FY 2008 budget allocated for additional T-AKE 
funding, the total funding available to begin procurement of ships in 
FY 2009 is actually approximately $13.2 billion.
    It will always be a challenge for the Navy to procure the quality 
and quantity of ships it needs for the future within the resources made 
available to us--in this environment, it is critical that we balance 
both the shipbuilding requirements and those demands of the myriad 
other programs the Navy must support. As we have said from the start, 
the Navy must provide well defined requirements that do not vary over 
the life of the shipbuilding programs we currently have and the 
requirements must be based on a solid foundation of analytic rigor that 
does not allow for ``what we can do'' and only supports what we must be 
able to do. The current Requirements, Resources and Review Board (R3B) 
process and gate reviews introduced by the Secretary are all aimed at 
meeting this need. The second step is getting in assist industry 
energized to assist in cost control by facilitating capital investments 
aimed at improving their efficiency and effectiveness in building what 
we say we need at a reasonable and affordable cost. Once we can achieve 
this step, it will permit us to introduce the stability that we all 
know will achieve additional cost savings.
    Question. Ms. Stiller, the high cost of Navy ships concerns me. I 
understand that 35%-55% of the cost of a warship is in the weapon 
systems, bought directly by the Navy and outside the control of the 
shipyard.
    How much cost control is the Navy placing on this 35%-55% cost?
    Answer. Contracts with values over $50M are written requiring 
Earned Value Management System (EVMS) reporting. Large cost/incentive 
contracts are required to submit EVMS data directly to the Earned Value 
(EV) Central Repository. This EV Central Repository improves data 
analysis to facilitate timely and effective management action. Cost 
Control Incentives are being added to contracts, and are focused on 
objective and measurable results.
    Question. Has there been any reduction in the cost of the weapon 
systems over the past few years?
    Answer. We are establishing a combat system product line approach 
based on a common objective architecture that utilizes Government 
controlled architecture and authenticated interfaces. This approach 
facilitates incremental capability introduction, certification, and 
testing, resulting in shorter timeframes and reduced costs for computer 
program certification, Test and Evaluation.
    Our future Surface Combat Systems will be created from a mix of 
existing and new components, fully leveraging as much capability as 
possible from previously developed efforts. This approach was chosen to 
reduce the costs in procurement of weapon systems for new classes of 
ships.
    Question. How do these costs compare with shipyard costs?
    Answer. Shipyard costs represent 72% of the PB09 shipbuilding (SCN) 
budget, warfare systems costs are 18% and other government furnished 
equipments costs are 10%. Most of the complex warfare systems are not 
procured by shipyards. These percentages can vary based on the mix of 
combatants in any given shipbuilding plan.

                               Life Rafts

    Question. I understand the Navy is procuring life rafts to replace 
older models removed from service due to age, fleet modernization, or 
inspection failure. Currently, there are 1,200 of these older, MK6 life 
rafts left in the fleet. It would cost $12,000,000 to purchase new 
rafts to replace the older ones and additional funds for periodic 
servicing and replacements.
    Apparently, the Navy does not budget for these life rafts, but 
rather makes procurement decisions for this particular item after 
Congress has approved the Navy budget. This unpredictability results in 
down-time on the production line, erratic swings in production, layoffs 
and re-hiring of trained personnel, and higher per unit costs.
    Why doesn't the Navy include life raft funding in its budget at a 
stable level?
    Answer. The President's Budget submission represents the best 
balance between Navy requirements and resources. Although there is no 
dedicated Budget Line Item (BLI) for the purchase of life rafts, the 
Navy does purchase Mk-7 & Mk-8 life rafts for new construction and in-
service ships. Life rafts for shipbuilding programs are purchased in 
support of the end item construction of a ship using Shipbuilding and 
Conversion, Navy (SCN) funds and are provided as Contractor Furnished 
Equipment (CFE) by the shipbuilder. Life rafts for in-service ships in 
need of replacement are available from either existing assets removed 
from decommissioned ships or are newly procured via the Navy Supply 
System using Operation and Maintenance, Navy (O&MN) funds.
    Question. Is the Navy considering budgeting for life rafts--both 
production and ongoing maintenance--in its Fiscal Year 2010 budget?
    Answer. Life rafts for shipbuilding programs are purchased in 
support of the end item construction of a ship using Shipbuilding and 
Conversion, Navy (SCN) funds, and are provided as Contractor Furnished 
Equipment (CFE) by the shipbuilder. Life rafts for in-service ships in 
need of replacement are available from either existing assets removed 
from decommissioned ships, or are newly procured via the Navy Supply 
System using Operation and Maintenance, Navy (O&MN) funds. The Fiscal 
Year 2010 budget submission is predecisional, and it would be 
inappropriate for the Navy to comment at this time on any changes in 
our procurement approach.
    Question. If you do NOT include funds in next year's budget 
request, how would you procure life rafts? Are you relying on Congress?
    Answer. No, the Navy is not relying on Congress for the procurement 
and replacement of life rafts. Life rafts for shipbuilding programs are 
purchased in support of the end item construction of a ship using 
Shipbuilding and Conversion, Navy (SCN) funds and provided as 
Contractor Furnished Equipment (CFE) by the shipbuilder. In-service 
ships utilize Fleet Operation and Maintenance, Navy (O&MN) funds to 
procure replacement life rafts through the Navy Supply System on an as-
needed basis.
    Question. Finally, if you do NOT budget funds, how would you work 
with the manufacturer to help smooth out the solicitations in life raft 
procurement?
    Answer. Mk-7 and Mk-8 life rafts are Navy standard stock items. For 
new construction, life rafts are purchased by the shipbuilder either 
through the Navy supply system or through the shipbuilder's own 
contracts and provided as Contractor Funded Equipment (CFE). For in-
service ships, replacement life rafts are procured on an as needed 
basis via the Navy Supply System. The Navy Supply System utilizes past 
procurement information to forecast demand and is dependent upon 
qualified sources to fulfill the demand. The Navy Supply System has a 
Performance Based Logistics contract (N00104-05-A-ZE01) in place with 
RFD Beauford to provide life rafts.

    [Clerk's note.--End of questions submitted by Mr. Hobson. 
Questions submitted by Mr. Murtha and the answers thereto 
follow.]

                        DDG 51 Destroyer Program

    Question. The Navy is completing construction of the 62 ships in 
the DDG 51 program. The last year that the Committee appropriated 
funding for the construction of new ships was in fiscal year 2005. With 
the new DDG 1000 program just getting off the ground, there is a 
possibility to procure additional DDG 51 ships to maintain the 
industrial base until the DDG 1000 program ramps up.
    Secretary Stiller, could the industrial base accommodate the 
construction of additional DDG 51 class ships even though it has been 
several years since that program has had new funding appropriated?
    Answer. The FY05 President's Budget procured the final three ships 
of 62-ship DDG 51 Class. Additional DDG 51 Class ships would be in 
excess of that war fighting requirement and are not part of the Navy's 
projected force structure. Based on current projected workload, either 
Northrop Grumman Shipbuilding (NGSB) or General Dynamics Bath Iron 
Works (BIW) could absorb the workload of additional DDG 51 destroyers, 
but numerous Government Furnished Equipment (GFE) and Contractor 
Furnished Equipment (CFE) vendor base issues (including production 
restart of major components, system obsolescence and configuration 
issues) would need to be resolved in order to award and construct 
additional ships at either shipyard. All material for the ships 
currently under construction has been procured.
    Question. Secretary Stiller, would the idea of constructing 
additional DDG 51 ships be a good risk mitigation effort for the 
industrial base given the maturity of the DDG 1000 program?
    Answer. Although there are always uncertainties in shipbuilding, 
and particularly for lead ship combatants, DDG 1000 has been in design, 
development, and demonstration for almost six years. The Navy has 
successfully, on cost and on schedule, built and tested the ten 
critical technologies that provide the capabilities future ships need. 
The ship's detail design effort is also on cost and on schedule, and 
will be more complete at the start of construction next year than any 
other previous surface warship. The Navy considers the risk in DDG 1000 
sufficiently mitigated to begin construction. Although proven in 
production and operation, the Navy does not require additional DDG 51 
class ships. In addition, there are numerous ship and Government 
furnished equipment (GFE) vendor base issues (including obsolete 
equipment, new main reduction gear supplier, multiple ship 
configuration issues, and production line re-starts) that would need to 
be resolved in order to award and construct additional DDG 51 class 
ships at either shipyard.
    Question. Secretary Stiller, what is your estimate for how much a 
DDG 51 ship would cost, considering the fact that there has been such a 
long break in production?
    Answer. The estimated end cost to competitively procure a single 
DDG 51 class ship in FY 09 is $2.1 B. This estimate assumes current 
ship construction profiles in accordance with the President's Budget 
request for FY 2009 and the Navy's Report to Congress on Annual Long-
Range Plan for Construction of Naval Vessels for FY 2009.
    This estimate utilizes the latest audited Forward Pricing Rate 
Agreements (FPRAs) rates. Impacts for production line restart and 
contractor furnished equipment/government furnished equipment 
obsolescence are included. Several ship and vendor base issues 
(including equipment obsolescence, main reduction gears, configuration 
change issues, and production line re-starts) would need to be resolved 
in order to award and construct an additional DDG 51 class ship.
    Question. Admiral McCullough, has the Navy considered extending the 
production run on the DDG 51 program?
    Answer. The Navy long-range shipbuilding plan seeks to ensure the 
Navy's force structure meets its operational requirement in terms of 
capability and capacity. This plan, consisting of 313 ships, includes a 
requirement for 62 DDG 51 Class destroyers. The FY 2005 President's 
Budget procured the final three ships of the 62 ship DDG 51 Class.
    While changes in our overall shipbuilding strategy are always 
possible, we believe the current mix of ships proposed in the FY 2009 
budget represent the best mix of capability given available resources.

                         DDG 1000 Combat System

    Question. The combat system on the Virginia Class submarine has 
been extremely successful in that it is built on open architecture 
concepts that can be quickly upgraded to take advantage of technology 
advancement as the ship ages. The Navy calls this concept ``Acoustic 
Rapid COTS (commercial-off-the-shelf) Insertion (ARCI)''. The Navy 
claims the DDG 1000 program is being patterned after the Virginia 
program in its construction phase. It would be extremely forward-
thinking to also model the combat system after the Virginia Class to 
ensure the combat system stays current throughout the life of the ship.
    Secretary Stiller, the combat system of the Virginia Class 
submarine program has been successful largely due to the concept of 
Acoustic Rapid COTS Insertion. Is the DDG 1000 combat system being 
designed along the same lines such that the combat system can be 
upgraded without major ship modifications?
    Answer. Yes, the DDG 1000 is an open architecture compliant combat 
system designed to decouple hardware and software developments so 
improvements can be economically incorporated as they develop without 
major ship modifications. The DDG 1000 also isolates the combat system 
sensors and weapon systems from the Total Ship Computing Environment 
(TSCE) so that introduction of future sensors/weapon systems do not 
significantly impact the core combat system hardware or software.
    Question. Secretary Stiller, one of the big advantages that the 
Virginia Class program has is that the combat system can be upgraded 
fairly easily (relative to legacy submarine and surface ship programs). 
In fact as submarines are delivered to the fleet, they come with the 
most current version of the combat system rather than the combat system 
that was available when construction began. Can the same be said for 
the DDG 1000 ships? How easy will it be to modernize and update the 
combat system of the DDG 1000 given that electronics become obsolete 
every two to four years? How frequently will modernization occur for 
this class of ship?
    Answer. DDG 1000 has made substantial investments in Open 
Architecture which provides the ability to isolate the hardware from 
the software programs and install technology updates as needed. DDG 
1000 plans to follow similar COTS refresh cycles (hardware upgrades 
approximately every 4 years) in order to introduce the latest COTS 
processors and middleware. The DDG 1000 program is working to identify 
the most cost effective timeframe for a COTS technology upgrade that 
will not impact the shipbuilders' ability to complete construction and 
testing. Since the DDG 1000 employs a Total Ship Computing Environment 
(TSCE) that is comprised of a homogenous set of COTS processors that 
meet Open System standards, this will enable efforts to modernize the 
combat system electronics.
    Question. Secretary Stiller, will the government own the rights to 
the combat system design or will the software and/or hardware component 
design be proprietary and belong to the contractor?
    Answer. Yes, with few exceptions. The Navy has at least Government 
Purpose Rights (GPR) to the hardware and software components of the 
combat system design.
    Question. Secretary Stiller, do you envision the DDG 1000 will use 
commercial off-the-shelf equipment to help drive down the cost of the 
combat system? If so, will this commercial off-the-shelf equipment be 
proprietary?
    Answer. Yes, DDG 1000 will use commercial off-the-shelf equipment 
to help drive down the cost of the combat system. The DDG 1000 Total 
Ship Computing Environment (TSCE) uses a homogenous set of COTS 
processors and commercial marketplace networking equipment that were 
competitively selected. The use of mainstream COTS equipment in DDG 
1000 will allow the Navy to gain the latest technology benefits and 
continue driving down cost. DDG 1000 also has moved away from custom 
built middleware to mainstream COTS middleware without sacrificing 
system performance. The commercial off-the-shelf equipment will be 
delivered with any Intellectual Property (IP) rights that the 
commercial vendors maintain in order to protect their company private 
investments. This is common across most commercial equipment vendors. 
The DDG 1000 will only use well defined and published Open Architecture 
interfaces which eliminate the potential for vendor lock into a 
specific set of COTS equipment. This approach is inline with the Navy 
concept of Acoustic Rapid COTS Insertion (ARCI).

    [Clerk's note.--End of questions submitted by Mr. Murtha.]


 
                           W I T N E S S E S 

                              ----------                              
                                                                   Page
Amos, Lieutenant General J. F....................................    83
Campbell, Lieutenant General Kevin...............................   189
Castellaw, Lieutenant General J. G...............................    83
England, Gordon..................................................     1
Francis, Paul....................................................   189
Jonas, T. W......................................................     1
McCullough, Vice Admiral B. J....................................   291
Mullen, Admiral M. G.............................................     1
Obering, Lieutenant General Henry................................   189
Rochelle, Lieutenant General M. D................................   139
Speakes, Lieutenant General S. M.................................   139
Stiller, Allison.................................................   291
Thurman, Lieutenant General J. D.................................   139

                                  <all>


</pre></body></html>
